<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







              DEPARTMENT OF DEFENSE APPROPRIATIONS 
                             FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION
                                 _________

                         SUBCOMMITTEE ON DEFENSE

              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

  KAY GRANGER, Texas                PETER J. VISCLOSKY, Indiana
  ANDER CRENSHAW, Florida           BETTY McCOLLUM, Minnesota
  KEN CALVERT, California           STEVE ISRAEL, New York
  TOM COLE, Oklahoma                TIM RYAN, Ohio
  STEVE WOMACK, Arkansas            C.A. DUTCH RUPPERSBERGER, Maryland
  ROBERT B. ADERHOLT, Alabama       MARCY KAPTUR, Ohio
  JOHN R. CARTER, Texas             
  MARIO DIAZ-BALART, Florida         
  TOM GRAVES, Georgia                

    NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

           Rob Blair, Walter Hearne, Brooke Boyer, B G Wright,
        Adrienne Ramsay, Megan Milam, Collin Lee, Cornell Teague,
                    Allison Deters, and Matthew Bower
                             Staff Assistants

                   Sherry L. Young, Administrative Aide

                                 __________

                                  PART 1

                                                                   Page
FY 2017 Department of Defense Budget Overview ..................      1
FY 2017 U.S. Navy / Marine Corps Budget Overview................    113
FY 2017 U.S. Air Force Budget Overview .........................    235
FY 2017 U.S. Army Budget Overview...............................    307
FY 2017 National Guard and Reserve..............................    373
                                        
                                  __________

          Printed for the use of the Committee on Appropriations


                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-432                         WASHINGTON : 2016 










  
  
  
  
  

                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey          NITA M. LOWEY, New York  
  ROBERT B. ADERHOLT, Alabama                  MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                           PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                    JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                  ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                      DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                        LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                      SAM FARR, California
  TOM COLE, Oklahoma                           CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                   SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                BARBARA LEE, California
  TOM GRAVES, Georgia                          MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                          BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                       STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                   TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                    C.A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee            DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington            HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                         CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                 MIKE QUIGLEY, Illinois          
  ANDY HARRIS, Maryland                        DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

  
                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2017

                              ----------                              

                                       Thursday, February 25, 2016.

         FISCAL YEAR 2017 DEPARTMENT OF DEFENSE BUDGET OVERVIEW

                               WITNESSES

HON. ASHTON B. CARTER, SECRETARY, DEPARTMENT OF DEFENSE
GENERAL JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN, JOINT CHIEFS OF STAFF
HON. MIKE McCORD, UNDER SECRETARY, DEPARTMENT OF DEFENSE

               Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The committee will come to 
order. I thank all the members for being here, especially the 
big chairman, Mr. Rogers.
    I am pleased to welcome the 25th Secretary of Defense, 
Ashton Carter. This is Dr. Carter's second appearance before 
the subcommittee as Secretary, although we know him well from 
his many years of service to our Nation.
    We also welcome General Joe Dunford, a great marine, 
Chairman of the Joint Chiefs of Staff, and Dr. Michael McCord, 
Comptroller of the Department.
    Mr. Secretary, Prime Minister Winston Churchill observed 70 
years ago, and I quote: ``From what I have seen of our Russian 
friends and allies during the war, I am convinced that there is 
nothing they admire so much as strength, and there is nothing 
for which they have less respect than for weakness, especially 
military weakness.''
    Churchill was referring to the post-war leadership in 
Moscow, but the same can be said today. I fear that, as I 
examine this administration's budget request, they have to be 
breathing a sigh of relief. One year ago, in this same room, we 
were told by the Chairman of the Joint Chiefs that last year's 
budget request represented the lower ragged edge of resources 
the Department needs to carry out its strategy. The budget 
request before us today is almost exactly the same amount as 
last year's, and yet this administration now claims to provide 
robust funding for your Department.
    Mr. Secretary, lower ragged edge or robust funding? The 
security environment used by the Department to justify a 
shrinking Army and Marine Corps, a smaller Navy, an older Air 
Force does not exist. In fact, we face more serious threats, 
from more sources, than at any time since World War II. Russia 
occupies Crimea and continues to menace Ukraine, its neighbors, 
and our NATO partners. China is building whole islands in the 
South China Sea and militarizing them, yet this administration 
suggests cutting an already inadequate shipbuilding budget. 
Many of our gains in Afghanistan have been reversed, while the 
Taliban and now ISIS await our departure, and Iraq is barely 
better.
    Iran's global terrorist network just received a massive 
transfusion of money and continues to challenge our interests 
and our allies in Iraq, Syria, Yemen, and across the Middle 
East. Syria is a living hell on earth, devolving even further 
by the day with Russian and Iranian sponsorship, and we seem to 
be deconflicting our operations with both countries, hardly our 
allies.
    ISIS has a major franchise in Libya, its base of operations 
in North Africa, 160 miles of Mediterranean coastline. 
Terrorism is like a cancer across the world, and this budget 
does not do enough to hold its spread.
    Moreover, many of us on this committee are concerned that 
this budget mortgages future military capabilities to pay for 
today's urgent requirements.
    Mr. Secretary, our Commander in Chief proclaimed in his 
State of the Union address we spend more on our military than 
the next eight nations combined, as if dollars and cents are 
the only yardstick by which we measure the effectiveness of our 
Armed Forces and the strength of our global leadership. Our 
adversaries measure our strength based on our military 
capability and our national will, and currently those 
adversaries and some of our allies question both. Members of 
our subcommittee hear this repeatedly from foreign leaders as 
we travel abroad and we meet them here at home, as they watch 
our foes continually test us without consequence.
    Mr. Secretary, I also want to bring to your attention a 
concern that many share about the activities of the National 
Security Council. It has come to our attention repeatedly that 
the rules of engagement for our Special Forces and rules of 
engagement for our conventional forces are being micromanaged 
right out of the White House. I am sure you would agree that 
battlefield decisions should be left to military professionals.
    In closing, I can assure you that a bipartisan majority in 
Congress stands ready to provide our Commander in Chief with 
the resources that our military needs to meet challenges from 
Russia and China, and defeat the Islamic State, Al Qaeda, and 
other lethal terrorist groups, with or without the strategy 
that the law requires. In fact, the 2016 NDAA required the 
administration to provide a strategy to counter violent 
extremists in Syria by last week. We are still waiting.
    Now, having said that, I would like to turn the microphone 
over to my ranking member, Mr. Visclosky. Thank you.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Mr. Chairman. I appreciate your 
holding the hearing today.
    And Secretary Carter, General Dunford, and Secretary 
McCord, welcome to the hearing. I thank each of you for your 
commitment to service.
    Mr. Chairman, I wish to express my continued concern 
regarding the self-inflicted uncertainty created by the Budget 
Control Act of 2011. Admittedly, I used much of my time at the 
fiscal year 2016 hearing for the same purpose, and although 
much has changed in the last twelve months, including the 
enactment of the Bipartisan Budget Act of 2015 that mitigated 
the BCA caps for two years, it is hard to argue that the 
Department of Defense or any Federal agency is now appreciably 
better positioned to plan or budget for the future.
    It pains me to think about how much less efficient the 
Department of Defense has been over the last six fiscal years, 
as it has been forced to carry out our national defense 
strategy in an increasingly unstable security environment that 
you have described, while navigating the unpredictability of 
sequestration, of government shutdown, vacillating budget caps, 
continuing resolutions, and appropriations, through no fault of 
the full committee, that arrive well into the next fiscal year. 
Even the least clairvoyant among us can foresee the problems 
looming in fiscal year 2018.
    The BCA was sold as a deficit-reduction tool, yet the 
Congressional Budget Office projected that from 2016 to 2025, 
the cumulative deficit will be $1.5 trillion more than the 
office projected in August of 2015.
    The prolonged inability of Congress and the administration 
to find a consensus needed to replace it and its faux austerity 
policies that truly address long-term drivers of our budget 
deficits, growth in mandatory spending, and the lack of revenue 
is an abject failure.
    On a positive note, despite the ongoing efforts in Congress 
to renegotiate the agreement of fiscal year 2017, I am 
guardedly optimistic that the BBA will provide some 
predictability in this year's appropriations process. We have a 
number, and I hope that this subcommittee under the chairman's 
leadership will be allowed to make the difficult and deliberate 
decisions needed to prioritize the resources available to 
strengthen our defense and minimize the risk of our Nation and 
those in uniform.
    Secretary Carter, you have stated that this budget is a 
major inflection point for the Department and takes the long 
view. Further, you have indicated this request favors 
innovation and readiness posture over force structure. I was 
pleased to hear both those sentiments. But based on the 
outcomes of the last handful of budget requests, I am 
skeptical, again, of any strategy, plan, or program that is 
reliant on relief from the BCA caps in future years. I 
certainly understand the motivation behind DOD's decision to 
assume more funding in the outyears. However, I am worried that 
that assumption may not come to fruition.
    I assure you that I am committed to working with my 
colleagues to find a lasting solution to our fiscal situation, 
which, again, necessitates addressing both revenue and 
mandatory spending.
    In conclusion, I would simply also observe that I 
appreciate that the much-anticipated plan for the closing of 
Guantanamo Bay detention facility was transmitted to Congress 
earlier this week. I hope that the plan is considered on its 
merit rather than to be reflexively rejected.
    Mr. Chairman, again, thank you very much for holding the 
hearing.
    Gentlemen, I look forward to your testimony.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Chairman Rogers.

                   Opening Remarks of Chairman Rogers

    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, General Dunford, Secretary McCord, thank you 
for being here. Thank you, more importantly, for your years of 
service to your country. We appreciate that very much, and we 
thank you for being here this morning for what is the first 
hearing of this subcommittee for fiscal 2017. We have 21 
hearings across the committee this week. You are one of which, 
but we think very, very important one of which.
    For the fifth year in a row this subcommittee has been able 
to pass a defense appropriations bill out of the House. I am 
confident we can do the same this year. We know our troops and 
their families are depending on it. Our only hope is that when 
we pass a bill through this committee and on the floor of the 
House and send it to the Senate, that they act, which they have 
refused to do for the last several years. Consequently, we get 
into an omnibus negotiation by necessity to keep from closing 
down the government. But it is time the Senate acted on a bill. 
It is amazing.
    Under your leadership, the men and women who serve in the 
U.S. military answer the call time and again to leave their 
loved ones, put themselves in harm's way, execute challenging 
missions abroad. We are mindful that our responsibility to 
support our allies in need and respond to threats from our 
enemies imposes significant demands on our troops. This 
committee appreciates their dedication and willingness to 
serve, and your leadership, amidst the unprecedented challenges 
facing our Nation this day.
    The global security environment continues to grow 
increasingly complex and unpredictable, and the mounting 
threats we discussed this time last year are still with us, and 
in some cases have increased. Two years after the Russian 
annexation of Crimea, Russian aggression remains a threat to 
sovereign states in the region and a considerable influence, of 
course, across the Middle East.
    The Islamic State maintains its hold on population centers, 
where it terrorizes innocent lives and has created an unlivable 
situation for countless Syrians, Iraqis, now even Libyans. We 
have seen this conflict force the migration of millions of 
people, precipitating an unprecedented humanitarian crisis 
across the Middle East and Europe.
    Meanwhile, Iran and North Korea continue to rattle their 
sabers, while China exerts military strength in the Pacific.
    Today, we will discuss with you many of these threats and 
how your budget request addresses our ability to defeat them. 
However, we continue to hear rhetoric from the administration 
that appears to minimize or just flat out misunderstand the 
reality and the magnitude of the threat that we face from 
violent extremism. Just this week, the President announced his 
intention to close the Guantanamo Bay detention facility. At a 
time when the threat of terrorist activity at home and abroad 
shows no signs of abating, the President is advocating for the 
transfer of known terrorists out of United States custody to 
countries where we cannot control their ability to return to 
the battlefield. For detainees that he believes pose a 
continuing threat, he asks the American people to allow them to 
be detained on American soil, in their own backyard.
    As the President made the case that these prisoners will be 
subject to strong security measures while in the custody of 
other nations, a former Guantanamo prisoner was arrested in 
North Africa on terror charges. The Director of National 
Intelligence tells us that 30 percent of the prisoners released 
from the facility have reengaged in terrorism, yet the 
President continues to argue that releasing these prisoners 
will make us safer. That is twisted logic.
    Once again, I am perplexed by the administration's decision 
to continue to prioritize this misguided campaign promise 
despite clear direction from this Congress, not to mention the 
implications for national security.
    With Active Duty end strength set to decline further until 
2017, the conversation we will have today about responding to 
increasingly complex threats across multiple regions, against 
enemies with very different missions and capacities, becomes an 
even more complicated matter.
    The challenges you face are well documented. The demands 
they place on our troops and our military leadership are great. 
I look forward to discussing how this committee can best equip 
you to lead in these uncertain times and respond to threats to 
American security around the world.
    This committee remains confident in your ability to lead 
and protect our troops and to ensure the safety of Americans at 
home and abroad. You have our full support, and we deeply 
appreciate your service and your commitment to our Nation and 
our service men and women across the world.
    Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    And, indeed, you have our full support, and the remarkable 
men and women you represent, whether it is civilians or it is 
military, are the best of America. And we are so proud of all 
volunteers doing some remarkable things.
    Mr. Secretary, the floor is yours. Thank you for being with 
us.
    Secretary Carter. Thank you very much----
    Mr. Frelinghuysen. Your statement will be put in the record 
and so forth.

                     Statement of Secretary Carter

    Secretary Carter. Thank you, Chairman.
    Chairman, thank you.
    Mr. Visclosky, thank you.
    And all of you, thanks for what you said about the troops. 
That means it all. That is what I wake up for every morning. I 
am sure that is true of the chairman as well. They are the best 
of America, and we are very proud to be associated with them, 
and I am very pleased to hear you say the same things. It is 
good for them to hear that too. So thank you. Thank you all 
very much.
    And thanks for hosting me today, and in general for your 
steadfast support to the men and women of the Department of 
Defense, military and civilian alike, who serve and defend our 
country all over the world.
    I am pleased to be here with Chairman Dunford to discuss 
President Obama's 2017 defense budget, which marks, as was 
indicated, a major inflection point for this Department. I am 
also pleased to be discussing the budget first before this 
committee, which has been a leader in securing the resources 
the Department needs.
    In this budget, we are taking the long view. We have to, 
because even as we fight today's fights, we must also be 
prepared for what might come 10, 20, 30 years down the road.
    Last fall's budget deal gave us much needed and much 
appreciated stability. I want to thank you, all of you, your 
colleagues, for coming together to pass that agreement.
    The Bipartisan Budget Act set the size of our budget, which 
is why our budget submission and my testimony focused on its 
shape, changing that shape in fundamental but carefully 
considered ways to adjust to a new strategic era and seize 
opportunities for the future.
    Let me describe the strategic assessment that drove our 
budget decisions. First of all, it is evident that America is 
still today the world's foremost leader, partner, and 
underwriter of stability and security in every region across 
the globe, as we have been since the end of World War II. I was 
in Brussels the week before last meeting with NATO defense 
ministers, as well as defense ministers of the counter-ISIL 
military coalition, and I can tell you they all appreciate the 
leadership from the Department of Defense of America.
    As we continue to fulfill this enduring role, it is also 
evident that we are entering a new strategic era. Today's 
security environment is dramatically different from the last 25 
years, requiring new ways of investing, new ways of operating.
    Five evolving strategic challenges--namely Russia, which 
has already been mentioned, appropriately so, China, North 
Korea, Iran, and terrorism, five--are now driving DOD's 
planning and budgeting as reflected in this budget.
    I want to focus first on our ongoing fight against 
terrorism and especially ISIL, which we must and will deal a 
lasting defeat, most immediately in its parent tumor in Iraq 
and Syria, but also where it is metastasizing elsewhere in the 
world. We are doing that in Africa. We are also doing it in 
Afghanistan, where we continue to stand with the Afghan 
Government and people to counter Al Qaeda and now ISIL, while 
at the same time, all the while, we protect our homeland.
    As we are accelerating our overall counter-ISIL campaign, 
we are backing it up with increased funding in 2017 in our 
request, requesting $7.5 billion, which is 50 percent more than 
last year.
    Just this week, following the progress we have made in Iraq 
by retaking Ramadi, we have also made operationally significant 
strides in our campaign to dismantle ISIL in Syria. There, 
capable and motivated local forces, supported by the U.S. and 
our global coalition, have reclaimed territory surrounding the 
eastern Syrian town of Shadadi, which is a critical ISIL base 
for command and control, logistics, training, and oil revenues.
    More importantly, by encircling and taking this town, we 
are seeking to sever the last major northern artery between 
Raqqa and Mosul, and ultimately dissect the parent tumor into 
two parts, one in Iraq and the other in Syria. This is just the 
most recent example of how we are effectively enabling and 
partnering with local forces to help deal ISIL a lasting 
defeat.
    Next, two of the other four challenges reflect a 
recognition of, a return to in some ways, great power 
competition. One challenge is in Europe, where we are taking a 
strong and balanced approach to deter Russian aggression. We 
haven't had to devote a significant portion of our defense 
investment to this possibility for a quarter century, but now 
we do.
    The other challenge is in the Asia Pacific, where China is 
rising, which is fine, but behaving aggressively, which is not. 
There, we are continuing our rebalance in terms of weight of 
effort to maintain the regional stability we have underwritten 
for the past 70 years, allowing so many nations to rise and 
prosper in this, the single most consequential region for 
America's future.
    Meanwhile, two other longstanding challenges pose threats 
in specific regions. North Korea is one. That is why our forces 
on the Korean Peninsula remain ready, as they say, to fight 
tonight.
    The other is Iran, because while the nuclear accord is a 
good deal for preventing Iran from getting a nuclear weapon, we 
must still deter Iranian aggression and counter Iran's malign 
influence against our friends and allies in the region, 
especially Israel, to whom we maintain an unwavering and 
unbreakable commitment.
    DOD must and will address all five of these challenges as 
part of its mission to defend our country. Doing so requires 
new investments on our part, new postures in some regions, and 
also some new and enhanced capabilities. For example, in 
confronting these five challenges, we know we will have to deal 
with them across all domains, and not just the usual air, land, 
and sea, but also particularly the areas of cyber, electronic 
warfare, and space, where our reliance on technology has given 
us great strengths and great opportunities, but also led to 
vulnerabilities that adversaries can seek to exploit.
    Key to our approach is being able to deter our most 
advanced competitors. We must have and be seen to have the 
ability to ensure that anyone who starts a conflict with us 
will regret doing so.
    To be clear, the U.S. military would fight very differently 
than we have in Iraq and Afghanistan or in the rest of the 
world's recent memory. We will and must be prepared for a high 
end enemy, what we call full spectrum. In our budget, our 
capabilities, our readiness, and our actions, we must 
demonstrate to potential foes that if they start a war, we have 
the capability to win, because a force meant to deter conflict 
must show that it can dominate a conflict.
    In this context, Russia and China are our most stressing 
competitors, as they have both developed and continue to 
advance military systems, including anti-access systems, that 
seek to threaten our advantages in specific areas. We saw it 
last week in the South China Sea. We see it in Crimea and Syria 
as well. In some cases, they are developing weapons and ways of 
war that seek to achieve their objectives rapidly, before they 
think we can respond.
    Now, we don't desire conflict with either country. And 
while I need to say that they pose some similar challenges 
militarily, they are very different nations, very different 
situations, and our preference is to work together with 
important nations. But we also cannot blind ourselves to their 
apparent goals and actions. Because of this, DOD has elevated 
their importance in our planning and our budgeting.
    In my written testimony, I have detailed how our budget 
makes critical investments to help us better address these five 
evolving challenges. We are strengthening our deterrence 
posture in Europe by investing $3.4 billion for our European 
Reassurance Initiative, quadruple what we requested last year. 
We are prioritizing training and readiness for our ground 
forces and reinvigorating the readiness and modernization of 
our fighter aircraft fleet. We are investing in innovative 
capabilities like swarming 3D-printed micro-drones, the Long 
Range Strike Bomber, and the arsenal plane, as well as advanced 
munitions, like the maritime strike Tomahawk, the long range 
antiship missile, and the newly antiship capable SM-6 missile, 
in which we are investing nearly $3 billion to maximize 
production over the next 5 years.
    We are emphasizing lethality in our Navy, with new weapons 
and high end ships, and by extending our commanding lead in 
undersea warfare, with new investments in unmanned undersea 
vehicles, for example, more submarines with the versatile 
Virginia Payload Module that triples their strike capacity from 
12 Tomahawks to 40 Tomahawks.
    And we are doing more in cyber, electronic warfare, and in 
space, investing in these three domains a combined total of $34 
billion in 2017 to, among other things, help build our Cyber 
Mission Force, develop next generation electronic jammers, and 
prepare for the possibility of a conflict that extends into 
space.
    In short, DOD will continue to ensure our dominance in all 
domains.
    As we do this, our budget also seizes opportunities for the 
future. That is a responsibility I have to my successors, to 
ensure the military and the Defense Department they inherit is 
just as strong, just as fine, if not more so, than the one I 
have the privilege of leading today.
    That is why we are making increased investments in science 
and technology and building new bridges to the amazing American 
innovative system to stay ahead of future threats. It is why we 
are also innovating operationally, making our contingency plans 
and operations more flexible and dynamic in every region.
    It is why we are building what I have called the force of 
the future, because as good as our technology is, it is nothing 
compared to our people. And in the future, we need to continue 
to recruit and retain the very best talent from future 
generations.
    That is also why we are opening all combat positions to 
women, as well as doing more to support military families, to 
improve retention, and also to expand our access to 100 percent 
of America's population for our All-Volunteer Force.
    And because we owe it to America's taxpayers to spend our 
defense dollars as wisely and responsibly as possible, we are 
also pushing for needed reforms across the DOD enterprise, from 
continuously improving acquisitions, to further reducing 
overhead, to proposing new changes to the Goldwater-Nichols Act 
that defines much of our institutional organization.
    Let me close on the broader shift reflected in this budget. 
We in the Defense Department don't have the luxury of just one 
opponent or the choice between current fights and future 
fights. We have to do both. That is what this budget is 
designed to do, and we need your help to succeed.
    I thank this committee again for overwhelmingly supporting 
the Bipartisan Budget Act that set the size of our budget. Our 
submission focuses on the budget shape. We hope you approve it.
    I know some may be looking at the difference between what 
we proposed last year and what we got in the budget deal, but I 
want to reiterate that we have mitigated that difference and 
this budget meets our needs. That budget deal was a good deal. 
It gave us stability, and for that, we remain grateful.
    Doing something to jeopardize that stability would concern 
me deeply. The greatest risk we face in the Department of 
Defense is losing that stability this year and having 
uncertainty and sequester and caps in future years. That is why 
going forward, the biggest concern to us strategically is 
Congress averting the return of sequestration next year so we 
can sustain all these critical investments over time.
    We have done this before, if we think back to historic 
defense investments that made our military more effective, not 
only technologies like GPS, the Internet, and satellite 
communications, but also in other areas, like especially the 
All-Volunteer Force. They were able to yield tremendous 
benefits because they garnered support across the aisle, across 
branches of government, and across multiple administrations.
    That same support is essential today to address the 
security challenges we face and to seize the opportunities 
within our grasp. As long as we work together to do so, I know 
our national security will be on the right path and America's 
military will continue to defend our country and help make a 
better world for generations to come.
    Thank you.
    [The written statement of Secretary Carter follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
        
    Mr. Frelinghuysen. Thank you, Mr. Secretary, for your 
remarks.
    Chairman Dunford, General Dunford, thank you for being with 
us, and thank you for your remarkable career.

                      Statement of General Dunford

    General Dunford. Thank you. Chairman Frelinghuysen, Ranking 
Member Visclosky, Chairman Rogers, distinguished members of the 
committee, good morning, and thank you for the opportunity to 
join Secretary Carter and Secretary McCord in appearing before 
you. I am honored to represent the extraordinary men and women 
of the Joint Force. Our soldiers, sailors, airmen, marines, and 
civil servants remain our single most important competitive 
advantage.
    Thanks to your support, the United States military is the 
most capable fighting force in the world. With your continued 
support, the Joint Force will continue to adapt, fight, and win 
in current operations, while simultaneously innovating and 
investing to meet future challenges.
    I don't believe we ought to ever send Americans into a fair 
fight. Rather, we must maintain a Joint Force that has the 
capability and credibility to assure our allies and partners, 
deter aggression, and overmatch any potential adversary. This 
requires us to continually improve our joint warfighting 
capabilities, restore full spectrum readiness, and develop the 
leaders who will serve as the foundation for the future.
    The United States is now confronted with challenges from 
both traditional state actors and nonstate actors. The 
Department has identified five strategic challenges, which 
Secretary Carter has already addressed.
    Russia, China, Iran, and North Korea continue to invest in 
military capabilities that reduce our competitive advantage. 
They are also advancing their interests through competition 
with a military dimension that falls short of traditional armed 
conflict and the threshold for a traditional military response. 
Examples include Russian action in the Ukraine, Chinese 
activities in the South China Sea, and Iran's malign activities 
across the Middle East.
    At the same time, nonstate actors, such as ISIL and Al 
Qaeda, pose a threat to the homeland, the American people, our 
partners, and our allies. Given the opportunity, such extremist 
groups would fundamentally change our way of life.
    As we contend with the Department's five strategic 
challenges, we recognize that successful execution of our 
defense strategy requires that we maintain credible nuclear and 
conventional capabilities. Our strategic nuclear deterrent 
remains effective, but it is aging and requires modernization. 
Therefore, we are prioritizing investments needed for a safe, 
secure, and effective nuclear deterrent. We are also making 
investments to maintain a competitive advantage in our 
conventional capabilities. And we must further capabilities in 
the vital and increasingly contested domains of cyber and 
space.
    As the Joint Force acts to mitigate and respond to 
challenges, we do so in the context of a fiscal environment 
that has hampered our ability to plan and allocate resources 
most effectively. Despite partial relief by Congress from 
sequester-level funding, the Department has absorbed $800 
billion in cuts and faces an additional $100 billion of 
sequestration-induced risk through fiscal year 2021. Absorbing 
significant cuts over the past 5 years has resulted in our 
underinvesting in critical capabilities, and unless we reverse 
sequestration, we will be unable to execute the current defense 
strategy.
    The fiscal year 2017 budget begins to address the most 
critical investments required to maintain our competitive 
advantage. To the extent possible, within the resources 
provided by the 2015 Bipartisan Budget Act, it addresses the 
Department's five challenges. It does so by balancing three 
major areas: investment in high end capabilities, the 
capability and capacity to meet current operational demands, 
and the need to rebuild readiness after an extended period of 
war.
    In the years ahead, we will need adequate funding levels 
and predictability to fully recover from over a decade of war 
and delayed modernization. A bow wave of procurement 
requirements in the future include the Ohio-class submarine 
replacement, continued cyber and space investments, and the 
Long Range Strike Bomber. It will also be several years before 
we fully restore full spectrum readiness across the services 
and replenish our stocks of critical precision munitions.
    In summary, I am satisfied that the fiscal year 2017 budget 
puts us on the right trajectory, but it will take your 
continued support to ensure the Joint Force has the depth, 
flexibility, readiness, and responsiveness that ensures any 
future fight is not fair.
    Once again, thank you for the opportunity to be before you 
this morning, and I look forward to your questions.
    [The written statement of General Dunford follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
  
                               GUANTANAMO

    Mr. Frelinghuysen. Thank you, General Dunford.
    Let me associate myself with the remarks of Chairman 
Rogers' concern about prisoners being released from Guantanamo 
that go back to the fight. I mean, that is disturbing. I think 
it makes me quite angry.
    In light of the President's intention to visit Cuba, there 
has been some speculation that there might be some announcement 
that would relate to the future of the Naval station at 
Guantanamo. Can you assure us that there are no plans for any 
change of our operations and historic role there?
    Secretary Carter. I know of no such plans. Our plan, in 
fact, is just the opposite, which if you are talking about the 
Guantanamo Bay Naval----
    Mr. Frelinghuysen. Yes, the Naval base. There has been some 
speculation that they might----
    Secretary Carter. This is not about--no. GTMO's a strategic 
location.
    Mr. Frelinghuysen. Absolutely. We have less assets in the 
region than we have ever had.
    Secretary Carter. Yeah. The detention thing is a separate 
subject. And just to agree with Chairman Rogers, the reason to 
have a conversation with the Congress about the future of the 
detention facility at Guantanamo Bay is precisely because there 
are people there who cannot be safely transferred to the 
custody of another country. That means they need to stay in 
detention. And so they have got to go somewhere. And if they 
are not going to be at Guantanamo Bay, they have to be 
somewhere in the United States.
    The proposal that the President made and that we helped him 
craft asks Congress, because doing so is forbidden by law now, 
to work with us to see if we can devise a detention facility in 
the United States precisely in recognition of the fact that we 
are not going to be able to let these people out.
    Mr. Frelinghuysen. Respectfully, my question had to do with 
the future of the Naval station.
    Secretary Carter. The Naval station----
    Mr. Frelinghuysen. There are no plans for----
    Secretary Carter. None.
    Mr. Frelinghuysen [continuing]. Some sort of an 
announcement that would change----
    Secretary Carter. No.
    Mr. Frelinghuysen [continuing]. Our historic role there?
    Secretary Carter. No.

                    OVERSEAS CONTINGENCY OPERATIONS

    Mr. Frelinghuysen. Let me focus a little bit on the Middle 
East. I think the committee is going to be taking a look at, 
and I know Mr. Visclosky and I worked very closely on what is 
called the overseas contingency operations account, which 
historically is aimed at the focus on the war on terrorism. We 
did a pretty good job of vetting in our last bill all aspects 
of that account.
    Can you review for the committee very briefly--I see at the 
top of the funding responsibility the issue of force 
protection. We still obviously have troops in the region. Can 
you review for the committee very briefly the issue of force 
protection, our continued, and it is, may I say, a rather 
expensive investment, in the Afghan Security Forces Fund, their 
capabilities? Even after all these years of supporting them, 
there are some questions as to how capable they are.
    And two areas that have been mired in some, I won't say 
controversy, speculation, Iraq train and equip, Syria train and 
equip.
    Can you briefly go through the list with our committee as 
to why these are your particular focuses? It is not that they 
aren't ours, but in reality, could you briefly go through that?
    Secretary Carter. Absolutely. And I will start out and then 
ask the Chairman also to elaborate on some of this.
    You are right, those are four ingredients of our OCO 
request. There are others, like the European Reassurance 
Initiative that I mentioned, which is about Russia.
    We very much appreciate your support for OCO, and we 
understand that--I know the Constitution, which is we propose 
and you decide on the budget, so every nickel that is in OCO is 
subject to the visibility and approval of this body, and that 
is perfectly appropriate, and we are used to that and very 
comfortable with that. And it is used for a variety of 
absolutely essential purposes. I will touch on a couple of 
them.
    Force protection is the highest priority that we have, both 
abroad and at home. Taking care of our people is incredibly 
important. So it remains a high priority. I will ask the 
Chairman to say something more about that, because he and I 
were just talking about that yesterday in some locations. He is 
also the expert on Afghanistan, having done an absolutely 
fantastic job of commanding there, but just so he doesn't have 
to sing his own praises.
    Mr. Frelinghuysen. Indeed he has.
    Secretary Carter. He really did. He really did. And as a 
consequence, despite all the interruption of a year, almost a 
year, eight months in the transition of the Afghan Government 
from Karzai to the National Unity Government of Ghani and 
Abdullah, despite the fact that--and I remember that when--when 
we started to build the Afghan Security Forces, you were 
dealing with recruits who couldn't read and write.
    The Afghan Security Forces' capability is growing. They 
have many of the capabilities, but not all the capabilities 
they need. That is why we stick with them. That is why our plan 
is to stick with them. And that is why in our budget, by the 
way, we request funding for the Afghan Security Forces for 
fiscal year 2017. And our plan is to continue to do that in the 
future. And all of the other NATO and other partners have also 
committed to doing that, supporting the Afghan Security Forces.
    Because the whole strategy, and the one that General 
Dunford executed so well, was to make the Afghan Security 
Forces capable of securing the country, stopping terrorism from 
once again arising on that territory and striking the United 
States, and also to give us a friend in a dangerous part of the 
world. And all of that is what we are pursuing in Afghanistan. 
That is why we want to stick with it.
    You mentioned also train and equip----
    Mr. Frelinghuysen. Well, to some extent part of what we are 
doing in Afghanistan is a perpetual, apparently, train and 
equip.
    So, General Dunford, and then I am going to go to Mr. 
Visclosky.
    General Dunford. Chairman, if I could start with 
Afghanistan, where you finished. To put it in some kind of 
perspective for the committee, when I arrived in Afghanistan in 
February of 2013, so about 3 years ago, we had over 100,000 
U.S. forces on the ground that were fundamentally responsible 
for security in Afghanistan. Today, we have 8,800 Americans on 
the ground. And in the interim period, the Afghan Security 
Forces have assumed responsibility for security in Afghanistan, 
they have conducted two elections, and gone through a very 
difficult and politically turbulent period.
    So, quite honestly, we have a lot of work to do, and 
particularly in the area of the aviation enterprise, special 
operations, intelligence, and so forth. But if you put in 
perspective where we have come from the last three years and 
you put in perspective the current investment versus where we 
were three years ago, but more importantly, if you put in 
perspective our national interests in Afghanistan, which are to 
maintain an effective counterterrorism platform and partner in 
that part of the world, from which we face a still significant 
threat, my assessment is that we are moving in the right 
direction, certainly not as quickly as we want to.
    Let me assure the committee on force protection, we have 
very specific standards. We work hard in the Department to do 
that. I think you know when Secretary Carter was the deputy and 
we moved forward on the MRAP program, that was evidence of the 
commitment that we have to our people. And today those 
standards and the lessons learned over the past ten years have 
been incorporated and, frankly, reflected in the investment 
that we make in taking care of our people.
    And very quickly on the Syria and Iraq----
    Mr. Frelinghuysen. Yeah. I mean, there has been, obviously, 
a lot in open sources about the lack of success in some of 
those areas. So maybe you can talk a little bit about that.
    General Dunford. Lack of success in force protection?
    Mr. Frelinghuysen. No, in train and equip.
    General Dunford. Oh, in train and equip.
    Mr. Frelinghuysen. We have got a lot of people on the 
payroll, we are training a lot of people.
    General Dunford. Chairman, over the last----
    Mr. Frelinghuysen. We want to make sure that those tax 
dollars are well spent.
    General Dunford. First of all, the endeavors in Iraq and 
Syria, relatively speaking, if you put it in perspective from 
some of the things we have done in the past, is still 
relatively new. We have trained over 15,000 in Iraq, and the 
evidence of their performance was recently demonstrated in 
Ramadi and is currently demonstrated in Anbar Province.
    And so where we were four months ago, I would tell you, 
four months ago we did not have the momentum in the campaign in 
Iraq. Today, I can tell you with authority that we do have the 
momentum and the Iraqi security forces have proven to be 
capable in the Anbar Province and are now organizing for 
operations up in the north.
    We have trained 2,500 Peshmerga. They also have been 
extraordinarily successful in cutting the lines of 
communication between Iraq and Syria, and they will also be 
very important as we conduct operations in Mosul.
    In Syria itself, we had a slow start, but right now, as 
Secretary Carter outlined, the partners that we have on the 
ground that are being supported by U.S. funding, the ones that 
just recently took Shadadi, are going down to now isolate soon 
the caliphate, the location of the caliphate in Raqqa. And, 
again, they have also been successful in cutting the lines of 
communication between Iraq and Syria.
    So from my perspective, a lot of work left to be done, but 
the enemy is under great pressure. We have significantly 
reduced their freedom of movement. We have begun to virtually 
and physically isolate them in their major areas of 
concentration, and we are doing that by, with, and through the 
Iraqi and Syrian partners that we have trained over the past 
year.
    So my assessment is that, again, much work to be done, but 
the trajectory is in the right direction.
    Mr. Frelinghuysen. Well, we will be watching those programs 
very carefully. And thank you for your assessment.
    Mr. Visclosky.

                            AUDIT READINESS

    Mr. Visclosky. Thank you, Mr. Chairman.
    Gentlemen, just for the record, I would continue to 
reiterate my concern about making sure we are on schedule for 
the Department to have auditable financial statements by 2017. 
Not orally here, but for the record, if you could respond to 
any major investments that still need to be made, and if so, 
any of those automated systems, whether or not they are fully 
funded in the fiscal year 2017 request.
    Secretary Carter. We will provide that.
    [The information follows:]

    The Department is committed to having the majority of its 
components under audit by the end of 2017. We currently have 
approximately 80 percent of the Department's total General Fund 
budgetary resources under audit, representing approximately 90 percent 
of dollars appropriated since Fiscal Year (FY) 2015. We still have 
plenty of work left to address findings from these audits, but this 
consistent and more rigorous audit regimen will result in stronger 
business processes that produce higher quality financial information 
for decision-making. As with most other large Federal agencies, we are 
confident that positive audit opinions will result over time.
    Substantial resources have been designated to support achieving 
auditable financial statements. In FY 2017, we project spending $629 
million on audit readiness management and oversight, validation of 
component and service provider audit readiness, and support for 
Independent Public Accountant financial statement audits. In addition, 
we project spending $71 million in FY 2017 for financial systems. We 
have assessed our environment and believe we have identified all major 
investments and resources, including deployment of automated systems, 
needed to support annual audits. Funding for these systems is included 
in the President's FY 2017 budget request. As remaining audit readiness 
activities are completed and audits continue, the Department will 
continue to refine resource requirements.

                        DEFENSE INDUSTRIAL BASE

    Mr. Visclosky. I appreciate that.
    Mr. Secretary, the issue I would want to address at the 
outset is the industrial base that I am very concerned about. I 
think all of you are as well. Are there any particular sectors, 
industries, components that the Department today has a problem 
with? Every time we get a waiver notice from the Department of 
acquisition, it brings this problem to mind, and I am very 
concerned about it.
    Follow-up is, what can be done? Is there something from a 
budgetary standpoint that is lacking that we can be helpful 
with?
    Secretary Carter. Well, thank you. And I share that concern 
and long have shared that concern because, second only to our 
people, it is the unparalleled quality of our equipment that 
makes us the finest fighting force the world has ever known. We 
have got to keep that going. It does depend upon a healthy 
industrial base.
    And two things, Mr. Visclosky, come to mind. I mean, first 
of all, the stability that you have provided that I spoke of 
early is simply having a knowledge of what our budget is going 
to be two years in a row. That is the kind of thing that allows 
our program managers to manage programs in a more stable basis 
so that the levels below the prime contractor, which depends so 
totally upon those contractors to make all the spare parts and 
so forth, stay in the game and don't decide they can't work 
with Defense anymore.
    In answer to your question, what is the single sector that 
I am most concerned about, one is certainly manufacturing. That 
is one of the reasons why we have started manufacturing 
institutes, funded manufacturing institutes several places 
around the country, these are public-private partnerships 
focused on manufacturing, because it is a problem in our 
country overall, is making sure that we maintain competitive 
advantage in manufacturing relative to other parts of the 
world. But it affects the defense industrial base very directly 
as well.
    And then finally, there are some products that we can't 
outsource to other countries because we can't fully trust them. 
And that is the reason behind such investments as the Trusted 
Foundry and so forth, to make sure that we have control over 
certain critical components.
    So it is a very broad--you know, we have, jeez, almost $200 
billion of investment in our industry every year, research, 
development, and acquisition. It is a very substantial part of 
the industrial economy and it is important that we manage it 
well so that the strength of America's manufacturing base stays 
strong and stays strong for us.
    Mr. Visclosky. Besides the predictability, which I wouldn't 
at all argue, are there any budgetary shortfalls? You mentioned 
the institutes. Is there anything we can do to be helpful to 
make sure we don't have any more degradation as far as the 
manufacturing capability?
    Secretary Carter. I think we have tried to put in our 
budget--but if I may, I will come back and try to highlight the 
things that we have done. It is very much on the minds, I know, 
of our undersecretary for acquisition, technology and 
logistics, Mr. Kendall. The manufacturing institutes come to 
mind, changes we have made in payment schedules on contracts. 
But the main thing is the stability of our overall programs.
    But I will come back to you with more specifics, because I 
think it is an excellent--not an excellent concern, there is no 
such thing as an excellent concern, but I certainly share your 
concern.
    [The information follows:]
  whether there are budgetary shortfalls impacting the health of the 
                            industrial base
    Yes. While I believe that we have reasonably balanced our 
investments focused on industrial base health, requirements in this 
area will nearly always exceed the availability of funds. Recent 
analysis identified a number of high-risk industrial base sectors that 
provide critical, defense-specific products, which impact our current 
and future technical dominance and power projection capabilities. The 
areas of highest risk involve cross-cuffing, cross-service capabilities 
that no single program investment can mitigate, such as sub-components 
shared across the industrial commons of missile, space platforms, and 
trusted or trustworthy micro-electronics embedded in multiple programs. 
More specifically, radiation hardened electronics, focal plane array 
sensors, solid rocket motor design, and critical energetic materials 
are areas of high risk. We are making some very small investments in 
these areas, but additional investments would further reduce the risk. 
Additionally, budget uncertainty jeopardizes the success of the Long 
Range Research and Development Plan and other initiatives to advance 
technical dominance while reducing incentives for industry to adopt 
growth- versus income-oriented strategies.
 is there anything congress can do to be helpful to make sure we don't 
have any more degradation as far as the manufacturing capability of the 
                            industrial base?
    I would ask for all members' continued strong support for the 
ongoing efforts, which focus on advancing technology innovation through 
two current investment strategies:
    First, support our existing resource requests to mitigate fragile 
and critical industrial base capabilities including radiation hardened 
electronics, focal plane array sensors, solid rocket motor design, and 
critical energetic materials, through the Defense Production Act Title 
III program, the Manufacturing Technology program, the Industrial Base 
Analysis and Sustainment program, the Small Business Innovation 
Research/Small Business Technology Transfer Program, and the 
congressionally established Rapid Innovation Fund.
    Second, continue supporting the Manufacturing Innovation Institutes 
(MIIs), which are part of the Federal Government's National Network for 
Manufacturing Innovation. MIIs consist of public-private partnerships 
focused on a particular technology area, such as additive 
manufacturing, integrated photonics, flexible hybrid electronics, 
digital manufacturing and design innovation, revolutionary fibers and 
textiles, and lightweight modem metals. The MIIs reduce barriers to 
rapid development and commercialization of advanced manufacturing 
processes, facilitate rapid prototyping, and promote workforce 
development in the field of manufacturing.
    Continued congressional support for all of these critical programs 
will help the Department to position the defense industrial base for 
modernization in the coming years.

    Mr. Visclosky. If you want to move on, go ahead.
    Mr. Frelinghuysen. Chairman Rogers, and then Mrs. Lowey has 
joined us.
    Chairman Rogers.

                                 CHINA

    Mr. Rogers. China. Developing, procuring aircraft carriers, 
submarines, amphibious assault capabilities, making territorial 
claims to shoals and reefs in the South and East China Seas, 
expanding them into islands of some size. By all accounts, 
China is positioning itself to exert more influence in the 
Pacific and trying to build itself into a maritime power. 
Meanwhile, they claim that they are being provoked by their 
neighbors and by the West, using it as a justification to 
aggressively pursue their own interests with regard to 
territorial disputes in the East and South China Seas.
    Mr. Secretary, what is your thinking now? Has your thought 
process evolved in light of these fairly recent developments on 
the importance China is placing on the development of a blue-
water naval force?
    Secretary Carter. Mr. Chairman, first of all, I agree with 
your assessment completely. And our assessment has changed over 
time, not because we have changed our assessment, but because 
the facts have changed. China is doing exactly as you say. 
There was a time when the Chinese military was largely a land-
based military, it was a military focused on defense of its own 
territory. Now it clearly has the aspiration to extend its sway 
in the Pacific.
    And the United States policy there is, as it has been for 
70 years, to remain the pivotal military power in the Asia 
Pacific. That is what our rebalance to the Asia Pacific is 
about, that is why we are making all the investments in high-
end Naval warfare, undersea warfare, new kinds of weapons, new 
aircraft, Joint Strike Fighter, Long Range Strike Bomber, and 
so forth, in recognition of that.
    With respect to the Chinese specifically and the South 
China Sea, the idea that we have provoked them into that. The 
reason that these activities are getting notice isn't because 
the United States is doing something new. We have been sailing 
in the South China Sea and will continue to sail wherever 
international law allows, for decades now. We are not doing 
anything new. The thing that is new is the Chinese--there are 
some other countries that do some of this, but nothing on the 
scale of China--exactly as you say, dredging and putting 
military equipment on.
    That is having two effects. It is being reacted to in two 
ways. First is by us in our investments, and that is why when 
we talk about this being an inflection point in our budget, 
that is part of it, looking to the future, including China.
    It is also having the effect of causing others in the 
region both to increase their own maritime defense activities 
and to align them with the United States, old allies like 
Japan, South Korea, Australia, the Philippines, and then new 
partners like Vietnam and India that are working with us 
increasingly.
    So the Chinese behavior is having the effect of self-
isolation, and it is also galvanizing others to take action 
against it. That is a change in the strategic aspect that China 
presents to the region. We are determined to do what the United 
States has done for 70 years, which is to keep a peaceful and 
stable environment.
    That is the environment in which the Asian miracle has 
occurred. It has been because of the counterweight of the 
United States to what would otherwise be a region that has no 
NATO, no security structure. We have provided that for 70 
years.

                                 TAIWAN

    Mr. Rogers. Do these actions of China recently, does that 
threaten our ability to live up to our treaty obligations to 
Taiwan?
    Secretary Carter. Well, no. Our treaty obligations to 
Taiwan are very strong. We are constantly adjusting them. 
Obviously, the more the threat grows from China, the more we 
have to adjust both our operational approach and our technical 
approach. That is one of the reasons why we are making these 
investments, is because of our commitment under the Taiwan 
Relations Act to the capabilities to defend Taiwan.
    But I think, just to follow what you said, Mr. Chairman, 
earlier, China's activities have expanded to beyond Taiwan, 
which has been with us now for several decades, and they are 
looking to the South China Sea, the East China Sea, and so 
forth. So it is not just Taiwan anymore, but it certainly 
includes Taiwan.
    Mr. Rogers. General Dunford, could you address this 
subject, the threat that might be posed by the recent changes 
in China's activities in regard to blue-water capability and/or 
aircraft or land-based?
    General Dunford. Chairman, I can. It is very clear to me 
that those capabilities that are being developed are intended 
to limit our ability to move into the Pacific or to operate 
freely within the Pacific, and we call that anti-access/area 
denial capability.
    So their developments in antiship capability, anti-aircraft 
capability, then, as you describe, the blue-water navy, are 
clearly intended to limit our ability. That is why in this 
particular budget we have focused on capability development 
that allows us to maintain a competitive advantage versus 
China. It is also why we are fielding the most modern 
capabilities in the Department to the Pacific first. Things 
like the F-35, the F-22, and so forth, and other capabilities 
are going to the Pacific first.
    So I absolutely share the concern that you have outlined, 
Chairman Rogers, and it is certainly something that for me in 
terms of joint capability development, it is a priority for us 
over the next five, seven, ten years, to ensure that the--you 
know, what Secretary Carter said is true, we are capable today 
of meeting our obligations in the Pacific. And there is no 
doubt in my mind that we have a competitive advantage over 
China today.
    It is equally clear to me that on the trajectory that China 
is on today, were we to not maintain an investment profile as 
outlined in the current budget, we would lose our competitive 
advantage over time and find ourselves unable to adequately 
advance our interests in the Pacific.
    Mr. Rogers. Some people say that what China is doing in the 
region, as we have talked about here, is more to impress and 
perhaps intimidate their neighbors than it is to confront us. 
What do you say to that, Mr. Secretary?
    Secretary Carter. Well, it is both, because it is 
definitely intended to intimidate or dominate the neighbors, 
but it is also partly clearly strategically directed at us, 
because it is we who have provided the security structure in 
that region.
    Now, you know, I am not one of these people who believes 
that conflict with China is inevitable. It is certainly not 
desirable. But it is we who have provided the environment of 
peace and stability there that has allowed China to develop 
freely and economically, and before them Japan, before them 
South Korea, before them Taiwan, before them Southeast Asia, 
now India and China. It is we who have provided that 
environment. Some Chinese understand that is actually a good 
thing. We are not out to keep China down. But we don't look for 
anybody to dominate the region and certainly not anybody to 
push the United States out.
    We are a Pacific power, we are there to stay. It is where 
half of humanity lives, half of the world's economy, important 
part of the American future. We are there to stay.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mrs. Lowey and then Ms. Granger.

                            BUDGET STABILITY

    Mrs. Lowey. Thank you, Mr. Chairman.
    And welcome and thank you for your service, Secretary 
Carter, General Dunford, and Under Secretary McCord.
    I know that there was some discussion before I arrived of 
the budget, but I would like to hear you say it again. What 
problems are created when Congress does not pass a spending 
bill by October 1? What does it do for your budget? And can you 
carry out the Department's mission within the amounts proposed 
in your fiscal year 2017 request?
    Secretary Carter. Thank you, Congresswoman.
    We can carry out the mission, as we have said, with the 
budget that we have proposed, which we proposed at the level 
prescribed by the bipartisan budget agreement. The stability 
provided by that agreement is very important to us.
    And to get to the first part of your question, when we have 
instability, what happens? Within the Department, we start to 
do things inefficiently, first of all, we begin to shorten the 
contract times, and so money is wasted, and we can't plan 
programs for the long run, there is program instability, which 
hurts the industrial base.
    For our people, it is very bad for morale, both military 
and civilian. The people say: Hey, what is going on here? There 
is gridlock in Washington, we don't have a budget, the 
government is going to close down or sequester.
    I don't think it is fair to our people. They look at their 
families, they are trying to plan their future, and they say: 
Is this an institution that I can plan a future with? We have 
an All-Volunteer Force. We have to have good people, and we 
need them to see a future with us.
    And then finally, I worry about what it looks like around 
the world, our friends and foes alike who say: Jeez, can't you 
guys get it together here and have a budget for the long run?
    So it is very deleterious just to have instability, and 
that is why I am so grateful to really you on this committee, 
among others, for coming together this year and putting 
together a bipartisan budget agreement. That is the basis on 
which we submitted our budget, and the stability provided to us 
is incredibly important.
    And, Chairman, you may want to add on stability.
    General Dunford. The one thing that I would say, 
Congresswoman, is, you know, as I look at the last several 
years, we have kind of lived year to year, and I would echo the 
Secretary's comments.
    I am confident that we can meet our obligations today. I am 
equally confident that the bow wave of procurement that I 
alluded to in my opening remarks and the modernization that has 
been deferred over the last few years is a bill to be paid in 
the future. And as confident as I am about being able to say 
that we can meet our requirements today, I am equally confident 
that were we to continue to do what we have been doing over the 
last few years, there is absolutely no way five or seven years 
from now we would have the same conversation about China that 
we just had with Chairman Rogers. It would be a fundamentally 
different conversation.
    So that is where the piece about predictability and 
stability comes in, is you have to have a very coherent long-
term view towards joint capability development. The living year 
to year, the uncertainty, the budgets that aren't complete, 
what that causes us to do, one, is be very inefficient with the 
taxpayers' dollars, because we make bad decisions in that kind 
of environment.
    But more importantly, our focus continues to be on the near 
term, and we have got to be able to do two things at one time. 
We have got to meet our current operational requirements, but 
we have got to do the innovation and investments necessary to 
maintain our competitive advantage in the future. And achieving 
that balance requires a much different fiscal environment than 
the one that we have been operating in now for some three or 
four years.
    But thanks for your question.

                             CYBERSECURITY

    Mrs. Lowey. Well, thank you. And I know, if it is up to 
Chairman Rogers and I, we will proceed with regular order.
    But talking about competition and workforce, I would like 
to ask a question on cybersecurity. First of all, if you could 
please describe the primary risks faced by the Department of 
Defense in the cybersecurity realm. And the budget indicates 
that measures are taken to increase the capabilities of the 
Cyber Mission Force initiated in fiscal year 2013. If you 
could, describe the primary elements, and how does the budget 
request support your efforts in cybersecurity?
    Secretary Carter. Thanks for that. I will start with that 
and then, Chairman, you add.
    Our highest priority--to get the first part of your 
question--our highest priority has to be defending our own 
networks, because our military networks are what stitches 
together the ingredients of our military and makes the whole 
greater than the sum of the parts. So all of our operations of 
ships, planes, tanks, people, troops, intelligence, and so 
forth, comes together in the network, and making sure those 
networks aren't penetrated or compromised is job one. We spend 
a lot of effort on that.
    We also recognize that cyber can be a tool that we can use 
against our enemies. So, for example, right now--and I can't go 
into details in this setting but can with you separately--
CYBERCOM is operating against ISIL, because these guys, you 
know, why should they be able to communicate? Why should they 
be using the Internet? These are people who are not part of the 
free, open culture that the Internet is supposed--this is evil 
and the Internet shouldn't be used for that purpose. We can do 
that under our authorities as part of our campaign against 
ISIL.
    And the last thing, another priority for us, is we do help. 
We don't have the lead here, because there is Homeland Security 
and law enforcement and so forth. But if there are other kinds 
of attacks on the homeland potentially, we would assist in the 
defense of our homeland in cyberspace, as we do in everything 
else.
    In terms of our investments, you are right, 133 Cyber 
Mission Force elements at CYBERCOM. That is just a piece of it, 
though, because the services all have cyber efforts, they are 
all tied up with the COCOMs, those cyber efforts are included 
in our operations plans. And we have an enormous investment in 
our IT systems, many tens of billions of dollars in our IT 
system, all of which is being modernized, put in the cloud so 
it can be better defended.
    So there is an enormous investment, and we have increased 
it in this budget in recognition of the growing importance of 
cyber and our need, as the Chairman just said, to focus on the 
future.
    Mr. Frelinghuysen. General, briefly, because I know Ms. 
Granger would like to have----
    General Dunford. Congresswoman, I will be very quick. 
First, with regard to the primary risk, and I would echo the 
Secretary, protecting our own warfighting capability is 
critical. But as much as you focus on the risk, every time we 
talk about risk in cyber, we ought to talk about opportunity as 
well, and we do have opportunities.
    And so to your second question, about investment, the 
investments that we are making are across the range of our 
primary missions, one, to defend our own network, to support 
the defense of our Nation, as well as take advantage of 
offensive capabilities, to take the fight to the enemy. And the 
Secretary alluded to what we are currently attempting to do 
against ISIL, which we, obviously, wouldn't talk details in 
this particular venue, but the investments we are making.
    The Secretary also talked about the Cyber Mission Force. So 
over the last few years, we did build those 133 teams. Our 
investments this year are focused on providing them with the 
tools and, frankly, the training facilities, which are unique 
in cyber world, but those are probably two of the other areas 
that I would highlight that we are trying to do, again, to 
enhance the effectiveness of the capabilities we have.
    We will grow capacity over time, but this year's budget is 
focused on enhancing the capability of the cyber force that we 
have been building over the last few years.
    Mrs. Lowey. Thank, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mrs. Lowey.
    Ms. Granger and then Mr. Israel.

                         FOREIGN MILITARY SALES

    Ms. Granger. Thank you, Mr. General Dunford, Mr. Secretary 
for all the attention you are giving to keeping us safe, and 
there is nothing more important.
    As we do that, we have partners that we are asking to play 
an increasing role in the fight against ISIS. My concern is the 
foreign military sales. The process is cumbersome and it is 
bogged down. For example, the congressional notification for 
the F-18s for Kuwait has been stalled in the executive branch 
since March of 2015.
    This is just one example of the many concerns we have been 
hearing. In fact, the delays are driving our partners to turn 
elsewhere, including Russia and China, for assistance. That is 
not a good situation for us. The relationships are critical to 
U.S. national security and they must be protected. Our current 
action and lack of action is risking our long-term strategic 
alliances.
    I know this is not just a DOD issue, but, Mr. Secretary, 
you play a significant role in the process. What are you doing 
to try to expedite the requests from our partners, and what 
changes are being made to fix this problem?
    Secretary Carter. Well, I align myself completely with what 
you said. Our exports, defense exports, are a twofer. They help 
our industrial base, which in turn helps us, because when 
others make investments in our defense industrial base, those 
are investments in the base upon which we depend. When they buy 
aircraft that we are also buying, they make them less expensive 
for us. So it is all good. And you know from the Joint Strike 
Fighter and other aircraft how important that is.
    And then the other thing is that it makes them stronger, 
and they are our friends. And we don't want to have to do 
everything ourselves, so we are trying to get other people to 
get in the game, not be free riders, help us fight the fights 
that need to be made, and they need the capability to do that.
    And then the last thing I would say is you are absolutely 
right, if we don't give it to them, somebody else will give it 
to them, and that somebody else won't be what we want to have 
in there.
    So for all those reasons, speeding up the approval process, 
you are right, it is too cumbersome, there are lots of people 
involved. It is something that I have been working on for a 
number of years, my predecessors did as well, and I talked to 
Secretary Kerry about and Secretary Pritzker as well. But this 
is an important, positive thing for American defense when we 
are able to arm our friends and allies so that we can help them 
help themselves.
    Chairman.
    General Dunford. Congresswoman, I would just echo that. I 
was in Kuwait on Monday, as a matter of fact, and met with the 
Minister of Defense and my counterpart, the Chief of Defense. 
From their perspective, great partner. Our presence in Kuwait 
has been critical to prosecute the current fight against ISIL. 
It has been critical for the last 2 decades-plus. And they are 
incredibly frustrated.
    And I agree with Secretary Carter, those are the kinds of 
countries that we should be keeping close. They are valuable 
allies both in the fight and from a U.S. posture perspective. 
And we should look for ways to expedite the delivery of 
equipment, because they have and they will go elsewhere.
    And we want to build interoperability, we want to build 
effective partnerships and allies, and one of the ways you do 
that is this commonality of equipment. And if they are going to 
buy Chinese UAVs or Chinese aircraft or missiles or those kinds 
of things, it makes it incredibly difficult for us then to put 
coalitions together in a circumstance like we find ourselves 
right now. And winning in the circumstance we are in right now, 
make no mistake about it, is going to require an effective 
coalition.
    So I think it is a foundational element of us actually 
advancing our national security interests, is to make sure we 
have that interoperability and commonality of equipment. And in 
order to incentivize people to deal with us, we have got to 
make it easier.
    Ms. Granger. We really do, and so anything that we can do 
from the Congress to help speed that up or make it smoother, 
please let us know, because we understand. I always go back to 
Egypt. And when they had the uprising in Egypt, you know, 
everything just shut down. There was no communication except 
military to military, because they were using our equipment and 
we trained their pilots. And so we kept that going and knew 
what was happening that way. And we really need to do 
everything we can to make it faster and smoother.
    Thank you both very much.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Mr. Israel, then Judge Carter.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Secretary, General, welcome.
    Before I ask my question, I want to, Mr. Secretary, commend 
you. I know you make many smart decisions. One of the smartest 
is the appointment of Steve Hedger as principal deputy 
assistant secretary. He began his career in my office as a 
legislative assistant for defense issues.
    Secretary Carter. Well, thank you for that, because I 
couldn't agree with you more. He is absolutely fantastic, and I 
rely on him completely and I am grateful for him.

                    PROFESSIONAL MILITARY EDUCATION

    Mr. Israel. And now we have embarrassed him thoroughly.
    Mr. Secretary, a good part of the debate in this committee 
and the debate on the budget revolves around the issue of 
military hardware, platforms, technology, systems. I want to 
ask about the software, and by that I mean how we educate our 
officers, our troops, the intellectual talent that we need.
    This is something I learned when I was on the HASC, and 
former Chairman Ike Skelton and I worked on professional 
military education. And I also learned it firsthand during a 
visit to Iraq when I was speaking with General Odierno and I 
asked him: What do you need? What kind of deficiencies do you 
have? And he went through a variety of issues, and then he 
said: You know what, Congressman, I think we could use some 
more cultural anthropologists. He said: You know, we need 
situational awareness, but situational awareness also includes 
an awareness of culture, an awareness of linguistics, you have 
got to know, when you are kicking in a door, who is behind the 
door.
    And so I would like you to comment, Mr. Secretary, and then 
I will have a question for General Dunford, I would like for 
you to comment on, are we doing enough to invest in that 
software? And are some of the challenges that we are just too 
busy to learn? Are the challenges that our budgets just don't 
allow us to make those investments? And what more can we do on 
those professional military education obligations that we have?
    Secretary Carter. Thank you, Congressman. While we are 
acknowledging people who have done a tremendous amount for our 
country, I would like to acknowledge you also for your service 
in this body and to the country and your loyalty to the 
Department of Defense. Thanks.
    You are on one of the subjects that the Chairman and, I 
think, feel most passionately about, it is a critical part of 
the force of the future, and that is professional military 
education or the continuing development of our people. We need 
to get the best, which is why recruiting is so important, but 
once we get them, we need to develop them in the course of 
their career, because the world changes, technology changes, 
the skills they need change. And in order to retain them, they 
need to feel continually like they are building their skill 
set, and that is crucial.
    And when you talk to young folks, and I do all the time, 
and say, ``What does it take to keep you? What would make you 
leave? What do you talk about when you go home and you sit 
around the dinner table and try to decide whether you are going 
to stay or not? What do you talk about?'' and there are lots of 
things they talk about, and we try to account for all of them, 
but a big one always is: Well, am I growing?
    And one of the things that is part of society today that 
wasn't so much in the past is companies recognize that, a lot 
of people recognize that their education didn't end when they 
were kids. You have to educate yourself your whole life, 
because you need to keep up, otherwise the world is going to 
pass you by. That is true everywhere in our economy, you see 
people trying to do that. But it is critical for our military, 
both to keep their skills sharp and to make them motivated to 
stay.
    And a concern I have and one of the things we are 
addressing in this budget, and it is not a lot of money, it is 
really attention, is this. Every time there is a little shave 
in the budget or turbulence--I was asked earlier about 
consequences of turbulence, where you go in and you grab money 
where you quickly can because all of a sudden you have to grab 
money, which is a bad way of managing yourself--when we have to 
do that kind of thing, one of the things you grab is 
professional military education funding, fellowships and so 
forth. That is pennywise and pound foolish, and it is an 
example of the near term killing the far term.
    So I think you are absolutely right. I like the word 
``software.'' And I will stop at that point and see if the 
Chairman wants to add anything.
    Mr. Israel. Actually, General, if you would elaborate on 
that in the time I have left. And may I also ask you to comment 
on something I know you have worked on, and that is the value 
of mindfulness in helping to shape sharper and better minds in 
the military.
    General Dunford. I will, Congressman. I will start with the 
mindfulness question.
    I became aware of mindfulness about 6 years ago when I was 
commanding out on the West Coast the 1st Marine Expeditionary 
Force, and we were looking for ways to enhance the resilience 
of our marines and sailors at the time. And I got a briefing 
from a Dr. Liz Stanley at the time, who made it clear to me 
that mindfulness will help us in terms of enhancing resiliency 
of the force, mitigating the consequences of things like post-
traumatic stress, but more importantly, enhancing the ability 
of people to deal with the challenges and focus on the 
challenges they confront at a particular time.
    So I think there is a lot to that, and we have continued to 
work that over the last few years, and I think there is a lot 
of promise to enhance the capabilities of the force with 
mindfulness training.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Judge Carter and then Mr. Ruppersberger.

                    EUROPEAN REASSURANCE INITIATIVE

    Mr. Carter. Thank you, Mr. Chairman.
    And welcome. We thank you for all you do for our Nation. 
You are an important part of keeping us safe, and I am proud to 
know.
    Secretary Carter, as you well know, only five of our NATO 
allies meet their obligations on defense spending, with one of 
them being Greece, who backed in the wrong way. A strong and 
stable Europe is, of course, a vital national security interest 
of ours, but even more importantly, of the European citizens.
    With the European Reassurance Initiative funding in fiscal 
year 2017 quadrupling, what concrete steps are you taking or 
can we take to force Europe to reassure themselves, and how can 
we better incentivize European countries to contribute more to 
their own safety?
    Could you take us through the decisionmaking that was 
involved in deciding to implement a rotational ABCT as opposed 
to a permanently stationed ABCT? Wouldn't an enduring unit 
encourage critical strategic partnership with allied nations' 
armed forces and provide a greater institutional knowledge and 
mission capability as compared with the rotational force?
    Secretary Carter. Thank you, Congressman. And you are 
right, the Europeans need to do more, in general. And I am now 
in a long string of Secretaries of Defense who have decried the 
decline in European defense spending. It is not uniform. There 
are countries that are increasing their levels. Particularly, I 
would just single out the United Kingdom as one. And, of 
course, our allies around the world, like Japan, Australia, and 
so forth, are all doing more, and so they are getting stronger. 
But in general, Europe is underinvested.
    And our European Reassurance Initiative, our plans there 
are to work with them to defend them. To do that, we need their 
participation and assistance and their own capabilities.
    ERI puts some equipment there permanently, but you are 
right, our approach to force, to increased force presence there 
is rotational presence, persistent rotational presence, rather 
than permanent presence. And you say, why? And the reason is 
two-fold. One is that we don't think it is practical for us to 
get support for increasing more overseas basing in Europe. The 
pressure on us has been in just the other direction, and we 
have been doing less in Europe; continuing to have a strong 
defense of Europe, but have fewer forces positioned in Europe.
    We think we can do the mission--we know we can do the 
mission rotationally in a better way in the following sense, 
and I will let the Chairman elaborate on this. But I know if 
you spoke to the Chief of Staff of the Army and the Acting 
Secretary of the Army about this, this is what they have told 
me. They actually prefer the persistent rotational presence, 
because it is better for readiness.
    These guys who go over there, and I have met with them, I 
have visited our guys in Europe, in Grafenwoehr and Estonia and 
so forth, and they say we are much more ready now as a 
consequence of our being here, we know the environment, we are 
at a high state of readiness. So it is good training for them 
to rotate. Then they go back home.
    If they were there all the time and the people back home 
never got to go to Europe, the readiness for Europe wouldn't be 
as high. So the Army believes that by rotating different units 
through Europe, you increase the proficiency and, therefore, 
the punch of the ERI.
    Let me ask the Chairman to elaborate.
    General Dunford. Congressman, I view rotational forces as a 
way to meet an enduring requirement as opposed to seeing them 
as separate. And I have spent the majority of my career in a 
service that used the rotational method to meet its 
requirements. So multiple tours in Okinawa, for example, where 
we meet the majority of our requirements.
    I couldn't agree more with the Secretary of the Army and 
the Chief of Staff of the Army. My experience is that using a 
rotational basis to put forces in Europe will actually ensure 
that they maintain readiness and it will give them a breadth of 
experience that they might not otherwise have were they just 
permanently in Europe.
    So I think, frankly, it is a good way to meet our 
requirements. And, again, I don't view it as either enduring or 
rotational. I view rotational forces as a way to meet an 
enduring commitment.
    Mr. Carter. Well, for a moment expanding on the European 
participation, how effective is European participation if their 
rules of engagement are strictly defensive, which is what we 
have experienced in some of the theaters when they participate? 
And you say you are still challenging them, but in reality, we 
have got to have people that fight.
    General Dunford. Congressman, I had the privilege of 
commanding, you know, all the NATO nations in the ISAF mission. 
We had 50 members of the coalition. And I will tell you, there 
are some exceptions. But that issue of caveats in rules of 
engagement, we overcame that in Afghanistan probably back in 
2011 and 2012. And we have some incredibly effective partners, 
and over time, they were able to accomplish the mission and 
operate within the same ROE that we do, and my expectation is 
that they will do that in the future.
    There are certainly alongside of us today, we don't have 
NATO in Iraq, for example, in Syria, but we have NATO nations 
there, and almost anywhere we are, we have either members of 
the NATO alliance or NATO itself. And I, frankly, think that we 
can work through those things, and we have in the past. It is a 
political issue, but once there is commitment and will to the 
mission, the forces are more than capable enough to be shoulder 
to shoulder with us and make an invaluable contribution, and I 
believe that as a commander.
    Mr. Frelinghuysen. Thank you, Judge Carter. It is a 
critical issue.
    Mr. Ruppersberger, then Mr. Crenshaw.

                             CYBER COMMAND

    Mr. Ruppersberger. Yes. First thing, Mr. Secretary, 
General, I think right now the job that you are doing, we are 
in a good position as far as protecting our country.
    With that said, we know a lot about cyber, we know it is 
one of the biggest threats that we face, we know that it 
affects our business, our communities, our combatant commands 
wherever we are, and we have got a lot of work to do there.
    In that regard, because of the fact that we need to deal 
and focus on cyber, one, I personally believe that we need to 
take Cyber Command and make it into a fully functional 
combatant command. And I would say this too, I happen to 
represent NSA in my district in Fort Meade in that area. Are 
you considering that? If you are, do you have any timeframe?
    And also, we need to focus on the budget issue.
    And then if I do have time, I want to follow up one 
question on what Judge Carter was saying about Russia.
    Secretary Carter. Thank you, Congressman.
    With respect to CYBERCOM, yes, we have considered and 
continue to consider various ways of improving our managerial 
approach and our command approach for cyber. CYBERCOM is a very 
effective organization. It is a growing organization, so we are 
going to have to see where it goes. And as you know, it is now 
a subunified command to STRATCOM. That is an arrangement that 
works now, but it is not necessarily optimal, which is why we 
are looking at it.
    We do have a reluctance about adding new headquarters 
staff, because one of the things that we are doing in this 
budget is cutting headquarters staff, and so we need to be 
careful about that. But whichever way that turns out, the 
command structure, CYBERCOM has an important future.
    And you mentioned NSA. It is important to me that CYBERCOM 
and NSA are in the same place, and the reason is very simple.
    Mr. Ruppersberger. And I agree with that too.
    Secretary Carter. Skilled cyber people, and this gets back 
to some of the earlier questions, they are hard to find. Cyber 
is partly a money issue for us, but it is not really a money 
issue, it is a people issue, and finding good people is 
critical. Having NSA next to CYBERCOM means that they can 
interchange talent and draw on one another. That is a huge 
strength for both of them.
    So the fact that Admiral Rogers wears both hats, Director 
of NSA and CYBERCOM, that is a critical advantage right now. 
There may come a time when we have enough people that we can do 
something different, but for now, I would not recommend that 
separation. But it is people, that is the long pull.

                                 RUSSIA

    Mr. Ruppersberger. If I have time, I do also want to get in 
a question about Russia. I was in Russia this November about 
the Syria issue, and then we then went to Estonia and Latvia. 
And there is a great concern, in talking with representatives 
from other countries in the European area, Poland and Romania, 
there is a great concern: Will the United States stand behind 
them if the aggression of Putin continues to go on, especially 
in those border states?
    They are concerned. I think the fact that we are going to 
put about 4,000 or 5,000 troops in that area will help them. 
But I think we have to let them know and let the world know and 
let Putin know we are the strongest military in the world, and 
we need people to know that.
    And I am wondering if there are any strategies that we 
might even consider. You don't want to escalate, but you also 
want to stand up and show that you are strong, and you need to 
get the morale of these countries. Putting troops on the 
border, if that is the case. I am not saying to do that, that 
is your call as far as the military. But I think we need to 
show that we are strong, that we are not going to tolerate the 
aggression of Russia, and especially with our allies that are 
right on the border.
    Secretary Carter. I will start first, then the Chairman.
    The reason why we are quadrupling the ERI is precisely for 
the reason you say: to signal the determination of the United 
States and NATO to defend NATO territory. We do that with 
activity sets, which are these equipment sets that move around, 
we do it with rotational presence, we do it with the permanent 
presence that we have there in Europe, we do it with exercises 
and so forth.
    And Russia should know that what they see there in Europe 
on a daily basis isn't what we would use to defend Europe. They 
would get the whole weight of the American military behind the 
defense of Europe. And we have plans to do that, that is what I 
was alluding to earlier, for the defense of our NATO territory 
in concert with them, and we would do it with the full weight 
of the United States, as has always been the case in the 
defense of Europe.
    It is going to be a different kind of thing than it was 
back in the days of the Fulda Gap. And I emphasize that. We 
call it the new playbook, because it is not just territorial, 
it is little green men, what we call hybrid warfare. I am sure 
you heard about that in your travels. It is the other kinds of 
things, the kinds of things you saw in Crimea and Ukraine.
    So it is a different kind of threat, but it is exactly what 
we have to plan for in order to show strength, but most 
importantly be strong in defense of our NATO allies.
    Mr. Frelinghuysen. Very briefly.
    General Dunford. Congressman, very quickly. The Secretary 
mentioned exercises, and you asked the question specifically 
about were we to posture forces on the border, would that make 
a difference.
    I would just say that what the European Reassurance 
Initiative does in terms of increasing exercises is two things. 
One is it helps us develop interoperability with our NATO 
partners. So that is important.
    But the exercises that General Breedlove designs are 
designed to send a clear and unmistakable message of our 
commitment to Europe as well, our commitment to Article 5 of 
the NATO alliance, and as importantly, a clear demonstration to 
Russia that if Russia faces NATO, they face the full weight of 
the military capability of 28 nations, the full economy of 28 
nations, and the full political will of 28 nations.
    And, quite frankly, if you put all that together, that is a 
pretty overwhelming challenge for the Russians. And our 
exercises are designed to make sure one part of that is clear, 
that we can bring the full weight of the military capability of 
28 nations to bear in the event of a contingency.
    Mr. Frelinghuysen. Okay. Thank you. Non-NATO ally support 
for Ukraine would be appreciated, I know, by the Ukrainians. 
They are still waiting.
    Mr. Crenshaw and then Ms. McCollum.

                          LITTORAL COMBAT SHIP

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you all for your service and service to our men 
and women in uniform.
    Secretary Carter, you pretty well laid out all the diverse 
threats that we face. I can't think of a time where we have 
faced any more on near-term, short-term, or long-term basis, 
and we are facing them at a time of shrinking budgets.
    And this subcommittee, I think, has a role to play. Some of 
us have served under different Presidents and different 
Secretaries of Defense, and I think we all bring a unique 
perspective.
    And I want to, Mr. Secretary, have a brief discussion with 
you about your decision to end the Littoral Combat Ship program 
at 40.
    If you look at that program, you can see that it was set up 
to be a 52-ship program. And the reason I say it is your 
decision is because there was a memo that you wrote to the 
Secretary of the Navy, it was reported in the press, and it 
talked about the fact that maybe some of the lethality wasn't 
there. It was almost like, I guess, where the report said that 
maybe the Navy spends too much money on ships and not enough 
money on some of the other platforms, like the E-2D Hawkeye or 
the P-8 or the F-18. And I happen to be a big supporter of all 
those programs. But I just am not sure it is correct to justify 
them comparing them to other programs.
    And when I read that memo and I talk to other members, 
senior members of the Department of Defense, it seems like 
there is this question of, well, maybe the Littoral Combat Ship 
is more of a presence ship, like a patrol boat or frigate, it 
is there to kind of show our presence, but maybe it doesn't 
have the kind of high-tech capabilities in this new world to 
really deal with China, deal with Russia, deal with Iran.
    And so I guess my concern is, that is one opinion. You read 
articles about how important the LCS can be, you talk to some 
of the folks who have been on them over in the Asia Pacific, 
and they would tell you, you almost need those kind of ships to 
defeat some of the folks over there.
    So I guess my question is, is if the Navy says we need 52, 
that was their estimate and they reiterated that after they did 
a year-long study that we actually asked them to do, and then 
your decision is they need 40, I guess the question becomes, 
how does that requirement change so quickly and will we get to 
see an analysis that went into your decision?
    In other words, do you really believe we need less Littoral 
Combat Ships or do you believe we need to spend more money in 
other areas? Bottom line, is that a decision based on long-term 
national security or is that a decision based on a short-term 
budget?
    Secretary Carter. It is a decision based on long-term 
security, and I will explain the decision. Let me just say 
something. The Littoral Combat Ship is a successful program, it 
is an excellent ship, and it will be much better than the mine-
countermeasure ships, the coastal patrol craft, and so forth, 
that it replaces. And these are critical capabilities.
    And in general in shipbuilding, this budget makes a huge 
investment in shipbuilding, new DDGs, new Virginia-class 
submarines, aircraft carriers, overhaul and maintenance of 
aircraft carriers, amphibious ships, the first Ohio-class 
replacement submarines. So there is an enormous amount in--oh, 
I should add also the added Virginia Payload Modules for the 
submarine program. So there is a lot that goes into 
shipbuilding.
    And our ships, the number of ships of the U.S. Navy is 
actually increasing. It is going to go to 308 from about 280 
today. So we are going to have a bigger Navy, not a smaller 
Navy. That is our plan and that is in the budget in front of 
you, a Navy that gets larger.
    But to the question of the Littoral Combat Ship, the Navy's 
warfighting analysis concluded 40 of them were enough, and, 
yes, we did want to apply resources elsewhere, to the lethality 
of our ships. That is critically important, that we not only 
have enough ships and more ships, which we are going to have, 
but that they are the very best.
    That is why we are investing in combat systems, that is why 
we are investing in all the new missiles and weapons that I 
talked about. We have a new lightweight torpedo, a new 
heavyweight torpedo program, various antiship missiles, 
including the new capability for the SM-6 missile, surface-to-
air missiles, all the stuff that makes our Navy the most 
lethal, in the face of China, Russia, Iran, others who are 
trying to have that capability.
    So there is some balancing that needs to be done between 
high-end and very important lower-end ships, like the Littoral 
Combat Ship. There is nothing wrong with--I just want to be 
clear--there is nothing wrong with the Littoral Combat Ship. We 
like it. Our plan is not to buy 52, but to buy 40. But that 
doesn't mean there is anything wrong with the program. It has 
been very successful and it is needed in those numbers.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Ms. McCollum and then Mr. Graves, the gentleman from 
Georgia.
    Ms. McCollum. Thank you, Mr. Chairman.
    Thank you, Gentlemen.
    Mr. Secretary and General Dunford, the 2017 funds that this 
committee appropriates for the defense budget will be available 
to support the policies and the programs of the next President, 
the next President the American people elect in November.
    A leading candidate for president is telling the American 
people and the world that torture works. He says he will use 
torture to help defeat ISIL, including things way beyond 
waterboarding. He says he will order our military to take out 
the families of Islamic terrorists. I presume that means 
directing the Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff to use men and women under your military 
command to intentionally kill innocent family members, 
including children, that might be suspected terrorists.
    I find these rants frightening and dangerous to our Nation.
    General Dunford, do you support allowing U.S. troops or the 
intelligence community to use torture to exact information from 
suspected terrorists? Does the use of torture advance the 
military or national interests of the United States?
    Secretary Carter. Congresswoman, before the Chairman 
answers your question, I really need to say something, and the 
question is a fair question. I want to say something about the 
framing of it that I believe in very strongly, however.
    Ms. McCollum. Please, sir.
    Secretary Carter. Which is, this is an election year. We 
will have a new President. I recognize that. I feel very 
strongly that our Department needs to stand apart from the 
electoral season. So I respectfully decline to answer any 
questions that arise from the political debate going on. I just 
don't think that is appropriate. And I want General Dunford 
especially, even more so than me, not to be involved in 
political debates.
    So I think if you address the general question of how we 
try to conduct ourselves as a military in the air in Syria--you 
were a commander in Afghanistan--that is fine, but with great 
respect, I just want to----
    Mr. Frelinghuysen. We respect your decision.

                            MILITARY ETHICS

    Ms. McCollum. Well, we had discussions on the political 
nature of Guantanamo and President Obama. Will you just make a 
blanket statement, then, as to the military's role of the use 
of torture? Because we have had a lot of hearings on this. This 
caused a lot of angst in this Congress. We went through one 
administration that used it and, as far as I know, we are 
working to stop and ban the use of torture, because it does not 
serve our national interests.
    General Dunford. Congresswoman, let me answer the question 
broadly without getting into what Secretary Carter highlighted.
    One of the things that makes me proud to wear this uniform 
is that we represent the values of the American people. And 
when our young men and women go to war, they go with our 
values. And I think our performance on the battlefield over the 
past decade-plus of war reflects that young men and women from 
this country bring their values with them. And when we find 
exceptions, you can see how aggressively we pursue addressing 
those exceptions.
    I guess what I would say in response to your question is we 
should never apologize for going to war with the values of the 
American people. That is what we have done historically, that 
is what we expect to do in the future, and, again, that is what 
makes me proud to wear this uniform.
    Ms. McCollum. Well, Mr. Chairman, I am assuming the values 
of the American people do not include torture. Thank you, Mr. 
Chairman.
    Mr. Frelinghuysen. I agree with you. I agree with the 
General's statement as well.
    Mr. Graves and then Ms. Kaptur. Thank you, both of you, for 
your--everybody, for their patience.

                        JSTARS RECAPITALIZATION

    Mr. Graves. Thank you, Mr. Secretary.
    I am very concerned with the timeline and the funding 
reduction included in this year's budget for the JSTARS recap, 
and wanted to discuss that for a few minutes.
    The timeline for IOC has gone from 2022 to 2023 to 2024, 
and as a result, the existing JSTARS fleet's life-cycle costs 
are just going to go through the roof. Every year the Air Force 
defers recapitalization they are missing out on $100 million or 
more in reduced operations and maintenance cost.
    Secondly, the current E-8 aircraft are reaching the end of 
their service life and they will require waivers and additional 
funds to maintain themselves. This will likely lead to a 
lengthy capabilities gap, depriving warfighters of the GMTI in 
battle management. And recently half the fleet was in depot 
maintenance. This all but ensures that there will be a huge 
capability gap in the 2020 timeframe before a replacement 
aircraft would even be ready right now.
    So now we are being told that there is need for more tech 
maturation. This is completely at odds with the plan that we 
have heard from the Air Force over the last four years. They 
have repeatedly said that the recap will involve mature 
technology and that the recap will be only an integration 
effort.
    Can you just help us understand and maybe explain why this 
year's budget includes additional delays which result in 
additional expenses and some gaps in capability?
    Secretary Carter. I can. I will describe the acquisition 
strategy.
    First of all, you are absolutely right, and the Air Force 
does have a continuing requirement for a Ground Moving Target 
Indicator, GMTI, radars of the kind JSTARS is. JSTARS is a 
fleet of sixteen 707-based aircraft now. They have been around 
for a long time. They have to be recapitalized, because we need 
that capability.
    And you don't need as big physically a radar anymore. 
Radars have gotten smaller. We flew a bunch of them, and 
General Dunford's forces flew them in Afghanistan, and we have 
flown them elsewhere.
    And so the Air Force is committed and our budget does lay 
in the funds for a JSTARS recap. They have not chosen--they 
want to do a competitive source selection for that, both for 
the radar and the integration with the airframe. So they 
haven't picked a winner of that yet. They have announced that 
competition for a JSTARS replacement and put in money, I think 
it is somewhere between $2 and $3 billion in this five-year 
defense plan to begin the recapitalization.
    So that is the acquisition strategy. We can get you more 
detail on that. But I think the thing I can say as Secretary of 
Defense is we are committed to that capability. We have to 
recapitalize the JSTARS, because as you note, it is an airframe 
now that is decades old and we just can't keep flying it. We 
need the capability.
    Mr. Graves. Thank you, Mr. Secretary. And you are 
absolutely right. It is a very old platform, but a very needed 
platform today. And my understanding in some of the briefings I 
have been in is that in not-too-distant time from now half of 
the fleet will be at its full life cycle, 100 percent-plus of 
its life cycle, and we still don't seem to be on a timeline 
that would fill that gap.
    And I think we have had tremendous support on this 
committee for this program and for advancing it and moving it 
as swiftly as possible because of our deep concern for our 
troops and the capabilities that they have in the field. So any 
additional support or hurriedness on this would be greatly 
appreciated.
    Mr. Frelinghuysen. Thank you, Mr. Graves.
    Ms. Kaptur and then Mr. Calvert.

                           RUSSIAN PROPAGANDA

    Ms. Kaptur. Thank you very much.
    Mr. Secretary, General Dunford, thank you for your service 
to our country. I will ask my questions quickly and you can use 
the time remaining to answer them, if you could, please. And 
the four topics will be Russian propaganda, ISIL's growth, the 
State Partnership Program, and survivor benefits.
    On Russian propaganda, I read, General Dunford, your 
statement in the testimony: ``The Russian military presents the 
greatest challenge to U.S. interests.'' I agree. I want to 
express my own deep concern about Russia's well-funded and 
organized propaganda war in Ukraine, the Baltics, Europe, and 
even here in the West. And I observe the West's approach to 
confront that force of hybrid warfare is fragmented and 
underfunded.
    Can you respond, potentially review what is being done 
across various departments, design a strategy to counter Russia 
in their efforts, including assigning a lead in the 
administration to this task, working with our allies?

                       STATE PARTNERSHIP PROGRAM

    Number two, on the State Partnership Program, I think it is 
one of the most effective tools in working with our European 
allies to meet the challenge we face in Europe. Ohio, for 
example, our Guard has a relationship ongoing with Hungary and 
Serbia, California with Ukraine, Illinois with Poland. What 
does the budget do to facilitate this growing capability that 
is essential, really, to carrying out our activities in that 
realm?
    Thirdly, describe the development and size of ISIL as a 
terrorist force and the motivation for what seems to be drawing 
additional adherents. And I would appreciate for the record 
what is DOD's view of victory in Syria.
    [The information follows:]

    DoD's view of victory in Syria is a peaceful and stabilizing 
political settlement, established and effective governance, and the 
complete defeat of ISIL to include the denial of Syria as a safe haven 
to train and operate from.

                           SURVIVOR BENEFITS

    Ms. Kaptur. And finally, on the matter of survivor 
benefits, I was recently contacted by a veteran constituent 
with three children who is an Afghanistan veteran herself at 
the E7 level and has PTS, she is a Gold Star wife due to the 
death of her husband in Iraq in 2004. Under current law, a 
required offset in payments between her dependency and 
indemnity compensation and her survivor benefit plan annuities 
prohibits her from receiving the full amount of both. For the 
record, let me also state five percent of military widows 
remarry, 95 percent of widowers do.
    For women with children, it just seems to me there ought to 
be something going on at DOD that would help those who have so 
nobly served our Nation. So I wanted to put that on the record. 
And if you can't fully answer it here, I appreciate it in your 
written reply.
    [The information follows:]

    The Department has consistently opposed proposals to eliminate the 
offset between Survivor Benefit Plan (SBP) annuities and Dependency and 
Indemnity Compensation (DIC) at government expense for the following 
reasons:
          <bullet> Duplication of benefits: Both entitlements are paid 
        by separate departments for the purpose of providing a 
        continuing annuity to the survivors of military members or 
        former members. Both benefits are subsidized by the federal 
        government.
          <bullet> Death on active duty enhancement: The SBP annuity of 
        a surviving spouse whose sponsor dies on active duty may be 
        assigned to a child or children, permitting the spouse to 
        receive both SBP and DIC without offset during a child's 
        dependent schooling years, additionally these survivors are 
        entitled to a social security annuity for survivors.
          <bullet> Complementary programs: DIC is a flat $1,254 per 
        month, plus $311 for each dependent child (2016). SBP is 55 
        percent of an elected base amount not to exceed retired pay. 
        The existing entitlement, with offset, ensures that survivors 
        receive the higher value. This sets DIC as a floor for more 
        junior members while allowing more senior members the potential 
        of a larger SBP amount with all the benefits from the tax free 
        aspect of DIC.
          <bullet> Equity: Allowing concurrent receipt of SBP and DIC 
        without offset would create a group of survivors receiving two 
        government-subsidized survivor annuities. Survivors of most 
        military retirees and survivors of veterans who did not serve 
        to retirement would receive only one.
          <bullet> High cost: Eliminating the SBP offset for all 
        survivors entitled to DIC would cost the Military Retirement 
        Fund more than $7 billion over 10 years.

    Ms. Kaptur. So first on the Russian propaganda issue.
    Secretary Carter. Thank you very much, Congresswoman. And I 
will start on the Russian propaganda thing.
    It is related to hybrid warfare. Russia has bought media in 
the West, no question about it, you can turn it on in your own 
living room, and sometimes that contains what I have called the 
big lie. Our principal response to that as a country and as the 
West is the truth, but we have to watch the effect of that, and 
the State Department does that, the intelligence community does 
that, and others.
    But for our part, you asked us, it is related to hybrid 
warfare. And earlier we were discussing the European 
Reassurance Initiative and its parts, and we were talking about 
territorial defense, which is important. But another critical 
part of the ERI is hardening the states of Europe to 
essentially subversion, which is hybrid warfare shades into 
subversion, hardening them by helping them to defend themselves 
from cyber manipulation and from other kinds of insidious 
influences that we saw precede the Russian actions in Crimea 
and Ukraine.
    So we are trying to learn from that. That is exactly what 
hybrid warfare means. That is why hybrid warfare is part of the 
new playbook, as I call it, for NATO. It is not like your NATO 
was long ago, in the Fulda Gap, which was a more conventional 
kind of conflict. We have to expect a more unconventional kind 
of conflict, and that is exactly what the Chairman and I and 
General Breedlove think about and plan for when it comes to 
Europe.
    I will stop there except just, one, if I may, put in a plug 
for the State Partnership Program with you. We get huge value 
out of these State Partnership Programs.
    Ms. Kaptur. Huge. Huge.
    Secretary Carter. And we fund them. And their people are 
very enthusiastic. The countries tell me all the time how much 
they love the State that is their partner. It is a great way of 
tying America to others and complementing what the Defense 
Department does institutionally. They are great programs and I 
appreciate you support for them.
    Ms. Kaptur. I hope, Mr. Secretary, with that endorsement, 
that you will find ways to broaden it, to fully utilize it, 
particularly in those places which are so much at risk right 
now.
    And on the propaganda front, I really hope in your position 
you can lead an administration effort to be a little more 
coordinated, not just DOD, but we need a strategy to totally 
combat the propaganda that is flooding nations like Ukraine. It 
is not in our interest, it is not in liberty's interest to have 
this continue without an equal response, and the West's 
response is very anemic compared to what is coming out of the 
Russian.
    Mr. Frelinghuysen. Let me commend Ms. Kaptur for her 
persistence on this issue. And while you are aiming it to 
Russian propaganda, we might come up with a game plan for ISIS 
and the Islamic State as well.
    Mr. Calvert, and Mr. Ryan after.

                                 CHINA

    Mr. Calvert. Thank you, Mr. Chairman.
    Secretary Carter, General Dunford, Mr. McCord, thank you 
for being here, thank you for your service to our country. We 
certainly appreciate it.
    I want to expand on Chairman Rogers' questions regarding 
China. And, obviously, China's been closing the technology gap 
between our countries. Its military until recent history, as 
you mentioned, historically was focused internally with their 
primary mission to protect the Communist Party and the existing 
government within their country. Until recent history, they 
have been interested in projecting military power just in their 
own region.
    I would argue that we win wars not just because we are just 
the best trained and most proficient, because we are very good 
at large-scale strategic operational and tactical logistics, 
supply, maintenance procedures, and practices, we are good at 
getting our people and our equipment anywhere on the globe in a 
timely manner and have the decades of conflict experience 
through the world and in prepping and executing these combat 
service support functions.
    China is new to this. China is new to power projection. I 
question their ability to conduct these functions effectively 
in fighting the conflict beyond their shores. You can have the 
largest military in the world, but if you can't feed or supply 
them after three days, they become worthless.
    Can you comment on China's ability to effectively project 
warfighting power beyond its shores, but especially with regard 
to their ability to conduct effective logistics, supply, 
maintenance, operations, external to China? I don't think we 
have put a lot of thought into that.
    General Dunford. Congressman, thanks for the question.
    First of all, I agree with you that our logistics 
capability is one of our competitive advantages. I also agree 
that from a power projection perspective, the Chinese 
capability is relatively immature.
    However, if we are talking about within the Pacific, they 
do have one advantage, which is interior lines. In other words, 
from a geographical perspective, if we talk about a conflict in 
the South China Sea, if we talk about a conflict in the East 
China Sea, in Taiwan, and those areas, their logistics 
challenge is significantly less than the challenge that we 
would have as we project power to places like the Middle East 
or to the Pacific.
    I do see, you know, from my own personal experience, when 
you talk about putting equipment at sea, when you talk about 
employing sea-based capabilities, when you talk about logistics 
over long distances, that takes many, many years. We have 
maritime preposition ships. I was around in the early days of 
maritime preposition ships, and when you put equipment aboard a 
ship, 6 months later try to take it off a ship, and all the 
fuel had turned to sludge. And so we had to learn how do that, 
to make sure that the level of maintenance and readiness was 
what it is today. That was a discovery learning process that, 
frankly, took many, many years to develop that.
    So I would agree with the thesis that the Chinese have a 
long way to go in terms of developing power projection. I guess 
what I would say is that if you look at the investments that 
they are making, the attention they are paying to it, the 
reorganization they did is a recognition in part of the comment 
you made, they are just now recently--they are looking at our 
capabilities in terms of jointness and integration, a piece of 
which is our logistics capability, and they have just made some 
major reorganization inside the Chinese military, which I think 
is in part to mitigate the challenges that you have identified 
and that they know exist.
    So do I think they have a legitimate power-projection 
capability today? No. Do I see forces deployed to places like 
Djibouti, do I see the maritime development that you mentioned, 
do I see the aviation capabilities developing? Yes.
    And so I think it is fair, from my perspective, you know, I 
don't look at intent, I look at capability and I look at the 
trajectory the Chinese are on, and I think it is fair to say at 
some point in the future, were they to continue to emphasize 
power projection, continue to make the investments that they 
are making right now, that they will develop a power-projection 
capability. But I would agree with you, I think that is some 
time away.
    But, again, in the near term, what they are developing 
would provide them a capability that probably is much easier to 
attain, and that is the capability with interior lines in a 
Pacific scenario to project power in one of those scenarios 
that I mentioned.
    Mr. Calvert. Thank you.
    Mr. Frelinghuysen. Thank you.
    Mr. Ryan and then Mr. Womack.
    Mr. Ryan. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.

                        HEALTHY BASE INITIATIVE

    Mr. Chairman, thank you for being here.
    And one of the issues--the issue we talk about here--the 
budget, money, how are we going to free up money, and I know we 
have a lot of priorities. And the challenges we face today are, 
I think, unlike we have ever had to as far as dealing with 
these global challenges, the technology, making sure the third 
offset, all these new investments that we have to make.
    So we have got to be very smart in how we try to free up 
money. And I know that we have been spending since 2001 a good 
deal more money on health care. And so one of the issues I want 
to ask you about just briefly and put a plug in for, when we 
look at rates of diabetes and blood pressure and all these 
things that are causing us to spend a lot of money in the 
healthcare system, military healthcare system, I want to talk 
to you about the Healthy Base Initiative, what kind of food we 
have coming in, what kind of nutrition that we are giving these 
elite warriors.
    And we know that a lot of these issues are caused, they are 
diet related, and I think it would be smart for us to take a 
holistic approach here and just say, hey, if we know we start 
feeding our soldiers, airmen, and the rest healthy food, that a 
lot of these problems can be avoided, which frees up money for 
us put into the third offset and some of these other things.
    So you don't have to necessarily comment, maybe comment for 
the record, on the Healthy Base Initiative and what we can do 
to make sure we start driving down some of these healthcare 
costs to free up money for some of these other things.
    I know Mr. Visclosky mentioned the defense industrial base 
issue. Youngstown, Ohio, is home to America Makes, which is the 
Additive Manufacturing Institute. It is doing a phenomenal job 
and, I think, can transform manufacturing. So I want to make 
sure we robustly support these institutes as we move forward 
into the future.
    And then, just to touch base quickly on what Mr. Israel 
said on the idea of these kind of mind fitness training, again, 
mind, body, health, how we prepare these men and women to 
function at the highest level possible and using the most cost-
effective ways to do it.
    I know that you mentioned Liz Stanley, Mr. Chairman. I know 
she is not doing any more work within the military now, and I 
would just like to say we need to reconsider that, and I think 
not just offer it, but ramp it up, because I think that would 
be a huge opportunity for us to reduce some of the suicide and 
increase performance.

                                 C-130J

    Lastly, and a question. In Youngstown, at our air base 
there, we have the only Aerial Spray Unit. And we are now 
dealing with the global Zika issue, and I see we are reducing 
our C-130J request by three. And I just wonder, can you touch 
upon the Zika issue, keeping our troops safe around the world, 
making sure that we have the capacity to address this issue? 
And also will the reduction of C-130Js affect our ability 
within the Aerial Spray Unit and others to combat this global 
problem?
    You have a minute and a half to kind of deal with all that.
    Mr. Frelinghuysen. See if you can do it.
    Secretary Carter. I will be very brief, and we will get 
back to you on the Healthy Base Initiative.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Secretary Carter. We do spend $50 billion a year on health 
care, so it is a big part of our budget. Obviously, like 
everywhere else in the economy, we want to not see that grow 
too quickly, and one of the ways you do that is to keep people 
healthy, and one of the ways you keep people healthy is to 
teach them what is healthier. So that is an important 
initiative.
    I also want to thank you for the--the manufacturing 
institutes are a tremendous success. These are public-private 
partnerships, they are kind of model ways of doing things, and 
they are very critical to keeping manufacturing and high-
skilled jobs, but more importantly, industry supporting 
defense, from our point of view, in the United States.
    I will say this about Zika, and I will get back to you on 
the C-130J.
    [The information follows:]

    Congressman Ryan, as you state, we perform the Aerial Spray Mission 
with the 910 Air Wing (AW), out of Youngstown, Ohio. The mission is 
completed with the C-130H aircraft stationed at that unit. The men and 
women of the 910 AW and their C-130H's are mission ready and capable 
and will continue to be for the foreseeable future. There are no plans 
to convert these special mission aircraft to C-130Js as the current C-
130H's are performing well and, as I stated, they stand mission ready 
and capable. To date, I am not aware of the 910 AW being engaged in the 
battle against Zika but I can assure you, that if called upon, the 
Department of Defense and all of our related resources will respond 
appropriately to fight this disease.

    Secretary Carter. I am not aware that it in any way the 
spraying program is at risk as a consequence of the overall 
buy. We have several hundred C-130Js and we adjust the buy 
accordingly.
    With respect to Zika, we have not been assigned a role yet 
in that. There are funds that Congress has made available to 
the Department of Health and Human Services for combating Zika 
and they are doing various things. We stand ready to help them 
with research, with spraying, whatever they end up asking for. 
So we are kind of on tiptoes if we are asked to do things. We 
have not been asked to do things yet, but, obviously, we will 
play a role if we are asked to play a role.
    Chairman.
    General Dunford. Dealing with the onset of the Zika virus 
is our focus, obviously, has been on preventative medicine and 
protection of the force, and our commanders have all identified 
individuals, for example, that are at high risk, pregnant women 
in South America and those kinds of things, and afforded them 
the opportunity to leave the area where they are at risk for 
the Zika virus.
    So right now what we are doing is just making sure that our 
force, wherever they are deployed, particularly in those areas 
where the Zika virus is present, are taking all the measures to 
make sure we have a healthy force. And I would say the things 
that we do, Congressman, you know, our medical professionals 
are very experienced and very good in preventative health. In 
the areas, something like this, they are very good at making 
sure that we are proactive in keeping the force healthy and 
ready.
    Mr. Ryan. Thank you.
    Mr. Frelinghuysen. Thank you very much.
    The committee, of course, would like to commend the 
Department for the good work they did addressing the Ebola. I 
mean, your command and control of that was very important 
moving towards its eradication.
    Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you for your patience.

                               READINESS

    Mr. Womack. Thank you, Mr. Secretary, General Dunford. 
Always great to see you.
    Mr. Secretary, I am a big picture guy, and, obviously, it 
is obvious with your third offset strategy you are a big 
picture guy. I truly appreciate that.
    There is another big picture view that is stark reality, 
and everybody on this dais knows it, we talk about it a lot, 
and that is the trajectory of the Federal budget and the 
squeeze that is happening as a result of the growth in the 
mandatory programs and the fewer and fewer dollars there seem 
to be for discretionary programs, including the defense of our 
country. It is alarming to me, and we don't have an answer for 
that.
    That said, as a result of sequestration and the Budget 
Control Act, we have lost a lot of what I believe is readiness 
capability because of a very difficult, constrained resource 
environment. And it looks like that we are going to be trying 
to buy back some of that readiness now and deferring some of 
our other obligations to the future, which this Congress is 
pretty good at. I hate to see the Department of Defense having 
to do the same, but that is the reality of the constrained 
resource environment that we happen to be in.
    So I am just going to throw that out on the table as a 
concern from this Member of Congress and ask you to comment and 
give us the reality of what is happening in the Pentagon and 
how we are having to push a lot of very vital procurement needs 
to the future to be able to buy back some of this readiness 
that has been lost to date.
    Secretary Carter. I will start and then ask the Chairman to 
do the same.
    You are right. We are trying to give priority in this 
budget both to restoring readiness, particularly full spectrum 
readiness, and to modernization. We have to balance those two, 
no question about it. We are trying to find the money for those 
two priorities elsewhere in the budget. And that is why, as I 
said, the shape of our budget is so different this year in how 
we are trying to turn a strategic corner.
    With respect to readiness, each of the services is somewhat 
different, but they are all trying to get back to full spectrum 
readiness. We are funding their return to full spectrum 
readiness.
    The stability you gave us with the Bipartisan Budget Act is 
absolutely critical. Without that, we can't be on that 
trajectory to full spectrum readiness. So the stability is very 
important.
    And you began your question by talking about everything 
that goes into stability. We are only the Department of 
Defense. We are part of the discretionary budget. We understand 
you all have to deal with all the parts of the Federal budget. 
But we can't just keep focusing all our energy on the 
discretionary part of the budget, as has been the case, and 
that is why I am so glad that the budget agreement was reached 
and gave us some stability.
    But readiness is a big priority for us. I could go through 
each of the services, but I don't have time.
    Let me ask the Chairman to comment in general on readiness.
    General Dunford. Two quick comments, Congressman. Thanks 
for the question.
    You know, I think, as you know, with readiness, we can't 
actually buy our way out of the problem that we have right now. 
There are a couple of things that impact. We certainly need 
resources, and we have asked for those. There is a factor of 
time. It is going to take time. The operational tempo that we 
are experiencing right now has an effect on readiness.
    And then some of the impact of the last few years with 
regard to the industrial base and the maintenance backlog that 
has resulted, there is a physics issue in terms of getting all 
the equipment fixed that need to be fixed. And then, of course, 
the modernization that has been deferred also impacts 
readiness, because some of the equipment buys that we would 
have done two, three, or four years ago now are out now three, 
four years from now.
    But what I would say I try to do in making recommendations 
to the Secretary for this budget is you look at readiness and 
you look at force structure and you look at modernization and 
then you look at the foundational elements of infrastructure 
and so forth.
    My perspective was that given the resources that we have, 
we have got to try to achieve some balance among those four 
areas and posture ourselves for the next five or seven years. 
And so you are right. What you don't want to do is make 
decisions always for the near term that actually mortgage the 
future.
    I think in 2017 what we really tried to do, and that is 
highlighted by the capability areas that we have emphasized, is 
we have lived year to year, and I know this from the previous 
life as a service chief, we have just tried to get through the 
fiscal year, and we have delayed some of those decisions three 
to five years.
    I think we reached a point this year where we recognized in 
some very critical capability areas we could no longer wait 
before we started to make those investments. And so what we 
tried to do is achieve the best balance we could in those four 
areas I mentioned so that we were making some investment in the 
future even while being attentive.
    And I will tell you, job number one has been for the 
Secretary and I, making sure that the young men and women that 
we are deploying today have the wherewithal to accomplish the 
mission with minimal loss of life or equipment. I mean, we have 
focused on that. But given that, we did make some other 
decisions that would allow us to balance near-term readiness 
with long-term modernization and, of course, readiness, and I 
describe that as health of the force today and wellness. The 
investments you make today are really about wellness and health 
of the force tomorrow.
    So tough decisions had to be made. And, again, I think what 
I would say is we came out of fiscal year 2017 balancing the 
resources we had the best way we could. But you have identified 
something that actually is my number one concern.
    My number one concern is less what we are doing in fiscal 
year 2017 or where we are today. My number one concern is where 
will we be 5 to 7 years from now if we don't change the 
trajectory that we are on right now, where will we be 5 to 7 
years from now if we don't start making the investments that 
will allow us to all have the same conversation we have had 
here this morning where we can say, Russia is a challenge, sure 
it is, North Korea, Iran, China, all challenges.
    But make no mistake about it, we have a competitive 
advantage and we can dominate those countries today. I am not 
sure we can say that in 2022 if we maintain the same path we 
are on today, and I think that is what we are all most 
concerned about.
    Mr. Womack. Appreciate the service of these gentlemen. And 
I yield back my time.

                    DECONFLICTION IN THE MIDDLE EAST

    Mr. Frelinghuysen. We thank you, and we thank you for your 
service. And you didn't put a plug in, but others have referred 
to the enormous contribution of our National Guard, of which 
you were part of for many, many years.
    There is a lot of keen interest, I know we are past high 
noon, but we are going to labor on. And let me know if there is 
any ill ease at the front table.
    I would like to talk a little bit about the whole issue of 
deconfliction with Russians and others in the Middle East. Can 
you comment on that? There is a lot of open source information 
there. In Iraq, we are cheek by jowl with elements of the Quds 
Force. To some extent we see Russian superiority in major 
portions over Syria.
    Can you talk a little bit about what we are doing? There is 
a report in The Washington Post that we have been letting the 
Russians know where certain operations are occurring. Can we 
talk a little bit about that in this session here?
    Secretary Carter. Sure. We can. And I would, obviously, go 
into it in greater detail with you privately in another 
setting. But I will start.
    And why don't I do Syria and you can do Iraq or whatever.
    In terms of the Russians in Syria, we have a memorandum of 
understanding with them that is--and the word is accurate and 
precise--to deconflict our war on ISIL from what the Russians 
are doing, which, unfortunately, is something quite different, 
which is supporting Assad in the civil war, which is not what 
they said they were going to do.
    And so they are off on a whole wrong trajectory of fueling 
the civil war in Syria. That is a somewhat separate subject. 
And we don't agree with them in that, and we can't align 
ourselves with their strategy in that way. And our 
deconfliction doesn't mean we are aligning ourselves with the 
Russians, it just means that we are working with them so that 
we don't inadvertently run into each other in the air or on the 
ground.
    They are, I have to say, abiding by that memorandum of 
understanding. It is very professional, it is military to 
military at a very operational, professional level, not the 
Chairman and me. And the Russians conduct themselves in 
accordance with that agreement and, therefore, don't impede our 
campaign against ISIL.
    At the same time, I just have to repeat, we don't otherwise 
associate ourselves with what the Russians are doing in Syria, 
because it is totally wrongheaded.
    Mr. Frelinghuysen. In Iraq, I mean, to some extent the Quds 
Force have been able to unite a disparate group of Shiite 
militias and have been enormously successful in terms of 
influencing the course of action there. I just wonder do you 
have any degree of discomfort, and what is your feeling about 
what is happening there?
    General Dunford. Yeah. Chairman, thanks. In Iraq, there are 
really two issues. You know, you talked about us being 
collocated with forces. I would tell you from a recent trip, I 
am satisfied. We have a very aggressive counterintelligence 
program in Iraq to make sure the force protection of our men 
and women is taken care of. So that is a piece of, I think, 
what you alluded to.
    With regard to the provisional military forces that happen 
to be backed by Iran, the one thing I am encouraged by is the 
Iraqi Government, particularly in operations like Ramadi, they 
recognize that our support was conditioned on not having those 
Iranian-backed forces in and around that area, and so they 
weren't participating in Ramadi.
    I also know that there is a great deal of energy being 
applied to talk about how to integrate those forces into 
legitimate Iraqi Security Forces. And we are not at any time 
providing support for any forces that aren't actually 
legitimate, read part of the Iraqi Government in Baghdad and 
under Prime Minister Abadi's control and responsibility.
    Mr. Frelinghuysen. We are interested in, and of course all 
of us are interested here in the issue of force protection. And 
just because at this point in time people that are, should we 
say, cheek by jowl with us are, quote, leaving us alone, one 
has to assume that they, themselves, are doing what we are 
doing.
    General Dunford. Chairman, I can tell you, just to make 
sure it is clear, we are concerned about that, we are watching 
that very closely. And I wouldn't suggest to you for a minute 
that we are complacent about it, and I know our commanders on 
the ground aren't complacent about it either. And we have a 
significant amount of resources dedicated to make sure that we 
can recognize the changes and take appropriate action in 
anticipation of those changes.

                          RULES OF ENGAGEMENT

    Mr. Frelinghuysen. It is good to have that public 
reassurance.
    On the issue of rules of engagement, one of the benefits of 
congressional travel is that we often separate ourselves from 
general officers to talk with the men and women who do 
remarkable things. And I followed a little bit of the lead of 
my predecessor getting out to Bethesda, Walter Reed, and from 
time to time I run into situations where remarkable people who 
have done courageous things have been injured. And it bothers 
me when I hear that they didn't get the air support that they 
needed.
    As you have pointed out, maybe the Afghans are ready for 
primetime, but I do hear more than anecdotal information that 
some of those forces don't fight at night, and as a result some 
of our men have been put in compromising positions.
    And it sort of hinges on what, in my introductory remarks, 
which are not political, is that there is a feeling out there, 
and I think this is shared by a lot of Members of Congress, 
that there are somehow forces of higher up, and I understand 
the chain of command, that people have to check with a variety 
of different people before they, shall we say, look after the 
mission that they are involved in.
    Could you comment a little bit about that and give, again, 
a level of reassurance here? To think that somebody would be 
sort of checking on you and the remarkable people who are in 
positions of command and second-guessing you, assure me that 
that is not happening.
    General Dunford. Chairman, I can. Let me try to explain it. 
First of all, I wouldn't understate the concerns of the folks 
that you have talked to at Bethesda, Walter Reed, or talked to 
in the field. I have talked to them too, and sometimes they 
have confusion, they have questions. And believe it or not, 
even though I am a general, they bring it up to me as well. And 
that is the one nice thing about our force today, is they don't 
hesitate to unload on you. If you make yourself available for 
questions, you have got to be prepared to answer them, because 
they are going to ask them.
    But I would distinguish--you know, rules of engagement kind 
of has become a catchall phrase for a whole wide range of 
activities that take place on the battlefield. I can assure you 
of you this. When it comes to the right of self-protection, 
there is nothing that limits a soldier, sailor, airman, or 
marine from taking appropriate action if they are threatened. 
There is no question about that. That is the fundamentals of 
rules of engagement.
    What you are really referring to, though, is when, where, 
and how we employ combined arms on the battlefield. And so I 
would tell you there are times when those decisions are made at 
a more senior level, and, frankly, I made them at a senior 
level on occasion, because there are strategic implications 
sometimes with regard to civilian casualties and so forth.
    Mr. Frelinghuysen. Collateral damage.
    General Dunford. Collateral damage. And so that sometimes 
has to be managed.
    So we have various levels of authorities that are 
associated with the numbers of civilian casualties and the 
amount of collateral damage that may take place in a certain 
operation, and that is sometimes elevated to the general 
officer level.
    And my experience is that, again, when it comes to 
soldiers, sailors, airmen, and marines taking action that 
involves their right of force protection, they can crush a 
handset, so to speak, and call in combined arms and do what 
must be done.
    When it comes to conducting a deliberate strike that may 
have strategic implications, we have, we do, and we will make 
those decisions at a level where risk can be managed 
appropriately to make sure that what appears to be tactical 
actions with strategic consequences, the decisionmaking is 
being made at the right level.
    In my case, it was managing a very difficult relationship 
with the Government of Afghanistan. In some cases, our very 
presence and ability to conduct counterterrorism operations was 
being managed as a result of these strikes.
    And so from the troops' eyes, I don't understate for a 
second their concerns, and I try to explain to them, just like 
I have tried to explain to you, look, it isn't we don't trust 
you; it is you can't necessarily see--everyone looks through a 
soda straw in combat, and everybody's soda straw is slightly 
different. And, frankly, when you sit there as a commander, 
your soda straw is a little wider than a squad leader or a 
platoon commander.
    And, again, when it comes to them doing what needs to be 
done to take care of themselves or their unit, it is completely 
decentralized. When it comes to manage broader strategic 
relationships, yes, sometimes we make decisions at a level that 
the troops, the lieutenants, the captains would prefer to make 
those decisions themselves. And those of us that have become 
more senior feel like sometimes we ought to make those 
decisions, and there is a balance.
    Mr. Frelinghuysen. I am glad to hear it, because I do think 
as our footprint shrinks and there is that certain 
inevitability, that force protection, every soldier and whoever 
is representing our government deserves that assurance. And I 
just want to make sure that you have made it quite clear that 
that is the case.
    Mr. Visclosky.

                    EUROPEAN REASSURANCE INITIATIVE

    Mr. Visclosky. Thank you, Mr. Chairman.
    If I could return to the European Reassurance Initiative, 
which is contained in OCO, and we have had a number of 
interchanges as to the difficulty in planning year to year. Any 
sense, given at least my impression that this is going to be a 
permanent situation for some period of time, us vis-a-vis the 
Russians, that some of those moneys migrate into the base 
budget as opposed to end up in OCO, say, in 2018?
    Secretary Carter. The reality there is that this is money 
that we need to spend on a requirement that has quickly come 
upon us, therefore, it is appropriate that it be in OCO. There 
are other things that we are doing about the Russians and the 
kind of threat represented by the Russians that are in the base 
and are part of our enduring investment.
    So there is a mix here. And I think that if the question is 
are we going to be doing more about the general kind of threat 
represented by Russia and China in the base budget in the 
future, you see that in fiscal year 2017 already, and I think 
you will see it in the outyears, assuming that what the 
Chairman said is our biggest risk here, strategic risk, which 
is a collapse of budget agreement and a reversion to the Budget 
Control Act, which is what he was referring to early. That is 
the biggest risk to everything we are trying to do, ERI and 
everything else.

                   HEALTH CARE AND RETIREMENT SYSTEMS

    Mr. Visclosky. If I could ask one more question. And more 
if you would want to address the issue of the budget 
recommendations on health care, retirement. I have mentioned in 
the past I think Congress has a huge burden to bear and blame, 
not that the administration is always right in these, but 
something has to be done. Mr. Womack mentioned mandatory, I 
mentioned mandatory on the civilian side. You suffer from the 
same problem.
    What is, if you would, from the administration's 
perspective, your justification of doing this from a budgetary 
standpoint? The general had talked about his concerns six, 
seven years out.
    Secretary Carter. We have made proposals and the Department 
continues to ask for your support, and we haven't always gotten 
the support, not necessarily of this committee, but of Congress 
for what we regard as reasonable steps to make our provision of 
health care more efficient and to cap the rise in the growth of 
healthcare costs.
    We try to do that in a way that doesn't compromise the 
quality of care, doesn't restrict the number of people 
receiving care. But I will give you some examples of that and 
then perhaps the Chairman would want to comment on it as well.
    Medical treatment facilities, using them more efficiently. 
The issue of copays I know has come up in past years, and that 
is really--these are very small copays we ask for, and their 
basic purpose is to make people ask themselves: Do I really 
need to go to an emergency room for this or could I take a 
different route? If they need to go to an emergency room, we 
want them to go. This is just a little signal in that regard.
    And we try to allocate these efforts across the population 
so that we protect the parts of our military family, Active 
Duty and retired, who have the greatest needs and have the 
fewest alternatives.
    So we try to do it as carefully as we can. We know it is 
difficult. We know that we have not received 100 percent 
support. We are grateful for the support we have gotten from 
this committee and others. But it is tough. It is tough on us. 
We understand it is tough on the Congress as well.
    With respect to retirement, we do have, thanks to our 
partnership with Congress, an approach to retirement for new 
members, a blended retirement system. I think that is a good 
thing. I think it will be good for the All-Volunteer Force.
    Going forward, just to remind you, for members of the 
service who are already in, they don't have to go to that 
blended retirement if they don't want to. Nobody is changing 
the deal for people who are already in the military. This is a 
program that will be available to folks in the future.
    That is a few things about health care. Perhaps the 
Chairman would like to add some additional thoughts.
    General Dunford. Congressman, maybe just to put it in 
perspective from where I sit. Sometimes we look at health care 
and compensation as separate from training and equipping. To 
me, it is all about taking care of people, it is all about our 
number one responsibility, which is to bring our young people 
home alive and give them the wherewithal to accomplish the 
mission, and then keeping faith with them. So there is a 
balance.
    I can just share with you why we are so focused on these 
areas now. As a service chief in the Marine Corps, they have a 
little bit different dynamic. I think in the Department as a 
whole, we spend some 55 percent, close to 60 percent if we keep 
going on people. In the Marine Corps, we spend close to 70 
percent on people. And health care, I think, has gone from 4 
percent of the budget to some 9 percent of the budget, if I am 
not mistaken.
    So as I started to, as a service chief, look at the 
trajectory of the cost of people, I realized that, look, there 
is absolutely no way that I can make sure these folks are 
properly trained and equipped as well as paid, compensated. And 
so I think there is a balance that has to be achieved.
    And so I think these initiatives are, in fact, designed, 
number one, to provide better programs to recruit and retain 
high quality people, but also to start to control the costs and 
still be able to take care of people.
    When I explain this to families, they actually get it. When 
I talk to spouses even, I say: Look, here is the reason why we 
tried to control the cost of personnel over the last couple 
years. We used to spend--and this was, again, a service 
perspective--we used to spend 12 percent on modernization. Now 
I am down close to 8 percent on modernization.
    At the end of the day, you may be well paid, you may live 
in a good house, you may have good medical care, but we may not 
have the wherewithal to provide you with the best training and 
equipment. And the spouses uniformly look at me and say: Hey, 
you better not compromise on the equipment and the training you 
provide to my loved one.
    So to me, this is a question--I look at compensation 
holistically. It is just not those two things you mentioned, 
but it is the entire package that ensures we have the most 
well-trained, the most well-equipped, and the most well-
incentivized force that we can possibly have.
    And so I appreciate the latitude that we have had to try to 
make some of these decisions, because the desired end state, I 
think, we all share. We share high-quality people that are 
recruited and retained, frankly, in the right skill sets and so 
forth, and we also share the end state of making sure that when 
we ask them to do something, we give them the wherewithal to 
properly do it.
    Mr. Visclosky. Appreciate it.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Mr. Womack.
    Mr. Womack. Yeah. One real quick follow-up. Back to ERI for 
just a moment and the rotational brigades, and kind of a plug 
for the Reserve component, since my chairman brought that up 
just a minute ago. Rotational brigades, I think ideal for 
Reserve component formations. It does a lot of things. I won't 
go into all those here.
    State Partnership Programs, particularly with host nation 
support, the relationships that are forged there become combat 
multipliers for us if necessary. So I just put in a plug for 
that. I have gotten to know General Hodges pretty well, and 
what a remarkable person to be able to make 30,000 look like 
300,000 on a given day, and I know he relies heavily on these 
State Partnership Programs for that too. So I just kind of 
throw that out there and ask for your continued support in that 
regard.
    Mr. Frelinghuysen. Well, thank you, Mr. Womack.
    And I know the two gentlemen that have done most of the 
speaking today also rely on Secretary Michael McCord.
    And while you didn't say anything, may I commend you and 
thank you for the close working relationship you have had with 
our staff and other committee members. There has never been a 
time when we have requested information that we haven't gotten 
the facts that we needed to do the job.
    Mr. McCord. Thank you, Mr. Chairman. And I will just, if I 
could, make one or two comments.
    Mr. Frelinghuysen. Please do.
    Mr. McCord. On the discussion on the IMIs and the value of 
those, we are looking carefully at possibly sending you a 
reprogramming this year to create one more. It is not a final 
decision yet, but that is a possibility.
    Mr. Frelinghuysen. You could be sure we take a look at all 
of the reprograms that you send----
    Mr. McCord. Absolutely, Mr. Chairman.
    Mr. Frelinghuysen [continuing]. And ask for a full 
justification.
    Yes, Mr. Visclosky.
    Mr. Visclosky. I have been remiss as a Notre Dame grad for 
also congratulating the comptroller on defeating Notre Dame, 
and then the next day your women's team beat the Maryland 
women's basketball team. It just rolls on forever.
    Mr. McCord. I was not going to bring up the basketball, Mr. 
Visclosky.
    Mr. Visclosky. And that is why I respect you. Thank you so 
much.
    Secretary Carter. And I thank you for thanking Under 
Secretary McCord. He is terrific, and we very much benefit, and 
I am delighted to hear that he works so well with you.
    Mr. Frelinghuysen. Mr. Secretary, General Dunford, Mr. 
McCord, on behalf of the remarkable men and women you 
represent, please extend our thanks and gratefulness for their 
dedication and service, all volunteers, and as I said at the 
beginning, the best of the America. We need to look after them 
and their families.
    We stand adjourned. Thank you very much.
    [Clerk's note.--Questions submitted by Mr. Calvert and the 
answers thereto follows:]

                              Acquisitions

    Question. As you know, CBO and GAO have regularly reported that DOD 
starts more acquisition programs than it can afford to complete. As a 
recent CBO report stated ``Several areas of DoD's budget have 
frequently turned out to cost more than originally planned or to 
increase more rapidly than expected. Those areas include the following: 
costs to develop and purchase weapon systems . . . [and] operation and 
maintenance costs.''
    How do you guard against starting more programs than you can 
afford? Cost estimates are routinely lower than what the actual cost 
ends up being. How do you ensure that cost estimates are realistic? Do 
you, when evaluating program budgets, recommend that budget requests 
adhere to the service estimate; the independent cost estimate, or 
whichever estimate is higher?
    Answer. DoD guards against starting more programs than we can 
afford through our Affordability Policy, implemented in all three 
Better Buying Power initiatives and codified in DoD Instruction 
5000.02, ``Operation of the Defense Acquisition System.'' The purpose 
of our Affordability policy is to set cost-constrained limits to 
program acquisition and program operating and support costs to the 
maximum resources the Department can allocate for a capability.
    The Department ensures cost estimates are realistic through the 
combined efforts of the Office of Cost Assessment and Program 
Evaluation (CAPE) and the Service Cost Centers. The CAPE provides an 
Independent Cost Estimate (ICE) that can be compared and contrasted to 
the Service Cost Position (SCP) for acquisition programs where the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) is the Milestone Decision Authority. These estimates are 
developed separately and provide the USD(AT&L) with two analytically 
rigorous products. The USD(AT&L) reviews the differences between the 
ICE and SCP and determines which estimate is likely to be more 
realistic over the lifecycle of the program, and directs the budget 
reflect this estimate. Procedures are also in place to enforce 
compliance with this direction.
    [Clerk's note.--End of questions submitted by Mr. Calvert. 
Questions submitted by Mr. Aderholt and the answers thereto follows:]

                  European Reassurance Initiative (ERI)

    Question. We learned in Iraq and Afghanistan that the rotation of 
Brigade Combat Teams in and out of theater generates a steep learning 
curve within new units, as they attempt to reach the effectiveness of 
the unit they replaced. Armored brigades rotating to Europe as part of 
the European Reassurance Initiative will no doubt face that same 
learning curve; everything from the laws that govern international 
border crossings, to the nuances of working with partner nations. These 
rotations will necessarily invite friction and risk. What is your 
assessment of these risks, which Russia is certainly aware of, and 
would permanently stationing one or more Armored Brigade Combat Teams 
in Europe help to mitigate those risks, and better assure our NATO 
allies?
    Answer. U.S. presence--both forward stationed and rotational--
reinforces to our NATO allies and partners that the U.S. is committed 
to deter and counter Russian malign influence, coercion, and 
aggression. Under current conditions and European Reassurance 
Initiative (ERI) funding, rotational forces along NATO's eastern flank 
are the most effective way for the U.S. Army to meet U.S. European 
Command's (EUCOM) requirement for the continuous presence of an Armored 
Brigade Combat Team (ABCT). Rotating ABCTs provides a ready and trained 
capability to EUCOM, while also exercising the Army's ability to 
quickly mobilize and deploy ABCTs. Moving forward, we will continually 
assess what additional steps are required to meet the demands of a new 
and evolving security environment in Europe.
    Question. The military will necessarily build readiness in units 
that are preparing to rotate to Europe as part of the ERA, but this 
readiness will be rapidly consumed in the conduct of the ERI rotation. 
as a majority of the exercises with partner nations are small-scale, 
leaving battalions and brigades with few opportunities to exercise 
their core competencies. Using the USMC's model of a Marine 
Expeditionary Unit (MEU) as a justification for the legitimacy and 
effectiveness of a rotational ABCTs in Europe is an apples-to-oranges 
argumentative fallacy, at best. Additionally the Department of Defense 
only has nine active duty ABCTs, which it deploys on a rotational basis 
to Europe, Kuwait, and Korea with every brigade either recovering from 
a deployment, training for an upcoming deployment, or currently on 
deployment. How does the department reconcile this alarming high use of 
the ABCTs, which rivals the rate of use during wartime, and how will 
the department adjust for an increased demand for ABCTs, should a 
wartime need arise? What is the signal for the DoD to increase the 
quantity of active duty ABCTs?
    Answer. We are re-evaluating our defense posture in Europe to 
ensure we can respond in a timely manner to crises and contingencies in 
order to support U.S. European Command objectives. Europe, Kuwait, and 
Korea are forward positions that will improve the response time of an 
ABCT to most likely contingency locations. Moving forward, if there is 
a change to an existing threat or a new threat arises, we will 
continually assess where our Armored Brigade Combat Teams are forward 
positioned and what additional requirements may be needed to support 
ongoing and future contingency operations.
    Question. In the event we call on our military to quickly build 
forces in Europe due to Russian aggression or any other factors, what 
are the limiting factors in the reception of our forces? Assuming that 
a full division or more of combat troops were required to meet the 
threat, are the ports, road systems, reception and staging areas, and 
all other associated infrastructure needs fully capable of moving our 
forces in at a rate that is acceptable by DoD leaders and contingency 
planners? If not, what are the barriers to a buildup of forces, and 
what is our plan to remove these barriers?
    Answer. In the event of a crisis or contingency, we have the 
ability to quickly bring U.S. forces to Europe. We recently 
demonstrated this capability in exercise TRIDENT JUNCTURE in late 2015. 
We continue to analyze existing capabilities (e.g., host nation 
infrastructure, commercial ports and airfields, etc.) to identify 
potential barriers and gaps in our ability to provide timely support to 
U.S. European Command objectives. Going forward, we will continually 
assess requirements for future investment--either U.S.-funded or by 
leveraging the NATO Security Investment Program--to enhance Reception, 
Staging, Onward movement, Integration (RSOI) capabilities in the 
theater.
     Question. U.S. participation in NATO operations and the ERI brings 
with it an increased amount of equipment in the form of ABCT equipment 
sets and A PS stocks, which will necessarily require a significant 
amount of European infrastructure for movement, storage, and 
maintenance. Are European facilities and services that are used for the 
purpose of keeping U.S. military equipment in Europe being offered to 
the DoD at competitive market rates--or lower--to thus represent their 
status as partners with the U.S. tax payer in this enterprise? If not, 
what are the reasons the U.S. is not being offered competitive rates 
for the purpose of defending Europe? What is the estimated amount of 
spending, or in-kind funding, being dedicated by European countries?
    Answer. The Department is currently finalizing preferred locations 
for storage and maintenance of Armored Brigade Combat Team (ABCT) 
equipment sets and Army Prepositioning Stocks (APS) in Europe, at which 
point negotiations with host nations will be initiated for competitive 
market rates for facilities and services.
    The Department aims to use existing infrastructure and services on 
the host-nation bases where possible. As a cost-savings measure in 
locations where existing infrastructure is not immediately ready for 
use, the Department is renovating infrastructure that has already been 
built and provided to the U.S. by the host nation. In cases where 
usable infrastructure does not exist, host nations are providing real 
estate on their existing bases, or purchasing real estate for use by 
the U.S. In terms of services and maintenance for infrastructure, all 
host nations have expressed a willingness to sustain the facilities we 
build, and that are joint use. The same applies to utilities.

                            Troop Reductions

    Question. We are currently experiencing a reduction in military 
personnel, while deployments for regional alignment, the European 
Reassurance Initiative, and in the fight against ISIS, are increasing 
demands on the force. Additionally, according to the National Military 
Strategy of 2015, the U.S. military can defeat a regional adversary, 
while denying the objectives of an adversary in a different region; 
this is a dramatic transition from the times when the U.S. military was 
capable of defeating adversaries in two regions simultaneously. How 
concerned are you about the continuing trend of troop reductions, and 
please articulate for us what risks are we taking if we continue to 
reduce the size of our military in the coming years, as planned?
    Answer. I am concerned about the trend lines in the Joint Force's 
capacity, capability, and readiness to maintain our competitive 
advantage and overmatch against any likely future adversary. PB17 
projects force end strengths consistent with the 2014 QDR forecasts. 
However, the emergence of ISIL and Russian revanchism has changed the 
strategic environment since the QDR was published. Force availability 
shortfalls increase risk in our ability to rapidly respond to multiple, 
overlapping contingencies. End strength reductions below the current 
plan must be benchmarked against our strategic challenges and would 
mean adjusting the ends of our defense strategy.

         JSTARS--Joint Surveillance Target Attack Radar System

    Question. Sixty Members of the House Armed Services and Defense 
Appropriations Committee wrote to you last November expressing concern 
about repeated schedule slips of the JSTARS Recapitalization program. 
Yet your FY 17 budget submission slips the Initial Operating Capability 
(10C) for JSTARS recap by at least an additional year and reduced 
funding for JSTARS by $170M when you compare the FY 17 request to what 
the Air Force indicated was required for FY 17 in the FY 16 request. 
Please explain this further delay?
    Answer. The Department's FY 2017 budget request fully funds the 
Joint Surveillance Target Attack Radar System (JSTARS) Recap Program to 
the OSD/CAPE Independent Cost Estimate to achieve the Warfighter's 
required Initial Operating Capability (IOC) date in the fourth quarter 
of FY 2024. The FY 2017 budget request was revised to align with the 
anticipated award of the development contract in the first quarter of 
FY 2018.
    The FY 2017 budget includes necessary funding to complete planned 
Technology Maturation and Risk Reduction phase activities and to 
prepare for the planned award of the development contract in early FY 
2018. In FY 2017, the Air Force plans to complete radar risk reduction 
activities focused on ensuring at least two radar designs are 
sufficiently mature to support the planned full and open competition 
and schedule for the Engineering and Manufacturing Development phase.

                              Contracting

    Question. There are numerous reports out of Redstone Test Center 
(RTC) that the speed in which contracts are being awarded is slowing, 
and that the change is due to organizational and systemic causes, 
instead of manpower shortages. Please explain how DoD monitors the 
efficiency and effectiveness of its contracting arms, and what the 
tolerances for acceptable performance are. What changes or events 
within DoD contracting agencies over the past three years would have 
resulted in a delay in awarding contracts? To what extent is DoD 
considering proposing that contracting decisions be returned to the 
Command carrying out programs, as opposed to a central contracting 
Command.
    Answer. The Army uses a variety of tools to monitor the 
effectiveness of its contracting, such as the Virtual Contracting 
Enterprise suite of information technology tools that track 
procurements and other key metrics in real time. Additionally, the Army 
conducts Contracting Enterprise Reviews that are reported quarterly to 
the Deputy Assistant Secretary of the Army for Procurement and to the 
Army Acquisition Executive that track various metrics and highlight any 
challenges facing the contracting enterprise. The Army also manages a 
robust Procurement Management Review Program that looks at the business 
operations of all the Contracting Commands, rather than focusing solely 
on compliance of individual contract actions. Any trends are reviewed 
and shared with the affected activity, and corrective actions are 
addressed at both the execution and management levels.
    The Air Force also utilizes numerous methods to monitor the 
effectiveness of its contracting organizations, including tracking 
metrics such as the definitization of undefinitized contracting 
actions, protests, and competition. The Air Force tracks its 
Procurement Acquisition Lead times as part of its Air Force Common 
Output Level Standards across its enterprise. In addition, Air Force 
Contracting conducts self-inspections of identified deficiencies for 
corrective action and then forwards those to higher headquarters for 
trend analysis across the buying command and at the enterprise level.
    The Department of the Navy (DON) utilizes a variety of tools to 
monitor the effectiveness of its contracting practices that includes 
procurement oversight led by the Deputy Assistant Secretary of the Navy 
for Acquisition and Procurement (DASN(AP)). DASN(AP) relies on the 
Procurement Performance Management Assessment Program (PPMAP) as its 
primary method of validating the extent of sound contracting practices 
that occur within the DON. PPMAP enables DASN(AP) and the eight Navy 
and two Marine Corps Heads of Contracting Activity (HCAs) to evaluate 
the quality of procurement processes and management systems; validate 
the execution of delegated procurement authority that occurs according 
to law and regulation; mitigate risk of vulnerabilities to strengthen 
internal controls; institute appropriate corrective actions, as needed, 
to improve (or maintain) the quality of procurement operations; and 
identify best practices across the enterprise.
    There are numerous reasons why a contract award may appear to be 
delayed. Some examples of issues that affect the procurement process 
outside of contracting include incomplete, unclear, or late submission 
of requirements to the contracting office; changes to the solicitation 
based on questions from industry that increase the proposal submission 
time; increased time for evaluations due the complexity of the 
requirement; lack of complete and/or quality proposals from industry; 
and protests. The Redstone Test Center awarded two competitive actions 
during FY 2013-2016 that were worked through the Army Contracting 
Command--Redstone Contracting Center; however, it transferred several 
acquisitions to the Army Contracting Command--Aberdeen due to resource 
constraints (test center manpower and inexperienced contracting 
personnel). There was a loss of experienced evaluators at Redstone 
during the time period of these source selections, further straining 
available resources and contributing to delays. Of Redstone Arsenal's 
contracting workforce losses (411 between CY 2011-2015), 75 percent had 
more than 10 years of experience. In 2015 alone, Redstone lost 100 
(nearly 12 percent) of its seasoned civilian contracting workforce. 
Contracts for the Redstone Test Center were also protested before and 
after award, causing further delay.
    In addition, the Army experienced a steady decline in the civilian 
contracting workforce, impacting the contracting centers. In 2011, the 
Army civilian contracting workforce was 7,098 strong, but by the end of 
2015, the Army civilian contracting work force decreased by 1,220 to 
5,878 (17 percent loss). Many of the losses sustained were senior 
contracting personnel. By 2015, more than 30 percent of the contracting 
workforce had 5 years or less experience, and more than 60 percent had 
10 years or less experience. A junior workforce is not as efficient as 
a senior workforce, and they require more time to solicit, evaluate, 
and negotiate contract awards.
    Currently, Army contracting decisions are made at the appropriate 
command level within its four buying commands. There is no centralized 
Army Contracting Command authority. Command authority and procurement 
authority are separate and distinct. The four buying commands in the 
Army have been delegated procurement authority via the Army's Senior 
Procurement Executive. Accordingly, each HCA exercises that authority 
over their subordinate operational contracting activities. Procurement 
authorities are retained within contracting organizations by way of 
delegation from the HCA to the Principal Assistant Responsible for 
Contracting (PARC). All Army PARCs reside within the contracting 
organizations, which are locally aligned to support the various 
requiring activities and major programs. The PARC further delegates 
authority to individual Contracting Officers, who exercise procurement 
authorities in accordance with the Federal, Defense, and Army 
Acquisition Regulations and Supplements.

                                  EELV

    Question. DoD's methodology for ensuring access to space appears to 
be based in part upon a misreading of the Commercial Space Act of 1998. 
The Air Force interprets the Commercial Space Act of 1998 as 
prescribing that the USAF may only procure commercial ``launch 
services''' rather than separate rockets or engines, where the intent 
of Section 201 of the Space Act was to ensure that the USAF procured 
space transportation capabilities from commercial providers, saving 
U.S. government assets, such as the Space Shuttle, for only the most 
important missions. The Space Act sets up a commercial versus U.S. 
government framework, and does not prohibit the USAF from directing the 
production of different parts to build a space launch system. As such, 
the USAF is missing an opportunity to re-engine the Atlas V rocket, 
which would save taxpayers hundreds of millions of dollars, instead of 
procuring a completely new launch system. Industry has validated that 
an American-made engine can be produced for the Atlas V without a loss 
of capability. Pleace articulate how allowing the USAF to procure the 
different parts of a launch system could move us away from the Russian 
RD-180 engine sooner, and at a significant cost savings to the tax 
payer.
    Answer. The Department believes that section 201 of the Commercial 
Space Act (CSA) of 1998, Public Law 105-303, as presently codified in 
section 50131 of title 51, United States Code, directs it to procure 
commercial launch services, as opposed to launch hardware, which was 
the approach on many of the heritage launch vehicle programs prior to 
that time. Since the enactment of the CSA, the Department's Evolved 
Expendable Launch Vehicle (EELV) program acquisition strategy has been 
consistent with this requirement. Therefore, based on that requirement, 
the Department currently purchases launch services and not launch 
vehicle hardware or components.
    The Department wants to end use of the Russian RD-180 rocket engine 
as soon as possible, but we do not believe this can be accomplished 
before 2021 or 2022. To be clear, the Department does not intend to 
unilaterally pay for the development of a direct replacement engine for 
the RD-180 on the Atlas V. The costs would be excessive to the 
Department, and a specific engine program would only benefit one launch 
service provider.
    The Department's goal is to develop competitive public-private 
partnerships with commercial launch service providers that can result 
in new and improved launch service capabilities. Investing in ongoing 
efforts by commercial launch service providers leverages the work 
already being done in launch service development. This is the quickest 
and most efficient way to end use of the RD-180.
    Question. Secondly, the Mitchell Commission also concluded that 
rockets designed and built by various contractors can use the AR-1 
engine. Given this fact, I believe Congress needs to know more about 
what information the Air Force is receiving and from whom. What are the 
credentials and direct engineering experience and management experience 
of persons who are disagreeing with the Mitchell Commission 
conclusions? The reason this question is necessary is that the opinion 
of Mitchell Commission Deputy Chairman Dr. Michael Griffin, as well as 
past managers of NASA programs, differs from the current Air Force 
narrative which presents re-engined rockets as virtually unusable. What 
specific rocket engine and rocket body combinations are your 
information sources referring to from the past?
    Answer. The RD-180 Availability Risk Mitigation Study, also called 
the Mitchell Study, was chartered by the Assistant Secretary of the Air 
Force for Acquisition to review the potential impacts of losing access 
to the supply of Russian manufactured RD-180 rocket engines used to 
power the Atlas V launch vehicle. The study had 4 official findings, 
listed below, none of which specifically addressed the utilization of 
the Aerojet Rocketdyne AR-1 engine on existing launch vehicles.
          <bullet> Finding #1: Impacts of an RD-180 loss are 
        significant, and near term (FY 2014-2017) options to mitigate 
        them are limited.
          <bullet> Finding #2: There are decision points that will 
        provide indicators on the viability of the RD-180.
          <bullet> Finding #3: Current Phase la/2 EELV acquisition 
        strategy is impacted by RD-180 availability.
          <bullet> Finding #4: Key milestones/decision points for 
        current EELV acquisition strategy will come to a head in FY 
        2022 (Phase 3).
    The determination of AR-1 compatibility with a particular launch 
vehicle would have to be made by the individual launch service 
providers that manufacture and control the technical baselines. That 
determination could only be made after a significant amount of detailed 
technical evaluation.
    Question. Thirdly, whereas there was early concern that AR-1 would 
win any competition, the present path seems to lock us into a situation 
of funding stove-piped systems by various companies. NASA will have 
spent over $5 billion dollars on Commercial Crew development alone 
before we start paying $55 million or more per seat to those providers. 
Thus NASA, and soon the Air Force, is NOT simply purchasing services, 
you are developing products. The launch vehicle you chose in 2012 for 
the STP-2 mission still has not made its debut flight; thus, the Air 
Force is investing in future products, not simply purchasing services. 
If commercial companies decide to sell their launch vehicles to another 
country, the taxpayer would have to make these investments all over 
again. What are you doing in your Air Force contracts to provide more 
transparency of expenditures than NASA, and more intellectual property 
protections, for the U.S. taxpayer?
    Answer. The Air Force Evolved Expendable Launch Vehicle (EELV) 
program's acquisitions strategy from the outset has been to procure 
launch services and not launch vehicles or component hardware. This 
acquisition approach is also used on the Orbital/Suborbital-3 (OSP-3) 
contract used to acquire the STP-2 launch service from Space X. The 
OSP-3 contract acts as an on-ramp for EELV New Entrants to gain 
experience with the National Security Space launch service process. The 
Department has significant insight into both the United Launch Alliance 
and Space X vehicle designs, and this is necessary in order to verify 
that the companies are providing a service that meets the Department's 
technical specifications and mission assurance requirements. The 
Department does not, however, control the technical baseline, nor does 
it own the intellectual property rights to the individual launch 
vehicle designs.
    As the Department continues to procure launch services, it will 
make every effort to leverage competition to guarantee the most cost 
effective program possible while continuing to provide the Nation with 
assured access to space as required by statute and policy.

                                 Cyber

    Question. The cyber domain is becoming an area of greater concern 
given the recent cyber attacks against electrical infrastructure in 
Ukraine. Please describe the current environment in Europe regarding a 
collective, multi-lateral, defense against cyber threats, and what 
conditions would have to exist in a cyber attack for a NATO partner to 
invoke Article 5 of the NATO treaty. Is the U.S. considering kinetic 
responses to cyber attacks, and what conditions would have to exist for 
such a response?
    Answer. With regard to a collective, multi-lateral defense against 
cyber threats in Europe, the United States works with the organizations 
in which we participate, the Organization for Security and Cooperation 
in Europe (OSCE) and the North Atlantic Treaty Organization (NATO).
    At the OSCE, the United States chairs a working group that, since 
2013, has developed and adopted two sets of cyber-related Confidence-
Building Measures (CBMs) intended to reduce the risk of misperception, 
escalation, and conflict stemming from the use of cyber technologies. 
To date, the OSCE is the only regional security organization that has 
adopted CBMs in the cyber domain.
    With regard to NATO, at the Wales Summit in 2014, Allies recognized 
that the impact of a cyberattack could be as harmful to modern 
societies as a conventional attack and affirmed that cyber defense is 
part of NATO's core task of collective defense. Allies also emphasized 
the need to strengthen the defensive measures of NATO and of nations 
and adopted an Enhanced NATO Policy on Cyber Defense and an associated 
Cyber Defense Action Plan to provide a framework to make NATO more 
resilient to cyberattacks and to identify Alliance cyber defense 
priorities. The Alliance has not specified which conditions would have 
to exist in a cyberattack for a NATO partner to request invocation of 
Article 5 of the Washington Treaty. As with a conventional attack, the 
North Atlantic Council will consider the facts of the specific case and 
determine whether Article 5 should be invoked.
    Through various documents, reports, and public statements by the 
President and the Secretary of Defense, the United States has 
articulated that it can respond to a cyberattack on U.S. interests. In 
such a case, the effects of a cyberattack would be assessed on a case-
by-case and fact-specific basis by the President and his national 
security team. If a decision is made by the President to respond to a 
cyberattack on U.S. interests, the United States reserves the right to 
respond at a time, in a manner, and in a place of our choosing, using 
appropriate instruments of U.S. power.

                                  LCS

    Question. Please articulate the specific reasons, citing DoD 
studies that justify the reduction of the LCS buy from 52 to 40.
    Answer. The decision to truncate LCS was informed by the needs of 
long-term U.S. national security strategy. First, the Department's 
warfighting analysis (briefed to HASC/SASC staffers in a classified 
setting) showed that 40 LCS/FF are sufficient to meet the Department's 
operational warfighting requirements. Second, 40 LCS/FF exceeds recent 
historical presence levels and does so with a more modern and capable 
ship. The LCS/FF will replace legacy mine countermeasure ships, 
frigates, and patrol coastal ships.
    Truncating LCS/FF freed up resources needed to modernize other 
surface ships, to increase the lethality of our undersea fleet, and to 
increase investments in naval aviation procurement and readiness. The 
Navy is mitigating risk in a war against a high end adversary by 
curtailing the procurement of the least survivable and least lethal 
surface combatant creating a more capable fleet. These investments fill 
critical gaps in capability required to counter the rapid modernization 
and technological advances of our adversaries. Even with the LCS 
reduction, the budget continues to grow the battle force from 280 ships 
at the end of FY16 to 308 ships by FY21, meeting the Department's 
posture requirement.

                                  CPGS

    Question. I would like a budget for both of those options to be 
provided to the Committee as soon as possible. For the AHW budget, 
specifically, I want the plan to include as much as possible the use 
and adaptation of current boosters in the U.S. inventory. I believe 
such options are much more cost effective than some options explored 
last year in conjunction with the Missile Defense Agency. With the 
budget, please include a timeline for deployment--I want to see the AHW 
contrasted with the submarine-platform approach. Additionally, I have 
the following questions for this year's cycle. Thank you.
    What feedback have you already received from the COCOMs concerning 
their requirements for this capability? Is it currently incorporated in 
any of the Integrate Priority Lists? Who handles the process of 
translating these IPL priorities to what you are executing in the CPGS 
arena?
    Answer. Two Combatant Commands, U.S. European Command and U.S. 
Pacific Command, have submitted high priority requirements for these 
capabilities in their most recent Integrated Priority Lists (IPLs). The 
Joint Requirements Oversight Council (JROC) conducts an annual 
assessment of Combatant Command IPLs through the Capability Gap 
Assessment. The Force Application Functional Capability Board, on 
behalf of the JROC, is responsible for identifying, assessing, and 
recommending for approval the joint military requirements for these 
capabilities.
    Question. What have you told the COCOMs concerning the timelines 
for this capability and what was their response?
    Answer. U.S. European Command and U.S. Pacific Command were 
informed through the Joint Requirements Oversight Council (JROC) 
Capability Gap Assessment (CGA) that certain capabilities will be 
fielded within the Future Years Defense Program (FYDP) 2018-2022, with 
others slated for fielding beyond the FYDP. The Combatant Commands 
concurred with the JROC CGA.
    Question. How is the current CPGS program structured to provide 
this capability, and how do the currently ongoing efforts contribute to 
reaching your end goal?
    Answer. The Department is on track for the Conventional Prompt 
Global Strike (CPGS) program to reach a Milestone (MS) A decision by 
the end of FY 2020, consistent with congressional direction.
    In 2013, the Joint Requirements Oversight Council directed via 
memorandum (JROCM) that the CPGS program focus on demonstrating the 
feasibility of hypersonic boost-glide for a potential intermediate-
range strike system independent of Service or basing/platform. The 
current CPGS technology maturation effort will inform the future 
program of record decision.
    The current OSD-led CPGS program has participation from the Army, 
Navy, Air Force and National Laboratories from across the country. The 
CPGS program has established a number of Integrated Product Teams 
(IPTs) to investigate critical technologies relevant to potential 
hypersonic boost-glide weapon systems. These IPTs are buying down risk 
for the future CPGS capability.
    The $25 million plus-up in FY 2015 has allowed the CPGS program to 
move forward with a number of hypersonic technologies that have 
applicability to a broad range of basing and platform options. In 
addition, the currently planned Flight Experiment 1 in FY 2017-2018 
will demonstrate advanced avionics, miniaturization of subsystems, 
manufacturability, and guidance algorithms.
    Finally, the CPGS team is studying basing and platform options in 
collaboration with the Joint Staff. Selection of a basing/platform 
option will pace the CPGS program of record decision after the MS A 
decision, which will be not later than the end of FY 2020.
    Question. What thought have you given to phasing the execution of 
the program to support the development of a conventional triad? Does 
this figure into your current planning?
    Answer. Current Conventional Prompt Global Strike (CPGS) activities 
are designed to develop programmatic options to engage time-sensitive, 
high-value, and defended targets from ranges beyond the capabilities of 
existing conventional weapons or in situations where other forces are 
unavailable, not responsive enough, denied access, or not preferred. In 
this phase of development, the Department is maturing common 
technologies that apply across a range of operational concepts and 
promote coordination, communication, and data sharing across the 
Services and national CPGS community.
    The CPGS technology maturation efforts intentionally support a 
broad range of basing and platform options. For instance, the CPGS 
Flight Experiment 1 in FY 2017-2018 will demonstrate component 
miniaturization, which supports accommodation of a hypersonic glide 
body that could be deployed on land, sea, or air platforms. 
Participation by the Army, Navy, and Air Force in these technology 
efforts, including sharing of ground and flight test data, analysis, 
and models and simulations, keeps the potential for capabilities across 
multiple basing/platforms open.
    By keeping the trade space open across all potential platforms, the 
CPGS effort has maintained the possibility of a Family of Systems that 
could base on land, sea, or air platforms.
    Question. Given your current approach to the problem, is there 
sufficient funding in the POM to execute your plan? If not, what other 
resources are necessary? Are you planning to a budget- or budgeting to 
a plan?
    Answer. The Department supports the President's budget and 
priorities. The Conventional Prompt Global Strike (CPGS) effort has 
sufficient funding to achieve a Milestone A acquisition decision by the 
end of FY 2020, consistent with FY 2016 congressional direction. 
Current CPGS efforts focus on maturing basing-agnostic, hypersonic 
technologies that will inform future CPGS acquisition milestone 
decisions.
    The Department's acquisition strategy to field a CPGS capability is 
under development and informed by ongoing technology maturation efforts 
and specific Warfighter requirements. As the program of record is 
defined, the Department will adjust POM inputs to support the CPGS 
development plan.
    Question. What impact have our adversaries efforts in this area had 
on your planning and budgeting process?
    Answer. The Department is monitoring other international hypersonic 
efforts as reported in the open media, such as China's DF-ZF and 
Russia's 3K22 Tsirkon systems. Our current planning is driven by the FY 
2016 National Defense Authorization Act and the 2013 Joint Requirements 
Oversight Council direction. Per this guidance, the current 
Conventional Prompt Global Strike (CPGS) plan is to continue to mature 
hypersonic technologies utilizing a synergistic combination of modeling 
and simulations, ground testing, and flight testing with an eye toward 
supporting future acquisition decisions. Finally, we are paying close 
attention to all aspects of program protection.
    Question. What is the CPGS office doing to increase the OPTEMPO of 
CPGS testing? The adversary is flying 4 times a year; we are flying 
once every 3 years!
    Answer. The Department is monitoring other international hypersonic 
efforts. The Conventional Prompt Global Strike (CPGS) effort has taken 
a deliberate approach to technology maturation by relying on the strong 
ground test and modeling capabilities of the United States. In doing 
so, the CPGS effort acquires valuable data at significantly less cost 
than flight testing.
    Although the CPGS effort conducts a flight test every three years, 
the program's OPTEMPO is much more aggressive, as evidenced by the 
numerous ground test activities that have already been completed (e.g., 
hypersonic sled tests and hypersonic wind tunnel tests).
    The CPGS program is on track to achieve a Milestone A decision by 
the end of FY 2020, consistent with FY 2016 congressional direction and 
funding.
    Question. Do you think the rapid fielding of this system is in line 
with the SCO you created?
    Answer. The current CPGS plan, derived from the FY16 NDAA and the 
2013 JROCM, does not call for a rapid fielding option. However, the 
concepts being matured under the auspices of CPGS are being shared with 
the SCO to enhance collaboration on potential early fielding options.
    The Strategic Capabilities Office (SCO) was established to rapidly 
enable new roles and capabilities for existing DoD, intelligence 
community, and commercial systems. While the SCO explores promising 
concepts across all DoD missions and technical areas, including strike, 
it focuses on innovating with existing systems and components, rather 
than developing new technologies, such as CPGS.
    Maintaining CPGS momentum and continuity is vitally important. The 
CPGS program has compiled a successful record of advancing the state of 
the art for CPGS technologies by coordinating efforts of many different 
organizations across the government, industry, government-affiliated 
laboratories, federally funded research and development centers, and 
university-affiliated research centers. The CPGS program demonstrated 
the feasibility of a boost-glide end-to-end missile concept capability 
in November 2011, led a successful warhead sled test in October 2013, 
and is now overseeing the next boost-glide flight experiment, 
designated as Flight Experiment 1 (FE-1). An integrated master schedule 
is in place and competitive contract awards were completed in September 
2014. The CPGS program has established a strong, collaborative team and 
is making progress on a number of technical fronts for hypersonic 
flight systems.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Diaz-Balart and the answer thereto 
follows:]

                  Hispanic Serving Institutions (HSI)

    Question. The Department of Defense, through the Assistant 
Secretary of Defense for Research and Engineering (ASD(R&E)), provides 
grant funding for a research and education program targeted to 
Historically Black Colleges and Universities and minority-Serving 
Institutions' The program is designed to improve the capabilities of 
HBCU/MSI to conduct research and educate scientists and engineers in 
areas important to national defense.
    It is my understanding that DoD began an effort to include more 
Hispanic-Serving Institutions through this program a few years ago. 
What is being done on a national scale to strategically include 
Hispanic-serving institutions? Can DoD provide statistics/data on HSI 
related DoD research? How can this committee partner with DoD to ensure 
HSI's have an opportunity to contribute to the national defense of our 
nation? How can DoD better improve the capabilities of the HSI defense 
related research'?
    Answer. The focus of these questions appears to be the research and 
education funding program that the Office of the ASD(R&E) administers 
under the authority of 10 U.S.C Sec. 2362. Therefore, I will respond in 
that context, as well as in the larger context of DoD-wide activities 
that benefit the Hispanic population.
    1. What is being done on a national scale to strategically include 
HSIs?
    On a national scale, through outreach activities such as workshops 
and webinars, we encourage minority-serving institutions, including 
HSIs, to participate in DoD programs. These events provide information 
about DoD business processes, including solicitations, proposal 
submissions and reviews, research areas of interest, and other 
information to assist them in responding to DoD funding opportunities.
    The HSI community routinely responds to DoD funding opportunities 
for which all institutions of higher education can compete. These 
include the Defense University Research Instrumentation Program and the 
Multidisciplinary University Research Initiative, as well as single-
investigator programs. With respect to our targeted funding program, 
only designated minority-serving institutions (MSIs) are eligible to 
compete. HSIs constitute one of those eligible groups. We issue an 
annual solicitation and use a merit review process to assess which 
applications are most technically meritorious.
    2. Can DoD provide statistics/data on HSI related DoD research?
    Each year, DoD prepares a report for the White House Initiatives 
Offices (within the U.S. Department of Education) that provides 
comprehensive data on our funding experience--research and other types 
of funding--and additional activities with HSIs. We obtain the direct 
funding information from our systems that feed USASpending.gov. In FY 
2014, the most recent year for which comprehensive data are available, 
DoD awarded an aggregate $81.6 million to HSIs. Of that amount, $58.8 
million was for research and development activities. The impact of 
other DoD activities that benefit HSIs, e.g., campus visits and 
technical assistance workshops, is more difficult to quantify. In 
addition, DoD has a plan, developed pursuant to Presidential Executive 
Order 13555, ``White House Initiative On Educational Excellence For 
Hispanics,'' that includes Science, Technology, Engineering, and 
Mathematics (STEM) activities at all educational levels as well as DoD 
workforce diversity in order to benefit the Hispanic population more 
broadly.
    3. How can this committee partner with DoD to ensure HSIs have an 
opportunity to contribute to the national defense of our Nation?
    The committee can partner with DoD in encouraging HSIs to apply 
under the various basic and applied research opportunities (e.g., 
research project funding, equipment funding, scholarships, fellowships, 
and internships) that are available annually. The committee can also 
assist in increasing HSI graduates' awareness of DoD as a potential 
employer for STEM and other disciplines.
    4. How can DoD better improve the capabilities of the HSI defense 
related research?
    Primarily through implementation of our STEM strategic plan and our 
current efforts to respond to congressional direction, DoD intends to 
place emphasis on increasing the capabilities of MSIs, including HSIs, 
to conduct defense-related research and provide STEM education. Through 
the STEM strategy required by the FY 2016 National Defense 
Authorization Act for Fiscal Year 2016, Public Law 114-92, and the 
report to Congress requested by the House Report 114-139, accompanying 
H.R. 2685, the DoD Appropriations Bill, 2016, we will be engaged over 
the next few years in efforts to increase the participation of 
underrepresented minorities in STEM activities, with one focus being 
MSIs and their students. In addition, DoD will continue its program to 
provide equipment needed at HSIs to strengthen their STEM programs and 
research capacity to carry out research related to the DoD mission.

    [Clerk's note.--End of questions submitted by Mr. Diaz-
Balart. Questions submitted by Ms. McCollum and the answers 
thereto follow:]

                            Maternity Leave

    Question. Our women and men in uniform are the most important 
resource that we have and we must build a fighting force that retains 
the investments we have made in our service members.
    Can you elaborate on the Department's decision to reduce the Navy's 
maternity leave benefit from 18 weeks to 12 weeks?
    Answer. The legal basis for the maternity leave expansion is rooted 
in the Department's authority to grant convalescent leave. Convalescent 
leave isn't technically leave, but rather it is the Service member's 
place of duty to ensure they're fully recovered from childbirth and 
ready to resume their duties.
    The maternity leave policy creates additional ancillary benefits 
for the Department by potentially improving recruiting and retention. 
Given that we retain women at a 1/3rd lower rate than we do men at 10 
years of service, the expected ancillary benefit of improved retention 
is very important in determining what would be an appropriate maternity 
leave period, the readiness of individual Service members had to be 
weighed against overall unit readiness, rather than retention goals.
    Careful consideration of all these factors, and the advice of 
senior uniformed leadership, led the Secretary of Defense to determine 
12 weeks was the most appropriate standard for maternity leave across 
the Department.

                  Base Realignment and Closure (BRAC)

    Question. Within the proposed FY2017 budget, DoD requests 
authorization to authorize a new BRAC round in 2019 as well as $4 
million for planning and oversight. In previous years, the DoD asked 
for a BRAC round in 2017 that was rejected by the authorization 
committees and by amendments offered on the Floor to deny funding for 
any planning for BRAC activities.
    Secretary, in your proposed budget for FY 2017, you include $4 
million to begin planning for a new BRAC round in 2019. The last BRAC 
was conducted in 2005 and has been characterized as more of a 
consolidation BRAC than one healed for efficiency. Why does the 
Department need to conduct a BRAC? How much would the BRAC save for 
future budgets? What percentage of the budget is currently spent on 
unused facilities and maintenance?
    Answer. The Department has been clear that it needs to maximize its 
defense capabilities within its constrained budgets. The Department has 
parametrically estimated that it has 22 percent excess capacity. 
Elimination of excess infrastructure through an analytical, 
transparent, and apolitical process such as base realignment and 
closure (BRAC) is the best way to achieve critical savings while 
minimizing operational impact. We estimate that a BRAC 2019 round will 
save around $2 billion annually which would come primarily from closing 
unnecessary installations, based on the 1993 and 1995 rounds. The 
Department does not track spending on unused facilities and 
maintenance; however, every dollar spent on unnecessary facilities is a 
dollar wasted. Significant savings are generated by closing 
installations in their entirety, not by hollowing out bases, which will 
inevitably result absent BRAC authority.

    [Clerk's note.--End of questions submitted by Ms. McCollum. 
Questions submitted by Ms. Kaptur and the answers thereto 
follow:]

                    State Partnership Program (SPP)

    Question. What does this budget do to facilitate growing the State 
Partnership Program? What additional authorities would you need to 
expand the SPP mission to include humanitarian missions, counter 
messaging efforts, and to work with civilian populations in the partner 
countries? What effort is there to capitalize on the immense personal 
ties to this region and capabilities in the U.S. to combat Russian 
subterfuge and propaganda, particularly in the area of social media and 
television?
    Q26.1: What does this budget do to facilitate growing the State 
Partnership Program?
    In accordance with the National Defense Authorization Act (NDAA) 
for Fiscal Year 2016, the Undersecretary of Defense for Policy and the 
Undersecretary of Defense (Comptroller) are undertaking a feasibility 
study on the establishment of a centralized funding account to support 
the State Partnership Program (SPP). In the meantime, SPP activities 
are supported by a variety of funding streams, including U.S. Army and 
U.S. Air Force funds allocated for that purpose, along with sources 
that geographic combatant commanders can access to respond to their 
specific security cooperation objectives. As such, potential SPP growth 
would be supported by a combination of resources made available through 
these various funds.
    Q26.2: What additional authorities would you need to expand the SPP 
mission to include humanitarian missions, counter messaging efforts, 
and to work with civilian populations in the partner countries? What 
effort is there to capitalize on the immense personal ties to this 
region and capabilities in the U.S. to combat Russian subterfuge and 
propaganda, particularly in the area of social media and television?
    The National Guard utilizes existing Department of Defense legal 
authorities to engage in humanitarian assistance/disaster response 
missions. Examples include the Overseas Humanitarian, Disaster, and 
Civic Aid Appropriation (OHDACA) fund, Humanitarian Assistance, 
Transportation of Humanitarian Relief Supplies to Foreign Countries, 
and Foreign Disaster Assistance. The SPP is not the appropriate tool to 
conduct overt intelligence collection or military information support 
operations such as counter-messaging, or for other efforts to influence 
civilian populations.

    Survivor Benefit Program and Dependency & Indemnity Compensation

    Question. Under current law, a required offset in payment between 
her Dependency and Indemnity Compensation and her Survivor Benefit Plan 
annuities, prohibits widows and widowers of active duty service members 
from receiving the full amount of both.
    Should this issue be considered as we look to reform military 
compensation? What can DoD do to address this offset?
    Answer. The Department has consistently opposed proposals to 
eliminate the offset between Survivor Benefit Plan (SBP) annuities and 
Dependency and Indemnity Compensation (DIC) at government expense for 
the following reasons:
          Duplication of benefits: The entitlements are paid by 
        separate departments for the purpose of providing a continuing 
        annuity to the survivors of military members or former members. 
        Both benefits are subsidized by the federal government.
          Complementary programs: DIC is a flat $1,254 per month, plus 
        $311 for each dependent child (2016). SBP is 55 percent of an 
        elected base amount not to exceed retired pay. The existing 
        entitlement, with offset, ensures that survivors receive the 
        higher value. This sets DIC as a floor for more junior members 
        while allowing more senior members the potential of a larger 
        SBP amount with all the benefits from the tax free aspect of 
        DIC.
          Equity: Allowing concurrent receipt of SBP and DIC without 
        offset would create a group of survivors receiving two 
        government-subsidized survivor annuities. Survivors of most 
        military retirees and survivors of veterans who did not serve 
        to retirement would receive only one.
          High cost: Eliminating the SBP offset for all survivors 
        entitled to DIC would cost the Military Retirement Fund more 
        than $7 billion over 10 years.

                                 Syria

    Question. How does the DoD define victory in Syria and what does it 
look like?
    Answer. We collectively achieve victory as a coalition when ISIL no 
longer poses a threat to the U.S., our allies, and our partner nations. 
Specifically, the coalition must deny ISIL safe haven, effectively 
degrade ISIL' s command and control by removing key leaders from the 
battlefield, and dismantle the facilitation networks that allow ISIL to 
fund operations and move resources freely in Iraq, Syria and beyond.
    Success in Syria requires working with our Turkish partners to 
secure the northern border of Syria, supporting vetted Syrian 
opposition forces who are willing to fight ISIL, and conducting strikes 
to attack core ISIL's command and control and sources of revenue, while 
disrupting their ability to plan and conduct external attacks against 
the homeland, our partners, and our allies.

                              Afghanistan

    Question. During the hearing, GEN Dunford stated our ``national 
interests in Afghanistan are to maintain an effective counter-terrorism 
platform and partner in that part of the world.''
    How does this change the scope of our operations in Afghanistan? Is 
this in accordance with the original authority authorizing the use of 
force in Afghanistan? Does this imply an enduring force in Afghanistan 
to maintain a counter-terrorism platform?
    Answer. The continued threat requires that we maintain an effective 
counterterrorism (CT) partner and platform in Afghanistan. This does 
not represent a change to the scope of U.S. military operations. The 
U.S. is currently conducting CT operations that will continue as part 
of the strategic partnership with Afghanistan in accordance with the 
Authorization to Use Military Force (AUMF) to defeat Al Qaeda, and 
including the Islamic State in the Khorasan Province.

                                 Energy

    Question. Executive Order 13693, set goals of 25% renewable energy 
production and 15% renewable energy consumption by 2025. Where are you 
currently with these goals? What in the budget address achieving these 
goals?
    Answer. Executive Order 13693, ``Planning for Federal 
Sustainability in the Next Decade,'' established new targets for the 
production of clean energy and the consumption of renewable energy. 
Reporting on progress towards meeting these new targets will begin 
after FY 2016 has ended.
    For FY 2015, the Department was subject to two legislatively 
mandated renewable energy goals:
          1) 10 USC 2911(e): produce or procure 25 percent of 
        electricity consumption from renewable sources by FY2025 and
          2) Energy Policy Act (EPAct) 2005: consume 7.5 percent 
        electricity from renewable sources by FY2015.
    DoD met the FY 2015 target milestone for 10 USC 2911(e) goal, 
achieving 12.4 percent against a target of 12 percent, but failed to 
meet the EPAct 2005 goal, achieving just 3.6 percent against a target 
of 7.5 percent.
    The Department spends very little appropriated funding on acquiring 
renewable energy facilities. Typically, DoD pursues small-scale 
distributed renewable energy (e.g. rooftop solar equipment, solar 
heaters, ground source heat pumps) only when the business case supports 
it. For larger-scale renewable energy projects, DoD is leveraging 
third-party financing in which the Department allows a renewable energy 
developer to construct, own, operate and maintain the renewable energy 
resource. In turn, the Department purchases the renewable energy 
generated at or below the cost of what DoD would pay for conventional 
power. DoD does not make any capital investment in the renewable energy 
project itself. When economically feasible, renewable energy projects 
are being built with micro-grid-ready applications that can enable the 
provision of continuous power in the event of a disruption. This 
redundant, secure, and reliable power from renewable generation 
significantly reduces the risk of blackouts or other power disruption 
events and enables the DoD to continue to carry out its mission.

                                 F-35A

    Question. The budget calls for a reduced purchase of F-35A's for 
the Air Force. Will this impact fielding of the F-35 to the National 
Guard?
    Answer. While the number of F-35As was reduced in the FY 2017 
President's Budget, the Air Force's commitment to the program of record 
of 1,763 F-35As remains unchanged. The reduced purchase may slow the 
National Guard's transition to the F-35A, but it will not change the 
planned allocation of F-35As assigned to the National Guard.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]

                                            Tuesday, March 1, 2016.

  FISCAL YEAR 2017 UNITED STATES NAVY AND MARINE CORPS BUDGET OVERVIEW

                               WITNESSES

HON. RAY MABUS, SECRETARY, UNITED STATES NAVY
ADMIRAL JOHN M. RICHARDSON, CHIEF OF NAVAL OPERATIONS, UNITED STATES 
    NAVY
GENERAL ROBERT B. NELLER, COMMANDANT, UNITED STATES MARINE CORPS

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The committee will come to order, 
everybody can take their seats, please. Good morning, 
everybody, the committee will come to order. This morning, the 
subcommittee continues a series of open defense posture and 
budget hearings with our military services, our combatant 
commands, and other major components of our Armed Forces. Today 
we focus on the fiscal year 2017 budget request, and the 
posture of the Navy and our Marine Corps.
    Joining us this morning is Secretary of the Navy, Ray 
Mabus, who will be testifying before this committee for the 
final time. I understand that Secretary Mabus is the longest-
serving Secretary since World War I. I stand ready to be 
corrected, but it is a long time in grade, and we thank you for 
your very honorable service, not only to your home State, but 
to the Nation and to the Navy and the Marine Corps.
    We also welcome, for the first time, Admiral John 
Richardson, Chief of Naval Operations; and General Robert 
Neller, the 37th Commandant of the Marine Corps. On all of our 
behalves, we thank you for the remarkable job you do, and the 
men and women who you support and lead across the Nation and 
across the world. We are enormously proud of all of you and 
your leadership responsibilities.
    In this time of rapidly expanding threats to our national 
security, our goal in these hearings, and in our fiscal year 
2017 bill is to make sure our sailors and Marines and their 
families have everything they need. Every day brings another 
report regarding China's attempt to assert itself in the 
Western Pacific. They are building ships, submarines, 
underwater submarine pens, their naval militia is increasing, 
and they are designing cutting-edge weapons at an alarming 
rate. All of these things, quite honestly, simultaneously.
    In the South China seas, they construct runways, air 
defense radar systems, and missile batteries on some of these 
disputed islands. They are bent on denying us access to 
airspace and challenge us, literally, at every turn. Their 
actions test our rules of engagement on a regular basis.
    And then there is the regime in North Korea, which 
continues to illegally launch satellites and test missiles and 
nuclear systems. These provocative actions taken by North Korea 
undermine global security. Likewise, Iran is building naval 
capacity, its sophisticated antiship missiles to menace our 
forces in the Persian Gulf.
    At the same time, a newly-aggressive Russia expands and 
modernizes its surface and submarine forces. These fleets are 
now more active in the Atlantic--we have heard a lot about that 
in this committee--and in the Mediterranean than any time since 
World War II. They are also expanding a naval base to allow new 
ballistic missile submarines in the Northern Pacific.
    With all of these current and emerging threats, and a new 
pivot to Europe, we still have yet to fully implement our 
Pacific strategy. While such a pivot surely requires a greater 
emphasis on the Navy and Marine Corps, we continue to see 
budget requests that only marginally provide for an increased 
naval presence in the Pacific.
    As was true last year, all of us remain concerned with the 
core Navy, ships and shipbuilding, and the shipbuilding 
industrial base. And after much talk of a 313-ship Navy, today 
the Navy has 272 deployable ships. For fiscal year 2017, your 
goal is to have 287 deployable ships. I continue to ask whether 
this is enough. Are we building enough ships and submarines to 
decisively defend against and deter our enemies in all corners 
of the globe, including the Arctic? You have heard me say this 
before: When it comes to ships, numbers matter. Yes, quantity 
has a quality all of its own.
    In addition to the quantity of ships, all of us are 
concerned with the mix of ships, submarines, surface 
combatants, amphibs, support ships, and how they are operated 
and maintained. The logistics tail is important, as is what the 
tyranny of distance in the Pacific does to their lifespan.
    In this area of budget constraints, we need to make sure 
that we are making every dollar count by investing in the 
correct ships, in the correct numbers, at the correct time. We 
also need to ensure that we are investing in the right weapon 
systems and advanced technology for the immediate threats we 
face, not just future conflicts. The strategy of playing 
catchup will only encourage more dangerous and aggressive 
behavior from our adversaries.
    So I need to say right up front, we all need to work 
extremely closely together to ensure the funding you are 
appropriated is sufficient to take care of our sailors and 
Marines and maintain their readiness at the highest possible 
level.
    On behalf of all of our committee members, I ask you, 
again, to convey to all of our sailors and Marines, our deep 
gratitude for their skill, determination, sacrifice, and all 
the things their families face while they are away on 
deployment.
    We have much to talk about this morning. F-35, littoral 
combat ships, cruisers readiness, and end strength, to name 
just a few issues. We look forward to your comments and an 
informative question-and-answer session. We have a number of 
members here, and more are expected; quite a lot of time 
commitments with other hearings. But we are keenly interest and 
supportive of what you are doing. Let me turn to my good 
friend, the ranking member, Mr. Visclosky for any comments he 
may wish to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you very much, Mr. Chairman. I think 
the chairman set the table very well for us. I appreciate his 
holding the hearing. And gentlemen, I thank each of you for 
your service and for your testimony today and certainly look 
forward to the interchange. Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Secretary, the floor is yours, 
welcome.

                  Summary Statement of Secretary Mabus

    Secretary Mabus. Thank you, Mr. Chairman. Chairman 
Frelinghuysen, Ranking Member Visclosky, members of the 
committee, thank you for the opportunity to be here with you 
today to discuss the Department of the Navy. As the chairman 
pointed out, this is the first testimony before the committee 
for the Chief of Naval Operations, Admiral Richardson, and the 
Commandant of the Marine Corps, General Neller.
    In the time since they took these positions, I have had the 
privilege of their frank, their professional, and their 
invaluable counsel. They are officers of the highest caliber, 
who expertly lead our Navy and Marine Corps during ever-
tightening fiscal constraints and an increasingly dynamic 
threat environment.
    This is my eighth time, which may be a record, and I am not 
sure anybody wants it, and my last to appear before you. Thank 
you for all of your courtesies to me and thank you for all that 
you have done for the Department of the Navy. For me, leading 
the Department of the Navy is the greatest honor of my life. I 
couldn't be more proud of our sailors, our Marines, our 
civilians. I am also proud of the many steps we have taken and 
the changes we have made to try to ensure working with Congress 
that the Navy and Marine Corps in the future remains the 
greatest expeditionary fighting force the world has ever known.
    First and foremost, we continue to provide presence. That 
unrivaled advantage, all and above, beneath, and from the seas, 
gives our leaders options in times of crisis, reassures our 
allies, deters our adversaries. There is no next best thing to 
being there. Maintaining that presence requires gray hulls on 
the horizon. And while there has been discussion about posture 
versus presence, the simple fact is that for the Navy and the 
Marine Corps, our posture is presence.
    In every case, from high-end combat to irregular warfare, 
to disaster relief, our Naval assets get on station faster, we 
stay longer, we bring everything we need with us, and since we 
operate from ships, which are sovereign American territory, we 
can act without asking any other nation's permission.
    That is the U.S. Navy and Marine Corps, America's away team 
doing its job across the globe. Resourcing that presence 
depends on four fundamentals: people, our sailors and Marines; 
platforms, our ships and aircraft; power, how we use energy and 
make us better warfighters; and partnerships, our relations 
with our international allies, with industry, with the American 
people.
    When I took this post almost 7 years ago, we had an 
incredibly committed and capable force. But each of those four 
Ps was under pressure. Our people were under stress from a high 
operational tempo and extended deployments; our fleet was 
shrinking; and too many of our platforms were costing too much. 
Our use of power was a vulnerability. We were losing too many 
Marines guarding fuel convoys in Afghanistan, and volatile oil 
prices were stressing a lot of areas, particularly training. 
And our partners were seeking reassurance of our sustained 
engagement.
    Now our people, platforms, power, and partnerships are 
stronger than they have been in many years, enabling us to 
provide that invaluable presence. And here is why: people. We 
have instituted the most sweeping changes in personnel policy 
in many years. Promotions are based now more on merit and not 
tenure. Commanding officers are empowered to meritoriously 
promote more sailors and Marines. We have made careers paths 
more flexible. One example is, thanks to congressional action, 
the Career Intermissions Program, which has been greatly 
expanded.
    We have also increased professional development, 
educational opportunities that bring America's best ideas to 
the fleet by adding 30 graduate schools slots through our Fleet 
Scholars Education Program and sending high-performing sailors 
on SECNAV industry tours to great American companies, like 
FedEx and Amazon, where they learn private-sector best 
practices that can be applied when they return.
    We are absolutely committed from the leadership to the deck 
plates on combating the crime of sexual assault, and the 
tragedy of suicide. We have revamped physical fitness 
assessments, making them more realistically aligned to the jobs 
that we do, and we have promoted healthier lifestyles through 
better nutrition and a culture of fitness.
    All billets in both services are now open to women. 
Standards will absolutely not be lowered. But anyone who can 
meet the standards will be able to do the job. This will make 
us a more combat-effective force. We are trying to mitigate 
stress on sailors and Marines and their families by making 
deployments more predictable, extending hours for childcare, 
and creating co-location policies. To tap into the innovative 
culture inherent in the Navy and Marine Corps, we established 
task force innovation, which takes good ideas from deck plate 
sailors and field Marines through our online crowd sourcing 
platform, to recognize, fund, and rapidly move those ideas 
fleet-wide.
    On platforms, we have reversed the decline in ship count, 
and thanks to Congress, and, in particular, to this committee. 
Our Navy will reach 300 ships by 2019, and our assessed and 
validated need of 308 ships by 2021. In the 7 years before I 
took office, the Navy contracted for 41 ships. In my 7 years, 
we have contracted for 84. And we have done so while increasing 
aircraft purchases by 35 percent, all with a smaller top line.
    Practices like firm, fixed-price contracts, multiyear buys, 
stable requirements, have driven down cost on virtually every 
class of ship. We are also in the process again, thanks to 
Congress and thanks to this committee, of recapitalizing nearly 
every Naval aviation program. We have expanded unmanned 
systems, on, under, and above the sea, and increased focus by 
establishing a Deputy Assistant Secretary of the Navy for 
Unmanned, and an Office of Unmanned Warfare Systems on the CNO 
staff, known as N99, specifically designed to coordinate all 
unmanned programs. We are also implementing advanced energy 
technologies like electromagnetic rail guns and lasers.
    Power. To increase our lethality and operational 
flexibility, I set a goal of having 50 percent of sea and 
shore-based energy derived from alternative sources by 2020, 
competitive with the price of conventional power. We met that 
goal ashore by the end of last year. At sea, after 
demonstrating the Great Green Fleet at RIMPAC in 2012, we 
deployed it for routine operations a few weeks ago. Energy 
efficiency has been greatly increased on our bases, and at sea. 
Ultimately, since 2009, both the Navy and Marine Corps have 
achieved a large drop in oil consumption.
    And, finally, partnerships. I have traveled nearly 1.2 
million miles to 144 different countries and territories, 
visiting sailors, Marines, allies, and partners. Twelve of my 
trips have been to Afghanistan, where I have visited every 
Marine-forward operating base in Helmand Province to be with 
our forward-deployed men and women. And I have actively engaged 
with our allies and friends around the world to build and 
sustain a network of navies with whom we train, operate, and 
trust. And we have worked in partnership with Congress to 
fulfill the constitutional mandate to provide for and maintain 
a Navy. As a result, our sailors and Marines are there for us 
at home and abroad, around the globe, around the clock.
    As George Washington once said, ``It follows then as 
certain as that night succeeds the day that without a decisive 
Naval force, we can do nothing definitive and with it 
everything honorable and glorious.'' Thank you, Mr. Chairman.
    [The written statement of Secretary Mabus follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
                    Summary Statement of Admiral Richardson

    Mr. Frelinghuysen. Thank you. Admiral Richardson, good 
morning. Thank you for being with us.
    Admiral Richardson. Good morning, sir. Chairman 
Frelinghuysen, Ranking Member Visclosky, distinguished members 
of the committee, I am honored and humbled for the privilege to 
appear before you today as your CNO on behalf of the over 
500,000 active and reserve sailors, our civilians, and their 
families.
    Mr. Frelinghuysen. If you could move your microphone just a 
little closer to you.
    Admiral Richardson. Is that better? To start, sir, I want 
to thank you and the committee for your leadership in keeping 
our Nation secure, and in keeping our Navy the strongest that 
has ever sailed the seas. This year's budget continues our 
important work. I always think it is good to start by framing 
the problem. America is a maritime Nation, and our prosperity 
is inextricably linked to our ability to operate freely in the 
maritime environment. And today's strategic environment is 
increasingly globalized and increasingly competitive. Our 
global systems are used more and more, they are stressed more, 
and they are contested more. For the first time in 25 years, 
there is competition for control of the seas. The maritime 
environment has seen explosive growth; from the sea floor to 
space, from deep water to the shoreline, and in the information 
domain, things are accelerating.
    The global information system has become pervasive and has 
changed the way we do business, we all do business, including 
at sea. And technology is being introduced at an unprecedented 
rate, and is being adopted by society just as fast.
    And finally, Mr. Chairman, as you outlined, a new set of 
competitors are moving quickly to use these forces to their 
advantage, and for the first time in 25 years, the U.S. is 
facing a return to great power competition. These new forces 
have changed what it means for the Navy and Marine Corps to 
provide maritime security. And while the problems are more 
numerous and complex, our responsibility remains the same. 
Naval forces must provide our leaders credible options to 
protect America from attack, advance our prosperity, further 
our strategic interests, assure our allies and partners, and 
deter our adversaries, which rests on our ability, and, with 
our sister services, to win decisively if conflict breaks out.
    To do this, the Navy is focusing on four lines of effort. 
First and foremost, we are going to do right by our people. 
Everything we do begins and ends with them. With the Marines, 
we are going to broaden our Naval warfighting concepts and 
capabilities. We are going to strengthen our partnerships, and 
we are going to learn faster. Unquestionably, the most 
important part of our Navy is our Navy team. Everything we do 
begins with them. As our platforms and missions become more 
complex, the need for talented people continues to be a 
challenge. We need to recruit, train, and retain the right 
people and our Sailor 2025 initiatives that the Secretary 
highlighted are aimed squarely at that challenge. These efforts 
are based on our core values of honor, courage, and commitment, 
and demonstrated through four core attributes: integrity, 
accountability, initiative, and toughness.
    That team is committed to our mission, which requires us to 
strengthen our power at and from the sea. This budget reflects 
some very tough choices as we achieve this aim. We prioritize 
shipbuilding and the industrial base to the maximum extent 
possible.
    First in that effort is the Ohio Replacement Program, which 
I believe is vital to our survival as a Nation. We are taking 
steps to more deeply ingrain information warfare. We are 
investing in our Naval aviation enterprise, rapidly integrating 
unmanned systems, and bolstering our investments in advanced 
weapons. In addition to these investments, we are also 
adjusting our behaviors to keep pace with the world that 
continues to accelerate. We are doubling down on our approach 
that relies more heavily on experimentation and prototyping, 
and we are pursuing multiple avenues to drive shorter learning 
cycles into all that we do. We must learn faster.
    Mr. Chairman, and members of the committee, the 2017 Navy 
budget is this year's best approach to solving the problems and 
seizing the opportunities that face the Navy today. I thank 
you, and I look forward to your questions.
    [The written statement of Admiral Richardson follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
                  Summary Statement of General Neller

    Mr. Frelinghuysen. Thank you, Admiral. General Neller.
    General Neller. Chairman Frelinghuysen, Ranking Member 
Visclosky, distinguished members of the committee, thank you 
for the opportunity to be here with you this morning. Your 
Marines know that the Congress and the American people we serve 
have high expectations of us. You expect us to be ready to 
answer the call to fight and to win. Today, Marines remain 
forward deployed in Iraq and Afghanistan, and ready to respond 
to crises around the world. The posture of our force would not 
be possible without the support and actions of the Congress. 
Our global orientation, our maritime character, and 
expeditionary capability have all been ably demonstrated during 
this past year. In 2015, along with our Navy shipmates, Marines 
executed approximately 100 operations, 20 of them amphibious, 
140 theater security cooperation events, and 160 major 
exercises.
    Today's Marine Corps is a capable Naval force, and our 
forward-deployed forces are ready to fight, but we are fiscally 
stretched to maintain the readiness across the depths of the 
force, and at the same time, modernize to achieve future 
readiness.
    As we remain engaged in the current fight and maintain our 
forward presence in order to respond to crises, our enemies and 
potential adversaries have not stood idle. They have developed 
new capabilities which now are comparable, and, in some cases, 
exceed our own. This is further complicated by a constrained 
resource environment from which we must continue our current 
operational tempo, reset our equipment, maintain our 
warfighting readiness, and, at the same time, modernize.
    As our attention is spread across the globe in a security 
environment where the only certainty is uncertainty, we must 
make decisions about our strategy and structure that will 
determine our Nation's military capability in the future. The 
character of the 21st century is rapid evolution. It is 
imperative that we keep pace with change. History has not been 
kind to militaries that fail to change or evolve. And the 
change we see in the beginning of this century and beyond, we 
believe is dramatic.
    The efforts of the 114th Congress have provided sufficient 
resources to support the Marine Corps' near-term readiness, and 
we thank the Congress for that fiscal stability. However, the 
President's budget for fiscal year 2017 increasingly challenges 
your Corps to simultaneously generate current readiness, reset 
our equipment after 15 years of war, and sustain our facilities 
and ranges, and, at the same time, modernize to ensure future 
readiness and capabilities.
    Additionally, maintaining the quality of the men and women 
in today's Corps is our friendly center of gravity. In other 
words, that thing that we must protect. This is the foundation 
for which we make Marines, win our Nation's battles, and return 
quality citizens to our society. As the Marine Corps draws down 
to 182,000 Marines, we continue to develop capabilities in the 
fifth generation fighter, the F-35, cyber warfare, information 
operations, special operations, embassy security guards, in our 
security cooperation group. Our goal is to ensure that we set 
every Marine up for success on the battlefield and in life and 
that they understand their value to our Corps and the Nation. 
The Congress' intent is for the Marine Corps to serve as the 
Nation's force in readiness. And that guides who we are and 
what we do.
    Being ready is central to our identity as Marines. The 
fiscal reductions and instability of the past years have 
impacted our readiness and, as resources have diminished, the 
Marine Corps has protected the near-term operational readiness 
of its forward deployed and next to deploy units in order to 
meet our operational commitments. This means that we do not 
have the depth or readiness on our bench that we would like for 
a major contingency.
    Modernization is our future readiness. The recapitalization 
of our force is essential to this future readiness with 
investments in facilities, sustainment, equipment reset, 
modernization, ground combat vehicles, aviation command and 
control, and other capabilities. That said, with the continued 
support of the Congress, the Marine Corps will maintain ready 
forces today and modernize to generate this future readiness. 
The wisdom of the 82nd Congress reaffirmed by the 114th 
Congress remains valid today. The vital need of a strong force 
in readiness and your Marines are honored to serve in this 
role.
    Again, thank you for the opportunity to appear before you 
today and your leadership in addressing our fiscal challenges 
and our warfighting readiness. I look forward to your 
questions.
    [The written statement of General Neller follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
               FLEET SIZE IN RELATION TO CURRENT THREATS

    Mr. Frelinghuysen. Thank you very much, General Neller. Our 
focus today is on the Navy and Marine defense posture, but a 
lot of that is formed by the growing defense posture of both 
Russia and China, and this committee has been devoted in a 
variety of different settings to learn exactly what the 
Russians and Chinese are doing.
    For a time when I first got on the committee, we sort of 
looked at the Chinese as not as great an adversary because of 
what we always regarded as our overwhelming superiority. But 
today, we see what they are doing around the world, and 
whatever we do, we need to get it right. And I wanted to get to 
the issue, which I mention to you often, Mr. Secretary, that 
numbers matter. The ships, I know you have been caught in some 
degree of crossfire, but in reality, we have the smallest Navy 
we have ever had. And then there is talk of, and there has been 
some action out of the Department of Defense to lower certain 
ship numbers. We need a mix. Where are we going? And are we 
fully capable of meeting our needs given what the Chinese are 
doing aggressively, and what the Russians are doing 
aggressively?
    Secretary Mabus. Mr. Chairman, you just made the points I 
have been trying to make, but more eloquently than I have. We 
deal with the fleet size we do today because of decisions made 
10, 12 years ago. It takes a long time to build a ship. It 
takes a long time to build up a fleet. And I am very proud of 
where we have come, primarily, with the help of this committee 
to move to validated need from our Force Structure Assessment 
of 308 ships by 2021. And it is a good mix of ships. We are 
building two Virginia-class attack submarines a year. We are 
building two DDG 51s a year. We are, in this budget request, 
asking for our next big-deck amphibious ship to build to the 
Marine need of at least 33, but preferably 38 amphibs, and to--
--
    Mr. Frelinghuysen. I am interested in the numbers. I think 
we are also interested in their capabilities. We are going to 
have a smaller fleet, and I understand we have set a high goal 
for more ships, a better mix. If we don't have the numbers, 
what are we doing to add to capabilities?
    Secretary Mabus. Well, number one, Mr. Chairman, we are 
getting the numbers. It just takes us----
    Mr. Frelinghuysen. You are getting the numbers in large 
part because of this committee; instead of one-and-a-half 
Virginia class submarines, we demanded two. And if we had our 
power we would probably have a higher number.
    Secretary Mabus. As I tried to thank you for doing that, 
primarily due to this committee, to Congress, we are on track 
to--we are there in terms of the contracts signed, in terms of 
authorizations, appropriations, we will get to 308 ships by 
2021. So what the debate is about is about whether we keep that 
fleet, whether we keep it past 2021, whether we add to the 
capabilities, and in this budget request, we have requested 
money for the Virginia Payload Module, to increase the 
capabilities of the Virginia class.
    We are moving from littoral combat ships to the frigate 
which has greatly increased lethality and survivability. What 
this budget request has done with the LCS is preserve decision 
space for the next administration and Congress.

                         LITTORAL COMBAT SHIPS

    Mr. Frelinghuysen. Well, the Secretary of Defense has 
ordered a reduction in the number of littoral combat ships, so 
how does that measure up?
    Secretary Mabus. Well, because we have two shipyards that 
make these littoral combat ships.
    Mr. Frelinghuysen. And may I say, the committee is very 
keen on supporting our industrial base, not only for those 
ships, but for other ships.
    Secretary Mabus. So are we. Because if you lose shipyard 
workers, if you lose that industrial base, it is almost 
impossible to get it back. And the recommendation in the budget 
is for two littoral combat ships in fiscal year 2017. What this 
does is keep both shipyards healthy, keep both shipyards open, 
and preserve decision spaces as to how we go forward from 
there.
    The decisions about what to do, the number of littoral 
combat ships, the type of littoral combat ships, will not be 
made by this administration. They will be made by the next 
administration and by Congress. And this allows the decision 
space for the next administration and for Congress to go in 
whatever direction they want to, with a healthy industrial base 
when you make that decision.
    Mr. Frelinghuysen. Mr. Visclosky.

                 DOMESTIC SHIPBUILDING INDUSTRIAL BASE

    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Secretary, you 
ended on industrial base, and that is what I would like to 
direct my line of questioning to. The current fiscal year 2016 
bill, which passed on the floor of the House with this 
committee's support as well as the support of the Senate full 
committee, contained a general provision that prohibited the 
use of funds to award a new TAO(X) program contract for the 
acquisition of certain components, unless those components were 
manufactured in the United States.
    The components included auxiliary equipment, including 
pumps, shipboard service; propulsion equipment, including 
engines, reduction gears, propellers, cranes, spreaders. Both 
the House and Senate committees agreed, and I appreciate the 
support of the committee and the chairman on that issue. During 
conference, the Navy requested a waiver of that option to 
procure an engine with sufficient power to propel the ship 
based on design specifications, and in the end, in conference, 
the Secretary was given that ability to request a waiver.
    I would remind my colleagues that the ship involved here is 
a fleet oiler. And I don't diminish the importance of fleet 
oilers. But this is an oiler, this is not an attack submarine; 
this is not a nuclear aircraft carrier; and we are seeking 
waivers. I am reminded every time the subcommittee gets a 
request for waivers for such purchases by the entire Department 
of Defense that we have a significant problem. And my concern 
here is that we are buying rocket engines from the Russians 
because we don't have that capacity in the United States of 
America. If we are now seeking waivers for engines for oilers 
for the United States Navy, I am wondering if the industrial 
base that was in place that propelled our country to victory in 
World War II, is adequate going forward. And my first question 
is, what actions did the Navy take to make sure that the prime 
on this contract did everything possible to find an engine made 
in the United States of America for an oiler?
    Secretary Mabus. Congressman, I absolutely share your 
concern about the industrial base in the United States. And one 
of the things that we have seen, as the number of shipyards has 
decreased, as the number of suppliers to those shipyards has 
decreased, that many times, we are down to one supplier of 
critical parts. And if something happens to that supplier, we 
don't have any place to go in the United States.
    I do not ask for waivers for things like this lightly, 
because the industrial base that has driven not only the Navy 
and Marine Corps, but America forward, has to be preserved to 
the maximum extent possible. The only time that I ask for 
waivers is if there is no American product which meets the 
specifications and the specifications are driven by what those 
ships have to do.
    Mr. Visclosky. And I appreciate it. If I could ask, I 
assume the Navy also talks to the prime and says, show us that 
this is impossible to do before we give you the waiver that--I 
assume you, yourself, are satisfied, but are we putting 
pressure on these contractors that you have got to look hard, 
and that there is just nobody that makes an engine for an oiler 
in the United States of America that is acceptable?
    Secretary Mabus. I know that our contracting officers, and 
the Assistant Secretary for Research, Development & 
Acquisition, Mr. Stackley, are well aware of the need for 
American products. And there are not many places that we have 
to ask for a waiver, but there are, sadly, a few.
    Mr. Visclosky. If I could, just one more question, Mr. 
Secretary, on that. Let us assume for the sake of argument, 
this engine is going to be procured elsewhere. Is there a 
process within the Department of the Navy to then talk to, if 
you would, the Secretary of Defense, as well as come to the 
Appropriations Committee, Congress, authorizers, and say, we 
have a problem going forward. If we are lacking today in 
propulsion systems, somehow we have to figure out how to make 
that investment to encourage that. Our committee is investing 
in rocket engines today because we don't have that capacity.
    Is there, at that point, when you ask for the waiver, an 
acknowledgement that we have a problem, is there some 
communication going on both within the Department, as well as 
to the Congress, that we have an initial problem and we don't 
want it to become worse?
    Secretary Mabus. I know there is that system inside the 
Department of the Navy. And if the concern, if the part is a 
big enough concern, then certainly, we will consult with 
Congress on how to fix this. There is a thing called the 
Defense Production Act that says that if we don't have 
something that we need for national defense that is produced in 
the U.S. at scale, that with Congress' help, we can invest in 
it. And we have used DPA for various things, including 
manufacturing of certain parts for our ships and aircraft.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Frelinghuysen. I think we need a reinforced response 
here to get your oar in the water here.
    Admiral Richardson. If I could----
    Mr. Frelinghuysen. I think it is important here. We are 
going to go to Mr. Crenshaw, and Ms. McCollum.
    Admiral Richardson. Sir, I think also, just in support of 
the Secretary's comments, some of the strategies to do sort of 
block-buy approaches, where you are buying many ships, you 
know, at once. Not only is that the most efficient way to get 
ships for the best price, but it also instills a sense of 
confidence in the industrial base that there will be a 
consistent, predictable investment. It allows them to invest, 
and so we appreciate the work of the committee to, you know, 
provide that type of flexibility so that we can go in, provide 
long-term confidence that will grow, you know, or strengthen 
that industrial base even down to some of those sub-tier 
providers that are, you know, in many senses, as the Secretary 
said, really, literally hanging on by a thread.
    Mr. Frelinghuysen. We are on your side here.
    Mr. Crenshaw, then Ms. McCollum.

                          LITTORAL COMBAT SHIP

    Mr. Crenshaw. Thank you, Mr. Chairman. Secretary Mabus, 
welcome back. The chairman mentioned you are the longest 
serving Secretary of the Navy since World War I, and I think 
you are also the fifth longest serving Secretary of all. In the 
old days, they had some really long-serving Secretaries, so we 
worked together over the years on a lot of issues about ships 
and planes and submarines. Thank you for your service and the 
folks that you represent.
    Admiral Richardson and General Neller, first time here, but 
I am sure the Secretary has given you his secret notes on 
testimony before the subcommittee, so welcome to you all as 
well.
    You know, there are so many things that the Navy does that 
we have worked on together over the years, and when I look at 
the budget this year, you see things that you can talk about 
for a long time in terms of--you have mentioned them, the Ohio 
Replacement class, the cruiser modernization, the P-8s, the E2-
D Hawkeyes, the LCS, but I want to focus, and the chairman 
mentioned the question of ships and that numbers matter, and 
the littoral combat ships, which has been described as the 
Navy's ship of the future. We had a meeting last week with the 
Secretary of Defense, Mr. Carter, and one of the things that he 
has done, is say, we ought to end littoral combat ships 
acquisition at 40 instead of the original 52.
    And I asked him, I said, is this something that is based on 
a short-term budget analysis? Or is this, is there some broader 
reason that has to do with national security? And I wasn't 
clear about the answer, but I do know that you all requested, I 
think, in your shipbuilding budget, 52 ships 2 years ago, and 
then this committee said, well, let's do a really detailed 
study to make sure that is right. You did that and reiterated 
the fact that 52 was the number that we needed.
    And so I guess my question is, to start with, as we focus 
in, has that requirement changed? That initial 52 from the 
warfighting analysis you did? Has that changed?
    Secretary Mabus. It has not. We have a validated 
requirement for 52 LCSs.
    Mr. Crenshaw. Well, do you know, is there any sort of 
analysis that you know of, if it is not your analysis, is there 
some sort of analysis that has been done that would indicate 
that we need less?
    Secretary Mabus. I don't know of any Navy analysis that has 
been done that indicates that.
    Mr. Crenshaw. I got you. Well, Admiral Richardson, let me 
ask you real quick. You know, there is also kind of, I think, a 
mischaracterization of the LCS. Any new ship program has issues 
and questions just any time you do that, and there have been 
questions around the LCS. But it seems to have been 
characterized in some corners as maybe not as critical as it 
could be in warfighting. It is more like a present ship, like a 
patrol boat. I think that the Secretary of Defense used the 
term, is a very good lower-end ship, which I would hope is a 
mischaracterization.
    So maybe you could tell this subcommittee, number one, what 
part the LCS is going to play in the warfighting plan? And 
also, maybe talk about some of the new capabilities, make sure 
that we are aware of some of those new capabilities that it 
brings to this warfighting capability.
    Admiral Richardson. Sir, as the Secretary said, the 
validated requirement remains for 52 small-surface combatants. 
The LCS is the current program that fulfills that commitment, 
and those ships play a vital role as independent actors. As you 
know, the LCS has deployed already and has done terrific work 
on those deployments, and has a vital role in our meeting, you 
know, warfighting scenarios as well.
    You know, they are not, they never were designed to be, you 
know, the one and only ship. They operate alone for some 
missions and in concert with the rest of the battle fleet for 
others. But they provide our central capabilities, not only as 
a surface combatant, and we are enhancing our capability there 
by virtue of the small-surface combatant task force which 
resulted in the modifications, improvements, and lethality, and 
survivability that will be incorporated into the ultimate 
frigate design. We will back-fit those capabilities as much as 
possible into all of the LCSs.
    They provide an antisubmarine warfare capacity, both with 
their helicopter, their towed arrays, and then they also 
provide a role in the mine countermeasures mission. So, a very 
flexible ship. And as the Secretary said, the Force Structure 
Assessment, that process by which we determine the size of the 
fleet remains valid at 52. The fact that we are truncating at 
40, I think, reflects, you know, the hard choice, the extremely 
hard choices that we had to make to deliver this budget.
    Mr. Crenshaw. Thank you. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Ms. McCollum, and then Ms. Granger.

                           THE ARCTIC REGION

    Ms. McCollum. Thank you, Mr. Chair. Secretary Mabus, and 
Admiral Richardson, we are becoming more and more aware of the 
Arctic as a rich resource environment that is feeling the full 
effects of climate change. The melting sea ice has opened up 
new navigable waters in the Arctic and it has changed the 
strategic calculus in the region. The world is seeing Russia 
aggressively reassert a naval presence in the region, creating 
a joint Arctic command in 2014, and conducting military 
exercises in the region last year.
    I am concerned that the Arctic is a strategic area that is 
ripe for Russian expansion, directly challenging our national 
security interests and those of our allies. As you are well 
aware, the United States only has one operational heavy 
icebreaker, that is owned by the Coast Guard, and the Coast 
Guard is working to build a second one. Russia is building 14 
more.
    Now, this deficit has to seriously impact our ability to 
conduct search and rescue operations and maintain a maritime 
presence in the region. The Navy's 2014 to 2030 Arctic world 
map from February 14 states, and I quote, "While the region is 
expected to remain a low-threat security environment, while our 
nations resolve differences peacefully, the Navy will be 
prepared to prevent conflict and assure national security 
interests are protected," end of quote.
    A lot has happened, and Russia has been very aggressive 
over the past several years. So given the recent developments 
in Russia's military posture, does the Navy still consider the 
Arctic region to be quote, "a low security threat" because this 
committee has been told over and over again recently, that 
Russia is lighting up its coastal waters, and that Russia waits 
to see how assertive, how aggressive, and how strong, 
especially the United States is in the region, in making this 
calculus.
    So could you please tell me what specific investments in 
the 2017 budget has the Navy made to address the issue of 
Russia's military expansion into the Arctic region?
    Admiral Richardson. Ma'am, I couldn't agree with you more 
that the Arctic is becoming an increasingly strategic area, 
particularly as the Arctic ice cap recedes, those waterways are 
opening up for twice as long as they were before. That is 
exposing continental shelves and the resources on them to that. 
We remain committed to staying on that roadmap to enhance our 
ability to operate in the Arctic. With respect to icebreakers, 
we are working very closely with our partners in the Coast 
Guard. That part of the mission will remain theirs. The 
security part will remain ours. And we have had a steady 
presence. In March, the Secretary and I will go up and 
participate in what has been an ongoing exercise program in the 
Arctic where we send our submarines up there to surface through 
the ice, continue to do research, and ensure that we can 
operate up there. We are right now, General----
    Ms. McCollum. If I could go back to the icebreakers. So 
there is one operational icebreaker, that one goes down, there 
isn't a second one. So we are relying on calling someone else. 
If the Navy has a ship that is stranded in the area, the Coast 
Guard with an icebreaker would come in to help, correct?
    Admiral Richardson. The Coast Guard runs our icebreakers. 
Yes, ma'am.
    Ms. McCollum. And there is one. And there are plans to 
build another one. Are two icebreakers sufficient for all that 
the Coast Guard is charged with, I mean, in the area?
    Admiral Richardson. I think the Commandant of the Coast 
Guard has been very articulate in saying he is not satisfied 
that that is enough.
    Ms. McCollum. Is the Navy satisfied?
    Admiral Richardson. We are right there with our Coast Guard 
partners saying that we need to enhance, increase our number of 
icebreakers.
    Ms. McCollum. I just pause this out for the committee. You 
know, if we were to ask for another icebreaker, either from the 
Coast Guard, or direct the Navy, that is now considered--would 
that be considered an earmark if it wasn't in the President's 
budget, Mr. Chair?
    Mr. Frelinghuysen. I am all for asking for more. I think we 
are getting our clocks cleaned in the Arctic. Russians are 
doing all sorts of bad things, staking claims to areas that 
actually are under different sovereignties. We need to get 
moving here. I am all for it.
    Ms. McCollum. Thank you, Mr. Chair, because waters and 
weather conditions can make, you know, being able to have a 
response time critically impactful in the region. And we just 
want to make sure that the Coast Guard has the tools it needs 
to fulfill its mission, but you also have what you need to do 
to fulfill yours--thank you, Mr. Chairman.
    Admiral Richardson. Thank you, ma'am.
    Mr. Frelinghuysen. Ms. Granger, and then Mr. Ruppersberger.

                               READINESS

    Ms. Granger. Thank you, and thank all three of you for 
being here and for serving so well and the people that you 
represent. I had an amazing opportunity yesterday and I know 
you did too, to go to the White House to see the Congressional 
Medal of Honor awarded to Edward Byers. And you talked about 
the right people. There couldn't be anyone more right than that 
man and his enormous courage. So what it did to me, you know, 
when you do something like that you say, okay, am I doing 
everything I can do to support?
    And so we need to be always aware of the people that serve, 
and make sure they have the equipment also, the right equipment 
and the right people. You talk about readiness, and it took me 
a while on this subcommittee before I realized that readiness 
is not the same everywhere for all of the branches.
    So could you explain, specifically, when you just--you 
talked about it--but on those top priorities, what is the 
readiness and what does it mean to the Navy, and then what does 
it mean to the Marine Corps? Looking at those things that you 
think are so important, and how do our budget shortfalls affect 
those priorities? Admiral.
    Admiral Richardson. Ma'am, thanks for that question. And 
readiness for me is one of the things which both General Neller 
and I are most concerned, and it has, even within the Navy, it 
has many dimensions, if you will. One aspect of readiness is 
the ability to repair our ships on time, and so our ability to 
get our ships through the public and private shipyards on time 
and on schedule is key to getting them back out to sea where 
they belong at that level of readiness.
    Similarly, our ability to, you know, train our people to 
make sure that they come through the deployment cycle and get a 
chance to go into the schools and get the training that they 
need, then come together as a team, join their units and work 
up together and deploy together is another very important part 
of our readiness. This is particularly true with our pilots, 
for instance, which are dependent upon, you know, flying hours, 
getting in that aircraft and doing the time they need at the 
high end to make sure that they deploy fully ready.
    And so, there is a further readiness dimension that 
involves munitions. Do we send our forces forward with the 
right weapons, and this is an area where we have, frankly, been 
taking risk in terms of, you know, the numbers of munitions 
that we need to fully execute the scenarios that we are called 
to do. And then there is, you know, the supply parts and 
everything else. Just the basic logistics.
    And so in all of those areas, you know, if you add all of 
that up together, our requirement is to have two carrier strike 
groups ready at any time, and three ready to go within 30 days. 
That is our reinforcement force that will go out and supplement 
those initial two that respond immediately.
    The ability to do that has been challenged. It really 
started back in 2007, when we started those long deployments, 
you know, 10 months became almost the norm in terms of 
deployment. It was further exacerbated by sequestration in 
2013, which put just a tremendous divot in the system with the 
hiring freezes, the overtime caps, et cetera, our ability to 
get through all of those. We are still recovering from that. 
And those are, you know, investments that we have to invest in 
to make up for lost time. Right now, we are right at 
sustainment, and so our ability to recover that readiness keeps 
moving out to the right. It was 2020. This year it is, you 
know, beyond 2020, because we are just having a hard time 
closing that readiness gap. And I will defer to General Neller 
to talk about the Marine Corps.
    Ms. Granger. Thank you.
    General Neller. Representative Granger, thanks for the 
question. As the CNO said, readiness is kind of a compilation 
of a bunch of different variables. People, training, equipment, 
the readiness or maintenance of that equipment, ammunition, 
transport. I mean, the term that we use in talking to the 
chairman is joint comprehensive readiness. And that is more of 
the joint force. So, long story short, 15 years of war, no 
longer have large numbers deployed, still have Marines and 
sailors serving with Marines deployed, and the readiness of the 
force was, you know, was somewhat degraded. It is much easier 
to recover the ground side of readiness, than it is ship 
readiness or heavy industrial base things like airplanes.
    So if you asked me today what is the readiness of your 
Marine Corps, I would say on the ground side, it is trending 
up. We would, as a goal, like to have 80 percent of our units 
ready to go. We are not quite there, particularly on the 
aviation side. The Congress has given us $5 billion to reset 
our ground equipment. We have got about 79 percent of that 
complete, and about 50 percent of that equipment is back to the 
force.
    So, I am not where we want us--where I want us to be or 
where we want to be, but we are trending the right way. 
Aviation is a little different story. It is a long part of 
sequestration, part of long flight hours, part of not bringing 
stuff back as fast, to reset it as we should have, the F-35 
being late.
    So our aviation readiness is really my number one concern. 
We don't have enough airplanes that we would call ready basic 
aircraft. That means we are not getting enough flight hours. 
People join the aviation community to fly. So we have a plan, 
and we are also in the midst of recapitalization of every model 
type series. And each of those aircraft are in different 
places. MV-22, probably the furthest ahead; the CH-53, just 
beginning the process.
    So we have a plan. I think we have kind of reached the 
bottom of this trough of readiness. Last week, the CNO and I 
went out to the fleet readiness center at North Island in 
California where they refurbish F/A-18s. They are making 
progress. There has been money put into that. But I hate to say 
money is something that can fix it, but it is money and time. 
And so, we are confident that over time, this is going to get 
fixed. So you add procurement, you add refurbishment, we need 
to get more airplanes on the ramp so people can fly and 
maintain their training readiness. So not where we want to be, 
but we are trending the right way, but it is not going to be 
something that happens tomorrow.
    Mr. Frelinghuysen. Thank you, Ms. Granger.

                           USS ``FORT WORTH''

    Secretary Mabus. May I say one thing about one specific 
ship?
    Mr. Frelinghuysen. Yes.
    Secretary Mabus. The USS Fort Worth has just had a terrific 
deployment to the Pacific, and we attribute most of USS Fort 
Worth's success to its sponsor.
    Ms. Granger. Well said. Thank you very much.
    Mr. Frelinghuysen. That is a very important attribution. 
Thank you. Mr. Ruppersberger, and then Mr. Calvert.

              CHINA'S ANTI-ACCESS AREA DENIAL CAPABILITIES

    Mr. Ruppersberger. Sure, as everyone on this committee, I 
thank you all for your service, your leadership. Secretary 
Mabus, I mean, you reach out, your leadership, your priority 
with respect to all of the men and women, and we have been in 
good hands for a long while.
    I want to--and this question probably is to you or Admiral 
Richardson. I would like to begin by addressing the ongoing 
activities of China in the South China Sea. Regardless of 
whether or not China would like to admit it, they are 
militarizing the South China Sea. And I believe that the 
consensus, at least, I think in this room, is that the 
militarization and the denial of access to the area in the 
future is China's intent.
    Now, although the United States Navy continues to operate 
in these waters, I am concerned about how effective these 
operations will be in deterring the continued militarization of 
their area. And while I understand the importance that freedom 
of navigation exercises have, and reassuring our allies in that 
area, it seems that has not served as a deterrent against the 
continued Chinese militarization of reclaimed islands in the 
region.
    Now, my question is, what other strategies has the Navy 
considered as deterrents against the continued Chinese 
placement of anti-access area denial assets in the region; and 
two, have any of these strategies, or future strategies, been 
deemed unfeasible due to budgetary limitations, including the 
issue of sequestration which it seems, at least for 2 years, we 
have a hiatus, but we still have to address that issue?
    Secretary Mabus. Congressman, I will give you sort of a 
general overview, and then I will turn it over to Admiral 
Richardson for more specifics. But that sea with as much 
transit as is going through it is--we have to make sure that we 
ensure freedom of navigation, that everybody can go through 
there, and we can make a pretty good argument that Asia is 
doing as well as it is today economically because of the United 
States Navy, because we have kept that open.
    What my job is, what Admiral Richardson's and my job is, is 
to make sure that we have got the assets there for any 
strategy; that we have got the--whether it is ships, 
submarines, aircraft there, so that as our leaders weigh what 
strategies to employ, that the assets are not only available, 
but that are there, and that is the presence that the Navy and 
Marine Corps give this country.
    And that is why it is so important to continue to keep the 
fleet size that we know that we need. That is why it is so 
important to continue to do the rebalance to the Pacific with 
moving 60 percent of our fleet, which will be there by 2020, 
and it will be a much larger fleet.
    But that is the job of a service Secretary, a service chief 
is to make sure that those assets, that those options are 
available to our leaders as they make the decisions of what 
sort of strategies to employ.

                      RESOURCES AND SEQUESTRATION

    Mr. Ruppersberger. But don't forget, I want to address the 
issue of whether or not we have given you the resources, and if 
you could address the issue of sequestration, because it is 
still there 2 years from now.
    Admiral Richardson. Sir, I just, I will reinforce what the 
Secretary said that, you know, in the context of the rebalance 
to the Pacific, the Indo-Pacific, really, you know, this South 
China Sea challenge should be appreciated in that. And not only 
are we sending 60 percent of a bigger fleet--and we are on 
track to do that, we are on our program--but also, you know, 
our higher-end capability is going out there as well. So it is 
not just numbers. And it gets back to what the Secretary said. 
It is, you know, it is about options and it is about credible 
options. You have got to have something there to have an 
option, and that thing has to be capable enough to be credible.
    To the question of resources, you know, I work very closely 
with Admiral Harris and Admiral Swift, our commanders out there 
in the Pacific to make sure that if they see any kind of a 
challenge with respect to resources that would hinder or impede 
the number of options they have, that we address that right 
away. We are not seeing that right now, sir.
    Mr. Ruppersberger. So you are getting resources. Now, can 
you address the issue of sequestration? We can't let that go.
    Admiral Richardson. Absolutely. The sequestration, the 
specter of sequestration would set us back irreparably across 
the Navy, whether it be readiness, force levels, capability, 
that would just--we have got to get to a point where that sword 
of Damocles is not hanging over our head.
    Secretary Mabus. The sequestration that happened in 2013, 
both the CNO and the Commandant had mentioned this before, but 
it put us in a hole in terms of readiness of our ships, because 
of our shipyards, the public shipyards that get backlogged, and 
particularly in our aircraft. It is going to take us until 2019 
to catch up with that backlog, and sequestration was a big part 
of that.
    Mr. Frelinghuysen. You are not looking for 8 more years, 
are you? Mr. Calvert and then Mr. Israel.

                         ACQUISITION PROCESSES

    Mr. Calvert. Thank you. Thank you all for your service. 
Thank you, Mr. Secretary, for 8 years as a Secretary of the 
Navy. Thank you for your service.
    I would like to talk a little bit about Navy acquisition. 
Admiral, you have been talking about this for some time, to 
speed up the acquisition efforts, keep pace with the evolving 
threats, it is too slow, it is too costly and too complicated. 
Additionally, by the time the fleet sometimes receives that 
equipment, many times it is already outdated. So we would like 
to have you inform us about the processes you are putting in 
place to improve that process.
    Also, Mr. Secretary, you mentioned the amphibious assault 
ships. I think we are down to 30, I have been told you need at 
least 34 to make it work. I understand about one-third of the 
30 aren't operable for one reason or another. So, obviously, 
that is troubling. So as we are talking about the acquisition 
process, is the assault ship one of the top ships you need to 
get moving, to get this new LX(R) available to the Marines to 
make sure that we can stay proficient?
    Admiral Richardson. Sir, I am happy to answer your 
question, and welcome it on the acquisition and the need to 
speed that up. With the Secretary's encouragement, we started a 
number of initiatives that will get that going.
    First, to address urgent needs and make sure we are not 
missing a trick, a technology or a solution. We have 
established a rapid prototype, experimentation, and development 
process that really has--will adjudicate those urgent needs or 
opportunities. It doesn't have to be expressed in a need, and 
will allow us to bring together technologies, engineer them 
together in creative ways, prototype them quickly, run through 
a bunch of options, get them out to the fleet sooner so that 
they are in the hands of sailors and Marines, and that is when 
learning really starts. We will figure out quickly which ideas 
have merit, which ideas just don't, which are dead ends.
    And by doing that type of experimentation approach I think 
much more quickly, I believe, with confidence, that we will get 
to solutions that will translate to programs of record much 
more quickly, and we will be more competent in the technology 
that emerges.
    Once they enter that acquisition stream, we are also 
establishing the Maritime Accelerated Capabilities Office, 
MACO, to allow a speed lane, if you will, for those programs 
that qualify, that are sufficiently mature, and can get to the 
fleet, to the delivery sooner. And so we are leveraging a lot 
of the techniques that the Air Force's Rapid Capability Office 
uses. And we look, by virtue of that, to get technology into 
the hands of the warfighter more quickly, and then gradually, 
transition more and more programs over into that speed lane, if 
you will, so that we can just respond at the speed of the 
environment, at the speed of technology, at the speed of our 
competitors.

                        AMPHIBIOUS ASSAULT SHIPS

    Secretary Mabus. On amphibs, I would say we are up to 30 
now, because we started below that. We do have a validated need 
for the Marines for at least 34, 38 is preferable, because to 
get two battalions of Marines across the beach in contested 
entry, that is from the available ships, that is what it would 
take. And a third being unavailable, or in maintenance, is 
pretty standard for all ship classes across the fleet. You have 
got to do the maintenance, that has been one of the problems 
that we have had is we have had such high operations tempo that 
we haven't done enough of the maintenance to make sure that 
these ships live out their useful lives.
    We will get to 34 by 2024, and to the current plan, as you 
would thank the Congress for LPD-28, which is the 12th LPD, 
which allows us, then, to go to the LX(R), the replacement for 
the LSD on the same hull form, so we will be able to build 
those cheaper and faster going forward.
    While they don't replace, in any sense, amphibious ships, 
we have got some other classes of ships that can assist in 
amphibious operations, things like the expeditionary transfer 
dock, the expeditionary sea base. Two of the first kind have 
been built, three of the second kind are being built, the 
second kind has a flight deck on it. It can be used as a sea 
base, as a prepositioning for equipment, as a place to offload, 
particularly Marine equipment and supplies.
    The Expeditionary Fast Transport, the former joint high 
speed vessel, can also be used for getting Marines and their 
equipment places very fast. Now, the ships that I just 
mentioned are not combat ships, they are civilian--they are not 
built to survivability standards, they are not supposed to be, 
but they can help ease a little bit of the burden, because we 
can put them places that today we are having to use amphibs. 
Amphibs are probably too much of a ship there. And we are 
planning on hubbing the expeditionary transfer docks in the 
Pacific around Japan and Korea, and we are planning on hubbing 
the expeditionary fast transports around Japan and Singapore.
    Mr. Calvert. Just one last comment, Mr. Chairman, we are 
all very proud of the shipyards of Mississippi and Maine, but 
we do have a little shipyard in San Diego, NASSCO, that we are 
also very proud of. They do great work down there.
    Secretary Mabus. I am so proud of NASSCO and the ships that 
they deliver to us, and the prices that they have driven down, 
thanks to a very innovative workforce.
    Mr. Frelinghuysen. Well, I am sure the accolades are well 
deserved like they were for Fort Worth. I would like to confirm 
what the gentleman opined, the issue of operability here. What 
is operable and what is not operable that he was referring to 
in his initial comments? I would like the specifics.
    General Neller. Let me.
    Mr. Frelinghuysen. Very briefly.
    General Neller. Yes, sir. I keep track on a weekly basis of 
the maintenance schedules where all the amphib ships are. 
Obviously, we have equity in that. As the Secretary said, there 
are 30 ships, we are going to go to 34; the requirement is 38, 
because we anticipate 15 percent in the yard. Of the ones that 
are in the yard today, sir, I think a good percentage of them 
are in for routine maintenance and could be gotten underway if 
needed. So the Navy--we understand the maintenance requirements 
of the Navy so we are working really hard because we have a 
requirement to get on board those ships to train. So with the 
CNO and the Secretary, we are trying to be creative in how we 
use Marines and get them afloat, whether it is in these 
alternate platforms. At the end of the day, the requirement 
that is validated is 38 amphibs, to have 34 or two Marine 
expeditionary brigade forcible entry capability, but we will 
use these other platforms because a lot of things we do at 
theater security cooperations, humanitarian assistance disaster 
relief, NEOs even, we can do off these other ships.
    Mr. Frelinghuysen. Thank you, General.
    Mr. Israel and then Mr. Womack.

                              PERSIAN GULF

    Mr. Israel. Thank you, Mr. Chairman. I would like to focus 
on the Persian Gulf, another strategic area. And then if I have 
time, I may ask about the professional military education, one 
of my favorite topics, something you all know about. General 
Neller, in particular, at Marine Corps University. And Admiral 
Richardson, you and I have exchanged some Naval history books, 
and I appreciate that.
    On the issue of the Persian Gulf, two areas, one long-term, 
strategically, I am interested in your views of Iranian 
maritime challenges and threats in the region of the Persian 
Gulf, Naval threat. And then more specifically, I would like 
you to comment on the incident that occurred in January when 10 
sailors drifted into Iranian waters. They were arrested, they 
were questioned, they were released. I want you to comment on 
how that happened. If there are technical problems with 
deficiencies that lead our sailors into dangerous waters, what 
are the backup systems?
    And third, what have we done with respect to assessing the 
ships that were temporarily captured to ensure that there is no 
malware, or other threats, or technologies that may have been 
installed or somehow appended to those vessels?
    Admiral Richardson. Sir, thank you very much for the 
question. With respect to the long-term future of Iran, just 
the geography of that region gives one concern, and Iran has 
been acting with malign intent across several different 
vectors, whether it is short-range or medium-range ballistic 
missiles, whether it is anti-ship coastal defense cruise 
missiles, you know, across the spectrum. And so we applaud the 
agreement that would eliminate a nuclear threat from Iran, from 
our perspective, so much has not changed in terms of what we 
have to do to watch Iran, secure that region for safe passage 
of the resources through the Strait of Hormuz, and operating in 
the Gulf.
    With respect to the incident in January, it just shows 
you--first of all, those sailors, by international law, should 
not have been captured and detained. I think we made it very 
clear that that behavior is not consistent with international 
law. And, so, another indication of the type of threat we are 
dealing with there.
    With respect to the details, the questions that you asked, 
that investigation is still in progress. We will get to every 
one of those questions that you asked for, sir. And we are 
looking at all of that. We have examined those boats. We are 
digging back down into exactly the concerns you have, and when 
that investigation is complete in the near future, I look 
forward to coming back and briefing the committee, in detail, 
on what we find.
    Mr. Israel. Admiral, is the near future next month? Next 
year? Give the committee a sense.
    Admiral Richardson. Month. We are talking months, sir, 1 or 
2 months. I think we can get to that.
    Mr. Israel. Mr. Chairman, I hope that we will invite them 
back to do a brief.
    Mr. Frelinghuysen. I think this and the whole rules of 
engagement, the things we heard anecdotally, the things we hear 
from sailors that are--confrontations that occur in these 
regions make it apparent to some that we are not meeting those 
types of challenges, but absolutely, we would love to have you 
come back when the full evidence is on the table.
    Admiral Richardson. Mr. Chairman, you said it. There is a 
lot of talk about this thing, that is why we need to go through 
the disciplined process of a formal investigation so that we 
can find the truth of the matter and address what we find.
    Mr. Frelinghuysen. We don't want our sailors ever treated 
in that manner again. There should be some repercussions, maybe 
not to them, but perhaps to others.
    Mr. Israel. If I may just continue on the subject of the 
Persian Gulf. During the negotiations of the JCPOA, there were 
assessments that Iran was behaving in a more responsible 
fashion. I opposed the deal. There were assessments that Iran, 
during those negotiations, was not engaging in particularly 
belligerent or provocative behavior. Can you give us an 
assessment as to whether there has been any increase in 
provocation against any of our Naval assets in the Persian Gulf 
since the agreement has been signed?
    Admiral Richardson. Sir, it is something we watch extremely 
closely. It does ebb and flow, not just with respect to the 
negotiations surrounding that agreement, but just in general. 
And so, if we may be seeing some kind of a local increase, it 
has not risen to any historical unprecedented levels, but it is 
something that we continually address as well, sir. We can't 
condone or even leave these situations unaddressed.
    So I work closely with General Austin in Central Command 
and our Naval component out there to make sure that we are 
addressing those as they happen.

                    PROFESSIONAL MILITARY EDUCATION

    Mr. Israel. And in deference to the committee, I have some 
questions on professional military education and I know you 
understand the value of that, and I am hopeful that you 
continue to address the value of professional military 
education, the software, as you are addressing many of the 
hardware----
    Mr. Frelinghuysen. We are going to try to get a second 
round in. Mr. Womack, and then Mr. Graves.

                   SUBMARINE AND WEAPON CAPABILITIES

    Mr. Womack. Thank you, Mr. Chairman.
    Once again, like the rest of my colleagues, Secretary 
Mabus, I really appreciate the work that you put into your time 
there as Secretary over these number of years. I am sure you 
are not going to miss looking at this group beyond this 
hearing, but, again, thanks for your long-standing service.
    To General Neller and to the Admiral, welcome. And, 
Admiral, to you personally, thank you for the wonderful 
breakfast that we shared at your home at the Navy yard 
recently. It was a delightful morning, enjoyed meeting your 
wife and had a great meal. I particularly liked the way the 
chef did the onions in that particular offering. That is kind 
of some inside humor.
    Mr. Frelinghuysen. This is on the record. I am sure his 
better half will appreciate that.
    Mr. Womack. I say that as I say inside humor there.
    And to my chairman, I would like to thank him for the 
encouragement to do some travel and have some interaction with 
our military counterparts. So to my chairman, I would like to 
thank you for that.
    I have had the unique privilege of being able to do two 
demonstration and shakedowns, one in the Atlantic and one in 
the Pacific, aboard the West Virginia and now aboard the 
Kentucky. And it is along that Ohio replacement that I want to 
ask my question. I am kind of a capabilities person. I know 
that in constrained budget times, we have to look very closely 
at our capability, particularly in some of the areas where we 
have proliferating threats.
    So help me understand the technological advantage that we 
presently have. And if you look across the future years defense 
program, what we call the FYDP, where you see the potential for 
parity to begin to enter the equation if it hasn't already with 
some of our adversaries?
    Secretary Mabus. Once again, I am going to give an 
overview, and then turn it over to our submariner here. But in 
the areas that we look at, and the technological advantages 
that we have. We have got two majors, one is technological, the 
other is what Congressman Israel was talking about, and that is 
our sailors and Marines who operate these things and keep them 
up to speed.
    But we own the undersea worldwide. Other countries, China 
and Russia in particular, are fielding advanced capabilities. I 
think the Virginia class, with its technologies and its 
capabilities, and particularly as we improve on those, the 
Virginias that we are building now, are vastly improved from 
the Virginia, the first of its class. The Ohio class 
replacement is going to leverage a lot of those technologies 
that Virginia now uses. And in this budget, we have asked to 
start the VPM, the Virginia Payload Module, that will be put in 
every Virginia starting in 2019, going forward to give it more 
capability, more flexibility, it can deliver more cruise 
missiles, for example, out of that, or other things, because 
this will be a multi-mission capability.
    In terms of weapons, the Secretary of Defense announced 
several weeks ago that we are looking at repurposing some of 
the weapons that we have now, like the SM-6, which is an anti-
air weapons and anti-ballistic missile weapon to being a 
countership missile, and that will complicate our adversary's 
designs pretty dramatically.
    We are also investing a lot in other future weapons 
capabilities, things like lasers. We have a laser in the PONCE 
in the Arabian Gulf today that is a 30 kilowatt. It has been 
tested. It has been there for almost 3 years. It can disable a 
small boat or a drone. We are now building 100 to 150 kilowatts 
of laser weapon as a follow-on, the electromagnetic rail gun, 
which is a game changer. We are getting ready to test it this 
year before deploying it on some of our ships.
    And in the longer range, we protected science and 
technology money. We protected research and development money 
for things like unmanned, our unmanned system of vehicles for 
these weapons that may be a little more costly, like the 
railgun or the--well, the laser, but once operable, are very, 
very economical, we are talking dollars per shot instead of 
millions of dollars per shot. And as we are doing that to what 
the CNO said, we are trying to rapidly get these things to the 
fleet, the rapid prototyping. Do the initial testing here or on 
shore, but then get them to the fleet, let sailors, let Marines 
test them in far more operational conditions, see what works, 
succeed faster or see what doesn't work, fail faster, instead 
of going through the years-long process, and then beginning the 
operational testing.
    So I think that looking forward, we are facing more threats 
and more competition from countries than we have in years, 
since the days of the Cold War and your peer competitors. But I 
think that given the trajectory that we are headed on, that as 
long as we don't have the previous question, a sequester or 
some large disruption, as long as the Ohio class replacement is 
funded in a way that doesn't disrupt every other program that 
the Navy has, I think that we can proceed with a good bit of 
confidence.

                       THREATS TO NAVY PLATFORMS

    Mr. Womack. I know I am out of time. I would like a quick 
comment. I realize the security level that we are here, the 
classification level, I know we can only talk generally about 
it, but specifically, my question is, where do we see threat, 
U.S. parity on a key platform?
    Admiral Richardson. Yes, sir. So I don't think a moment of 
comfort, and words like ``ownership'' and ``dominance,'' I 
asked my team to stop using that language, because it just 
doesn't keep us hungry enough to fight for every inch to 
maintain our superiority. I would say that if you look across 
the Navy, you can talk in surface, aviation, undersea, and also 
in the information domain, which includes cyber, the pace is 
the issue. And in every one of those things, as we strive to 
move into what I describe as maybe the fifth generation of 
warfare, we are outpaced right now. And so, that is why the 
Secretary and the Commandant and I are so focused on this 
aspect of speed, because while we do enjoy a margin of 
superiority now, that is perishable. And if we don't pick up 
speed in each of those four areas, we are going to be 
challenged.
    This also includes high-end weaponry, that is why we 
invested almost $1 billion in research and development to look 
at advanced weaponry, so that our weapons are pacing this 
threat, pacing the environment as well. So it is really across 
the board. And if we do not come through these pacing issues, I 
just--I am concerned that we are going to fall behind.
    Mr. Womack. Thank you, Admiral.
    Mr. Chairman, I would say this as I yield back my time, a 
great enemy of pace is sequestration, as I think everybody 
around this dais understands and we have got to find a 
solution. I yield back.
    Mr. Frelinghuysen. With that said, the gentleman from 
Georgia, Mr. Graves.

                       ``OHIO'' CLASS SUBMARINES

    Mr. Graves. Thank you, Mr. Secretary. Admiral, thanks for 
being here. Following up real quickly on the submarine 
question, the Ohio class. First let me just say that I am 
pleased to see it has been requested in the budget, and that 
there is a commitment from the Navy for the replacement 
program. I think we are all in support of that. And this should 
be a top priority for all of us.
    Knowing that the youngest of the subs currently is at 18 
years, and I know there have been some extensions, I think it 
is safe to say most are near their service life or towards the 
end of it. And so, real quickly, knowing that the timeline is 
quite potentially 14, 15, 16 years away from having the first 
replacement in service, what is the plan from the Navy to 
maintain the current fleet and to provide the abilities that 
are necessary today until the first ones are ready?
    Secretary Mabus. As you pointed out, Congressman, the Ohio 
class itself has been extended, it can't be extended any more. 
And that is why we have got to start building the first one in 
2021, it will go on patrol on 2026 or 2027 to replace the first 
one that is coming out. Then our plan is to build 12 of those 
submarines over a 15-year period to replace one--well, it won't 
replace one for one, because we are building 12 to replace 14. 
The reason we are doing that is because the Ohio class had to 
be refueled midlife, the replacement will not have to be 
refueled. So we will have basically the equivalent of two 
submarines by not having to go through that refueling.
    Mr. Graves. So you feel confident that you will be able to 
bridge that gap, this replacement gap with the current fleet as 
replacements come online?
    Secretary Mabus. Yes, I do.
    Mr. Graves. Without any additional delays?
    Secretary Mabus. We have, ever since I have been here a 
long time ago, have known when we had to start building the 
first one in order to replace those that are coming out of 
service.
    Mr. Graves. Thank you.
    Admiral Richardson. I can add on top of that, I think you 
identified that this is a program that is at the red line with 
respect to risk, and we can't afford to delay for a day the 
Ohio Replacement Program. Neither can we neglect to ensure that 
we continue to invest in the current Trident fleet which will 
be extended to 42 years, longer than we have ever extended any 
other submarine class. And so, it is the great work that goes 
on in Kings Bay and Bangor to keep those ships maintained and 
going back to sea so that they can conduct their mission, 
execute DASOs, those sorts of things that are absolutely 
critical. Then we are coming to the end of the number of 
Tridents that need to be refueled, but we need to continue to 
invest in our shipyards for that major maintenance that gets 
them into the second half of their life.

                      CYBER THREATS AND RESPONSES

    Mr. Graves. Right. Thank you. The second question that has 
been a great focus of this committee recently has been cyber, 
and how is everybody adjusting to the new theater that exists 
and that we are coming to know unfortunately more and more and 
more of. I know the Navy created the cyber awakening task force 
because of some instances that had occurred in previous years. 
Can you tell us a little bit about that, what the outcome has 
been, and has the desired outcome been achieved and how do you 
see that moving forward?
    Secretary Mabus. The outcome of that cyber awakening is a 
program called CYBERSAFE, and it is how do you protect the most 
valuable parts of our military, and our ships, and our 
capabilities, and it is a defensive depth. I can get you a much 
more detailed briefing in a different venue for exactly how we 
are doing this. But overall, we are standing up, Navy is, 40 
cyber mission teams to fold into cyber command which is DODY, 
about half of those will help our operations, and about half 
are for the combat commanders to do that.
    We are recruiting differently in terms of looking for those 
special skills. We are redesignating some of the billets that 
we currently have, so that we can get and then keep these cyber 
warriors, because you are right, this is the future of warfare. 
CNO has done a lot of deep work on this and has been, I think, 
making a lot of progress on it. And the Marines, as they draw 
down to 182,000, one of the areas that they are increasing is 
cyber.
    Mr. Graves. Okay.
    Admiral Richardson. Yes, sir. If I could just pile on to 
that a little bit. As the Secretary outlined, there is a people 
component to this, standing up the cyber mission teams that can 
respond to operations and warfighting in that domain. I will 
tell you, as you know, sir, it is game on in that domain. That 
is going on right now today. And so we are recruiting, training 
and hoping to retain that highly skilled workforce. I will tell 
you there is probably no place in the industrial base that is 
more competitive than people with these keen cyber skills. And 
so we are grateful for every one of those sailors that stays 
with us.
    The task force cyber awakening did transition into 
CYBERSAFE. Our general approach, kind of at this level of 
classification is that we will look to harden the network, 
reduce its outward facing interface, reduce its vulnerability, 
its target service, if you will. So we will kind of harden the 
outer shell, reduce and harden that, and then nothing is 
completely leakproof in this world. And so we have got to be 
ready to detect any kind of infiltration through that barrier, 
and then respond to isolate that as quickly as possible. So 
that is generally how we are going. We are making some serious 
investments across the budget, the entire FYDP to get to that 
level of both people and infrastructure to support that.
    Mr. Graves. Thank you. Mr. Secretary, thank you for your 
many years of service, decades I know, and wish you well in 
your next chapter.
    Mr. Frelinghuysen. The gentleman from Florida, Mr. Diaz-
Balart.

                          LARGE SURFACE SHIPS

    Mr. Diaz-Balart. Mr. Chairman, thank you very much. A lot 
of my questions have already been answered. I want to just, 
again, first thank the three of you for being here and more 
importantly, for your service.
    Admiral, you spoke about the worrisome issue of pace, of 
keeping up, and you mentioned that you spent some time talking 
about the submarines, which is one of the things I was going to 
ask about. If you would, if you could talk to us a little bit 
about the large surface ships and how we are doing there, what 
are the plans there to make sure we are not falling behind?
    Admiral Richardson. Sir, that is a great question. And so, 
in our large surface combatants are guided missile destroyers 
(DDGs) and cruisers. We have got a modernization program that 
really brings us into the fifth generation across the board. So 
from their combat system and combat radars, we are advancing 
into what we call Block 9 of the AEGIS combat control system, 
and we are on pace to do that as quickly as possible really. 
And so that has been a keen priority of us.
    Similarly, in the electronic countermeasures world, we have 
got systems coming on to those to make them more resilient to 
withstand and prevent being hit by an incoming weapon.
    And then, finally, as the Secretary mentioned, we are doing 
everything we can to repurpose and advance the offensive 
weapons that they carry. So repurposing the SM-6, for instance. 
And then, we are also enhancing the large surface combatants' 
ability to connect and work with other forces in the Navy, 
whether those be strike aircraft or other surface ships, 
submarines, networking that altogether so they can combine in 
new and creative ways. You have heard, I am sure, this concept 
of distributed lethality; similarly, we have the NIFC-CA 
innovative fire control counter air, which is the Navy aviation 
piece. We are looking to stitch that all together to one sort 
of integrated fires and effects network.

                       FORCE STRUCTURE ASSESSMENT

    Mr. Diaz-Balart. Mr. Chairman, just also briefly, I believe 
it was you, Admiral, or the Secretary, talking about maybe 
having to reconsider some actual number of submarines, because 
of the new threats.
    Admiral Richardson. Yes, sir. As we have discussed, the way 
we do that is by virtue of a force structure assessment which 
examines the combatant commanders' needs, the warfighting 
needs, and the theater campaign plan. It is really an aggregate 
of trying to figure out the demand signal. The last time we did 
that for the whole force was in 2012, and we refreshed it in 
2014. But back then, we did not have a resurgent Russia, we did 
not have ISIL to contend with, the Chinese challenge was in a 
much different place. And so, I have directed that we open a 
recommission, we restart a study. We take a look at what are 
the current war fighting demands, the current demands, the 
missions that we are tasked to achieve, take into account the 
updated threat environment, and look forward to delivering that 
new Force Structure Assessment as soon as it is done.
    Mr. Diaz-Balart. Mr. Chairman, again, thank you, but since 
I got on this committee, I have been really depressed, because 
every time that you look at where we are vis-a-vis the rest of 
the world, it is--the challenges are just huge. And I 
understand that tough choices have to be made for fiscal 
decisions, but I hope that we do get back to a position where 
decisions could be made, strictly not on fiscal--when we are 
talking about defense, not on fiscal constraints, but on actual 
need. And clearly we are not there. Thank you, Mr. Chairman.

                         MARINE CORPS FOOTPRINT

    Mr. Frelinghuysen. I have a few questions for General 
Neller about where the Marines are.
    Your footprint around the world. When I think about the 
battle for Fallujah, the sacrifices there, things happening and 
problems apparently going badly. When I recall the sacrifices 
of all our military, but particularly Marines, what are we 
doing today in Iraq and Afghanistan in the Middle East, the 
Marine contribution? Do you have lower numbers, talk about 
readiness if you are always ready? What is the footprint? Your 
footprint around the world?
    General Neller. Chairman, there are probably 31-, 32,000 
Marines forward deployed, counting those west of the 
international date line in the Far East. In the Middle East 
right now, you have a Marine Expeditionary Unit that is in 
support of the combatant commander, you also have a Special 
Purpose MAGTF, and then we have some adviser teams that are 
directly involved with the support of the Iraqi security 
forces.
    I would say that we are actually making progress in Iraq, 
albeit slower than we would like. We also have a Marine in 
command of a special operations task force there on MARSOC. So 
I am in contact with these officers, weekly, if not daily, and 
they keep me up to date so that in my Joint Chiefs of Staff hat 
I understand what is going on. So the securing of Ramadi was 
facilitated by some coalition Special Forces Marines that are 
in there. So there is--I don't want to get into numbers, but 
Special Purpose MAGTF, about 2,500, a good portion of them are 
in Iraq. The MEU, our MEU is about 2,400 Marines, and another 
equal number of sailors.
    We have aviation in the region, along with Naval aviation, 
which is part of the strike package. So they are fighting, they 
are in there, and supporting the mission there. We have got a 
small number of Marines in Afghanistan advising the Georgian 
battalion, that do force protection at Bagram Air Force Base.
    As was mentioned, the Arctic was mentioned earlier. Right 
now in Norway, there are about 2,000 Marines exercising with 
about 10 other coalition countries in Norway, up above the 
Arctic Circle. So we haven't been there as much as we used to 
go there. We have prepositioned equipment in the caves. So I am 
sure others are watching that we are back in Norway, training 
with the Norwegians and the U.K. and other countries, and we 
plan to go back there, because just as we are concerned about 
the Arctic, our Scandinavian partners and our NATO partners are 
also concerned.
    In the Pacific, there are actually two MEUs deployed, or 
underway. The 31st MEU out of Sasebo and Okinawa, and the 13th 
MEU, which deployed off the west coast. They are headed to 
relieve the east coast MEU in CENTCOM, but there is a major 
exercise going on in the Korean Peninsula, in support of 
General Scaparrotti, Key Resolve and we will composite those 
two MEUs and do a major amphibious landing as part of that 
exercise, which, again, will bother the young man that leads 
that particular country, north of 38th parallel. We are mildly 
interested in what he thinks.

                         MARINE CORPS AVIATION

    Mr. Frelinghuysen. I know there are adversity boots on the 
ground, but boots that are on the ground around the world are 
declining, and not to take anything away from our special 
operators joint effort, but those numbers spiked up there, and 
they do remarkable work while others historically have done 
some remarkable work. Can you talk a little bit about the 
aviation piece here? I know you have a huge dependence on 
aviation. You have got the joint strike fighter, your fighter 
that has been particularly designed for your crews. Can you 
talk a little bit about where we stand in terms of readiness?
    General Neller. We are going to--there are three versions 
of the joint strike fighter for the Naval force, it is the B, 
which is the STOVL version and the C, which is carrier version. 
The program of record for us is 420 aircraft, 67-C and the rest 
Bs. We have one operational squadron that will deploy in Japan 
this January. We will form another squadron this year. The 
airplane has aeronautically a sound talking to the air crew. I 
know there are concerns about where we are with the software. 
But we are iterating the software. We were down at the vendor, 
Lockheed Martin, a few weeks ago talking to them and expressed 
our desire to go faster, provide us more spares. So the 
aircraft is going to get better, but I think the real test is 
when you talk to the air crew that are flying, they are very, 
very positive and they are very, very excited. I think it is 
going to change for the Naval force what we can do. So now you 
ask where are the carriers? Where are the MEUs? Now you ask 
where are the Ospreys because you have an unfueled flight 
radius of over 500 miles, and basically globally deployable 
rotary wing aircraft that can take Marines anywhere in the 
world. Now we are going to put F-35s on an amphib ship. A fifth 
generation aircraft that can put most, if not the great 
majority of integrated air defenses around the world at risk. 
That is going to fly off an amphib ship.
    To go back what the CNO said about command and control and 
iterating the ships, we are going to have to look at amphibs in 
a different way, because they are going to have to have the 
command and control to link them to the rest of the fleet as a 
warship, as opposed to just a ship that hauls around Marines 
and their stuff.
    So we see great opportunity here, the F-35 needs to get the 
3-F software. We are going to hold the vendor accountable for 
that and keep pressing them for that. We need a new airplane, 
and we need to refurbish our old and that is kind of the place 
I think all the services find themselves in is you have to 
maintain your legacy.
    Mr. Frelinghuysen. Recapitalizing.
    General Neller. Recapitalizing, and you are buying new, and 
then when you take somebody--whenever you give somebody a new 
piece of kit, they have to kind of go off. It takes us 18 to 24 
months to take a squadron down, give them a new airplane, train 
them up and then put them back out there. So we are going 
through that right now with every model type series we have. 
And so it is going to take some time. My concern is that we get 
enough aircraft that are flyable and our air crews get enough 
time to fly because people join the service; if they want to be 
aviators, they join to fly. We know at the same time, all our 
commercial air carriers are hiring.
    Mr. Frelinghuysen. It is----
    General Neller. Delta told us they are going to hire 900 
pilots this year. So I am concerned about that which goes back 
to the people.
    Mr. Frelinghuysen. Thank you very much. Mr. Visclosky.

                       SUICIDE PREVENTION EFFORTS

    Mr. Visclosky. Thank you, Mr. Chairman. Two questions. The 
first has to do with the 21st century sailor and Marine 
initiative. And gentlemen, I would want to thank all three of 
you. Over the last couple of years I have expressed concerns 
about the efficiency of the Department's resiliency program, 
particularly as it relates to suicide prevention. All of the 
departments have stayed in very close touch with our office, 
and my sense is very focused on the initiative and moving 
forward. Could you just briefly tell us, Mr. Secretary, where 
that is? And then, I have one more question.
    Secretary Mabus. The entire initiative, as you know, is to 
bring all the programs that relate to resilience, readiness or 
our people under one roof, so that we can see if things cut 
across, issues. On the suicide prevention piece particularly, 
we have, in the last year, trained 800 people to be at 
virtually every command that we have that can recognize warning 
signs, that can provide intervention and that can provide 
assistance. And we are working not just in that lane, but also 
in educating all our sailors and all our Marines to recognize 
the warning signs that one of their shipmates may be getting 
into trouble, maybe contemplating something like this.
    We are also trying, after people leave the service, to 
continue that care. That if they did seek and receive some care 
for a potential like that, that we keep in touch with them for 
at least a year after they get out so that they are not just 
left stranded after they leave.
    And the other things that we are doing under 21st century 
sailor and Marine sexual assault prevention, we have got a 
myriad of programs there. One of things that has just popped 
up, and I have told the committee, I mentioned this last year, 
one of the things that cuts across many of these is alcohol, is 
alcohol abuse for sexual assault, for child abuse, for spouse 
abuse, for suicide, and for readiness.
    The reason that we put in for both the Navy and the Marine 
Corps breathalyzers, so that instead of just doing drug tests, 
we are doing breathalyzers. It is not a punitive thing, but if 
somebody pops going to work, they have still got alcohol in 
their system, and if they do it more than once, we are going to 
get them some help.
    So the Marines keep what you have earned, you don't lose 
it, you don't make a life-changing, life-threatening or career-
changing thing for that. There are many other programs in that 
21st century sailor and Marine. I will be happy to come brief 
you, or get you a complete written assessment of what we are 
doing, but it seems to be working.

                           DEPOT MAINTENANCE

    Mr. Visclosky. I appreciate that narrowing of focus. If I 
could, Admiral, just on depot maintenance, I understand there 
is a backlog and there is an increased request for 2017. I 
assume there are a number of ways you solve that problem. One, 
a decrease in tempo, I don't see that happening. I am not 
suggesting there is any new money anywhere. But if there were 
additional monies, could they be put to use? Is there a 
capacity to use and eat into some of that backlog you have?
    Admiral Richardson. Yes, sir. I will tell you that we are 
really looking to, one, make sure that the shipyards are fully 
manned, and Congress has been very supportive. We are on track 
to hire up to 33,500 workers across all of the public yards. 
And so, that will address some of the aircraft carriers and 
submarines taking longer than scheduled to get out of 
maintenance. We are also investing in the shipyards' 
infrastructure, and, so, any additional resources that we can 
get just allows us to invest in that infrastructure faster, 
smooth out work lanes, and that sort of thing.
    As well, many of our surface ships, non-nuclear surface 
ships, are maintained in private yards. A critical part of our 
industrial base is our repair yards. I have had a chance to 
visit many of those around the country, San Diego, Hampton 
Roads area, and they are terrific. But they also need to rely 
on consistent funding, predictable funding so that they can do 
the planning, and they can do the capital investment that 
allows them to get better as well and get our ships through on 
time. We are digging out of a hole in that area, in particular, 
in surface ship maintenance. It is critical we stay on this 
path. And so we very much appreciate the support of Congress 
there.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Ms. Granger and then Ms. McCollum.

                          PIVOT TO THE PACIFIC

    Ms. Granger. Thank you. Mr. Secretary, several years ago, 
some time ago, the administration announced the pivot to Asia 
and a congressional delegation went to Darwin, Australia a year 
or so later to see what kind of change had been made at that 
base. I don't--well, I know we are responding now to the 
Chinese aggression and militarization in that area, but did I 
miss it? I can't see that there is anything else that went 
along with the pivot. Did I just miss it, or am I correct?
    Secretary Mabus. Well, in terms of military equipment and 
people of the Navy and Marine Corps, as I said before, we are 
moving 60 percent of our fleet to the Pacific, that is up from 
about 54 percent before. We will be there by 2020 and it will 
be a much larger fleet. As CNO said previously, we are putting 
our U.S. most advanced assets there. The P-8s are going there, 
the DDG-1000s are going there. We are putting an additional 
submarine into Guam and an additional submarine tender into 
Guam. We are putting in two additional DDGS with ballistic--
antiballistic missile capabilities into Japan.
    We are going to forward station for littoral combat ships 
in Singapore. For the Marines, you mentioned in Darwin last 
year and this year, we are putting about 1,200 Marines into 
Darwin on a 6-month rotational basis to train not only with the 
Australians, but also with other countries in the region. That 
will grow over the next few years to a full MAGTF, which is 
about 2,400 Marines and all their equipment. This is an all-of-
government rebalance to the Pacific. But in the military sense 
you can see, as General Neller said, we have 22,500 Marines 
west of the international dateline. We will keep that number 
west of the international dateline. And so, we are moving more 
ships, more ships from a bigger fleet, a bigger percentage of 
our fleet from a bigger fleet, and we are moving the most 
advanced capabilities that we have as soon as we get them, they 
go to the Pacific first.
    Ms. Granger. Thank you.
    Mr. Frelinghuysen. Ms. McCollum and then Mr. Crenshaw.

                         MATERNITY LEAVE POLICY

    Ms. McCollum. Thank you, Mr. Chairman. I have two questions 
following up a little on what the ranking member asked. But I 
want to start out with what I heard Admiral Richardson say at 
the beginning of his testimony, that we want to do right by our 
people. So Secretary Mabus, last July, you implemented a new 
maternity leave policy that extended fully paid maternity leave 
for Navy and Marine Corps to 18 weeks. And I commend you for 
making maternity leave a priority.
    Last month, Secretary Carter announced a new Department of 
Defense-wide maternity leave police that would set it at 12 
weeks. So where this was good news in doubling the maternity 
rate leave for Army and Air Force, it reduced by 6 weeks, 6 
weeks, maternity leave for women in the Navy and Marine Corps 
who are not currently pregnant.
    So I am concerned that the Department of Defense's new 
policy rolls back a more progressive position with Navy and 
Marine Corps investing in women and families. We have heard you 
gentlemen speak quite often about keeping retention and 
recruitment. Our women and men in uniform are the most 
important resource that we have, and we must build a fighting 
force that retains these investments.
    So Secretary Mabus, you had a reason for making that 
decision to set the Navy and the Marine Corps maternity leave 
at 18 weeks. What went into that decision?
    Secretary Mabus. We would lose twice as many women as men 
between about the 6-year mark to the 12-year mark in both 
services, the Navy and the Marine Corps. And it was to try--it 
is almost always to have a family. In a dual military couple, 
it is almost always the woman that leaves. We thought expanding 
maternity leave was an effort to do two things: One was to keep 
these sailors and Marines, to keep them from having to make the 
choice between family and service, to keep those mid career, or 
7-to-12 year people that we have invested so much money in. We 
have invested millions to train a pilot or a submariner, or a 
surface warfare officer or cyber warrior. And if we can keep a 
woman, in particular, during--instead of leaving, number one, 
we will save money; number two, it as rating decision, because 
if we keep that 9-year sailor, we don't have to replace that 
sailor with a brand new recruit.
    And so that was the thinking that went into the expansion. 
And we did a lot of research in terms of the private sector and 
where they had found the most success.
    Ms. McCollum. Thank you, Mr. Secretary. I appreciate what 
you did by really looking at mid career women in particular, 
and by extending for those women who found themselves in the 
family way currently the 18 weeks. I have to think that there 
were women who might have been making a decision to reenlist in 
that based on what I think was a wise policy that you had in 
July who might be thinking now that they would have made a 
different decision.
    So Mr. Chair, when it comes to the sexual assault and the 
maternity leave issues, and some of these family issues, I know 
that the authorizers are working on that quite often, but it is 
a really a cost-benefit analysis to the investment that we make 
out of this committee in what people have referring to as the 
soft power.
    Thank you for answering the question, and I want to learn a 
little bit more about how this may be effective to women if you 
are doing the surveys after how the women felt about the change 
in policy, which was taken out of your hands. Thank you, sir.
    Mr. Frelinghuysen. Thank you, Ms. McCollum. And 
appropriators are just as committed and interested in this 
subject as are our authorizers, and it will be reflected in our 
bill through your good efforts, and also Ms. Granger.
    Yes, Mr. Crenshaw.

                   ANTI-ACCESS AREA DENIAL CHALLENGES

    Mr. Crenshaw. Thank you, Mr. Chairman. We talked a lot 
about ships today. Obviously we talked about the Navy and we 
talked about submarines. I know you have other programs that 
are vital to our national security. The Chairman touched on 
airplanes, P-8s, the E-2D Hawkeyes, the Growler. And as I 
understand it, you have China getting more modern, and Russia 
getting more aggressive in new areas, one of which I have read 
about called anti-access/aerial denial, A2/AD. I think it is a 
term that was used to confuse our adversaries, as well as 
Members of Congress. It is hard to say.
    But tell us a little bit about that whole challenge, and 
then how we are meeting with some of the other assets we have 
like the Growler, like the E-2D Hawkeye. I think we would all 
be interested in knowing what those programs are and how they 
are meeting these new challenges, and are they being supported 
by the 2017 budget request?
    Admiral Richardson. Sir, I thank you for that question. We 
achieved perfect operational security, even we don't know what 
we are talking about. So thank you for that compliment.
    The idea of area denial, A2/AD, is really generated by, 
again, our competitors taking advantage of some of these forces 
that are operating in the technology and information domain, 
where it is just becoming easier, much easier, to have a 
weapons system that can detect a target at great range, can 
assign a weapon to that target, and then strike out to hundreds 
of miles with great precision.
    Now that takes an entire sophisticated chain of events to 
make all that happen. And as we respond to that, we are 
responding across that entire kill chain that we call. So you 
really have to, from the very initial detect to the end game, 
defeating any kind of weapon that is coming in, you have to 
dissect that entire sequence and take it down wherever you can.
    You mentioned aircraft. Aircraft are a huge part of that. 
In terms of aircraft, you mentioned E-2D and the Growler, both 
of those play a vital part. They are fully supported in the 
budget, the fifth generation aircraft, the F-35, the Commandant 
mentioned the Marine Corps version, the vertical takeoff, we 
are asking for 10 more F-35Cs, the aircraft carrier version of 
that in this budget than we did in our 2016 request to kind of 
move ourselves into the fifth generation with respect to 
aircraft. And so, this budget fully supports looking at those 
technologies, it will help us defeat that anti-access/area 
denial type of a net with confidence so we can continue to have 
access wherever we need it to push the fight forward.
    I would like to take a moment, too, sir. We have talked a 
lot about depot capability, and the Commandant mentioned this. 
Oftentimes we talk a lot about shipyards, but our aviation 
depots are absolutely critical to maintaining the ready 
aircraft so all of the pilots can fly. So just like in ships, 
we are making up for a backlog in, particularly the legacy 
Hornets and some of the helicopters that are working through 
depots. We are investing heavily in making sure the depots are 
funded to their maximum capacity. We are bringing on new 
artisans, and they truly are artisans that work on these 
aircraft. And we are also enlisting help from the private 
sector, Boeing and L-3, as specific to increase the throughput 
to get out of this backlog of maintenance and aircraft, and get 
more aircraft on the flight line that are ready to fly.
    So additionally, because we have been flying the Super 
Hornets more, they are reaching the end of their life faster, 
so we have requested additional Super Hornets, both in 2017 and 
2018, to help us get to where these F-35 purchases can start to 
pick up the load. And so it is really kind of a three-
dimensional process, moving our legacy Hornets and other 
aircraft through the depots, buying some Super Hornets to help 
us accommodate and make up for the increased use of those 
aircraft, and then bringing this F-35, other fifth generation 
aircraft like the E-2D and the Growler that will make us 
relevant in that fight.
    Mr. Frelinghuysen. Okay, I want to make sure that members 
have a chance to a second round here. Mr. Israel, any comments 
or questions?
    Then Mr. Womack.

                    PROFESSIONAL MILITARY EDUCATION

    Mr. Israel. Yes, thank you. Very briefly. On the issue of 
professional military education, most of this conversation has 
been about platforms, hardware technologies. If you could all 
very briefly comment on whether you think we are investing 
enough in training and ongoing education. Specifically, as a 
matter of career retention, offering opportunities, enhanced 
opportunities to learn should be an effective retention 
strategy. If you would all comment on that very briefly.
    Secretary Mabus. I will give you one very specific program 
that we announced this year. We are going to take 30 slots for 
officers around Lieutenant, or Captain level, and pay for their 
graduate-level education, and we have already got people 
studying now at Harvard, Yale, and Dartmouth under that. And 
they are chosen by their commanders as the people with a lot of 
runway in front of them, a lot of career prospects. And we want 
to use this as one of the ways to keep them in the military.
    Mr. Israel. Thank you.
    General Neller. I would just say that it is a very 
inexpensive way to maintain the professionalism, and the 
capability of the force is to continue to educate. So you train 
for the mission; you educate for the future. And so we are 
committed that we have, whether it is educational opportunities 
like the Secretary mentioned, professional military education 
for officers, and I think one thing that we have done better, 
but we need more work on, is for our enlisted force. Very, 
very, very smart people, and I don't think we are stressing 
them as much as we probably could to get more out of them.
    So I would like to see, you know, more of our enlisted 
force because they are deployed. They are busy. And to ask them 
to get an associate or a bachelor's degree is a heavy lift, but 
because of the way the world is and because of the capabilities 
we are going to use, and the things that we are going have to 
be able to solve, and the problems, I know they have the 
capability and the motivation to do that. We have just got to 
create a better environment for them to have that opportunity.
    So we are committed to that, because it is, in the overall 
scheme of things, it isn't a lot of money, and it is going to 
maintain the quality of the people, and it is going to keep 
them in. And that is really the most important thing is, we 
don't have to keep them all. We have got to keep enough of the 
very, very best that are going to lead us into the future.
    Mr. Frelinghuysen. Well spoken. Mr. Womack.

                           AVIATION SHORTFALL

    Mr. Womack. Two quick questions. One is a follow-up to 
Ander's question about Super Hornets. There were two in the 
2017 request, and I think there were 14 out in the 2018 
request. Is there a capability gap in that timeframe at all?
    Secretary Mabus. Well, we have also, in our unfunded 
priorities list, asked for an additional 14 in 2017. But the 
way the budget was structured, the two for 2017, the 14 for 
2018, gets us a good way down the road to where we need to be 
for the industrial base, for the line, the F-18 line having 
only two in 2017, presupposes some international sales. And if 
those don't materialize, to keep the line hot, we would need to 
move aircraft into there.

                         MILITARY PAY INCREASE

    Mr. Womack. I understand. And real quickly, we haven't 
talked about military pay and compensation. The budget request, 
1.6 increase, I think a half a point below ECI. Are we sending 
a message to our men and women in uniform, and what would that 
message be?
    Secretary Mabus. My understanding was the 1.6 was above the 
rate of inflation, and the message we were trying to send was 
we value you. We value what you are doing for this country. And 
it is not just pay. It is also the benefits that, like 
education, like the new GI Bill, for not only the military, but 
for their families. It is things like childcare. It is things 
like making sure that families are resilient. And what we are 
trying to do is make careers more flexible, make them very 
competitive with the private sector.
    Now, we are not the private sector. We do a very different 
mission than the private sector. But the CNO pointed out, 
cyber, people that come out with the IT capabilities that we 
need in cyber, have a lot of job opportunities. One of the 
things that we offer is the ability to serve. But we have to be 
competitive in some other ways, and the last thing I would say 
is something that the CNO has talked a good bit about today.
    And that is, as I go out and do all-hands calls around the 
fleet, which I do a lot, of course, I get questions about 
retirement, and salary, and benefits. But I don't get as many 
as I do about stability. Let us know that we are going to--give 
us some stability in terms of where we are going as a force. Am 
I going to still have a job in 5 years? Are you going to 
significantly reduce the size of the Navy or the Marine Corps? 
What is going to happen to me in the future? Give me some 
certainty.
    And that would--that is what I hear a lot, and that is also 
what we are asking for. We deeply appreciate the 2-year 
agreement. However, 2 years is not very long. And the force is 
looking for, are you going to continue that commitment year in, 
year out?
    Mr. Frelinghuysen. Thank you. This committee is all about 
stability, and thank you for underlining that, and certainly, I 
think, the full Appropriations Committee as well. We believe in 
regular order, and certainly as it affects, as it adversely 
affected our military in the past, we don't want to repeat that 
situation again.
    Mr. Ruppersberger, and then Mr. Diaz-Balart, briefly.

                     UNDERSEA COMMUNICATION CABLES

    Mr. Ruppersberger. Yeah, Admiral Richardson, when we 
discussed the topic of cybersecurity, and cyber warfare, it is 
impossible to do so without talking about the cloud. However, 
much of the critical global Internet infrastructure still lies 
in miles of undersea cables stretched across the globe. And 
this network is not only critical, but is vast. And there are 
over 550,000 miles of undersea telecommunication cables 
crisscrossing the globe as we speak.
    Now, these cables are not only critical to the global 
economy, but also vital to the national security of the United 
States and our allies. Now, given the unclassified nature of 
this hearing, in your budget submission, is the Navy, U.S. 
Navy, properly resourced to secure these cables from sabotage 
and espionage? And also what are your challenges in conducting 
this mission?
    Admiral Richardson. Sir, thank you for pointing that out. 
And you make the point that just like traffic over the seas as 
choke points, you know, the Straits of Gibraltar and other 
choke points. So does our information system have choke points? 
It seems like when you log on to a computer, you have got 
access to the whole thing and it is free rein.
    But as you pointed out, 99 percent of that Internet traffic 
travels over those underwater cables, and so they are vitally 
important. It is difficult to talk about this almost at any 
level in an unclassified hearing. But we are----
    Mr. Ruppersberger. I am aware of that. I am aware of what 
vessels we use to deal with that.
    Admiral Richardson. Right. Yes, sir. But we are focused on 
that, you know, with a keen edge. We are working very closely 
with our team over in Europe. I talk to Admiral Ferguson and 
Admiral Foggo, our commanders over there, frequently about 
this. There is a homeland defense perspective of this, and so 
Admiral Gortney is the NORTHCOM commander, and he and I are 
completely focused on this mission.
    Mr. Ruppersberger. Thank you.
    Mr. Frelinghuysen. Thank you. Mr. Diaz-Balart.
    Mr. Diaz-Balart. I will be brief, Mr. Chairman. Former 
SOUTHCOM Commander General Kelly had mentioned many times how 
he could see drugs in boats, et cetera, moving through his area 
of operation, and yet, just didn't have the assets to go after 
a number of those. And you know, illicit drugs kill tens of 
thousands of young Americans every year. How is your budget 
recommendation going to--will it be able to make a dent on 
that, and if so, to what degree?
    Secretary Mabus. What General Kelly pointed out is the hard 
fact of a shrinking fleet. And as I said, we have turned that 
around. We are going to have more assets, and you are going to 
have more assets not just for the Pacific, but for these sorts 
of missions. And we are using different types of ships for 
these missions as well.
    The first littoral combat ship, Freedom, on its way from 
the shipyard, basically, deployed, seized 3,500 tons of illicit 
drugs. We are sending vast expeditionary transports, which are 
very fast and unloading our Coast Guard friends to do the law 
enforcement part of this.
    So it is--yes, it is an issue. We are building toward the 
fleet and part of the Force Structure Assessment that the CNO 
talked about, that to get to a fleet of 308 ships, include 
ships for SOUTHCOM, which is both the Caribbean, the Atlantic, 
and the Pacific in that area.
    General Neller. I will just add to that, sir, that we do a 
lot of work with our partners in Central and South America as 
far as training and building their capacity and there is other 
money within the Federal budget that allow us to do that 
counternarcotics funding. Last year, we deployed, in support of 
SOUTHCOM, a Special Purpose MAGTF to Honduras, that operated in 
and around the area, primarily to be there during the 
hurricane, high-disaster potential season. We are going to do 
that again this year.
    So is that going to be enough to reduce the incursion to 
meet the demand for drugs in this country? Probably not. But we 
are trying to do what we can do within our capability and to 
support, now Admiral Tidd, as the commander of SOUTHCOM.
    Admiral Richardson. And sir, I just--you know, one more log 
on this fire. Where we can, you know, we do send assets down 
there. We were privileged to send the George Washington Strike 
Group around through the SOUTHCOM area, and all along, you 
know, both coasts of South America they worked intensely with 
the partners down there. They helped build their capacity and 
do a number of exercises, senior leader engagements, et cetera, 
to show our commitment to that super important theater every 
time we can.
    Mr. Frelinghuysen. Is that the George Washington that this 
committee put money into?
    Admiral Richardson. The very same, sir.

                     COUNTERING RUSSIAN AGGRESSION

    Mr. Frelinghuysen. Thank you, Mr. Diaz-Balart. I want to 
talk about, I know we talk about the pivot to the Pacific, and 
whether it is fulfilled or not. In reality, we have a pivot to 
Europe here. And let me say, General Breedlove landed a B-52 in 
our office recently in terms of some of the issues that we are 
facing in Europe.
    What are we doing since we are moving all of these assets 
to the Pacific, for good reason, since we are aware that we 
have got a Russian aggression in all forms that are facing the 
U.S. Navy?
    Secretary Mabus. Well, again, thanks to this committee and 
to Congress, because the fleet is growing, we just added the 
fourth ballistic missile defense capable destroyer that is 
going to be home ported in Rota. We have four of those that can 
do not only ballistic missile defense in the phased adapted 
approach, but also theater security cooperation, operations 
exercises. We do Operation BALTOPS with Scandinavia every year 
with a lot of ships, a lot of our partners.
    The Marines, as the Commandant mentioned, have 
prepositioned equipment in the caves in Norway. They are going 
through the exercise co-response with some of our allies now. 
The Marine's Special Purpose MAGTF, the one in Moron that has 
an element in Romania, the Black Sea Rotational Force to work 
with; Romania, Bulgaria, our allies there, and to partner with 
the U.S. Army in exercises and operations in that region.
    We are, as we send Atlantic Coast carrier strike groups in 
and amphibious ready groups through the Mediterranean, we do 
work with our allies and our partners.

                            COUNTERING ISIL

    Mr. Frelinghuysen. When you were here last year, Mr. 
Secretary, ISIS didn't have a 150-mile bulkhead on the 
Mediterranean. How are we prepared to address that issue with 
today's Navy?
    Secretary Mabus. Well, one of the things that is certain 
is, we don't know what is coming next. Is the uncertainty like 
an ISIS that we didn't know about 2 years ago? And so the only 
thing we can do is have enough platforms, that are flexible 
enough to do any mission; to have enough aircraft and weapons 
that go on those platforms, and to train our sailors and 
Marines for not just one specific issue.
    Mr. Frelinghuysen. We have got instability in North Africa. 
We have got instability in Egypt. Our NATO ally, Turkey, has a 
degree of instability and I would like to see some comments 
relative to our confidence factor that we are ready. And I am 
sure the Marines will be able to provide that.
    General Neller. Well, Chairman, I would say that, and the 
Secretary mentioned this, the Special Purpose MAGTF that was 
based out of Moron, and I didn't mention them as I kind of went 
around our force laydown. But they are a land-based force 
because there is not enough--we don't have an amphib ship or 
ships that would give them the flexibility to move around. They 
position their force.
    We have special forces. Again, this is an unclassified 
hearing, but we have special forces that are operating in that 
part of the world, and in order to make sure that they have got 
somebody to back them up, those Marines position themselves 
during the time that they are on the other side--on the south 
side of the Med to react to them.
    So, Admiral Richardson and I are looking at different force 
packaging on how we could move the ships that we have and 
provide a better capability for Admiral Breedlove--or General 
Breedlove and General Rodriguez. Clearly, they have requested 
an ARG/MEU to support them. And we are trying to figure out 
how, with the numbers of platforms we have, maybe one of these 
alternate platforms would be a solution or a partial solution. 
But you have got ISIL in Libya, and other parts, you have got 
Boko Haram down in Nigeria. You have got the western part of 
Africa, the Gulf of Guinea that the Secretary has spent a lot 
of time in with our partners.
    So being a maritime force, and then being able to come from 
the sea, we can be in a multiple--we have the flexibility and 
agility that gets the maneuver from the sea. So I was asked 
earlier about amphib ships, LXR, and as the CNO mentioned, you 
know, I don't--I know a little bit about ships, but I know that 
if you build more of them at one time and you reduce your 
nonrecurring engineering, and we have got a proven hull form in 
the LPD, if there is any way that we can move any of that to 
the left and repeat this, you know, it would allow us to get 
more ships faster, and it would kind of untether us. We are on 
the land because we have to be on the land. We would much 
rather be on ship.
    Mr. Frelinghuysen. We need to make those types of 
commitment. We need more ISR. We need eyes on the ground.
    Admiral Richardson. Sir, if I can just byline a little bit. 
The Secretary mentioned that we are going to have the carrier 
strike groups spending more time in the Mediterranean 
addressing that. And they will be fully ready to meet those 
threats. We are going to--you know, that is the level to which 
those sailors and Marines train.
    But we are only able to meet half the Combatant Commander 
demand right now. So as we adjust to both the Russian threat 
and ISIL, you know, that is going to come at the expense of 
somebody else. And so this is why we need to do this Force 
Structure Assessment all over again to determine what is the 
proper fleet size to allow us to get at the whole problem.

               Closing Remarks of Chairman Frelinghuysen

    Mr. Frelinghuysen. Well, gentlemen, thank you for your 
testimony this morning. And again, to you, Mr. Secretary, there 
is a cake in your future. I am not sure whether you want to 
display it, but it will go with you, saluting your 8 years of 
dedicated service to our Nation. And Admiral Richardson, 
General Neller, thank you for your testimony and your 
leadership. We are proud of the men and women that you 
represent. The cake is coming your way without a candle. We 
stand adjourned.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

                          Littoral Combat Ship

    Question. Please articulate the specific reasons, citing DoD 
studies, that justify the reduction of the LCS buy from 52 to 40. Is it 
the opinion of the Navy that 40 Littoral Combat Ships is sufficient to 
conduct the missions demanded by combatant commanders today or in the 
future?
    Answer. The Navy's requirement for Small Surface Combatants remains 
52, as determined by the 2012 Force Structure Assessment (FSA), which 
was most recently updated in 2014. There is no Navy analysis that 
indicates that 40 ships are sufficient to meet warfighting and presence 
requirements.
    Question. How many LCS platforms are needed to meet the demand of 
multiple large-scale contingency plans in two theaters?
    Answer. The Navy requires 52 Small Surface Combatants to meet the 
demand for large-scale contingency plans in two theaters.
    Question. What are the negative consequences and national security 
risks of only procuring 40, and how will the Navy compensate for the 
shortage?
    Answer. Until the Small Surface Combatant objective of 52 is 
reached, risk is manifested in three primary areas:
          <bullet> Fewer Small Surface Combatants mean that ships 
        responding to a crisis must either surge from home ports in the 
        United States, which takes more time, or swing from other 
        theaters where risk of conflict exists, injecting risk into 
        that theater's ability to respond to an opportunistic 
        aggressor. Delayed response time to a crisis enables the 
        adversary to better set conditions in his favor and may 
        necessitate revisions to the Joint Warfare Commander's campaign 
        plan.
          <bullet> Additionally, in the event of a shortage of Small 
        Surface Combatants, other assets may have to be assigned the 
        associated missions. This injects risk when the capabilities of 
        the reassigned assets are not the same as those of the Small 
        Surface Combatants, and also injects risk in the area from 
        which the assets were reassigned.
          <bullet> Finally, if time or events preclude waiting for the 
        delayed arrival of the Small Surface Combatants or if no 
        suitable alternatives are available, the Joint Warfare 
        Commander may need to accept the risk to the campaign of not 
        assigning an asset to achieve the Small Surface Combatant's 
        mission.

                           USMC End Strength

    Question. Will a shrinking Marine Corps result in fewer Marines 
being available for Combatant Commanders to employ, or will the OPTEMPO 
of the Marine Corps rise in the coming years, assuming the today's 
demand for ground forces continues?
    Answer. Current operational demand already exceeds the Service's 
capacity of readily available forces to meet myriad requirements across 
the combatant commands. Reduced end strength, therefore, simply 
exacerbates the challenge of trying to balance operational demands 
against force providing capacity and capability. A shrinking Marine 
Corps does not equate to reduced OPTEMPO; what it does is increase 
risk--to the force, mission, and institution. As the Nation's ready 
force, the Marine Corps is committed to providing ready forces to meet 
operational requirements today and into the future As the Marine Corps 
reconstitutes after over a decade of prolonged conflict that focused on 
counterinsurgency operations, sufficient end strength is required to 
properly size units to effectively operate across land, air, maritime, 
space, and cyber space domains, and across the entire range of military 
operations.

                         USMC Amphibious Ships

    Question. You stated in your budget hearing that you have a 
validated requirement for 34 USMC Amphibious Ships, but have a 
preference for 38. Please draw a distinction between ``validated 
requirement'' and ``preference'', and why you are using these 
categories. Can the USMC complete its wartime mission, conducting 
operations in multiple theaters simultaneously, with only 34 Amphibious 
Ships? What are the national security risks we invite if we do not 
procure 38 Amphibious Ships?
    Answer. The Chief of Naval Operations and the Commandant of the 
Marine Corps have determined the force structure to support the 
deployment and employment of 2 Marine Expeditionary Brigades (MEBs) 
simultaneously is 38 amphibious warfare ships. Understanding this 
requirement, and in light of the fiscal challenges faced by the nation, 
the Department of the Navy has agreed to sustain a minimum of 34 
amphibious warships. However, Combatant Commander demand is more 
realistically assessed in excess of 50 amphibious warships.
    Shortfalls in the amphibious warship inventory have multiple 
negative effects. This must be viewed as a two-faceted problem of 
inventory and availability. A decreased inventory has negative effects 
on both overall capacity and maintenance. For instance, our existing 
inventory of 30 ships will, at current maintenance rates, only yield 
approximately 21 operationally available amphibious warships at a given 
point in time. This puts the nation at risk of being unable to embark 
the 2 MEB assault echelon required for a forcible entry capability. 
Further, as ships are stressed due to increased use, they require more 
maintenance, driving up maintenance costs and compounding the problem 
of availability.
    While this 34-ship force accepts risk in its role of providing 
combat support and combat service support elements of a MEB, it has 
been determined to be adequate in meeting the needs of the naval force 
within today's fiscal limitations. This inventory level also provides 
the needed capacity for a forward presence and a MEB/Expeditionary 
Strike Group (ESG) to respond to a crisis or contingency. Any 
shortfalls below 34 will negatively affect our ability to ensure 
constant presence, and our ability to immediately respond to tasks on 
the lower intensity end of the range of military operations with Marine 
Expeditionary Units.
    Further, this negatively impacts our ability to serve as the 
nation's expeditionary force in readiness and to prevent incidents from 
escalating beyond small scale crisis. For instance, we have a 
noteworthy lack of maritime presence in the Mediterranean. To mitigate 
this, the Navy and Marine Corps are exploring opportunities to deploy 
Marines on non-combatant auxiliary platforms, a less-than-ideal 
workaround necessitated by the current fiscal environment. Auxiliary 
platforms are not a replacement to the capabilities and survivability 
of amphibious warships. Furthermore, this shortfall has forced the Navy 
and Marine Corps to explore ways to distribute elements of a single 
Amphibious Ready Group (ARG)/MEU across Combatant Commander boundaries 
to provide some measure of coverage in various regions. Again, this is 
not an ideal method when compared to the preferred employment of the 
full ARG/MEU as an aggregated three-ship force which can bring to bear 
its fill capability.
    Finally, shortfalls negatively affect our ability to train. 
Conducting amphibious operations with our joint services is not just a 
matter of putting Marines on Navy ships. Those units must have the 
opportunity to operate with each other during their workup to establish 
relationships, tactics, techniques, procedures, and build 
interoperability.

                Conventional Prompt Global Strike (CPGS)

    Question. How has the potential for a sea-based CPGS system 
affected the acquisition of any sea platforms, or the modification or 
upgrade plans to any vessels?
    Answer. CPGS has not affected the acquisition, modification, or 
upgrade of any sea-based platforms. The Navy, supporting the OSD 
Defense Wide Account (DWA) effort, has received guidance that CPGS 
efforts should have no effect on, nor drive costs for, the VA-Class 
Payload Module (VPM) effort.
    Question. What feedback has the Navy given DoD regarding technical 
requirements for the design of a CPGS system so that it might fit on a 
ship or submarine?
    Answer. The Navy, supporting the OSD DWA effort, has performed 
trade studies looking at potential architectures for various future 
CPGS applications and basing modes--air-based, land-based, and sea-
based. Understanding the constraints of all basing modes, Navy has 
worked with OSD on notional CPGS payload shapes and sizes.
    Question. Is money being spent to prepare sea or land platforms for 
the future fielding of a CPGS system; if so, from what account?
    Answer. Navy has not spent funds preparing any platform for future 
fielding of a CPGS capability.

                             SM-3 Missiles

    Question. I am concerned by the continued erosion in quantities 
programmed across the future years defense budget for SM-3 Block IB and 
IIA production. The lack of an inventory objective for the system makes 
it particularly challenging for the Congressional Defense Committees to 
assess actual progress toward meeting warfighter requirements. I 
request the Department of the Navy, in coordination with the Missile 
Defense Agency, to establish and report by fiscal year the inventory 
objectives required to satisfy warfighter requirements for the SM-3 
Block TB and Block 11A missile.
    Answer. (U) Standard Missile (SM-3) missiles are fielded aboard 
Navy ships and, recently, at the Romania Aegis Ashore facility. Navy 
cooperates closely with the Missile Defense Agency (MDA), which acts as 
the government procurement agent for all SM-3 variants. MDA has 
developed an in-depth, budget constrained, SM-3 missile buy-delivery 
plan, which results in the inventory plan shown below.

                                   PB17 END OF FISCAL YEAR SM-3 INVENTORY PLAN
----------------------------------------------------------------------------------------------------------------
                                                              FY16     FY17     FY18     FY19     FY20     FY21
----------------------------------------------------------------------------------------------------------------
SM-3 Blk 1/1A.............................................      101       85       60       49       37       35
SM-3 Blk 1B/TU............................................       92      128      166      202      236      271
SM-3 IIA..................................................        0        0        2       11       12       14
                                                           -----------------------------------------------------
    Total.................................................      193      213      228      262      285      320
----------------------------------------------------------------------------------------------------------------

    In regard to a Navy Inventory Objective, the Navy utilizes a Naval 
Munitions Requirement Process (NMRP) to establish the desired inventory 
for all Naval ordnance items. For SM-3 missiles, the NMRP model yields 
a Total Munitions Requirement (TMR) which includes ammunition ship 
fill, projected threat-based combat expenditures, war reserve 
ammunition for combat reload, as well as missiles in the maintenance 
pipeline. The current approved TMR for SM-3 missiles has been provided 
via classified means.

                Personnel Review and Complaint Processes

    Question. As a follow-up to my question last year about the SWO 
Training Program, how do the Immediate Superiors in Command (ISIC) and 
Commander, Naval Surface Forces (CNSF) ensure the instructions are 
being followed? When a problem occurs, what documentation is there of 
those problems and the subsequent resolution? Can you provide a sample 
training plan as provided to SWO junior officers?
    Answer. The Immediate Superiors in Command (ISIC) are responsible 
for monitoring and validating that the SWO training programs under 
their command are being adequately followed. ISICs are commanded by 
Major Command Screened Officers, or more senior, and are Captains 
(Paygrade 0-6) or Flag Officers. Unit Commanding Officers (CO) are 
responsible for keeping their ISIC well informed of the progress of SWO 
qualifications within their command. Additionally, each ISIC and Unit 
CO receives refresher training on the SWO training program during Type 
Commander (TYCOM) indoctrination before they assume command.
    It is not abnormal for officers to struggle meeting the 
requirements to qualify as a SWO. A majority of these officers will 
overcome their challenges with support mechanisms in place at the unit 
level. Tools are available to a CO and to SWO candidate officers to 
enable qualification. The SWO qualification program is regulated by 
instruction COMNAVSURFPAC/COMNAVSURFLANTINST 1412.1 (Surface Warfare 
Officer Qualification and Designation). This instruction directs a 
minimum completion of schools, qualifications, and boards within a 
timeline for an Officer to qualify as a SWO and subsequently be 
eligible for career progression as a SWO. Deviations from the minimum 
path to qualification are not authorized. Inabilities to meet the 
requirements for SWO qualification are reportable per the previously 
cited reference to COMNAVSURFPAC or COMNAVSURFLANT, via the ISIC. Per 
this instruction, an officer is required to attain SWO qualification 
within the first 18 months of shipboard service following completion of 
Basic Division Officer Course (BDOC). Naval Personnel Command (NPC) 
placement officers work closely with the Executive Officer (XO) of each 
ship to establish a rotation date for their next career assignment 
which is dependent upon their SWO qualification. This process provides 
a dialogue for the ship, ISIC, TYCOM, and NPC to assess officer 
progression. A CO may grant more time than 18 months to attain SWO 
qualification if particular circumstances listed in the instruction are 
met. In that case, the CO will submit a letter describing the extension 
and the circumstances to NPC, copying their ISIC and TYCOM. This 
notification enables ISIC and TYCOM oversight to assess whether the 
officer will be able to meet qualification requirements, and if 
additional support resources are needed to enable qualification.
    Surface Warfare Officer School (SWOS) is the executive agent for 
all SWO schoolhouse training. All new accession officers attend Basic 
Division Officer Course (BDOC) within the first six months of 
commissioning. Courses are taught in three schoolhouses: Newport, RI; 
Norfolk, VA; and San Diego, CA.
    Additionally, each ship develops individual SWO training plans to 
meet the requirements promulgated in the aforementioned SWO 
Qualification and Designation Instruction. Latitude is given to unit 
COs to best define how they train and qualify officers to meet the 
requirements of CNSP/CNSLINST 1412.1. Unit CO's are allowed the 
flexibility to create training exams, scenarios, and boards for 
qualifications to meet the minimum Personal Qualification Standard 
(PQS) requirements as stated in paragraph 6 and 7 of CNSP/CNSLINST 
1412.1. In those paragraphs, the course requirements and PQS 
requirements are outlined and serve as the basis for individual 
training plans developed by units. CO's are also provided the 
flexibility to allow a variety of methods for a SWO candidate to 
demonstrate knowledge. This is useful when an officer is having a 
difficulty in an oral board demonstrating they understand the minimum 
standard requirements for qualification. If desired, the CO can then 
tailor the officer's training so further training is conducted with 
additional exams or other methods of demonstrating mastery of the 
required information and knowledge. A final oral board, chaired by the 
CO and composed of other qualified, experienced SWOs, will still be 
required; however the amplifying exams or demonstrations will allow the 
candidate the opportunity to demonstrate their knowledge base.
    COMNAVSURFPAC and COMNAVSURFLANT, as the respective TYCOMs for the 
east and west coast, each have an officer assigned to manage the 
administrative requirements of the SWO qualification program within 
their respective subordinate commands. Each of the responsible TYCOMs 
assigned officers have contact with ISICs and units to coordinate and 
monitor SWO qualification progression and associated challenges. NPC 
and SWOS also have program managers who collect feedback to monitor 
required SWO career progressions, as well as incorporate improvements 
into the SWO training prior to career milestones.
    Ultimately, if a SWO candidate officer is not recommended for SWO 
qualification by a Unit CO and their ISIC, the final decision remains 
with the TYCOMs.
    Question. What cross-decking opportunities are available? In the 
past two years (since March 8, 2014), in how many cases where a Junior 
Officer requested cross-decking, with the support of his or her new 
Immediate Superior in Command (ISIC), were those requests approved? How 
many were denied? In that time frame, how many Article 138 complaints 
have been decided in favor of the officer filing the complaint and in 
how many of those cases did the officer receive a new posting which 
meets SWO requirements?
    Answer. Cross-decking is one of a variety of tools available to a 
unit CO to provide their SWO candidate officers with the necessary time 
at sea to attain required experience and ultimately qualify. Cross-
decking involves the temporary assignment of an officer to a different 
ship that has an operational schedule that supports training 
opportunities at sea. When a ship is not operating for an extended 
period of time, most likely due to maintenance requirements, units 
coordinate with their ISIC, as well as other units, to find a ship to 
accommodate continued at sea training for a SWO candidate officer. Most 
often, those opportunities are sought between ships of the same class 
as it allows the officer to capitalize on the training they have 
received to date. Where possible, an opportunity for cross-deck 
training is pursued in the same homeport, although circumstances may 
vary and officers may cross-deck to a unit not in the same homeport.
    If a ship is in an extended shipyard availability, then per CNSP/
CNSLINST 1412.1, unit COs are authorized to give extensions for SWO 
qualification. When a ship is in maintenance for an extended period, 
the use of simulators is a valuable tool that COs use to continue 
training and progression towards qualification for SWO related 
watchstations. These simulators are available in every Navy homeport.
    The TYCOMs do not directly manage or monitor cross-deck training of 
SWO candidate officers, rather those opportunities are managed by the 
unit CO. The TYCOMs are not notified and do not track cross-deck 
requests made by SWO candidate officers. In the process of reviewing a 
SWO non-attainment notification, cross-deck opportunities, as 
applicable, would be considered by the TYCOM prior to endorsement.
    CNSF does not have record of any Article 138 complaints being 
filed, or submitted, on the basis of being denied the opportunity to 
cross-deck for SWO qualification training.
    Question. Last year, you reported that all positively endorsed non-
attainment recommendations have been approved by CNSF. What 
circumstances might move the CNSF to disapprove a recommendation? When 
was the last disapproval?
    Answer. The TYCOMs rely on ISICs to fully review and assess SWO 
non-attainment packages given the context of each individual case, as 
circumstances will vary. ISICs are the first to receive a SWO non-
attainment package for review. Once a SWO non-attainment notification 
is received by a TYCOM, they receive a detailed review to ensure that 
the SWO candidate officer was given the required time to allow for SWO 
qualification and that any information provided by the SWO candidate 
officer, describing extenuating circumstances, is fully assessed and 
considered; however some cases involve formal Inspector General (IG) 
complaints. Although rare, in those cases the decision for non-
attainment is likely held in abeyance until any required assessments 
pertaining to the IG complaint are fully understood.
    Circumstances that might cause CNSF to disapprove a SWO non-
attainment package would be if it were discovered that an ISIC and CO 
were not satisfying the minimum requirements of the instruction to 
provide opportunities and training for a SWO candidate officer. The 
basis of a SWO qualification is school house training, PQS completion 
onboard a ship, on the job training, individual study, individual 
demonstration of required operational proficiencies, and formal boards. 
If it is discovered that a CO is not completing these minimum 
requirements, then the TYCOM reviewing the SWO non-attainment package 
would evaluate options to allow the subject officer appropriate 
opportunities per CNSP/CNSLINST 1412.1.
    CNSF does not have record of the last disapproval of a SWO non-
attainment package. However, there are two instances in the preceding 
three years where SWO candidate officers were identified as not able to 
attain SWO qualification by their unit CO, but after additional effort 
the subject officers achieved SWO qualification. In each instance, the 
SWO non-attainment notifications were made to the ISIC, were endorsed 
by the ISIC, and submitted to CNSP. While the notifications were being 
reviewed by CNSP with the ISIC, the unit reported additional progress 
by the SWO candidate officer and the unit CO changed their 
recommendation to provide more time for SWO qualification. The first 
case was onboard USS PRINCETON (CG 59) and reported on July 19, 2013. 
The second case was onboard USS PATRIOT (MCM 7) and reported on March 
11, 2015. In each instance, the officer ultimately qualified as a SWO 
and has continued with their career milestones. These cases demonstrate 
the multiple opportunities and flexibility given SWO candidate officers 
to remediate and earn qualification.

                      Inspector General Complaints

    Question. Thank you for the numbers last year regarding IG 
Inspections.
    As a follow up:
    Question A. Of the cases opened between today's date of March 8, 
2016 and two years prior to that, March 8, 2014, how many of them have 
been completed?
    Answer. Contacts \1\, upon receipt by the Naval Inspector General 
are uploaded into the Naval Inspector General Hotline Tracking System 
listing key information (receipt method, date of receipt, source etc.), 
at which time we open a case for tracking and processing purposes. 
Between March 8, 2014 and March 8, 2016 the Naval Inspector General 
opened a total of 8146 Naval Inspector General Hotline Tracking System 
cases \2\ and closed 7825 of them (96 Percent). These numbers include 
213 investigations (3 Percent), 148 have been closed and 65 remain 
open.
---------------------------------------------------------------------------
    \1\ Contacts: Any initial communication received through the Navy 
Hotline program.
    \2\ Cases: Every contact upon receipt is entered into the Naval 
Inspector General Hotline Tracking System and a case number is created.
---------------------------------------------------------------------------
    Question B. How many investigators does the U.S. Pacific Fleet 
have? How many sailors are under its Area of Operation (AOR)? How many 
complaints \3\ per year are received?
---------------------------------------------------------------------------
    \3\ Complaint: An expression of dissatisfaction or discontent with 
a process or system.
---------------------------------------------------------------------------
    Answer. As of March 8, 2016, U.S. Pacific Fleet and its subordinate 
Inspector General Offices were staffed with three investigators 
supporting 105,231 sailors within their Area of Operation. For Fiscal 
Year 2015 The U.S. Pacific Fleet Inspector General Program processed 
multiple contacts, resulting in the opening of 278 cases, which 
included 118 complaints per the Naval Inspector Hotline Tracking 
System.
    Question C. You reported that an investigation \4\ takes 417 days--
on average, which means that some are longer. What would represent an 
ideal time, if you had the sufficient personnel to reduce the 
timeframe?
---------------------------------------------------------------------------
    \4\ Investigation: Any form of examination into specific 
allegations or wrongdoing. An allegation is one form of an IG inquiry.
---------------------------------------------------------------------------
    Answer. Per SECNAVINST 5370.5B, DON Hotline Program, dated November 
24, 2004 and Naval Inspector General, Policy Memorandum Number 2013-
001, Improving Hotline Performance, dated Apr 23, 2013; the Naval 
Inspector General objective is to complete Hotline investigations 
within 90 days of receipt. Per Title 10 United States Code Section 
1034, Protected Communications; Prohibition of Retaliatory Actions, 
Military Whistleblower Reprisal investigations are to be completed 
within 180 days.
    Question D. Please provide a breakdown of the time needed for 
preliminary investigations versus full investigations.
    Answer. The Naval Inspector General objective is to close Hotline 
contacts which do not include Whistleblower Reprisals contacts, within 
30 days of receipt including preliminary inquiries \5\. If a full 
investigation is warranted and subsequently approved by the Naval 
Inspector General those investigations are to be completed within 90 
days from the date of receipt of the contact. Per Title 10 United 
States Code Section 1034, Protected Communications; Prohibition of 
Retaliatory Actions, Military Whistleblower Reprisal investigations are 
to be completed within 180 days from date of receipt. The Naval 
Inspector General only processes Military Whistleblower Reprisal 
contacts. Whistleblower Reprisal contacts for Non-Appropriated Fund 
Instrumentalities and Defense Contractor/Subcontractor employees are 
processed by the Department of Defense Hotline. Appropriated Fund 
Civilian Whistleblower Reprisal contacts are processed by either the 
Department of Defense Inspector General or the Office of Special 
Counsel depending on the matter of concern. From March 8, 2014 to March 
8, 2016 the average time to close a preliminary inquiry was 276 days 
and a full investigation was 527 days.
---------------------------------------------------------------------------
    \5\ Preliminary Inquiry versus Investigation: The preliminary 
inquiry is less formal than the investigation because it does not 
require the creation of a written investigative plan or the preparation 
of an investigative report. When it becomes necessary to notify the 
subject or subject command that allegations have been made against 
them, the preliminary inquiry is over and the investigation begins.
---------------------------------------------------------------------------
    Question E. What are you doing to ensure IG whistleblower 
complaints aren't being dismissed for lack of timeliness simply because 
the complainants followed the chain of command process first, as you 
stated they're supposed to in last year's QFR?
    Answer. In accordance with 10 United States Code, Section 1034 
Protected Communications; Prohibition of Retaliatory Actions: Paragraph 
``(5) Neither an initial determination under paragraph (3) (A) nor an 
investigation under paragraph (3) (D) is required in the case of an 
allegation made more than one year after the date on which the member 
becomes aware of the personnel action that is the subject of the 
allegation.'' However, the Naval Inspector General does not arbitrarily 
dismiss a contact based on not meeting the one year timeline. Our 
process is to interview the complainant to ascertain the reason for the 
untimely submission, and only after do we make a case closure 
determination.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Carter and the answers thereto 
follow:]

                   SM-3 and Ballistic Missile Defense

    Question. Admiral Richardson, the FY17 request includes a 
significant reduction in quantities of SM-3 TB and IIA missile defense 
interceptors across the Five Year Defense program. As you know, this 
subcommittee has worked to hold production steady at the economically 
efficient rate of 52 missiles per year for the last three years.
    Has demand from COCOMs for BMD capable ships increased or decreased 
in the last twelve months? Are load outs of SM-3s on deploying ships 
sufficiently robust to meet COCOM requirements?
    Answer. Demand from COCOMs was consistent between FY16 and FY17. 
Navy sourced a 2% increase in BMD ship presence from FY17 over FY16. In 
the same time period, COCOM demand for SM-3s increased 14% and SM-3 
sourcing increased by 8%.
    Question. I note that the plan for BMD capable ships rises from 33 
to 43 across the FYDP, a notable 25% increase for this important 
mission. I know that the Navy does not manage procurement of SM-3s, but 
absent sufficient inventories, BMD capable ships are certainly unable 
to perform their full mission.
    As capabilities of potential adversaries grow, would the Navy 
benefit from an inventory of missiles that keeps pace with ships?
    Answer. Yes. As the number of advanced Integrated Air and Missile 
(IAMD) ships increases through the FYDP, ensuring the Navy has 
sufficient missile inventory to load and potentially reload our most 
advanced ships is necessary to quickly and decisively destroy the 
threat.
    Standard Missile (SM-3) missiles are fielded aboard Navy ships and, 
recently, at the Romania Aegis Ashore facility. Navy cooperates closely 
with the Missile Defense Agency (MDA), which acts as the government 
procurement agent for all SM-3 variants. MDA has developed an in-depth, 
budget constrained, SM-3 missile buy-delivery plan, which is shown 
below.

                                   PB17 END OF FISCAL YEAR SM-3 INVENTORY PLAN
----------------------------------------------------------------------------------------------------------------
                                                              FY16     FY17     FY18     FY19     FY20     FY21
----------------------------------------------------------------------------------------------------------------
SM-3 Blk 1/1A.............................................      101       85       60       49       37       35
SM-3 Blk 1B/TU............................................       92      128      166      202      236      271
SM-3 IIA..................................................        0        0        2       11       12       14
                                                           -----------------------------------------------------
    Total.................................................      193      213      228      262      285      320
----------------------------------------------------------------------------------------------------------------

    In regard to a Navy Inventory Objective, the Navy utilizes a Naval 
Munitions Requirement Process (NMRP) to establish the desired inventory 
for all Naval ordnance items. For SM-3 missiles, the NMRP model yields 
a Total Munitions Requirement (TMR) which includes ammunition ship 
fill, projected threat-based combat expenditures, war reserve 
ammunition for combat reload, as well as missiles in the maintenance 
pipeline.
    Question. Do you think there is some assumed risk in reducing the 
planned buy of SM-3 missiles by 50% in FY17?
    Answer. Yes, a smaller quantity of ordnance assumes a measure of 
warfighting risk. BMD capable ships and missiles continue to see demand 
from COCOMs that exceeds supply.
    The higher cost SM-3 Block 1B/IBTU and SM-3 Block IIA incorporate 
new capabilities against an evolving threat that is beyond the 
capability of SM-3 Block I/IA. Current Navy Global Force Management 
(GFM) demand has been met with the MDA procurement plan.

    [Clerk's note.--End of questions submitted by Mr. Carter.]

                                          Wednesday, March 2, 2016.

               FISCAL YEAR 2017 AIR FORCE BUDGET OVERVIEW

                               WITNESSES

HON. DEBORAH LEE JAMES, SECRETARY, UNITED STATES AIR FORCE
GENERAL MARK A. WELSH III, CHIEF OF STAFF, UNITED STATES AIR FORCE

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning, everybody. The committee 
will come to order.
    This morning, the subcommittee continues a series of 
hearings on our defense posture, and today we focus on the Air 
Force.
    Our two witnesses are not strangers to us. Secretary 
Deborah Lee James has been Secretary of the Air Force since 
2013, and we always appreciate her candid and informed counsel.
    Welcome, Secretary James. Thanks for being back with us.
    Chief of Staff of the Air Force Mark Welsh is appearing 
before our committee for the last time. In coming weeks, he 
will be retiring from the Air Force after 40 years of dedicated 
service to our Nation.
    General, you are a skilled and valuable advocate for the 
Air Force. We owe you and your family a debt of gratitude, and 
Godspeed to you.
    And part of your family, your better part, is here----
    General Welsh. Much better part.
    Mr. Frelinghuysen [continuing]. Betty Welsh.
    And may I say thank you, Betty, for an Air Force life. Your 
dedication to the airmen, both here and abroad, the 
extraordinary things you have done. And may I add, for the 
committee's information, you have four children, one of whom is 
a Marine, so the service continues.
    And we are awfully proud of you both. Thank you.
    General Welsh, you caught our attention with your remarks 
before the recent Air Warfare Symposium. You addressed the 
possibility of the Air Force being called upon to fight a major 
theater war in Eastern Europe or Asia against a well-trained 
and well-equipped army. I assume you were referring to perhaps 
the Russians or Chinese. You said, and I quote, ``We're not 
really ready for that. It's going to be ugly,'' end of 
quotation.
    An assessment like that from someone of your experience 
should be of concern to our committee and to the Nation, but 
the facts are the facts. We have the oldest Air Force aircraft 
in history and the smallest Air Force in years.
    At the same time, the Chinese Air Force, the third largest 
air force in the world, is rapidly closing the gap with ours 
across a broad spectrum of capabilities: quality of their 
aircraft, command and control, radar, electronic warfare, and 
data links. China also possesses one of the largest forces of 
advanced, long-range surface-to-air missiles in the world and 
some pretty sophisticated space architecture.
    Russia is procuring some new Flanker fighters and 
developing a fifth-generation PAK FA fighter. The Kremlin also 
plans to build 56 long-range, advanced S-400 surface-to-air 
missile battalions. They put down their markers for a lot of 
firepower, both in Syria and Iran, and deployed air forces to 
protect it.
    Elsewhere, Iran and other nations are working to buy 
additional advanced air defense missile systems from Russia.
    And while you and our committee are focusing on these 
rising threats our Air Force and those of coalition nations are 
actively engaged with ISIS and Al Qaeda in the Middle East and 
the Taliban and ISIS in Afghanistan.
    While paying tribute to the bravery and skill of our 
aviators, some suggest that airpower alone will not destroy 
these forces or even bring them to their knees, that boots on 
the ground will only assure that.
    Of course, we need to keep all of these challenges in mind 
as we go through this year's budget process. And the committee 
is anxious to hear your perspective on how the Air Force will 
maintain its aging fleet of bombers and fighters amidst growing 
demand for their services and the readiness of those who 
operate them, and, may I add, their youth relative to the age 
of the aircraft.
    And I am sure members will have questions about JSTARS, the 
Russian rocket engines, the A-10 and the nuclear enterprise, 
and your continuing needs for ISR--intelligence, surveillance, 
and reconnaissance. But a major issue hovering over the Air 
Force and the entire Defense Department these days is the 
looming bow wave of major acquisition programs. And I am sure 
you will address a lot of those issues in your testimony.
    We also saw the headline recently which read, ``The Coming 
Dogfight Between the F-35 and the New Bomber.'' These are the 
two most sophisticated and expensive planes ever, and we need 
to hear how the Air Force proposes to fund both.
    In closing, Secretary James, General Welsh, the committee 
hopes you will convey to your airmen, officers, and enlisted, 
wherever they are, at home and abroad, our deep gratitude for 
their remarkable service each and every day.
    I am pleased to yield to Mr. Visclosky for any remarks he 
may wish to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you very much, Mr. Chairman. Thank you 
for holding the hearing.
    General, Secretary, thank you very much for being here. 
Look forward to your testimony.
    Mrs. Welsh, I join the chairman in welcoming you. If there 
are any difficult questions here in the committee, obviously we 
will direct them to you. Welcome.
    Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Secretary James, welcome. Thank you.

                  Summary Statement of Secretary James

    Ms. James. Thank you so much, Mr. Chairman and Ranking 
Member Visclosky, and to all of the members of the committee.
    It really is a pleasure for General Welsh and I to be able 
to come back and represent before all of you today the nearly 
660,000 Active Duty, National Guard, Reserve, and civilian 
Airmen and their families, and we very much welcome the 
opportunity to do so.
    When we testified before all of you last year, we talked 
about our three priorities, and those three priorities are: 
taking care of people; striking the right balance between our 
readiness needs of today and the modernization that we need for 
tomorrow; and making every dollar count, being the most 
efficient Air Force with the taxpayer dollar that we can 
possibly be.
    Well, I am here to tell you that those three priorities 
have not changed, but what has changed over the last year or 
two or three are some of the world's conditions. And you 
touched upon much of this, Mr. Chairman, and if you will permit 
me just to foot-stomp a few points.
    As we sit here today, your Air Force is working hard to 
degrade and ultimately destroy Daesh in the Middle East. And, 
of course, we are not doing it alone. We are doing it as part 
of a whole-of-government, a whole-of-military, and a coalition 
approach.
    Last year alone, coalition forces upped the ante against 
Daesh, flying more than 55,000 sorties in support of Operation 
Inherent Resolve, which represents a threefold increase over 
the year 2014. And make no mistake, our United States Air Force 
shouldered the lion's share of that effort.
    Moreover, there is a resurgent Russia. It continues to 
foment problems in the Ukraine. They have become involved in 
Syria. And of course, they have recently announced plans to 
modernize their nuclear weapons.
    In addition, we very recently observed North Korea conduct 
an illegal nuclear test and a rocket launch within just the 
last few weeks. We continue to see worrisome activity in the 
South China Sea by Chinese military forces. And, of course, we 
have very serious growing threats in space and cyberspace.
    And the bottom line to all of this is that the Air Force is 
key in each of these areas, each of these roles, and we are 
fully engaged in every region, in every mission area across the 
full spectrum of military operations. The way I would put it is 
we have never been busier as an Air Force, certainly not in the 
35 years that I have been an observer on the scene here in 
Washington.
    So, to confront these challenges, to continue confronting 
these challenges, and in order to maintain a fighting effective 
force, we bring before you a budget which tries to do our best 
to balance capacity, capability, and readiness.
    It also invests in future modernization, though this is 
where we made some of the tough choices this year, given that 
the budget agreement for fiscal year 2017, for all of its good, 
did not provide the full amount that we need for our Air Force. 
And, as a result, we couldn't bring before you as robust of a 
modernization portfolio as we would have liked.
    So let me now detail a few of the highlights of our budget 
choices as I go through these three top priorities, beginning 
with taking care of people.
    Our Airmen and their families are our most important 
resource, and our budget reflects this truth. With that said, 
you already mentioned we are the smallest that we have ever 
been. We have been downsizing for years, and we know that 
enough is enough and we cannot go any lower. The downsizing 
must stop.
    And, indeed, it has. We are now in a period of modest 
upsizing, and we are doing that in a total force way. And the 
top priorities include the areas of intelligence, Intelligence, 
surveillance & reconnaissance (ISR), cyber, maintenance, and 
our battlefield airmen. And we want to thank this committee for 
supporting the most recent Active Duty plus-up from roughly 
311,000 to 317,000 by the end of this fiscal year. You also 
supported our recent plus-ups to the National Guard and 
Reserve, and we thank you for that. And to underscore, we 
simply cannot go any lower.
    And, in reality, in our opinion, we believe that mission 
demands in fiscal year 2017 are going to require us to likely 
grow more in fiscal year 2017. And so, to meet these demands, I 
plan to take a judicious approach to incrementally increase our 
total force beyond the current levels, provided, of course, 
that we can attract the right talent. And so we would be 
grateful, when the time comes, for this committee's assistance 
should a reprogramming action be required to help fund those 
additional people should we get that talent.
    Now, speaking of total force, we are continuing to maximize 
our use of the Guard and Reserve by shifting additional 
missions and workload when it makes sense to do so, such as in 
the fields of Cyber and ISR, Command and Control, Mobility, and 
Space. And we are continuing to push the envelope big-time when 
it comes to integration of our Guard and Reserve. And that goes 
from the staff level at the highest headquarters to the wing 
level. All levels of integration we are interested in.
    Moving on to other personnel concerns, we would ask for 
your support to provide requested funding for a 1.6-percent pay 
raise for both our military and civilians as well as targeted 
pay and retention bonuses for a variety of career fields, 
including our very important remotely piloted aircraft (RPA) 
force.
    By the way, the RPA and manned pilot incentives are now 
equalized, and that is great news, but we shouldn't stop there. 
Specifically, we are submitting a legislative proposal this 
year which is intended to go farther to retain our aviators 
against what we see as an improving economy and increasing 
demand for commercial pilots.
    And, finally, still on the subject of people, we are 
expanding our budget for the Sexual Assault Prevention and 
Response program this year. We are fully funding our childcare 
operations, boosting educational benefits. And we are making 
every effort to fund the most important infrastructure projects 
that are of benefit to our airmen.
    Now, moving on to the readiness and modernization equation, 
because we really need both. As you just said and as we have 
tried to explain repeatedly, less than half of our combat Air 
Forces today are sufficiently ready for a high-end fight. Now, 
when I say a high-end fight, I mean a conflict that might take 
place in an anti-access area-denial environment--an 
environment, plainly put, where the adversary can shoot us down 
or can interfere with us in some substantial way in space or 
air or cyber.
    Moreover, in addition to that, today's aircraft inventory 
is the oldest it has ever been, and our adversaries are closing 
the technological gap on us quickly, which tells me we have to 
modernize. We need to both be ready and we need to modernize.
    Now, in terms of readiness, we will be funding flying hours 
to their maximum executable level, we will invest in weapons 
system sustainment and ensure combat exercises like the Red 
Flag and the Green Flag remain strong.
    Now, after consulting with the combatant commanders, 
General Welsh and I agree that we are going to make some needed 
adjustments to address some of the world changes that I 
mentioned earlier. For example, we are now proposing to rephase 
the retirement of the A-10 and the Compass Call aircraft. And 
the bottom line here is we are not proposing to retire any of 
these aircraft in fiscal year 2017.
    We do believe that we will need to divest these weapons 
systems in the future, but this change of this year will 
maintain sufficient number of fighter and electronic attack 
aircraft across the force in support of current operations. And 
then the rephase that I mentioned will allow us to better align 
retirements of the older aircraft as we phase in the newer F-
35.
    Furthermore, we are going to continue to examine this plan 
on a year-by-year basis and modify, if necessary, according to 
the global security situation.
    Now, in conjunction with ensuring the right number and mix 
of the manned aircraft, we also need the right number of 
remotely piloted aircraft and the very important munitions. It 
is no secret that ISR is the number-one combatant commander 
desire for additional Air Force capability. And to that end, 
thank you, thank you, thank you, especially to this committee, 
for the $500 million in the department-wide funding that we 
received last year to fund increased ISR capability.
    Believe me, we are working big-time with Office Secretary 
of Defense (OSD) to get as much of that for the Air Force and 
the ISR capabilities that we provide as we possibly can for 
things like: the government-owned, contractor-operated MQ-9 
lines and the RQ-170 and ISR communications architecture, 
improved targeting analysis, and we would like some additional 
money for man-days for our National Guardsmen who we are 
bringing on to help us in the ISR world. So these are all the 
areas that we are hoping to receive funding for, and we thank 
you for that funding.
    Additionally, we have 24 MQ-9 Reapers in the budget and 
more money for Joint Direct Attack Munitions (JDAMs) and small-
diameter bombs, which are the key munitions being used in the 
war effort.
    Turning to modernization, we have ongoing investments in 
our top priorities of nuclear deterrence, space, cyberspace. We 
are continuing to advance on the F-35, the KC-46, the combat 
rescue helicopter, and the T-X program. That is our next-
generation trainer. And we are going to start the Joint 
Surveillance Target Attack Radar System (JSTARS) recap, as 
well.
    We will also continue to move forward with the B-21, the 
aircraft formally known as the Long Range Strike Bomber. And 
Government Accountability Office's (GAO)'s recent decision, I 
think, highlighted that we did follow a deliberate, 
disciplined, and impartial process to determine the best value 
for the warfighter and the taxpayer.
    But, most important of all, what I want everybody to 
understand about the B-21 is that we really, really need this 
capability for our country. It will be the future lynchpin of 
our bomber force. It will be enormously helpful in that anti-
access, area-denial type of an environment that we view in the 
future, and it will be important for both conventional and 
nuclear purposes.
    Now, all that is modernization, but this is where we had to 
make some tough choices. So we had to defer some F-35s. We had 
to defer the purchase of some C-130Js. We have to delay 
upgrades to improve some of our fourth-generation capabilities. 
And, of course, many, many, many needed infrastructure projects 
for our basing structure are simply going to have to wait. And 
we would renew our call once again for your help in authorizing 
a Base Realignment and Closure (BRAC) in fiscal year 2019.
    A few points on space launch. Point one, I want to affirm 
to all of you that we are moving as quickly as we can to 
eliminate use of the RD-180 engine. The target, as you know, is 
2019. This is ambitious, but we are doing it and we are working 
it hard.
    Point two, we are moving toward a domestic solution for 
rocket propulsion systems using full and open competition, 
which is exactly what the law asked us to do and just as we did 
with the B-21. And we have now obligated all 220 million of the 
dollars that Congress appropriated in 2015 for this purpose.
    And point number three and finally, we do need reasonable 
flexibility to access RD-180s over the next few years until 
such time as the new engine is developed--that is important--
but also integrated into a system and certified. So we need to 
develop it, we need to integrate it, and we need to certify it. 
And having just a little bit more flexibility with a few more 
RD-180s, we think, is important to maintain the competition 
that we have all wanted for years. A total of 18 is our 
request.
    The last priority is make every dollar count. This is the 
efficiencies. And we have a number of things going on here, 
including streamline energy usage, we are implementing ideas 
from our airmen, and we are continuing the march toward 
auditability.
    As I wrap, Mr. Chairman, I want to thank you very much for 
your leadership and the others on the committee for the 
Bipartisan Budget Act--much, much needed stability, 
predictability, and we are grateful for that.
    While we are appreciative, however, we do worry about the 
return of sequestration in fiscal year 2018. We ask you, 
please, do your very best to get that lifted permanently. 
Because if we were to return to sequestration, remember, we 
parked jets, we furloughed people, we took all sorts of actions 
that delayed our return to full-spectrum readiness.
    So, again, thank you so much for your support of our Air 
Force, and we look forward to your questions.
    Mr. Frelinghuysen. Well, thank you, Madam Secretary.
    General Welsh, front and center.

                   Summary Statement of General Welsh

    General Welsh. Thank you, Mr. Chairman, Ranking Member 
Visclosky. And a special thank you for recognizing my wife. 
Betty is magic. And the fact that you took the time to 
acknowledge her presence here today, I just can't thank you 
enough, Mr. Chairman. Thank you.
    Members of the committee, it is always an honor to be here 
with you, and it is privilege to be here with Secretary James 
representing our remarkable Airmen.
    I would like to briefly address just two issues that are 
pressing on the Air Force today: first, the health of the 
remotely piloted aircraft enterprise, which we get a lot of 
questions about, including some from members of this committee; 
and, second, pilot retention.
    First, the RPA enterprise. We are laser-focused on 
improving the quality of life and establishing a manageable, 
long-term, livable battle rhythm for our remotely piloted 
aircraft community.
    The explosion in people, platforms, and resources that 
constitute this community, the medium altitude ISR community, 
since 2001 has been stunning, and so has the volume and the 
quality of the work they have done in the battlefield. Because 
the mission area grew so rapidly, we have never gotten ahead of 
the training curve. And each year, recently, more pilots were 
leaving the remotely piloted aircraft force than we were able 
to train to go into it. Not good math for us.
    The Secretary of Defense helped us this last year by 
freezing the global requirement for RPA caps for the Air Force 
at 60, which is 5 below the 65 we were operating with 55 cap's 
worth of people, which meant our people were in a surge mode 
nonstop. This allows us to fully man our training units for the 
first time ever and to build our RPA pilot training pipeline to 
where it needs to be. By the end of fiscal year 2017, we will 
be training 384 pilots a year in the RPAs. That is 200 more 
than we have ever produced in a year in the past.
    This is the first and the most significant step in the 
overall RPA get-well plan, intended to improve quality of life 
for our RPA airmen and their families. That plan also includes 
incentive pay increases and bonuses for crews, standardized 
organizational constructs, and crew ratios designed to allow 
sanity back into their schedule, and greater Air National Guard 
and Air Force Reserve operational mission activity to relieve 
some of the pressure on the Active Duty force.
    Air Combat Command also initiated an internal grassroots 
review that made over 140 recommendations that we are now 
working to close.
    As part of that effort, we intend to bed-down an RPA 
operations group with the ability to execute missions around 
the world at a new Contiguous United States (CONUS) location on 
an existing installation approximately a year from now and then 
a full RPA wing at another location approximately 2 years from 
now. Both will provide additional assignment options for a 
force that has been very limited in their choice of locations 
up till now. Essentially, most of our RPA pilots went from 
Creech Air Force Base to Holloman Air Force Base to somewhere 
overseas. That was their entire career track up till this 
point.
    In the future, we are also planning to place RPA units 
overseas in both Europe and the Pacific. For years now, our RPA 
teams have been planning and executing lifesaving and life-
taking missions, but until now there has been absolutely no 
normal in their lifestyle. They deserve the same care, feeding, 
and professional development stemming from careers guided by a 
normalized roadmap, and that is where we are headed. Air Combat 
Command's hard work on this get-well plan is intended to light 
the way for us.
    No Airman joins the service to get wealthy, but the 
unmanned aviation bonuses and incentive payments that you have 
appropriated do help us with recruitment and retention. And I 
just wanted to thank you for your support in that effort. But 
on their own, they aren't enough. If we do not fix quality of 
life for our RPA operators and their families, they won't stay 
in the Air Force. So we are committed to fixing this.
    The second issue is pilot retention, because the long-
awaited pilot retention problem is here. In calendar year 2015, 
major airlines hired about 3,500 pilots, and they expect to 
keep hiring at a commensurate rate for the next nine to ten 
years. Military pilots are in the perfect position to fill 
those jobs. They are highly trained, they are experienced, and, 
thus, they are very attractive to the airlines.
    Each year, we hope to retain about 65 percent of the pilots 
who are eligible to separate from the Air Force. One of the 
major tools we use in that retention effort is our aviation 
retention pay that you appropriate for us. The take rate in 
2015 was just 55 percent, so 10 percent below the average.
    Proficient Air Force pilots can potentially transition from 
being a company-grade officer in the Air Force to being a 
commercial captain in a few short years with an airline salary 
that is roughly two times higher than military pay with someone 
of equivalent experience.
    And while we cannot reasonably expect to stop the outflow, 
we are doing everything in our power to mitigate it and to 
convince those pilots who are on the fence to stay with us and 
those who are leaving to go into the Guard and Reserve.
    We are increasing pilot production to maximum schoolhouse 
capacity. We are revisiting the operational demand signal for 
pilots in nonflying jobs. We are partnering with RAND 
Corporation to fully assess the net effects of this hiring 
surge by the airlines. And we intend to seek legislation to 
increase all aviation retention pay for manned and unmanned 
platform pilots to $35,000 per year. And we will ensure that 
you have all the details you need to assess that proposal.
    Ladies and gentlemen, my personal thanks to each of you for 
routinely dedicating your time and attention to our Air Force 
and to those proud Americans who give it life. The Secretary 
and I look forward to your questions.
    [The joint statement of Secretary James and General Welsh 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Frelinghuysen. Thank you, General.
    We have a lot of chairs, and the ranking member is sitting 
at the table here today, and there is a keen interest in asking 
questions. Mr. Womack would like to have Chairman Cole have his 
opportunity to be here today.
    So, in an unselfish act, I am going to recognize you for 
the first question so you can go relieve him.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Mr. Womack. Thank you so much, Mr. Chairman. And I 
appreciate my friend Mr. Carter for giving me the opportunity 
to do that so Mr. Cole can make it.
    First of all, to our witnesses here today, thanks. Thanks 
for everything you do. It has been a source of great personal 
pride for me to have a relationship with both of these two 
persons, who have both visited my district. And I am eternally 
grateful for what you represent, how you represent us, and what 
you represent in uniform.
    And I would just say this. I have had an opportunity, the 
unique opportunity, to be around our services in a very unique 
way, and I have to tell you, Mr. Chairman, as far as Reserve 
component integration goes, nobody does it better than the Air 
Force. And that is a leadership-driven exercise. And I am 
really grateful for that.
    I want to confine my questions to ISR. General Welsh, you 
just gave a pretty good synopsis of where we are in that 
capability. And, Madam Secretary, you talked about it in your 
remarks.
    The Air Force fiscal year 2017 request includes funding to 
sustain the MQ-1 and MQ-9 medium-altitude permissive ISR 
capability with 60 remotely piloted aircraft combat lines to 
support combatant commander needs.
    So here is my question. Based on this surging demand that 
you have already articulated, we know that you are increasing 
RPA support unit capacity stateside, and do you expect the RPA 
enterprise to continue to grow into the out-years? And what 
concerns does that present for our country and certainly for 
our Air Force?
    I would also like to--I am going to put a couple of 
questions on your plate here, and then I will yield.
    As demand for ISR has grown quickly, the capacity has yet 
to keep up. And, understanding our budgetary constraints, when 
do you expect our capacity to catch up with demand? Now, that 
does require to have a bit of a crystal ball out there in terms 
of future conflicts, but I think you get the idea there.
    And with the ever-increasing need for more, coupled with 
units like the 188th in my district that support this growth, 
do you see the need for more stateside basing of similar units 
in the total force?
    And I had some others, but I know I will run out of time. I 
want to give you an opportunity to respond to those particular 
questions because they are going to be increasingly important 
to the fight.
    Ms. James. So I would say, Congressman Womack, when it 
comes to the first part of your question, in terms of do we 
foresee ISR growth, yes, we do.
    We have ISR growth already embedded in our budget now. And 
based on, as the Chief referenced, the Culture and Process 
Improvement Program (CPIP), that action that the air combatant 
commander took where he asked many of the airmen for their 
suggestions, it became very clear really to him and to all of 
us that we needed more growth.
    So I expect that there will be more growth that is coming 
out of the next Program Objective Memorandum (POM) that we do. 
So there is what you see before you in the 5-year plan, but by 
the time we lay out next year's 5-year defense plan I wouldn't 
be at all surprised to see more growth.
    In terms of when will capacity catch up with demand, I 
don't want to sound flip, but I think the answer is probably 
never, because as we continue to grow, the demand just keeps 
going up, up, up.
    Now, we do have what we call our get-well plan in order to 
have a proper quality of life, a proper pace of life, and the 
right number of Airmen who are in sync with doing a certain 
number of caps. So that plan we will catch up within the next 
year, year and a half or so, if I am not mistaken. But every 
time I speak to a combatant commander, they want more. And, 
indeed, that has been our history. Every time we thought we 
knew what the requirement was, the requirement has gone up.
    And I, furthermore, think that more stateside basing is 
something that we absolutely should look at.
    General Welsh. I agree with the boss. I think the growth in 
the RPA community will be two different types: short-term and 
long-term.
    The short-term growth will be more demand for what we have 
today. We hear that routinely. The Department has tried to 
stabilize the requirement at 90 lines. The Air Force will be 
responsible for 70 of those; 60 will be blue-suit; 10 of them 
will be government-owned, contractor-operated. And they will do 
ISR only. They won't do anything else. And the others will come 
from the Army and from others and other Government Owned 
Contractor Operated (GOCO) operations run by the Department.
    So that is going to be the requirement going forward. Will 
it stay there? Probably not. I remember it was 21 caps in 2008, 
and it hasn't stayed there very well.
    The thing we have to think about, though, if it goes up 
dramatically is more people. It is manpower. The biggest 
restriction we will have won't be money or the ability to buy 
the platforms; it is finding the people and increasing our top 
line to afford 10,000 or 20,000 or 30,000 more people to do 
this enterprise.
    We have built this enterprise out of nothing over the last 
10 years, 12 years, and it now has 7,000 active duty and 14,000 
Total Force personnel. We did it at the same time we were 
drawing down the Air Force overall 50,000 people. So to the 
rest of the service, it was a 57,000-person cut.
    So everything else is thinned out. We needed to build this 
enterprise, but if we keep building it, we are just taking 
muscle out of every other mission area to do it now. There is 
no place else to go, which is why we had to go to modernization 
this year in the budget. We couldn't take more people.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Womack.
    Ms. McCollum and then Judge Carter.

                           THE ARCTIC REGION

    Ms. McCollum. Thank you, Mr. Chairman.
    It is going to come as no surprise to my colleagues that I 
am going to talk about the Arctic, as I have with many of our 
other service representatives and even in the classified 
briefings.
    Chairman Calvert and I spend a lot of time working on 
interior issues, and we are hearing firsthand from many tribal 
nations that we are going to have to be looking at working with 
them for relocation for places to live. And so it made me 
curious about what was going on with some of our other Federal 
assets in the Arctic region.
    So, Secretary James and General Welsh, as you know, the 
Arctic is a resource-rich environment feeling the full effects 
of climate change. Melting sea ice has opened navigable waters 
in the Arctic and has changed the strategic calculus in the 
region.
    With respect to the Air Force, I am particularly concerned 
about the effect climate change is having on our facilities in 
Alaska. A GAO report on the Department of Defense 
infrastructure and climate change from May of 2014 states that 
the combination of thawing permafrost, decreasing sea ice, and 
rising sea levels on Alaska coast have led to an increase in 
coastal erosion at several Air Force radar early-warning 
communication installations. This erosion can damage roads, 
utilities, seawalls, runways, and, in some cases, cutting these 
facilities off from all but small planes and helicopters.
    Due to the critical need for these early-warning facilities 
and a changing threat environment, we must ensure that our 
infrastructure in Alaska is maintained. Are there Air Force 
facilities at risk? What is the Air Force doing to mitigate the 
impact of climate change on all your facilities?
    Ms. James. So I will start maybe. And, Chief, you jump in, 
as well.
    First of all, when it comes to the Arctic, I agree with 
you, it is very important. And we do, of course, have a 
Department of Defense (DOD) strategy which feeds into the 
national strategy on the Arctic.
    And for the Air Force, of course, our focus in all of this 
is access in air and space as well as early warning, being able 
to conduct ISR, and providing communications. In the near term, 
very focused on Air Force support to civil authorities and 
other agencies that are doing a wide range of activities.
    In terms of climate change, that is a big deal, too. And 
recent Quadrennial Defense Reviews (QDRs) have recognized 
climate change as an emerging threat and condition that we have 
to really pay attention to in our national security. And 
combatant commanders, of course, have to react and deal with 
emerging threats as they present.
    I do not have at my fingertips--but perhaps you do--the 
exact impacts in Alaska.
    General Welsh. Ma'am, there are a couple of facilities that 
have been affected. We have one radar site--and I am blanking 
on the name. I apologize. I can get it for you. I am just not 
thinking of it right now.
    Ms. McCollum. That is okay.
    General Welsh. Which has had a real problem with this, 
because the ice that used to be along the coastline that 
protected the infrastructure along the shore from the waves 
that would crash in is gone. And so the waves are now hitting 
the shore, they are hitting the concrete abutments where the 
piering was. They are actually working at the foundation of 
some of the infrastructure that is along the coastline--stuff 
that was never a problem before, and it is clearly a problem 
now.
    I believe the last number I saw was $50 million to $60 
million in estimated damages at a couple of--total, in a couple 
of places in Alaska, these small sites that are along the 
coast.
    We can get you the specifics on this, ma'am, because there 
is an issue. It is a serious issue.
    Ms. McCollum. Mr. Chairman, as these facilities are 
facilities we looked at maybe at doing general maintenance as a 
line item in previous budgets, we might have to be looking at 
moving them and the relocation costs associated with that.
    So I think as we move forward in our budget planning for 
facilities--and I am going to have another question later on 
about some facilities that maybe should be closed down--we are 
going to have to look at cost savings, but we are also going to 
have to look at a security threat possibly in Alaska if we 
don't start moving forward on making sure that these facilities 
are secure.
    I saw some University of Alaska shots of what they 
predicted would happen to some of our Air Force assets in 
Alaska and the moves that might have to come, because they 
don't see this climate change doing anything but moving 
forward. And Alaska is losing its ice shelf at a more rapid 
pace than they thought, exposing some of our facilities.
    Thank you.
    Mr. Frelinghuysen. Thank you, Ms. McCollum.
    Judge Carter and then Mr. Ruppersberger.

                          AIR FORCES IN EUROPE

    Mr. Carter. Thank you, Mr. Chairman.
    I want to welcome both of our guests. I think you are both 
exceptional people, and it is an honor to work with you.
    General Welsh, as you know, the Army--and you know I am at 
Fort Hood, I have got the Army all over me--is transitioning 
from 15 years of counterinsurgency to decisive action 
operations.
    How does this budget reflect the Air Force's role in 
supporting this strategic transition, ensuring we capitalize on 
the relationship built between the Air Force and the ground 
forces over the last 15 years? Can you speak to your service's 
current support of the ERI at combined training centers and the 
European training exercises?
    General Welsh. Yes, sir. I would be happy to.
    A couple of things. Number one, worldwide, not just in 
Europe, we have been working very closely with the Army for a 
long time now. Remember, air-land battle actually started back 
in the mid-1980s. We have come a long, long way since that 
point in time, and we have airmen embedded with Army units all 
over the world now. They live with them, they train with them, 
they fight with them, and they die with them occasionally.
    So this is something we cannot lose the lessons from, not 
just of the 15 years but of the last 30 or 35. We are working 
this very, very hard. We have established a program office, for 
example, to make sure those guys keep up with the technology 
that the rest of our battlefield airmen and special operations 
community are using and bring that to the relationship with the 
United States Army.
    We are reenergizing the effort to support the Army 
rotations at the National Training Center and at Fort Polk with 
our Green Flag exercises. We are in Europe, all the things that 
are going on with European Reassurance Initiative (ERI). We 
have Air Force units that are rotating heel-to-toe, just as the 
Army and the Marine Corps have ground units rotating heel-to-
toe. The Air Force Joint Terminal Attack Controller (JTACs) are 
training North Atlantic Treaty Organization (NATO) JTACs side-
by-side with Army maneuver units.
    We are committed to doing this together. Mark Milley and I 
are kind of bonded at the hip on this one. We can't lose this 
relationship.
    Mr. Carter. And you think it is better than to permanently 
station over there to have the heel-to-toe deployment? Is that 
a better plan? I have asked the same thing of the Army.
    General Welsh. Oh, I think it depends on how you look at 
it, sir. You know, the Army has done about what the Air Force 
has done, which since, you know, 1980 or so, we have pulled 75 
percent of our force structure out of Europe. Replacing it 
permanently back into Europe would be immensely expensive and 
would pose a set of challenges you might not get past.
    The next best thing is rotational presence, making sure we 
stay connected to our allies, making sure we are assuring and 
reassuming them, and making sure that we are training together 
in an environment that it is important to know how to fight in 
just in case we ever had to.
    Mr. Carter. Do I still have time?
    Mr. Frelinghuysen. Thank you, Judge Carter.
    Mr. Carter. Oh, thank you.
    Mr. Frelinghuysen. Oh, did you have another question?
    Mr. Carter. No, that is fine.
    Mr. Frelinghuysen. Okay. Thank you.
    Mr. Ruppersberger and then Ms. Granger.

                      THREATS TO U.S. SPACE ASSETS

    Mr. Ruppersberger. Again, I want to thank you both for your 
leadership. It takes leadership, and you are doing a great job.
    I want to get into the--we have talked a lot in this 
committee about space costs, not only in terms of launch costs 
but also in their development. However, in the face of the 
resurgence in China and Russia, it is important to ensure that 
we are taking the necessary actions to protect our investments 
in space.
    Now, in recent years, both Russia and China have conducted 
tests of antisatellite weaponry. In order to ensure the United 
States is able to continue to project power in space, I believe 
it is vital that we have visible deterrence to these 
capabilities of our near-peer competitors.
    I understand the nature of this question is sensitive and 
perhaps these deterrents are not yet ready to be made public or 
are classified. However, please do your best to answer the 
following questions:
    First, do Russia and China currently have the capability to 
pose a credible threat to U.S. space assets?
    Second, is the Air Force investing in deterrent 
technologies to defeat their capabilities?
    And one other question I would like you to answer in the 
end--and I am repetitive when we do this, but I think that the 
sequestration law is probably one of the worst things that has 
happened to this country and to our national security. And I 
just want to make sure we ask the question, that you can 
address if we don't deal with this issue.
    Luckily, we have a 2-year hiatus, thanks--and I think most 
of the members of this committee, especially my friends on the 
other side, understand how serious the sequestration law is to 
our national security.
    Thank you.
    Ms. James. I would begin by saying I do think there are 
very credible threats to our space assets. And you know it, 
Congressman Ruppersberger; a lot of America does not realize 
how important space is to both military and to the civilian way 
of life, but it is crucial.
    And there are credible threats out there. That is precisely 
why we are putting so much focus on it. We have shifted on the 
order of $5.5 billion toward, as you call it, sort of deterrent 
aspects, protecting our constellation.
    And we are also, very, very importantly, undergoing a 
culture change. When in the past perhaps we looked at satellite 
operations as an operations aspect, now we are looking at it 
much more as a--just as we look at other domains. We are doing 
war-gaming, we are doing experimentation, we are actively 
thinking about, if this happens, then how do we protect and 
fight the constellation. That is a culture change for our 
Airmen, as well.
    And then sequestration, I couldn't agree with you more. It 
is a bad law. It will have impacts if it goes through again in 
every part of our Air Force, including space.
    Mr. Ruppersberger. Thank you.
    General.
    General Welsh. Sir, our space assets are clearly at risk 
today. We are investing and planning for ways to mitigate that 
risk and become more resilient in that domain over time. And, 
clearly, sequestration is a threat to national security unless 
we are planning on changing the national security posture of 
the United States.
    Mr. Ruppersberger. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Ruppersberger.
    Ms. Granger and then Mr. Ryan.

                           RESERVE COMPONENT

    Ms. Granger. Thank you both for being here, and thank you 
for your service. It is exceptional, and we appreciate it very 
much.
    General Welsh, on your retirement, I hope we get to see 
some of you in Texas. I look forward to that.
    General Welsh. You will, ma'am.
    Ms. Granger. And, Secretary James, thank you.
    The Army recently released a report of the National 
Commission on the Future of the Army, and that was similar to a 
product to the Air Force which was released several years ago. 
As part of the report, a sizable drawdown of forces was 
announced.
    I know you mentioned this in your openings remarks, but go 
over it one more time, what a right-size Air Force looks like 
in terms of military end strength. And how are you best 
incorporating the Air National Guard and the Air Force Reserve?
    Ms. James. I will begin by saying I think a right-size Air 
Force has to be bigger than the Air Force of today, which is 
why we are building up minimally to that 317,000 number I 
referenced on our Active Duty side.
    But I am prepared, if we can get the right talent in, to go 
beyond that. Under law, the Secretary of the service has up to 
2 percent authorization to exceed end strength in any given 
year. And so that is what I meant when I said, if we can get 
the right talent, I would use that authority, and we may have 
to come back and ask for your assistance at the appropriate 
time with a reprogramming.
    I think, similarly, we could use some additional end 
strength in the Reserve components, National Guard and Reserve. 
And, once again, I would judiciously use that authority if we 
get the right talent into our force.
    I think, you know, ultimately, 321,000, particularly on the 
Active Duty side, is a number that we have validated, we have 
talked about it in the past, so I would use that as a target. 
But then we look at the ISR discussion that we just had and 
needing to build that up. Those numbers are not fully in the 
321,000. So it may actually be higher than that.
    But my point is the bottom line is we can't go any lower, 
and we have to continue the steady state of modestly building 
up to fill holes, important capabilities like ISR. And it must 
be on a total force basis. We thank the gentleman, Mr. Womack. 
We like to think, you know, we are big total force supporters, 
and we are.
    Ms. Granger. Thank you.

                               RETENTION

    Yesterday, we had a hearing, and we talked about maternity 
leave for women in the military and having a situation where 
they are more likely to stay in and come back and not lose that 
asset.
    When you talk about the pilots and the training and how 
many you have to train and making sure you have the right 
people, I know you are also looking at how to keep the right 
people. Because that training and losing them to the airlines 
and training again is so incredibly costly.
    So do you see changes in the future? Are you looking at 
things that would keep them in longer?
    Ms. James. We are constantly looking at retention 
incentives, retention approaches. Specifically when we are 
talking about women, the Chief and I rolled out a series of 
initiatives some time ago to either help recruit or retain or, 
in some cases, develop some of our fantastic women minorities 
and, you know, white males, for that matter. We want better 
retention across the board.
    So the maternity leave is one aspect. There are other 
aspects, as well. But you are quite right; when we lose highly 
trained, very capable people, it is not a good day for the Air 
Force. And so we want to keep them.
    And, again, keeping them might mean keeping them in the 
Guard and Reserve. If they are on the team, they are on the 
team. But we want to retain.
    Ms. Granger. General Welsh, do you have anything to add 
from your many years of service on retaining our talent?
    General Welsh. Yes, ma'am. We have always retained enough 
talent to remain a great Air Force, and I think we will in the 
future.
    There are always going to be people whose time has come to 
separate. Their family needs more stability. They have a 
different career goal in mind in a different arena. Those 
people will serve honorably, they will leave, we will 
congratulate them and be very proud they stood beside us.
    There are other people who are going to stay in because 
they love the Air Force, they don't want to leave, they just 
want to keep doing what they are doing.
    And then there are some in the middle who are wavering one 
way or the other, who typically enjoy the job, enjoy the work 
they are doing, whether it is flying or anything else, but they 
are frustrated by something. It could be not enough hours at 
the child development center, it could be not enough flying 
time, it could be any numbers of things. And what we have tried 
to focus on is identifying those things that would make a 
difference to the people who are on the fence and try and keep 
them in.
    For anybody who is leaving, we have tried very hard to get 
the information out to them so they can go to the Guard or 
Reserve. Because if we keep them in the Guard and Reserve, we 
keep them in the Air Force. It really is one Air Force when it 
comes right down to it, and they will be fantastic supporting 
us in those components.
    And so the Active Duty force has to remain strong so the 
Guard and Reserve can remain strong. So that is where we tend 
to focus. What are the things that keep those people who are 
wavering and could go either way in the Air Force? And that is 
where incentive pay, bonuses, and things do have an impact in 
that regard, but they are not going to convince everybody. But 
the ones we are after, they sometimes will keep with us.
    Ms. Granger. Thank you very much.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Mr. Ryan and then Mr. Crenshaw.

                     C-130 SPECIAL MISSION AIRCRAFT

    Mr. Ryan. Thank you, Mr. Chairman.
    Thank you for your service. I appreciate you being here.
    One of the issues that we have to grapple with, too, is not 
just the military issues but also some of the other threats 
that we are seeing that face our country and the world.
    Last year, in the appropriations report, we gave you some 
language for compliance with a directive to say that we need to 
prioritize recapitalization of the Air Force's three special 
mission aircraft--so the aerial spray, the airborne firefighter 
system, and the hurricane hunters. And we are seeing even more 
of this now with Zika, that the aerial spray unit, I think, can 
play a major part in helping us combat some of this.
    So can you tell us what your plan is to ensure that we can 
meet these challenges?
    General Welsh. Sir, the Air Mobility Command has got the 
lead to put together an integrated modernization plan for the 
entire C-130 fleet. That includes everything from C-130J 
recapitalization to Avonics Modernization Program (AMP) 
Increment 1 and 2 for all the C-130H models in all three 
components.
    Now, that plan has been--the funding is in place to 
complete the modernization program for both increments. The 
detailed plan of which units rotate when is being developed 
right now, which ones will go to--on what timetable to do the 
Increment 1 and 2 upgrades.
    And the other piece they are putting in this is a game plan 
for, if we were able to get additional C-130Js, where would 
they go first. Because the only thing we have left on the buy 
on the Active side is our Air Force Special Operations Command, 
C-130Js, which come in over the next 4 years before they 
complete. After that, there is no money in the C-130J line, but 
we would clearly like to continue to recapitalize the C-130 
fleet as we can. It wouldn't make sense to upgrade airplanes, 
Inc 1 and then Inc 2, and then buy a C-130J and replace the 
newly modernized airplane.
    So we are trying to build into that plan an option for 
recapitalizing specific units in the Reserve component with the 
J model as kind of the first place we would go. Your language 
from last year that came out in the National Defense 
Authorization Act (NDAA) is part of the factors that AMC is 
considering in that detailed planning.
    I think within the next 2 months the plan will be 
finalized, it will be coordinated with The Adjutant Generals 
(TAGs) and with the Air Force Reserve wing commanders, and we 
will be able to share with everybody.
    Mr. Ryan. Okay.
    Madam Secretary, do you have anything to add?
    Ms. James. No, no, I really do not. I think the Chief 
covered it.
    Mr. Ryan. Okay. Great.
    The other piece, quickly, Mr. Chairman--because I know you 
are looking at me.
    Mr. Frelinghuysen. We always enjoy looking at you----
    Mr. Ryan. I could feel him. I could feel him right here.
    Mr. Frelinghuysen [continuing]. Listening to you.

                         ADDITIVE MANUFACTURING

    Mr. Ryan. Just to mention America Makes, which is the 
additive manufacturing institute in Youngstown, Ohio, that is 
doing a lot of work with the Air Force now. We are also 
partnering with the University of Dayton Research. And this is 
3D printing parts well into--hopefully soon, but well into the 
future that I think can save the Air Force lots and lots of 
money, the military lots and lots of money, to be able to print 
some of these parts wherever you are. This is the future of 
manufacturing. This is the future of the military. And you are 
continuing to help drive this.
    So I want to bring that to your attention and say how great 
it is to watch this whole new industry and sector unfold. It is 
projected to grow about 25 percent a year for the next 10 years 
and can help us reduce costs here. So I want to thank you for 
your support for that and hope we can continue to have your 
support on that. So thank you very much.
    Mr. Frelinghuysen. We are always proud of the Buckeye 
contribution, and I am sure the Air Force has duly noted it.
    Mr. Crenshaw and then Mr. Graves, who is very patient at 
the end there.

                                 JSTARS

    Mr. Crenshaw. Well, thank you, Mr. Chairman.
    And let me add my words of thanks to both of you all for 
your service.
    I want to talk a little bit about the JSTAR program. It 
seems like every year the Air Force moves the goal post, and I 
guess it creates a certain amount of consternation with this 
subcommittee. Like, this year, you asked for half as much 
money, and then the program slipped another 2 years.
    And, as I understand it, this is a nondevelopmental 
program. You take an end-use airplane and you put an end-use 
sensor on it, and people say, why does that take 12 years? And 
I have talked and I know other members of the subcommittee have 
talked to senior people at the DOD, have talked to senior folks 
in your organization, just to say, what is going on? Who is 
slowing this thing down? And industry indicates you could 
probably do this in half the time. That may or may not be true, 
but we get different answers from the different folks we talk 
to.
    And I guess the question is--maybe, since you all are going 
to make the final decision, we get to ask the right people--
what is going on? I mean, why is it taking so long? Is it being 
slowed down on purpose?
    It seems to me that there is a certain risk involved, if we 
don't have these replacement planes, that the combatant 
commanders are not having an asset they need.
    So tell us what is going on, why is it taking so long, and 
is there a chance you could speed it up or make it happen in a 
more reasonable amount of time. We need some, kind of, final 
answers, please.
    Ms. James. So I would begin by saying the start date on 
this has changed over time for at least two or three reasons. 
So the two that really leap to mind: The Air Force slowed it 
down at one point because I think it was the judgment of our 
service acquisition executive and some others that the laydown 
of the strategy wasn't quite ready at that point, that it was 
too ambitious, that if we were going to do it we wanted to do 
it right, and we needed a little bit more time to think it 
through. So that was one aspect.
    Another aspect is there has been a debate, which has now 
been settled, by the way, but there has been a debate within 
the Department of Defense with respect to, you know, 
requirements and could this capability be done by an unmanned 
platform and is it really ISR or is it battle management or is 
it both. So there was a debate sort of surrounding requirements 
that we had to work through, which is now settled, as I said, 
which allows us to move forward.
    So I just want to say to you we are very committed to the 
program. It is an important part of our future. We are going to 
get going with it. I would love to speed it up if at all 
possible, and we will be looking to see can we do that.
    It is a little bit more challenging, though, than taking an 
existing platform and putting existing radars. It is a little 
bit more challenging than that because it requires the 
integration of these things together in new ways. So it is not 
quite that simple.
    But believe me, we do want to go as quickly as we can 
because it is an important program for us.
    Mr. Crenshaw. Well, do you have--I mean, so it slipped to--
this year, you asked for half as much as we might have 
anticipated, and so it slips 2 more years. What are you saying? 
That it is not going to slip anymore? Or it is back on track? 
Or what is the new timeline?
    Ms. James. So right now we are in what we call technology 
maturation and risk reduction. There are three different 
companies that are participating in this. And this is to buy 
down the risk associated with some of the radars.
    So the amount of money that we requested this year very 
much goes with that increment of the program. So you have to 
get that part done before you start spending money on the other 
increments of the program.
    So it is certainly my hope and I am going to be working as 
hard as I know how to work to keep it on track according to 
this schedule from here on out, with the caveat that these are 
development programs, integration can be a challenging aspect, 
and you just don't know what you do not know. So it is 
development, and that is why I would caveat it.
    Mr. Crenshaw. So you have a plan now. You have settled some 
of those issues, and there is a plan to get it done, right?
    Ms. James. That is right.
    General Welsh. Congressman, there is no bigger proponent 
for this program than me. It is in the budget. It is funded all 
the way through initial operational capability (IOC). 2024 is 
the plan. We would like to pull it back to 2023 for IOC, which 
means we should be delivering airplanes into 2021 or 2022 at 
the latest.
    And we think we are past all the resistance. We think we 
are past the tech maturation problems. We think, this year, the 
reason for the lower amount was so that companies could 
actually do this work. It has to do with integrating a radar, 
which there were some problems with. And that is why I think 
our Senior Acquisition Executive (SA) made a wise choice to 
just take a deep breath for a year, let's get this right, and 
then we will kick the program off and go.
    I think we are on track. Unless somebody else jumps up and 
tries to stop it, I think we now have a plan, it is funded, and 
we are ready to roll.
    Mr. Crenshaw. Great.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. This is an imperative. And you are going 
to be reporting, I think, to the committee in pretty short 
order as to where we stand.
    General Welsh. Yes, sir.
    Mr. Frelinghuysen. Okay. Thank you very much.
    Mr. Calvert--excuse me, Mr. Graves, I wanted to recognize 
Chairman Calvert, who actually was ahead of you.
    Mr. Calvert.

                              SPACE LAUNCH

    Mr. Calvert. Thank you, Mr. Chairman.
    And, Secretary James, General Welsh, thank you for 
appearing before the committee. And, certainly, thank you for 
your dedicated service to our country. We certainly appreciate 
it.
    We are proud of our Reservists and our National Guard units 
over at March Air Reserve Base in California. They are doing a 
fabulous job for our country, and we certainly appreciate their 
support.
    I would like to talk a little bit about where we are going 
in launch. A number of us are concerned about space and our 
future in space, what our plan is to make sure we maintain our 
superiority, but we also have to get to space. And, obviously, 
you know, we went down this track to create some competition 
for ULA with SpaceX, which has been successful and--some 
successful launches.
    We didn't anticipate, of course, that Russia would invade 
Crimea and occupy it and the provocative actions in Ukraine and 
Syria and elsewhere, where it makes it very difficult for us to 
justify acquiring RD-180 engines from Russia to power our Atlas 
V. And, of course, the Delta is retiring. Now we have created 
another monopoly maybe.
    So we need to get a replacement engine as quickly as 
possible. You were talking about that in your testimony. And I 
am happy to see where the Air Force has worked together with 
ULA and Rocketdyne to start moving forward with the AR-1 
replacement engine. And Rocketdyne seems to be pretty confident 
that they can get this engine up by 2019, but you mentioned 
that there may be a need to acquire RD-180 engines, but I don't 
think that the Congress, certainly in the Senate--I don't see a 
lot of support for that.
    So what is your plan for launch in the next few years 
before we can get a replacement engine? I think, you know, 
obviously, Blue Origin and others are trying to create other 
ways for us to get to space, but we are going to have this gap 
here. Are we going to put off the retirement of the Delta? How 
many reserve engines do you have on the RD-180? How long will 
that get us?
    So, with that, I will turn that over to the Secretary and 
the General.
    Ms. James. You just gave a great summary, Mr. Calvert, of 
the complexity of space. And there are probably 10 other 
factors that I could throw into the mix that you just said. It 
is a very complex thing.
    I always try to go back to basics as I try to think through 
all of these complexities. The basics are we have three 
mandates. We want assured access to space, and that is the one 
that we care most about. We want to get off the RD-180 as soon 
as possible, and we are shooting to have that development done 
by fiscal year 2019. And we want competition.
    I think the conundrum is we are increasingly looking like 
we can not have all three of those because we are boxed in in 
such a way that something is going to have to give. So it 
remains to be seen what, but let me, if I may, tell you our 
strategy.
    Because the Commercial Space Act says that we buy, in this 
country, launch as a service--in other words, we do not buy an 
engine and we do not buy a rocket; we buy launch as a service--
that is why we are trying to invest in rocket propulsion 
systems that relate to launch as a service.
    And so, as I mention, we have just awarded, in a full and 
open competition way, moneys that you all appropriated that 
provide different companies that have the capacity possibly to 
take us into space ways to help their rocket propulsion systems 
do that. And Aerojet is one of companies, but there are others 
that also won some of these moneys in the competition as well.
    The reason I said why flexibility and some additional, 
like, nine new RD-180s would give us what we think is 
reasonable flexibility, it allows us to compete. If we don't 
have more, there may not be a competition.
    Mr. Calvert. But isn't it true--I mean, I don't--there 
seems to be overwhelming opposition to that, especially in the 
Senate. One particular Senator I have in mind is just 
absolutely no. So if that occurs, what do we do in the 
meantime?
    Ms. James. Then we may not have the competition aspect. 
That is why I say we have three mandates; we may have to give 
up on one. We may have to look for another mechanism to assure 
us the access to space.
    Mr. Calvert. Is SpaceX capable of meeting that challenge 
if, in fact, they are the only launch capability we have?
    Ms. James. There are eight types of launches, and right 
now, today, SpaceX is capable of doing four of the eight.
    Mr. Frelinghuysen. Would the gentleman yield?
    Mr. Calvert. Yes.
    Mr. Frelinghuysen. Would you put some numbers on what you 
are talking about here? This Monday, didn't you announce that 
you will spend a certain amount this year and up to $530 
million for Aerojet?
    Ms. James. Yes. So------
    Mr. Frelinghuysen. And then you are making a similar 
investment with the Blue Origin.
    Ms. James. That is correct.
    Mr. Frelinghuysen. Maybe we can give the committee some 
perspective. We're talking about, I think, spending, I think, 
to date, what is it, $750 million or something. It is some 
incredible amount.
    Mr. Calvert. I think it's closer to $1 billion.
    Mr. Frelinghuysen. Yes.
    Ms. James. That is right.
    Mr. Frelinghuysen. Put some numbers, if you would, if you--
thank you for yielding.
    Ms. James. Would you like me to do it now, Mr. Chairman?
    Mr. Frelinghuysen. Please do. Yeah. I think----
    Ms. James. Okay. So what we have announced $115 million for 
Aerojet Rocketdyne, which assuming our options are exercised, 
would go up to $536 million over the next few years. And then 
there is--that is what it is for Aerojet. And I could go 
through each of the companies. But the main point I wanted to 
make is we have now obligated all $220 million that you have 
given us for fiscal year 2015, to just show the urgency, that 
we are getting on with this. And these are all different 
companies that can help us get to space in a full and open 
competitive way.
    But the main point is the competition. We were trying to 
preserve the competition for the next few years. And that is 
where, if we can get the additional RD-180s, we can assure that 
competition.
    Mr. Calvert. Well, as you know, Mr. Chairman, we already 
have a problem meeting our launch requirements. We don't have 
enough launch capability. And I certainly have some concerns 
here in the short term on how we are going to meet our short-
term requirements to get to space. And that is something we 
really need to focus on here.
    Mr. Visclosky. Would you yield for a second?
    Mr. Calvert. Sure.
    Mr. Visclosky. You had mentioned 2019, Madam Secretary. How 
confident are you? Is that a floor or is that a ceiling?
    Ms. James. The technical experts--put the companies aside 
for just a moment. If I look at the--sort of the technical 
experts in the government, they say 2019 for the development of 
a new engine is ambitious. We are moving toward it. It has not 
been done before in history. It is ambitious. But that is our 
objective. That is what the law says, and that is what we are 
moving toward. But the development of the engine is not 
integrated on a rocket, and it is not certified. So there are 
other pieces to this that must also be accomplished. And to get 
all of that done, we certainly believe it is beyond 2019.
    Mr. Visclosky. I appreciate the gentleman yielding.
    Mr. Calvert. Thank you.
    Mr. Frelinghuysen. Okay. Who do we have? Mr. Graves.

                                 JSTARS

    Mr. Graves. Good morning, Madam Secretary, General. Thank 
you for being here.
    Following up on Mr. Crenshaw's questions as it relates to 
JSTARS, and, first, let me just say thank you. I appreciate 
hearing that you would love to speed up the program, and, 
certainly, your passion for the program as well. We have a 
passion also as a committee, and very broad support, bipartisan 
support, in the Appropriations Committee, and in the Armed 
Services Committee as well in the House and in the Senate. 
And--but each year we have been hearing this love and desire to 
speed up or accelerate, but for some reason things slip and 
slip and slip.
    Before you maybe share with us how we could accelerate, you 
know, knowing that you would like to accelerate, what are the 
mechanisms or the ways or the processes in which we could help, 
or that you expect could accelerate a program, share with this 
committee the dangers if we don't, because my understanding, 
and maybe I am misinformed, is that there is going to be a 
major capabilities gap that will occur, that we can continue 
pushing this off. But as we do that, the current aircraft that 
are being utilized today are beyond their service life, or 
close. Half are in depot maintenance currently, when they 
should be in the air. And many are going to be coming off line 
over the years. And I heard that 2023 being IOC, which means 
really not capable or being used for another few years, I would 
imagine, or maybe that is.
    But even if that was the first year of operation and then 
in a theater somewhere, that is still 7 years from today. And 
there is still a gap that is expanding over and over.
    So, knowing that, could you just describe to us what the 
dangers are if we don't accelerate. And then what are the ways 
that you see that we could accelerate and move forward a little 
bit quicker. Thank you.
    Ms. James. Well, I would just begin by, you essentially did 
a great job of explaining the dangers. We could have a 
capability gap. The JSTARS of today are, on average, I believe, 
47 years old. They have a lot of down time. There is a lot of 
maintenance issues. And yet they are very much needed by the 
combatant commanders. So the longer this takes, the more the 
risk that we would have that capability gap.
    Just a couple other data points on the current schedule. We 
do expect a milestone B for the fourth quarter of fiscal year 
2017. The Chief already said the IOC is in fiscal year 2024. 
But there is some possibility we could move that up a year or 
two. I believe--I do not believe more money this year would 
help. But let me go back and double-check that. I do believe 
more money in the out-years would allow us to speed up and 
possibly achieve that one- or two-year improvement that the 
Chief talked about. But please allow me to go back and double-
check that dollar issue.
    Mr. Graves. And as you mentioned, the capabilities gap, and 
maybe, General, you could answer this, current number of 
aircraft today that are operational, and current number that 
would be operational when the first IOC is available in 2024.
    General Welsh. Sir, I would have to look--I would have to 
go look at the schedule of when airplanes are scheduled to drop 
offline based on new depot requirements and degrading 
airplanes. I don't know that exact number right now at IOC----
    Mr. Graves. Average year would be 54 years old.
    General Welsh. We can find those. But the first one is 
within a year of now. So it is--the problem is here. It is not 
in the future. And so the thing that has slowed this down the 
most over time has been this debate about what is the best way 
to meet this requirement. That has been the big slow-down. We 
are past that now. It was a fair conversation, I think. It had 
to happen. I am hoping we are past that.
    The combatant commanders are still very clear in their 
requirement, the joint staff--Joint Requirements Oversight 
Council still supported the requirement, and so we are moving. 
And we will sign an Engineering and Manufacturing Development 
(EMD) contract. Right now, the milestone is the first quarter 
of fiscal year 2018. Once that contract is signed, I think we 
will have a better idea of the real timeline for the program. 
And we will very shortly, after that, have an idea of how much 
can you accelerate based on where the technology and the 
integration process stands then; How successful was our risk 
reduction, and technology maturation effort over this year and 
the next year? And we will know more by then.
    At that point, I think if we can accelerate, that is when 
we can throw more money at the problem and try and move it 
ahead faster. Until then, I think we are guessing. And I would 
hate to put a whole lot more money into the program at this 
point until we knew that we could actually use it the right 
way.
    Mr. Graves. Okay. All right.
    General Welsh. I would hate to even ask you for that money 
at this particular point.
    Mr. Graves. Well, thank you. Mr. Chairman, let me note, I 
mean, this just gives me greater appreciation for our airmen 
and women to know that they are doing all they can with an 
average age of aircraft, you said, 47 years old today. And it 
would be likely 54 years old when we finally get there. Thank 
you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    General Welsh. Chairman, if I could just point out, that 
would be--now be, at that point in time, our seventh fleet of 
aircraft that would be over 50 years old.
    Mr. Graves. Thank you, Chairman.
    Mr. Frelinghuysen. So noted with alarm.

                            AIR FORCE DEPOTS

    Chairman Cole. Thank you.
    Mr. Cole. Well, we are not all alarmed because a lot of 
those get maintained at Tinker Air Force Base, Mr. Chairman. So 
I think we do that pretty well, just in case that was 
overlooked.
    But it actually does get to the question I wanted to ask. 
And I will be sort of shamelessly parochial here. But I will 
try and include other depots as well. As you know, Madam 
Secretary, better than any of us around this table, about 70 or 
80 percent of the cost of any weapon system is maintaining it 
over its project life cycle. And we all know that we are 
maintaining a lot of systems a lot longer than we ever intended 
them to be maintained.
    So, we run into problems, like my friend from Georgia 
referred to, where these things are very difficult. Almost have 
to be individualized in how you overhaul each particular plane, 
because we are way beyond what anybody thought about, you know, 
how you would maintain them. So, even getting parts sometimes 
is a huge problem.
    So, how comfortable are you that you have got what you need 
in terms of both the three major depots that you have, and, 
obviously, we have a lot of private contractors involved in 
this kind of work, and are we directing enough money into those 
areas if, indeed, we are going to have to keep these planes 
flying longer than any of us would like to?
    Ms. James. Well, first, if I could begin by saying, I, of 
course, have been to our depots. Very, very proud of the work 
that is going on. Fantastic accomplishments for this very 
important area of sustainment. I would also tell you that we 
are continuing to invest in such things as tooling, and the 
various types of equipment that are required in the depots for 
both our new systems like the F-35, the KC-46 that are coming 
on. But also, for our existing systems, the existing aircraft, 
the nuclear mission, et cetera, et cetera. So I think we are 
doing a pretty good job of investing in that sort of equipment.
    Two concerns I would, you know, give you is that--and this 
is a concern across the board I mentioned at my opening 
statement: infrastructure, so keeping up the roads, keeping up 
the buildings. So for the depots, I am worried about 
infrastructure. But you know what? I am worried about that 
across the whole Air Force. So that is one thing.
    And then civilian hiring is another thing. So the depots 
are, of course, largely civilian employees. And when you 
combine the effects of sequestration a few years ago and that 
set us behind in terms of the workload, the hiring, that got us 
all messed up. You have got Office of Personnel Management 
(OPM) rules, which are a constraining factor for us. Security 
clearances that are, you know, long to come through. All of 
this is a concern. So I would say civilian hiring and 
infrastructure would be the two concerns.
    Mr. Cole. On that point, on the hiring point and the 
workforce point, you know, frank--during sequestration, a self-
inflicted wound we all agree was a mistake, but when we had 
government shutdowns, we also made a pretty big mistake, 
because we were furloughing people that we paid through the 
Working Capital Fund at places like Tinker that didn't need to 
be furloughed. And so a lot of that extra work was built up.
    So none of us ever want to be in that situation again. But 
if we are, I would--and I ask for a response on this, I would 
urge that you keep the workforces that you can working. Don't 
just send them home because some have to go home. Make sure--
because it was a much more difficult problem getting up, having 
lost their capacity, then we are in an overtime situation, and 
it is more expensive at the other end.
    So when you can keep people working, and those workforces, 
again, because of way in which they are paid, many of them can 
be kept there. I would hope we could do that if we are ever in 
this situation again.
    Ms. James. Thank you.
    Mr. Cole. Do you have a comment that you would care to 
make?
    Ms. James. No. I think that all----
    Mr. Cole. I could make an assurance.
    Secretary James. That all makes good sense to me.
    Mr. Cole. Okay. Thank you very much. Thank you, Mr. 
Chairman.

                                 RD-180

    Mr. Frelinghuysen. Just getting back to Congressman 
Calvert's question about the RD-180, if we don't have the 
capacity, we are dependent on these Russian engines, right? How 
else are we going to do whatever we need to do for the next 
couple of years without them?
    Ms. James. If we did not have them----
    Mr. Frelinghuysen. This is a national security issue here.
    Ms. James. Right. It is a national security issue. And if 
we did not have them at all, then we would rely on SpaceX to 
the extent that we could. We would have to shift to the much 
more expensive Delta alternative and pay whatever the cost is 
that we would have to pay. So it is theoretically possible, but 
without RD-180s at all, it is a lot of new complexity. And I 
don't see how we would have the competition, perhaps, that we 
have all hoped for and envisioned, because there would be no 
way Delta would ever be competitive with SpaceX.

                    RUSSIAN AND CHINESE CAPABILITIES

    Mr. Frelinghuysen. I mentioned in my opening remarks about 
the capacities of the Russian Air Force and the Chinese. 
Certainly, there has been a lot of aggressive behavior. In some 
cases, we are deconflicting with them over Syria, and at times, 
they appear to have us, sort of, butt out. The Chinese have 
been doing some pretty remarkable things in the South China 
Seas. A lot of aspirations, a lot of their own capabilities. 
How are we matched against their, General Welsh, or, Madam 
Secretary, against some of their capacities?
    General Welsh. Sir, right now capacity-wise, let's start 
with the Chinese, they have about 325,000 people in the 
People's Liberation Army/Air Force, which is a little bit--
about the same size as we are, a little bit larger. But we have 
a couple thousand more aircraft today. The rate they are 
building, the models they are fielding, by 2030, they will have 
fielded--they will have made up that 2,000 aircraft gap. And 
they will be at least as big, if not bigger than our Air Force 
is in terms of aircraft. And they will have to go to the people 
with it to operate them, so they will be significantly larger 
in terms of people.
    They also, during that timeframe, will field a number of 
new aircraft, a handful full of new--completely new variants, 
and will have modified three of their older variants in that 
same timeframe. And we are not keeping up with that kind of 
technology, development.
    We are still in the position of we have--we will have the 
best technology in the battle space, especially if we can 
continue with our current big three modernization programs, the 
Long Range Strike Bomber (LRSB) and the F-35. But they will 
have a lot of technology that is better than the stuff we have 
had before. And so the--what the--and the Russians are doing 
the same thing in the nuclear business. Not so much in the 
conventional force, but they are demonstrating capabilities 
that they haven't demonstrated to us before, cruise missiles. 
Some of their new aircraft are dropping weapons for the first 
time in conflict. We are able to watch and see how this is 
working.
    So they are a serious Air Force. And they are serious about 
getting better. And the Chinese, in particular, clearly have a 
blueprint that is matching against our shortfalls. And so I 
think that is something that we have to consider as we look to 
the future. Not modernizing our Air Force is not an answer that 
is acceptable.
    Mr. Frelinghuysen. Sometimes it is a sensitive subject, but 
there is an issue of rules of engagement. We had the Navy in 
here the other day, and we discussed the history of free 
passage and free navigation. You know, we look at things that 
the Chinese are requiring of us today. How do you deal with 
that issue? I don't think it is just anecdotal. There are 
challenges that our airmen are facing that sometimes we don't 
hear about.
    What are the rules of engagement? And how would you 
characterize some of the instances we have read about, in terms 
of the Chinese, shall we say, confronting our aircraft? The 
Russians, I assume, in other parts of the world have been going 
across the East Coast and at times obviously doing a variety of 
surveillance. How are we matching that?
    General Welsh. Sir, the--I am assuming you are talking 
about the intercepts of aircraft that are----
    Mr. Frelinghuysen. Yes, I am.
    General Welsh [continuing]. Being conducted.
    There have been incidents where we thought the intercept 
and the contact of the pilot after the intercept was not 
acceptable. It was certainly not within the bounds of normal 
behavior. But there have not been that many of them, relatively 
speaking. And when there is one, it is highlighted. We actually 
do communicate with both the Russians and the Chinese and point 
out to them the behavior. And the behavior tends to adjust. For 
example, in the East China Sea, we had an issue with aircraft 
from a particular unit that were intercepting some of our ISR 
platforms that were behaving aggressively. And after a demarche 
following that, that behavior changed.
    So it is not--when you read about it, it is really an 
isolated incident, in my view, compared to the majority of 
intercepts which are relatively professionally accomplished. 
And that is true both with China and Russia. We also intercept 
their platforms when they fly either around Europe or they fly 
around the coast of the United States. And we have the same 
protocols. We----
    Mr. Frelinghuysen. What about the issue of denial of 
airspace?
    General Welsh. Well----
    Mr. Frelinghuysen. We read from time to time of symbolic 
flights. But in reality, have we conceded anything?
    General Welsh. No, sir. In the South China Sea, for 
example, as the commander of the U.S. Pacific Command 
repeatedly states, we have not changed our patterns, we have 
freedom of navigation in that area. We still do overflight of 
that area. We have made it very clear that that is not a 
Chinese restricted zone of any type, either on the sea or in 
the air.

                          JOINT STRIKE FIGHTER

    Mr. Frelinghuysen. Joint strike fighter, the ALIS system, 
can we talk a little bit about some of the issues that you have 
been focusing on to get that system right and tell us why it is 
so important?
    General Welsh. The two big issues that I believe exist 
between now and initial operational capability this fall, our 
window is August to December to clear that, and I am pretty 
confident we are going to get there from here. The two issues 
have been development of the automated logistics information 
system. It has been a complicated process. It has been 
difficult journey that the companies and the services have been 
on trying to get this to where it needs to be for the future.
    But I am actually relatively confident we will get there 
for what we need to have at IOC. The biggest issue right now is 
getting engine data incorporated into Autonomic Logistics 
Information System (ALIS) because it comes from a different 
contractor. And the companies have been working together trying 
to make this happen. And I am expecting to have that data 
integrated in July. And that will give us a month or so to look 
at how it operates, make sure it is working properly before we 
enter our IOC window.
    The other issue that--Lockheed Martin, in particular, and 
their subcontractors are paying an awful lot of attention to is 
a software problem, and it has to do with radar stability. It 
is software stability, but it is really radar stability. And 
they have been working this extremely hard. They now have their 
software integration labs on 24/7, 7-day-a-week operations 
doing multiple quick iterations of software changes.
    They are fielding a recommended change to the software they 
think will field this problem. They have done it in the labs in 
February. They are putting it into platforms in March. And we 
hope we will be able to put it in the airplanes shortly 
thereafter to make sure that it is working. So those are the 
two big things, sir. But I think we will get there.
    Mr. Frelinghuysen. There has been some loose talk, and I 
think it is hopefully on the loose, that somehow people--some 
might bypass this new system of systems here. And that is 
something I don't think would be advisable.
    General Welsh. As far as bypassing the F-35?
    Mr. Frelinghuysen. No, not the F-35, but trying to get 
around the--what you tell me is going to be a good news story 
at some point time.
    General Welsh. Oh, yes, sir. No. We cannot get around----
    Mr. Frelinghuysen. We can't do that.
    General Welsh. We got to run forehead first right through 
the middle of it. Yeah. This has got to work, the airplane's 
got to do what we were told it would do, and what the 
requirements demand that it does, clearly. And that is where we 
are going.
    Mr. Frelinghuysen. Further questions, members?
    Yes, Mr. Visclosky. Excuse me.

                          U.S. SPACE STRATEGY

    Mr. Visclosky. Thank you, Mr. Chairman. We have had a 
number of questions today and comments about space. What I 
would like to do is talk about space strategy. Because we have 
talked about launch, we have talked about defense. NRO uses 
space; NASA uses space; CIA uses space; Department of Defense 
uses space. Who is the principal contact in point to organize 
the United States of America Government's space strategy?
    Ms. James. Well, I will begin. And, Chief, please do jump 
in. So I will say there is the Principal Defense Space Advisor, 
and that would be me. And I am the principal one when it comes 
to looking across budgets and organizational constructs, and at 
least being a single voice to be able to advise our top 
leaders.
    And then there is strategic command, which is the 
operational warfighters. So this would be Admiral Haney. And 
under him, General Hyten would be the Air Force space component 
of space command. So these are the warfighters who are focusing 
on changing the culture, who are focused on the--what we call 
the Joint Space Operations Center (JICSpOC) which, for the 
first time, we are going to be sitting aside--but we are 
sitting now side by side with the National Reconnaissance 
Office (NRO), which are our top space partners, I will say, 
figuring out ways that if things should go poorly on Earth, how 
do we defend the constellation, how do we war game that out and 
so on.
    So that is kind of from the warfighters' perspective. I 
would say Admiral Haney is at the top of that, and then of 
course, there is our General Hyten as the Air Force component 
commander.
    Mr. Visclosky. How does that work between you and General 
Haney, and who makes the ultimate decision? I assume there is 
some consensus as it develops, plus the world changes every 
day. Is it essentially your office and STRATCOM that coordinate 
all these agencies that have an interest in space?
    Ms. James. So we work very closely together. And of course, 
I do not do anything without General Welsh as well. And 
ultimately, we are making our recommendations up to the Deputy, 
the Secretary of Defense, and even to the President. So that is 
the high level attention that space receives these days. But we 
work very closely together, and there have not been, you know, 
disputes about, you know, him thinking one thing and me 
thinking another thing. We work very, very closely together.
    Mr. Visclosky. Does STRATCOM have a larger role to play? Is 
it about right? Because you have, again, civilian agencies that 
are involved here as well as military, intelligence. I just 
want to make sure there is kind of that central point of 
contact.
    General Welsh. Sir, I would look at it as the resource and 
policy decisions are led by--in the Department of Defense are 
led by the Defense Space Council and the Secretary, to include 
resource decisions that are made. And it is done in 
coordination with the NRO, the intelligence community, and with 
U.S. Strategic Command as an observer. Their intent is to meet 
the requirements of U.S. Strategic Command along with the 
requirements of those other organizations. For operational 
strategy in space, U.S. Strategic Command has the lead for the 
Department of Defense, and they do coordinate with NRO, with 
the intelligence community, and even with industry as partners 
who operate satellites in that domain.
    The big change has got to be, going forward, a more 
integrated approach to everything they do in that domain, 
because everything is going to have to be more resilient, not 
just military hardware in space. Commercial hardware also is 
going to have to be more resilient, because it is also at risk 
from anything from debris to Anti-Satellite Weapons (ASATs).
    And so one of the great things about General John Hyten is 
that he has a great big vision for space operations and 
integration. And he is really helping us kind of organize 
around this idea that it has got to be much more cooperative, 
but it has to look at this domain as a contested domain, and 
potentially a warfighting domain. And that changes the level of 
cooperation we have to do on the operational concepts.
    Mr. Visclosky. As far as integration, are there any 
budgetary issues you face in 2017 that retard that?
    Ms. James. We think we are adequately funded in fiscal year 
2017. So this goes to some of the additional investments that 
we have been making over time.

                         NUCLEAR MODERNIZATION

    Mr. Visclosky. Okay. If I could ask about resources in 
another way. On the nuclear modernization plan, as I understand 
it, the request for 2017 is $6.5 billion, which is about 195 
percent more than the 2016 budget. And I understand all that 
request is in the base, not OCO. Given--and, again there has 
been conversations today about the unpredictability going 
forward. Do you have a level of confidence that that 
modernization program and those significant new dollars that 
are needed are going to be there? And where do they come from 
assuming the shadows of the future remain unaltered here for a 
couple of years?
    Ms. James. Well, there is no question that we, and I 
believe the other services, face a bow wave beyond our 5-year 
defense plan. So we all have an imperative to be ready, to have 
the right number of people, and to be modern. And somehow, 
under sequestration projections, in particular, it is not all 
going to add up. So there is going to have to be a--decisions 
made as a United States of America, what kind of a military do 
we want to have? And if we want to be able to live with that 
lesser dollar figure, then there is going to have to be 
decisions on what has to be given up. I think we need it all. I 
think we need these nuclear modernization programs, as well as 
the other modernization programs, as well as the people and the 
readiness.
    So I don't have a good suggestion for you on how--what to 
cut because I think we need it all. And I hope that a future 
debate of the country would agree, given the threats that the 
chairman and you and others have talked about around the world.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Frelinghuysen. Mr. Judge Carter.

                           CYBER CAPABILITIES

    Mr. Carter. Thank you, Mr. Chairman. Cyber plays a critical 
role in all aspects of national security. As the main service 
component for cyber funding, your budget reflects shortfalls in 
cyber networks and the defense information systems network. In 
recent months, it has become evident that both China and Russia 
have shown the willingness to use their offensive cyber 
capabilities.
    Secretary James, we all understand the services are taking 
risks due to the current budgetary environment. But how can we 
justify taking risk to the area that affects every aspect of 
our national defense?
    Ms. James. Well, I want to begin by explaining that we do 
have about $4 billion in our budget for the totality of cyber. 
And so that includes the IT backbone. It includes our defense. 
And it also includes efforts to use cyber as a substitute for 
kinetic operations. So those are the three main components.
    We have been trying over time to focus more on the defense 
and on the substituting cyber for kinetic piece of the 
equation. And so that is where some of the risk has come into 
play for the IT backbone. With that said, our Under Secretary 
of the Air Force is leading an effort right now to look at ways 
that we can maybe leverage the private sector differently to 
plug in more on the IT backbone to allow us to continue to 
shift the focus to defense and to the substitution on the 
kinetics part of it. I also want to say that we have been, I 
think, leaders in the Department of Defense on another element 
known as the joint information environment, the joint 
information network. And that also will mitigate our future 
cyber risks.
    Mr. Carter. So you can sleep well at night on the--under 
that theory?
    Ms. James. I never sleep well at night, Congressman.
    Mr. Frelinghuysen. We need to talk more often.
    Ms. James. Yes, thank you.
    Mr. Carter. Thank you, Mr. Chairman.
    General Welsh. Sir, if I could add one thing. The boss 
mentioned $4 billion in 2017. We have $20 billion across the 
FYDP going into this pot. And we have also started a task force 
called Task Force Cyber Secure under the boss' direction run by 
her Chief Information Officer (CIO). And the intent of that 
task force is to identify the right places to target spending 
before we spend more. And so I think we are actually in a 
pretty good place on this. We have a lot of resources going 
into it. And we are trying not to throw money at the wrong 
thing before we know exactly what the right thing is.
    Mr. Carter. Okay. Thank you.
    Mr. Frelinghuysen. Thank you.
    Ms. McCollum.

                        SATELLITE COMMUNICATIONS

    Ms. McCollum. Thank you, Mr. Chair. And I, too, would like 
to reflect the sentiments of this committee of thanking you, 
Secretary James, not only for the outreach that your 
professional staff has had with our office, but your personal 
outreach to me as well. And, General Welsh, thank you for your 
service. But having been in a family that was very much 
attached to the Air Force, to your wife, I know all the work 
that my mother put in to making sure that our family was whole 
and functioned so that my father could be function--you know, 
working on his job.
    I hope I have two questions that might free up some funding 
that you can put towards writing us some other programs. So, 
Secretary James, I would like to call your attention to a memo 
that was written last July by the commander of the Air Force 
Space Command, General John Hyten, entitled ``Commanders Intent 
for Ongoing Material Decisions.'' And the memo states that the 
Air Force should begin outsourcing some of the on-orbit, 
operation, and maintenance of its wideband global SATCOM 
communication satellites to commercial operators. And the 
intent would be to free up, then, more uniformed Air Force 
personnel currently devoted to these infrastructure, 
maintenance, and utilization. And they could put them towards 
other purposes. And it would also help lower costs in the Air 
Force.
    So I would like you to respond to, you know, the global, 
you know, system and what we could do to help the Air Force 
with discussions on industry and possibly commercializing more 
of this system?
    And then the second question I have, Secretary James and 
General Welsh, has to do again with BRAC. Because there is--the 
Department of Defense, you have proposed a new round of base 
realignments and closures in 2019, believing as much as 25 
percent of the infrastructure might be in surplus. 25 percent 
is a quarter of surplus infrastructure. So what is your 
assessment of the extent of excess facilities in the Air Force? 
And could you describe to what extent these surplus facilities 
burden the Air Force, and actually hold you down doing the job 
you want to do in a cost-effective manner to stand ready to 
protect the United States?
    Ms. James. So first on the issue of can we use the 
commercial companies more in our satellite communications 
realm, I think the answer is absolutely. And we are trying to 
move in that direction. I think our future will never be 
completely commercial. I think it will be a mix. But I think 
over time, we absolutely ought to and can get to more 
commercial participation in that.
    And indeed, right now, we are running several path finders. 
Think of those as pilot programs where we are working with 
industry on some creative new efforts that could lead us down 
that path, such as trading hardware use for bandwidth elsewhere 
in our constellation.
    So we are working on this. And I think the future with 
commercial could help us save money. It could provide more 
flexibility. It could also give us more resiliency in our 
constellation. So I think there is a lot of potential there.
    Then when it comes to a BRAC, we very much need another 
round of base closures and realignment. I think our estimate at 
this point, because it is not a full-up analysis, but it is our 
best estimate, is more like 30 percent excess capacity--30 
percent excess capacity. And the impact of not having a base 
closure means we are having to maintain more structure than we 
think we need. And you heard me say I am worried about 
infrastructure across the Air Force. We have an ever-shrinking 
pot of money for infrastructure improvement, and we are 
spreading it out way, way thin. And if we could reduce that 
overall footprint of infrastructure, we would have more money 
to keep up and improve the facilities that we really need going 
forward. So we very much do need a base closure going forward.
    Ms. McCollum. Thank you.
    Mr. Frelinghuysen. Thank you.
    Mr. Aderholt.

                              SPACE LAUNCH

    Mr. Aderholt. Thank you, Mr. Chairman. Sorry for being a 
little late. But I am glad I could be here for the hearing this 
morning. Thank you for being here, and we appreciate your 
testimony.
    I wanted to ask you a little bit about the Delta 5 and 
Falcon 9. I understand there is talk--there is some discussion 
about the retiring of the current Atlas 5 rocket and using only 
the Falcon 9, the Delta medium and the Delta heavy. The current 
Atlas 5 launches 75 percent or more of our national security 
payloads and serves the NASA commercial crew program. 
Meanwhile, Air Force is evaluating a new version of the Falcon 
9. It seems prudent to keep the AR1 engine on track for its 
promised production delivery date of late 2019 by not diluting 
the funding for it. The Mitchell Commission and other experts, 
they talk about the re-engine rocket as--discussed about the 
fact that being unusable. And in recent decades, re-engine 
rockets performed well.
    Even the current Atlas V is re-engined--is a re-engined 
rocket, and Orbital ATK is re-engineering the Antares rocket 
with a Russian RD-181. We need to see the first flight and the 
certificates for the new Falcon 9, the heavy--the Falcon heavy 
and the upscale BE4 engine and the Vulcan rocket.
    The question being are you willing to make it a priority 
for the EEOV funding to keep that funding there to keep AR1 on 
track, so that if we need it for the current Atlas V, we will 
have it ready for the testing in 2020?
    Ms. James. So we recently, like a couple of days ago, 
completed the final two awards out of four to invest in rocket 
propulsion systems. So one of those awards was to Aerojet 
Rocketdyne. And, indeed, they did get the most money of any of 
the other awardees. So more money, I am sure, would be welcomed 
by the company. But in a full and open competition environment, 
and, remember, that is what the law told us to do, was to 
invest in rocket propulsion systems in a full and open way, 
Aerojet Rocketdyne did get a pretty good award just a few days 
ago. So we believe, as the government, that we are on track to 
develop an engine replacement for the Russian engine by 2019. 
But I caveat, that is ambitious. The technical experts say it 
is very ambitious. But we are pulling out the stops to do it, 
as are the various companies who are participating.
    Beyond 2019 and the development of that engine, assuming 
all goes well, we still need to integrate it into a rocket, and 
it must be certified. And only until those three things are 
complete will it take us to space. So an engine alone, of 
course, will not take us to space. We need the total 
capability, and we think that will be a bit beyond 2019.
    Mr. Aderholt. As you--as the Air Force is the answer of 
access to space, the primary customer of ULA and the major 
customer of SpaceX, the Air Force has every right to conduct an 
independent study of the timeline of AR1, BE4, and any proposed 
SpaceX future certifications such as that of the Falcon heavy, 
I think it is imperative that you conduct an independent study 
and review--and your review include all the development of the 
risk factors known to the industry. And my question to you 
would be, would you be willing to do that?
    Ms. James. Well, as far as I know, but please allow me to 
go back and double-check, we are sort of very much integrated 
and watching very closely the development in terms of how these 
projects are going. Now, the prime, in this case, United Launch 
Alliance (ULA), that is the manufacturer, obviously, who has 
got to select an engine to go forward--you know, there are two 
possibilities. They consider the BE4 to be the front runner 
with the AR1 to be the backup. That is their decision, based on 
where they believe they are in the timelines. And we have 
people who are watching this very closely as well. So I believe 
we are already fulfilling that intent. But please allow me to 
go back and double-check that.
    Mr. Aderholt. Okay. If you could get back with us on that, 
I would appreciate it.
    Okay. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Ruppersberger.

                         SPACE LAUNCH LOCATIONS

    Mr. Ruppersberger. Yes. You know, I think it is very 
positive that a lot of the questions here today are about 
space. Most people--most of the public don't really have a clue 
about what space is about. In the old days, when we went to the 
moon, everybody knew space and who the astronauts were. So it 
is something that affects us every day, and it costs a lot of 
money. So the more that we can keep focused, the better.
    I think the issue of launch and ULA, probably ULA is the 
best, but the costs got out of control, and also the 
scheduling. And so that is why there is language in there now 
to deal with the issue of competition. If you look at the 
American way, the competition makes the difference. But on the 
other hand, and I think, you know, Robert raised that, and, you 
know, we have to make sure that we have competition, that we 
still have the best. And just, you know, we can't afford to 
fail with the money and all the things that are involved.
    The one area that I would like to get into that I am a 
little concerned about, again, getting back into the space, is 
the need to ensure access to space with specific launch 
locations. And what I mean by that, we are currently relying on 
Kennedy Space Center and Vandenberg Air Force Base launches in 
order to reach equatorial or polar orbits. Now, this reliance 
on these two locations marks them as single points of launch 
failure for these type of launches we have been talking about. 
And should there be a natural disaster, mechanical failure, or 
an attack on these facilities, the ES would not be able to put 
space assets into orbits.
    My question is, should we be developing, Secretary, launch 
sites like Wallops Island or Kodiak, Alaska to ensure access to 
space?
    Ms. James. I am afraid I do not have a good answer for that 
one, and I will have to come back here for record, if I might.
    Mr. Ruppersberger. Well, that is why I raised the issue, 
because it is out there, but----
    General Welsh. I will give you an opinion on this. And I 
think General Hyten would probably share this. As we look at 
this space enterprise and how we do it differently in the 
future, as we look more at disaggregation, micro satellites, 
cube satellites, small satellites, things that do not have to 
go from a large launch complex all the time, I think 
proliferating launch complexes is probably going to be a 
natural outshoot of this. I think it is commercially viable. It 
may be a way for companies to get into the launch businesses 
who could not afford to get into it, or don't see a future in 
it for large national security space launches.
    But I think this has got to be part of the strategy that 
this whole national team puts together as we look to the 
future. This is the kind of thing John Hyten is talking about. 
How do we change the game for the long term?
    Mr. Ruppersberger. The other thing, you talk about 
competition, and you have SpaceX now and ULA, that is it. And 
SpaceX is in a limited area as far as your certification. Is 
that correct?
    Ms. James. SpaceX is currently certified for four of the 
eight launches.
    Mr. Ruppersberger. Four of the eight. Okay. Now, how are 
you doing with the other companies out there that have the 
possible capability as far as bringing them aboard?
    Ms. James. There is one other company at the moment which 
has submitted a statement of interest to get certified. So that 
is a possible third. And so we continue to monitor and work 
with companies as they wish to possibly enter this market.
    Mr. Ruppersberger. Is there an incentive for money--money-
wise for those companies to move forward? Or do you think we 
are just going to be here with these two now?
    Ms. James. Well, the incentive that the companies tend to 
look at is they look at the totality of the market of which, 
you know, our piece, the national security launches, is a piece 
of that market. But there is another market worldwide. And, so, 
that is what they tend to look at. They look at the totality of 
it. And as I said, we have two now that are certainly active 
participants.
    I mentioned earlier I believe in the competition too. And 
that is what the law says to do. But I worry that if you don't 
have two that truly are competitive from a cost-competitive 
standpoint, you are not going to have much of a competition.
    Mr. Ruppersberger. My final point is that I think one of 
the major issues with ULA, and we know the history why Boeing 
and Lockheed came together, we needed that as a country. 
However, I have been very concerned. I have been to the 
leadership in Alabama on numerous occasions. But the issue of 
the scheduling where I have seen programs that were very 
effective, now they are up--it is classified. I can't talk 
about them--that had to wait a year and a half for launch. I 
hope you are working with ULA or if SpaceX on the issue of 
scheduling. Our scheduling seems to be antiquated, and it seems 
that we might be able to do that better and quicker.
    Ms. James. Okay. Thank you.
    Mr. Ruppersberger. Any comments on that?
    Ms. James. As far as I understood it, it was mostly on the 
government to determine when these things would launch. And, of 
course, the government does it partly based on need and it is 
partly budgeting. There is a variety of factors. I wasn't aware 
that the companies were a reason for the holdup. But----
    Mr. Ruppersberger. It is a system if you look at others 
versus other countries too. But I would hope you would look at 
that.

                OVERSEAS CONTINGENCY OPERATIONS FUNDING

    Mr. Frelinghuysen. Thank you.
    The Air Force and other services have some immediate needs. 
They are often reflected in the OCO account, what we used to 
call the directed funding for the war on terror. You have some 
money in there, I think over $400 million, to procure some 
additional Reapers. What else do you have in there and why are 
those types of investments important? I know there have been 
some issues relative to losses. I assume there is some reasons 
we have had these losses. What else is in there? Because we 
have a fight on our hands right now. We can look towards the 
Russians' and Chinese' long-range capabilities. So what are we 
doing, should we say, on the fight against ISIS and Al Qaeda 
and other groups, the capabilities there?
    General Welsh. One of the notable things that we--you have 
actually helped us with immensely, but we can always use more 
help in this arena is buying munitions. You know, we have 
authority this year now to buy munitions on a forecast usage 
rate instead of dropping a bomb and then waiting three budget 
cycles before we actually get it replaced.
    Now, what we have been doing for the last 15 years is 
raiding our operational stocks to support major war plans in 
order to do the current day-to-day business with the weapons 
that we are expending in the Middle East. This ability to 
forecast expenditure for the next year and then put Overseas 
Contingency Operations (OCO) money against buying against it 
before we drop the bombs is helping stabilize that. But it is 
not replacing the stockpiles. The stockpiles are still down. We 
need to think about that. It is a serious problem. And we are 
at a point where we have to have some kind of money other than 
OCO to get at it because----
    Mr. Frelinghuysen. Because we don't really focus on 
munitions, I mean, really.
    General Welsh. No, sir. And we have got to go to the 
companies and say: You need to be able to increase your 
production capacity in some cases, if we really want to refresh 
the stockpiles. To do that it can't be OCO money. It has got to 
be money that has a tail on it. So anything we could do in that 
regard to free up money to use for munitions is going to be 
helpful for us every year.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Mr. Frelinghuysen. I shared with you yesterday when your 
were kind enough to pay a courtesy call with me and with Peter, 
Ranking Member Visclosky, that you were complimentary of our 
investment, and you were this morning of--on ISR. And I have to 
say, as I said General Breedlove has brought--you know, he 
has--the amount of ISR that is out there, not only relative to 
his command, Central and South America, Africa, these are areas 
that have immediate needs, I assume, right?
    General Welsh. Chairman, they do. I would just add one 
caution. I mentioned it before. The way we got after the ISR 
shortfall starting in 2008, is we just got--we were told buy as 
much as you can. Field it as fast as you can. That led to the 
problem we have in the Remotely Piloted Aircraft (RPA) 
enterprise today because we didn't keep up with the people. We 
bought the equipment and we kind of created the people as we 
went and took it from other places. If we want to increase the 
numbers in the RPA enterprise, or the ISR enterprise, we have 
got to look to the future, plan on having money ahead of time, 
and build a plan that we can actually execute and have the 
people to actually implement and run the system. That may 
require a plus-up on a top line of manpower for the Air Force. 
But we need to be able to look at it to plan ahead of time and 
show it to you. Otherwise, we are going to be in this thrash we 
have been in for the last 8 or 9 years in the ISR arena 
forever.
    Mr. Frelinghuysen. And what are you doing to assure 
everybody has a piece of the cyber, you know, advocacy? What 
are we doing to make sure that we are working jointly?
    General Welsh. Sir, every----
    Mr. Frelinghuysen. So those resources are not--we can have 
an accounting for them.
    General Welsh. Sir, the boss mentioned the joint 
information environment. That is a joint single network for the 
Department intended to bring all of our services and OSD 
together on a single network for everybody from the warfighters 
to the folks back in the Pentagon. That is a multiservice 
contribution. Everybody is contributing both money, manpower, 
planning, and resources to make this thing happen. We are in--
right in the--you know, right with the rest of the pack running 
as fast as we can to make that a reality. That will force us 
into joint--in the information architecture arena. Now that is 
step one. We have some regional security stacks that go with 
that which are the way the warfighters actually connect into 
and out of this system. Those are also joint. They are being 
executed in the major commands, and they will be done with air 
components included in the discussion with everybody else.
    So this is now a joint discussion. All the information 
systems we have from the Distributed Common Ground System 
(DCGS) that moves our intel data around are all connected to 
everybody now. And so we have just got to make sure that we 
keep moving in that direction. And I think we are clearly on 
that path.
    Mr. Frelinghuysen. We like the connections. We hope all 
those links are well protected and hardened.
    Mr. Visclosky.

                         NUCLEAR MODERNIZATION

    Mr. Visclosky. Thank you, Mr. Chairman.
    If I could get back to the nuclear modernization program, 
you have a long-range standoff weapon under development not 
without controversy. But the point of the question is more that 
there are parallel efforts going on, both with the Department 
of Defense as well as NNSA. It is estimated that on the 
standoff weapon, the estimated costs go up to $30 billion for 
1,000 weapons, there being an additional eight to 10 at NNSA. 
When we talk about modernization, ICBMs come up, B61s come up, 
the long-range standoff bomber comes up, the long-range weapons 
comes up. Given, one, the strategy of our Nation, and then, 
obviously, we have a fiscal year impact on that strategy, how 
is that prioritization made? Is there a prioritization within 
these programs as far as modernization program?
    Ms. James. I would begin, Mr. Visclosky, by pointing out 
that these are not really new programs and new capabilities, I 
should say. These are capabilities that we have had. And, of 
course, now, we are focusing on modernizing them in order to 
continue to deter adversaries and assure our allies.
    And the other point I wanted to make is that both of these, 
of course, relate to validated requirements that come from 
STRATCOM through the joint staff, and eventually come to the 
services, in this case, the Air Force, to fulfill. In the case 
of the Long-Range Standoff missile (LRSO), that is the follow-
on missile to replace the aging nuclear Air Launched Cruise 
Missile, and it is designed to be the nuclear standoff 
capability with improved capability. And then the B61/12, 
similarly, is the follow-on program to replace several legacy 
versions of the B61 weapon which are in need of modernization.

                               MUNITIONS

    Mr. Visclosky. General, on an unclassified level, how would 
you characterize the health of your munitions inventory?
    General Welsh. On the conventional side or the nuclear 
side, sir?
    Mr. Visclosky. Conventional.
    General Welsh. On the conventional side, the inventory is 
fantastic. The weapons are great and they are getting better 
and better. The problem is capacity, is volume. We have 
depleted our stocks over time with the fight we have been in 
for the last 15 years. We have not been able to replenish them. 
We just did not have as much money as we would like to have to 
put into munitions. We have been sharing a lot of them with 
allies in this effort, many of whom use precision weapons now 
along with us but don't produce their own.
    And so we just have stockpiles that have been depleted and 
we need to replenish them if we want to really have war plans 
that we can actually go execute quickly in the event of some 
kind of major contingency. And that is where any help we can 
get on the munitions side for funding is very, very helpful.
    Mr. Visclosky. And is that reflected in the 2017 request to 
an extent?
    General Welsh. Yes, sir. We have increased the request for 
munitions funding in 2017. We got help last year and to include 
use of OCO funding to help to use in a different way. Now 
acquiring munitions on forecast, as I mentioned before, but we 
have--we still need to keep at this every year. This is one 
that is not going to go away in the short term because we 
really depleted the stocks.

                        NUCLEAR FORCE PERSONNEL

    Mr. Visclosky. One final question if I could, Mr. Chairman, 
on the nuclear force there have been problems in the past as 
far as morale, esprit de cours, issues have come up. And my 
sense under your watch is significant steps have been taken and 
improvements have occurred under both of you, I really should 
say. Would you just want to comment on that as where you think 
you are in that process? And, again, from budgetary standpoint, 
is there anything you would be lacking in 2017 to continue to 
push as far as that sense of, you know, everybody has a very 
important responsibility here. And I do believe you have both 
made very good progress here.
    Ms. James. Well, we have worked very hard on it. We have 
shifted dollars. We have shifted manpower. We have redone over 
time the way we train our nuclear forces. We are providing more 
professional development opportunities for the people who are 
engaged in this important mission. There is new financial 
incentives. So we really have focused a lot of attention on 
people, readiness, and modernization of the force. And I think 
it is very important that we keep the momentum going, that we 
keep double-checking and seeing how we are doing. But I agree. 
I think we have made progress, very good progress.
    Mr. Visclosky. Yeah. Very good. Thank you both. Thank you, 
Mr. Chairman.
    Mr. Frelinghuysen. Mr. Aderholt.

                              DATA RIGHTS

    Mr. Aderholt. Yeah, just got one quick question. Of course, 
as you know, NASA invests a lot of--billions of dollars in 
hardware development for commercial space crew and cargo and 
resupply. But the only intellectual property rights that we 
receive in the NASA commercial program is the right to buy the 
data rights to those items for the second time if the company 
goes out of business. Question being, what is the Air Force 
doing to ensure a better deal than we currently have? And more 
particularly, what are you doing to ensure that the U.S. 
Government maintains enough intellectual property production 
rights, should the service providers fail to perform adequately 
within respect to be the cost, schedule or future behavior?
    Ms. James. So if I may come back to you with a complete 
answer, but give you the best answer I can give you right now, 
one of the reasons why when we had in front of us the last 
NDAA, which said invest in rocket propulsions systems, do it by 
2019, full and open competition, one of the reasons why we 
chose the OTA, other transaction authority approach, was 
because we could tailor it, it was flexible enough that we 
could work with different companies who have different pathways 
that they are looking to build to get us to space, and give us 
some access to data, like intellectual property data. It does 
not mean we own it, but it gives us access to that data such 
that we can convince ourselves that this will, in fact, be 
ultimately a reliable pathway for us.
    So because we do launch as a service, we do not own the 
components, that is why we do not have the direct intellectual 
property. But the key is to get access to the data, and that is 
one of the reasons why we selected this OTA approach. So that 
is the beginning, but if I may come back to you with a more 
complete----
    Mr. Aderholt. Okay. Well just, you know, I think the bottom 
line is trying to find a better--to make sure the taxpayers' 
dollar is protected. And I think that is the bottom line. So if 
you could follow up with me on that I would be appreciative.

                                GPS OCX

    Mr. Frelinghuysen. I would like to close on a positive 
note, but the initials OCX, where do we stand? We have made 
substantial investments there. Maybe you want to call on Betty 
to----
    General Welsh. This is where I drop my pen.
    Ms. James. I think we need Betty's opinion on this one. 
Yeah. OCX is still a very big challenge for our Air Force. It 
is a very important capability. This is the ground stations for 
our GPS, and it still is very much a troubled program. We were 
faced not long on--when I say ``we,'' I mean we, the Air Force, 
and we, OSD, with some serious questions to answer, how are we 
going to go forward? Were we going to go forward at all? What 
if we cancelled? What if we did this? What if we did that?
    At the end of the day, we said we have got to have this 
capability, and we are going to have to keep with this approach 
a bit longer. But between Frank Kendall and me and our teams, 
we are going to provide, like, a lot more oversight. We are 
going to have going forward more off ramps for the contractors. 
So that is to say, if you don't get this done by time certain, 
that is an off ramp. And you may face cancellation even. So 
there is going to be a lot more of that going on because it is 
a capability that we really need for the future. But it is a 
troubled program.
    Mr. Frelinghuysen. Well, people are more than likely, if 
anything, to step up there, their jamming and their--you know, 
their cyber attacks. And this is something which is pretty 
critical to all of us.
    Anything further?
    I want to thank you, Madam Secretary, for being here. 
General Welsh. And appreciate everybody's testimony. And I 
think we will have some questions for the record. And we would 
like to have those in due course. Again, good hearing. Thank 
you very much. And Godspeed to you. Thank you. Stand adjourned.
    [Clerk's note.--Questions submitted by Mr. Cole and the 
answers thereto follows:]

                             Core Workload

    Question. Congress has long mandated that a minimum of fifty 
percent of all depot maintenance dollars be spent in organic depots on 
workload performed by government employed federal employees in order to 
maintain command and control of at least half to a majority of all of 
our depot-level work necessary for military readiness.
    What percentage of depot maintenance for FY16 will be conducted in 
organic depots by civilian federal employees and what percentage do you 
plan for FY17 to be conducted in organic depots by civilian federal 
employees?
    Answer. We estimate the organic depots will perform approximately 
55% of the workload with federal employees with another 1.3% performed 
at the depots under a 10 U.S. Sec. 2474 partnership.
    Question. The core law mandates that all new weapons systems that 
will be used for the war fight will be integrated into the organic 
depots within 4 years of the introduction of the initial operating 
unit.
    What, if any, systems within the Air Force, whether programs of 
record or simply new systems, will fail to meet this threshold? What is 
the most common reason systems fail to be fully integrated within the 
depots within 4 years of FOU status?
    Answer. There are a small number of systems that are behind in 
activating organic depots for a variety of reasons. Some of the most 
common reasons are: the lack of expected demand to warrant activating 
an organic repair line; funding shortfalls due to the combination of 
fiscal constraints coupled with higher priority mission requirements 
taking precedent over depot activation; and special access programs 
that is excluded from core requirements. Despite these challenges, the 
Program Managers continue to work depot activation of core workload. To 
assist program offices, the Air Force is developing tools and policy to 
establish sustainment strategies early in the acquisition life cycle to 
promote timely depot activations.
    Question. Under Performance Based Logistics (PBL) arrangements, how 
do you ensure that the government has complete command and control over 
all core workload of that system so that the government decides which 
workload is performed in the organic depots by federal employees at the 
appropriate levels? For example, with engine work, if a contractor is 
required to provide a certain rate of workload to the depot for repair 
and fails to provide that workload, what are the ramifications to the 
contractor? How does the depot ensure that core workload is provided, 
especially if it is available and simply has been diverted or assigned 
to a private contractor's privately held facility?
    Answer. The Air Force performs a core workload determination for 
all war-tasked systems to calculate the level of direct labor hours 
required to be performed at organic depots by federal employees. Core 
determinations are broken down to sub-systems, components, and software 
levels. Once the core requirement is set, it is the responsibility of 
the Program Manager and Product Support Manager to ensure the 
Performance Based Logistics provider allocates and activates workload 
to the organic repair facility as prescribed by the core workload 
determination. If an organic depot is not performing in the year of 
execution, then the Program Manager will work with the using command, 
Air Force Materiel Command leadership and the depots to resolve the 
issue. Sub-components below the assigned core component level may be 
outsourced for a variety of reasons, such as capacity, skills, etc., as 
long as the required labor hours for the overall sub-system and 
component are met.
    Question. Recognizing the key role of the depots and the risk of 
over-reliance on contractors, current law requires DOD to maintain a 
core maintenance capability--a government-owned and -operated 
combination of personnel, facilities, equipment, processes, and 
technology that is needed to meet contingency and other emergency 
requirements. The Biennial Core Report by GAO is expected later this 
year (2016).
    Does the Air Force believe there has been sufficient information 
and metrics to more closely gauge and report an accurate ``estimated 
cost of sustaining workloads'' for the Air Force?
    Answer. The core report, in conjunction with the 5050 report, 
provides an accurate cost of sustaining workloads. Reporting and 
managing depot capabilities and workloads utilizing the Department of 
Defense (DoD) guidance in implementing 10 USC 2464 (Core) and 10 USC 
2466 (50/50) are adequate to provide the management information and 
metrics to gauge and report cost of sustaining workloads. The current 
DoD guidance provides the best use of taxpayer funds while ensuring the 
needs of the warfighter are met. Used together these reports do provide 
an accurate portrayal of the cost of sustaining workloads.
    Question. There is broad based support for transparent and 
streamlined acquisition process.
    What recommendations do you propose to protect or promote the 
organic industrial base as we pursue acquisition reform?
    Answer. The key to protect and promote the organic industrial base 
is to maintain core and 50/50 statutes while also placing more emphasis 
and oversight on sustainment in the requirements and development phases 
of acquisition. Adding sustainability to how we assess program success, 
along with cost, schedule, and performance criteria, will better 
protect the organic industrial base. The Air Force is looking at how to 
assess sustainment considerations with measurable criteria early in the 
acquisition process. Adding sustainability on an equal basis as cost, 
schedule and performance will protect critical organic national 
industrial base capabilities.
    Question. What considerations are important for review of data 
rights and intellectual property as well as the definition of 
commercial item?
    Answer. As required by U.S. Code 2377, the Air Force procures 
commercial items to the maximum extent practicable and provides 
offerors the opportunity to compete in any procurement to fill such 
requirements.
    When procuring data rights for commercial items, the Air Force 
generally obtains what is available in the commercial market so long as 
doing so meets the Air Force's needs. When determining those needs, the 
Air Force considers several possibilities as outlined in Chapter 4 of 
the Defense Acquisition Guidebook, including:
          <bullet> Whether the Air Force will have the information 
        necessary to understand and evaluate a system's design 
        throughout the life cycle.
          <bullet> Whether the information obtained will provide the 
        Air Force with the ability to operate and sustain weapon 
        systems under a variety of changing technical, operational, and 
        programmatic environments.
          <bullet> Whether the Air Force will be able to re-compete 
        item acquisition, upgrades, and sustainment activities in the 
        interest of achieving cost savings. Oftentimes, the lack of 
        product data and/or data rights makes it difficult or 
        impossible to award contracts to anyone other than the original 
        manufacturer, thereby taking away much or all of the 
        Government's ability to reduce total ownership costs through 
        competition.
    When evaluating its needs for data, the Air Force also considers 
not only the immediate, short-term costs of acquiring the needed 
technical data and data rights, but also the long-term cost savings 
resulting from being able to compete production and logistics support 
activities and reduce total ownership costs over the life cycle. In 
addition, the Air Force budgets for and funds the maintenance and 
upkeep of product data throughout the life cycle.
    Question. What steps have been taken to ensure that the Air Force 
CITES have been adequately consulted individually during the study on 
data rights and intellectual property mandated by acquisition reform 
efforts last year?
    Answer. The Office of the Undersecretary of Defense for 
Acquisition, Technology, and Logistics (OUSD(AT&L)) is currently 
organizing the required government-industry advisory panel which will 
conduct the required study of data rights and intellectual property. 
The Air Force will have representation on this panel. OUSD(AT&L) 
expects the panel will meet approximately six times between April and 
September 2016. During these meetings, the Air Force will work with the 
government-industry advisory panel, emphasizing the importance of 
consulting the designated CITES and developing a plan to do so.
    Question. As defense budgets have declined, there has been a much 
needed focus on the acquisition of new weapons systems to modernize the 
Armed Forces. However, little attention has been given to the 
inescapable fact that sustainment is 70-80% of the total lifecycle cost 
of a weapon system. This is confounding when considering today's budget 
and what that dollar amount may mean during the lifetime of the JSF 
program, for example.
    In the Fiscal Year 2017 budget, how do you as decision makers 
adequately balance new procurement programs and adequately keep pace 
with modernization demands and critical maintenance requirements that 
continue to be squeezed?
    Answer. During periods of fiscal uncertainty, it is particularly 
difficult to balance the demands of current operations, modernization 
of existing weapon systems, and procurement of new capabilities. The 
Air Force planning and programming process ensures our annual budget 
submissions are aligned with national strategic direction and balanced 
between short-term operational and maintenance requirements and longer-
term modernization and recapitalization efforts. However, fiscal 
uncertainty and mandates to keep aging aircraft have forced the Air 
Force to delay the pace of modernization as we continue to pay for the 
maintenance, repair and overhaul of aging weapon systems. The average 
age of Air Force aircraft fleets is 27 years, and some of our most 
critical capabilities, including JSTARS, are flown on aircraft that are 
increasingly expensive to maintain and are operated by virtually no one 
else. The Air Force is committed to striking the right balance between 
current and future capabilities; but, we need the flexibility within 
existing top line to make tough choices such as the divestment of aging 
fleets. We request sufficient and predictable funding to sustain our 
older fleets, recapitalize to address future threats, and resource the 
lifecycle costs of each.

               Research and Development: Radar Technology

    Question. In both the House Report (H. Rpt. 114-102) and Senate 
Report (S. Rpt. 114-49) to the FY16 National Defense Authorization Act 
(NDAA), language was included regarding research with respect to 
advancements in radar technology, specifically regarding multi-function 
and phased array radars and all digital polarimetric radars. The 
language also included conformal phased array antennas that could 
possibly operate on different frequency bands and be reconfigurable in 
flight. Of note, the associated technologies should provide advanced 
capabilities with respect to discrete object sensing and tracking.
    I am specifically interested in understanding how the Air Force, 
and AFRL, intend to respond to this language, and what the long-term 
plans and possible funding requirements are being considered with 
respect to research within this area.
    Answer. The Air Force's Science and Technology (S&T) program 
includes robust research in the radar and antenna technology areas 
outlined in the House and Senate Reports to the Fiscal Year 2016 
National Defense Authorization Act. The Fiscal Year 2017 President's 
Budget request for Air Force S&T supports research and technology 
advancement in these critical areas.
    The Air Force Research Laboratory (AFRL) is leading research in 
radio frequency (RF) component, aperture, and system technology 
enabling future Air Force intelligence, surveillance, and 
reconnaissance (ISR), air dominance, and ground precision attack 
capabilities. Prior and current projects are focused on achieving 
multi-function passive and active RF capabilities with increased 
bandwidth and frequency agility, along with developing conformal, load-
bearing antenna structures that offer lower cost insertion on a range 
of target platforms. Since the late 1990s, AFRL has been addressing the 
challenge of wideband phased arrays leveraging wideband analog, digital 
and photonic antenna element designs. The AFRL team includes 
researchers and program managers from across the laboratory and the 
portfolio includes significant partnership with the Defense Advanced 
Research Agency, the intelligence community, the Missile Defense 
Agency, NASA, industry and academia.
    A major AFRL focus through the passive multimode effort is the 
development of a 1.4-18 GHz phased array with dual polarization, 10:1 
bandwidth ratio supporting multi-function air-moving target indication, 
ground-moving target indication, and synthetic aperture radar imaging 
employing the same aperture. This system development, initially flight-
tested in 2013, is targeted for transition toward tactical combat 
aircraft, but can be leveraged into ISR and electronic warfare systems.
    AFRL also has a long history of development of conformal, 
structural phased array antennas to reduce cost and flight performance 
impacts associated with platform integration. The current focus 
includes the development of conformal spray-on antenna technology in 
the 0.6-6 GHz band, to be demonstrated for RF direction finding 
applications on a Tiger Shark unmanned aerial vehicle, and low-cost 3-D 
antennas optimized by sophisticated computational electromagnetics 
modeling, targeted toward emerging low-cost unmanned tactical platforms 
such as potential future derivatives of the miniature air-launched 
decoy.
    We welcome the opportunity to provide additional technical details 
on the many research directions in these areas and the potential for 
future Air Force and defense capabilities.

    [Clerk's note.--End of questions submitted by Mr. Cole. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

                    The Commercial Space Act of 1998

    Question. Through consultation with legal counsel at the American 
Law Division, it is clear to me that the Air Force is misinterpreting 
the Commercial Space Act of 1998. The Air Force interprets the 
Commercial Space Act of 1998 as prescribing that the USAF may only 
procure commercial ``launch services'', rather than separate rockets or 
engines, whereas the intent of Section 201 of the Space Act was to 
direct the Air Force to procure space transportation capabilities from 
commercial providers, saving US government assets, namely the Space 
Shuttle, for very specific exceptions. The Act sets up a commercially 
procured versus US government produced framework, and in no way 
prohibits the Air Force from directing the production of very specific 
components to build or retrofit a space launch system, such as a new 
engine for an existing rocket family. The FYI 6 NDAA's direction to 
have an engine to replace the RD-180 as soon as possible is not in 
conflict with the Commercial Space Act. The grant to Aerojet-Rocketdyne 
to further work on the AR-I engine indicates that you agree; yet, the 
refusal to have an engine competition to specifically replace the RD-
180, indicates a possibly different and troubling interpretation of the 
1998 Act, and a prioritization of nurturing multiple businesses over 
the matter of assured access to space. Because of this apparent 
misinterpretation of the law, the USAF is missing an opportunity to 
deliberately re-engine the Atlas V rocket, and instead is delaying our 
termination of the use of the RD-180 by spreading EELV dollars amongst 
numerous grants instead of focusing on replacing the RD-180. Re-
engining the current Atlas V could save taxpayers hundreds of millions 
of dollars, and provide a valuable interim capability while we are 
waiting for new systems, such as methane engines and the proposed 
Vulcan rocket, to mature and prove themselves.
    My understanding is that the Aerospace Corporation has reviewed 
detailed data supplied by Aerojet-Rocketdyne, regarding the most likely 
performance of a current Atlas V rocket reengined with two AR-I 
engines. With regards to the 6 of 8 EELV insertion orbits served by the 
current Atlas V rocket (using the RD-180). What did the written 
comments from Aerospace Corporation, shared with the Air Force, show? 
Does the re-engined rocket serve all six orbits and insert into proper 
orbit the payloads typically served by the current RD-180 engined Atlas 
V?
    Answer. The Single Core EELC Launch Architecture study was one of 
many studies requested by the program office as the acquisition 
strategy was being developed in the Spring of 2015. The purpose was to 
see if it was possible to develop a launch architecture based on a 
single core using strap-on solids to achieve entire DoD mission 
manifest. The Aerospace Corporation completed the study using the 
latest available data as of early 2015. The study concluded that a 
single-core medium through heavy architecture was possible but no 
single enhancement could facilitate it. In addition to new first stage 
engines, a new upper stage and new/improved solids would be required. 
As part of this effort, a new LOX/RP-1 engine in an Atlas V was used in 
six of the 44 scenarios evaluated. In this study, a re-engineered Atlas 
with new LOX/RP engines could provide performance very close to that of 
an Atlas V with an RD-180 for some missions. There could be shortfalls, 
however, particularly for the heavier Geosynchronous Transfer Orbit 
(GTO) missions (e.g. WGS and AEHF on an Atlas V 531 and 541) and the 
more complex Geosynchronous Earth Orbit (GEO) missions. Since this 
analysis used AR-1 data obtained in February 2015 as the baseline for 
the new LOX/RP engine, the results of the Atlas V/new RP engine 
performance was shared with Aerojet Rocketdyne in September 2015.
    Question. Aerojet-Rocketdyne just last week completed a review by 
Marshall Space Flight Center, regarding the likely performance of a 
current Atlas V re-engined with two AR-1 engines.
    Is the Air Force willing to receive and evaluate this information 
and discuss the findings of these two reviews with Aerojet-Rocketdyne 
and with the Hill before proposing additional RFP's which spread the 
limited EELV engine-development dollars amongst multiple providers for 
launch system components other than booster engines? (I am referring to 
the National Defense Authorization Act directive to replace the RD-
180).
    Answer. The Air Force is willing to receive and evaluate any 
information and findings of the Aerojet-Rocketdyne reviews you mention. 
The Air Force has contacted NASA to request the Marshall Space Flight 
Center provide a point of contact for the Air Force to obtain the 
review information and findings.
    The Air Force's proposed strategy is a measured approach that 
invests in raising the technical maturity and reducing risk of the 
entire propulsion industry, investing in multiple rocket propulsion 
system solutions, then down selecting to invest in nominally two launch 
systems (based on available funding and industry investment needs) that 
best support the overall goal of two or more commercially-viable launch 
systems that also meet National Security Space requirements. This is 
based on continual engagement with industry starting with a request for 
information released in the fall of 2014.
    Question. The current Atlas V launches perhaps three-fourths of our 
national security missions. Some in the private sector have suggested 
terminating the Atlas V and dividing launches between the Falcon 9 by 
SpaceX and the two Delta IV variants being produced--though not 
indefinitely--by ULA. Please tell me what risks this incurs. Are you 
concerned about the launch schedule performance by Space X in their ISS 
cargo missions? I am not asking for your opinion of NASA's opinion. I 
want your opinion of the low number of launches and what risk that 
poses for national security. Secondly, what costs would such a proposal 
create, if Congress were to impose it on the Air Force? My 
understanding is that you believe it could cost up to 5 billion 
additional dollars.
    Answer. Moving away from the Atlas V launch vehicle prior to 
developing the next-generation launch service has cost and schedule 
risks in addition to increased risk for assured access to space, 
depending on when it is imposed. The Air Force has assessed the impact 
as a delay to launch missions of 12-48 months and an increased cost in 
excess of $1.5 to $5 billion. These figures vary significantly because 
they depend on when the Air Force loses access to the RD-180 engine.
    The Air Force is implementing a robust certification process for 
on-ramping New Entrants which includes multiple demonstration flights. 
This process ensures New Entrants can meet the mission assurance needs 
for National Security Space missions and lowers the risk for on-
ramping. In a competitive environment, it is important to on-ramp New 
Entrants to ensure assured access to space through multiple providers.
    The Air Force has a rigorous source selection process and criteria 
for assessing the credibility of the launch providers schedule and 
ability to execute their manifest in support of National Security Space 
missions.

                      EELV-USAF Industry Advisors

    Question. The Mitchell Commission has concluded that rockets 
designed and built by various contractors can use the AR-I engine. 
Given this fact, I believe Congress needs to know more about what 
information the Air Force is receiving and from whom.
    While I am sure your sources are knowledgeable, what are their 
credentials in engineering physics and in engineering rocket programs, 
especially as compared to the Mitchell Commission?
    Answer. The Aerospace Corporation, the Air Force's independent and 
objective Federally Funded Research and Development Center (FFRDC), 
has, since 1960, provided support to the Air Force in the design, 
acquisition, and operation of space and launch systems. Aerospace 
employees provide specialty expertise in all areas applicable to launch 
vehicle and spacecraft systems (e.g. thermal control, optics, guidance, 
dynamics, propulsion, etc.). Further, the Air Force has continued to 
work with Major General (ret) Mitch Mitchell on the path forward, along 
with most of the members from his assessment team. Major General (ret) 
Mitch Mitchell is an employee of The Aerospace Corporation. Government 
members from that team have prominent roles on the program and have 
worked on recent engine development and launch system development 
efforts, to include the Atlas V, the Delta IV and the RS-68 and 
upgraded RS-68A. As you may know, the technologies being developed on 
some of the rocket propulsion system agreements are firsts for the US 
rocket industrial base and the Government is working closely with 
industry to address risks to these new developments through early 
technical maturation efforts.
    Question. What specific rocket engine and rocket body combinations 
are your information sources referring to from the past? (in the 
handout you provided to staff on February 17).
    Answer. They were not speaking of specific systems, but in general 
design terms, highlighting the fact that an engine is not ``plug-and-
play''. However, all experts identify the need to design the launch 
vehicle around the engine is a standard systems engineering best 
practice.
    For example, the development of the F-1 engine and the Apollo 
Saturn V launch vehicle took place together over the span of a decade. 
The earliest test firings of components that became part of the Saturn 
V first-stage F-1 engine took place in 1957. Flight-rating tests were 
completed in 1964. The first Saturn V unmanned flight test--Apollo 4--
took place in November 1967. The first manned Saturn V flight--the 
Apollo 8 circumlunar mission (the first lunar orbit mission)--occurred 
in December 1968. Further, the development of the RS-68 engine, which 
powers the first stage of the Delta IV, occurred over an eight year 
period during the development of the Delta IV Evolved Expendable Launch 
Vehicle.

                         EELV Engine Evaluation

    Question. The USAF is investing hundreds of millions of dollars in 
the development of multiple engines for the Vulcan rocket. Rather than 
allow the industry to perpetuate the narrative of a preferred engine 
for a rocket, it is in the best interest of the taxpayer to have an 
independent third party evaluate the progress of development, to 
evaluate performance, and to conduct a cost-benefit analysis at 
multiple milestones of the project?
    Answer. We strongly believe that working with launch service 
providers to determine how they can become more efficient and 
commercially viable is the most economical path to transition to a 
domestically produced launch service solution. Specifically on the 
Vulcan system, the technology that is being developed by the two engine 
providers is new to the US industrial base. We believe it is prudent to 
carry two solutions at this time due to the technical maturity of the 
systems, but we do not intend to carry forward all rocket propulsion 
systems indefinitely. The Secretary of the Air Force has asked the 
Office of the Secretary of Defense's Cost Assessment and Program 
Evaluation (in addition to the Air Force Cost Analysis Agency) to 
review the launch service investment plan in order to provide a third 
party cost assessment. In addition, the Aerospace Corporation, the Air 
Force's independent and objective Federally Funded Research and 
Development Center, has, since 1960, provided support to the Air Force 
in the design, acquisition, and operation of space and launch systems. 
Aerospace provides specialty expertise in all areas applicable to 
launch vehicle and spacecraft systems. Aerospace acts as our 
independent third-party to evaluate the progress in each of our rocket 
propulsion system other transaction authority agreements.
    Question. Does the USAF have a plan to incorporate an unbiased look 
at the program? If not, why?
    Answer. Yes, the Secretary of the Air Force has asked the Office of 
the Secretary of Defense's Cost Assessment and Program Evaluation (in 
addition to the Air Force Cost Analysis Agency) to review the launch 
service investment plan to provide a third party cost assessment. In 
addition, the strategy to transition off the RD-180 by investing in 
industry's commercial launch systems was developed and vetted in an 
unbiased forum, the Defense Space Council, which in addition to the 
Secretary of the Air Force, included senior space leadership from the 
Office of the Secretary of Defense, Joint Staff, Intelligence 
Community, U.S. Strategic Command, Army, Navy and the National Security 
Council.

                       EELV Intellectual Property

    Question. The USAF is wise to develop multiple sources of space 
access, but you invite risk when the intellectual property to produce a 
launch system is fully retained by the industry provider. If a member 
of industry were to succumb to market forces and go out of business, or 
were to find that space launch systems were no longer profitable 
enough, we would lose half of our space launch capabilities in one fell 
swoop.
    Since OTA's provide less data on a company's financial health than 
a FAR contract, and less technical data than a FAR contract, and no 
audit of how disbursed funds have been spent, exactly what intellectual 
property rights are retained as part of the EELV acquisition?
    Answer. The Commercial Space Act mandates the use of commercial 
launch service providers for Federal Government space transportation 
services. The patent and data rights articles in the agreements 
represent a balanced approach to preserving both commercial and 
government interests. The data rights provide the Air Force with the 
needed access to safely launch its payloads to the required orbit using 
industry's launch systems. Specifically, the Other Transaction 
Authority (OTA) Government Model Agreement includes Article XI on 
Patent Rights and Article XII on Data rights, which outlines Government 
access to patents and data. Each of the final Rocket Propulsion System 
(RPS) OTAs has specifically negotiated articles that detail the patent 
rights and data rights based on the amounts and types of investments 
from Government and non-Government sources. The Government rights 
outlined in the final RPS OTAs vary by company and ranges from Limited 
Rights to Government Purpose Rights. Finally, it is important to note 
that there is sufficient cost and technical reporting. For example, the 
contractor is required to report their investment to date at each 
milestone payment invoice and the milestones were chosen to track 
technical progress. In addition, Article VII on Accounting and Audit 
Administration, includes a requirement to allow the Comptroller General 
to audit records related to the performance of the OTA.
    Question. What risk do we incur under the current process of IP 
rights as represented by the EELV grants announced thus far?
    Answer. The Commercial Space Act mandates the use of commercial 
launch service providers for federal government space transportation 
services. The patent and data rights articles in the agreements 
represent a balanced approach to preserving both commercial and 
government interests. They are consistent with the data rights obtained 
by the Air Force on the EELV program in 1998 and provide the Air Force 
with the needed access to safely launch its payloads to the required 
orbit using industry's launch systems. Since the Air Force has the data 
rights to integrate and safely launch National Security Space payloads, 
there is no additional risk incurred.
    Question. Whereas the 1998 Commercial Space Act could be 
interpreted as prohibiting the establishment of an entire launch system 
separate from the private sector, retaining production rights should a 
provider fail is not prohibited.
    What are you doing in your contracting and OTA awards to assure 
that the U.S. taxpayer, as represented by the U.S. Air Force, has 
production rights to systems we are paying development funding for, 
and/or providing integration finiding for (which could be construed as 
development funding of certain components), in the event an industry 
provider becomes unable or unwilling to continue the production of 
space launch systems?
    Answer. The Air Force has not acquired production rights to rocket 
propulsion systems. Due to the complexity, it is unlikely that another 
company could produce a Rocket Propulsion System (RPS) with the 
technical data package from another supplier. The Fiscal Year 2015 
National Defense Authorization Act directed that ``. . . the system 
developed . . . (E) be available for purchase by all space launch 
providers of the United States.''
    The Air Force has implemented this requirement in each of the final 
RPS other transaction authorities with an article/clause requiring that 
the RPS developed under the agreement be available for purchase by all 
U.S. space launch providers. By investing in a portfolio of propulsion 
systems with this requirement, the Air Force has mitigated the risk of 
not procuring production rights.

                            B-21 Acquisition

    Question. The acquisition of recent high-profile DoD weapon 
systems, such as the F-35, have been marked by cost overruns and 
delayed timelines; systems are subsequently fielded to our Airmen in a 
less-than fully-capable configuration, e.g., lacking software required 
for performance and the use of all weapon systems.
    What deliberate steps are being taken to ensure the acquisition of 
the B-21 Long Range Strike Bomber does not follow in the path of other 
inefficient and unpredictable acquisition programs?
    Answer. From the onset of the B-21 program acquisition strategy, 
the acquisition and user communities aligned to eliminate baseline 
requirements changes that might impact cost or schedule. The 
requirements were set early in the program providing stability, while 
utilizing the reuse of mature and existing technologies. This allowed 
industry partners optimum trade-off between affordability and 
capability to secure a stable design of the platform during the 
technology development phase. With sustainment as a key element of the 
acquisition strategy, the aircraft is being designed to be adaptable 
through the use of an open mission system architecture that can evolve 
to address future threat environments as more sophisticated A2/AD are 
pushing our legacy bombers farther and farther away from the fight. 
This method enables the platform to rapidly adapt as the threat 
changes, shortening development cycle times for future upgrades and 
facilitates sustained competition throughout the B-21 lifecycle, 
enhancing long-term affordability and supportability.
    Furthermore, the acquisition strategy relies on incentives to 
control cost and schedule and aligned these incentives towards the back 
end of the Engineering and Manufacturing Development phase to motivate 
the contractor to proceed smoothly into production. In addition to 
leveraging lessons learned from previous acquisition programs, B-21 is 
funding to the Air Force independent cost estimate which is based on 
historical programs and data, and will become the Acquisition Program 
Baseline (APB). The APB is the scoring metric which the program will be 
measured against, providing transparency with Congress and the 
taxpayer.
    Question. What metrics will be used to monitor progress, and what 
tools does the Air Force have to bring a wayward program back into 
compliance?
    Answer. The Air Force tracks how programs progress using numerous 
cost, schedule and performance metrics against an approved baseline. 
Programs report progress in these areas through many means such as 
Selected Acquisition Reports, Major Automated Information Systems 
(MAIS) Annual Reports, MAIS Quarterly Reports, and quarterly Defense 
Acquisition Executive Summary reporting at the Department of Defense 
(DoD) level. Air Force programs also provide Monthly Acquisition 
Reports to the Service Acquisition Executive. The Monthly Acquisition 
Report includes information on schedule, performance and funding 
progress.
    The Air Force also conducts an assessment of the Performance of the 
Air Force Acquisition System across the enterprise on a quarterly and 
annual basis. The reports from these assessments provide the status of 
performance of the enterprise in the areas of cost, schedule, 
technical, funding execution, contracting, product support, and 
workforce. All of the data used to generate these reports comes from 
electronic reporting tools either at the DoD or Air Force level.
    In addition to cost, schedule and performance, the Air Force 
monitors program progress in implementing the DoD Better Buying Power 
principle of ``Should Cost'' to reduce or eliminate costs during 
program execution. Programs are tracked by the number of Should Cost 
initiatives they are pursuing, the projected savings from those 
initiatives and the realized savings achieved.
    Finally, the Air Force monitors program progress through annual 
Configuration Steering Boards (CSBs). At a CSB, all requirements 
changes and significant technical configuration changes for ACAT I and 
IA programs in development, production and sustainment that have the 
potential to result in cost and schedule impacts to the program are 
reviewed. CSBs provide the Air Force an opportunity to strategize how 
to mitigate cost and schedule impacts to programs that may have 
encountered challenges in the development, production or sustainment 
phases.

                                 JSTARS

    Question. The Fiscal Year 2017 budget submission slips the initial 
operating capability for JSTARS recapitalization by at least an 
additional year, and reduces funding for JSTARS by $170M when you 
compare the Fiscal Year 2017 request to what the Air Force indicated 
was required for Fiscal Year 2017 in the Fiscal Year 2016 request.
    Please explain this further delay and reduction of requested funds?
    Answer. As part of the Milestone A review and decision process, 
senior Air Force and Department of Defense acquisition leaders assessed 
the draft JSTARS recapitalization acquisition strategy and determined 
the need for more time in the earlier stages of the program to reduce 
overall program risk. Additionally, the Air Force spent more time 
analyzing mission area requirements and associated costs. As a result, 
the Technology Maturity Risk Reduction and Engineering Manufacturing 
Development phases expanded, giving industry more time to mature their 
system-level designs and allowing the Department of Defense to better 
understand the mission area cost-capability trade space. We expect the 
additional time reducing risk and understanding requirements will 
facilitate a more executable and affordable program.
    The Fiscal Year 2017 President's Budget request was reduced by $170 
million to reflect the anticipated award of the post MS B Engineering 
Manufacturing Development contract moving from the Fourth Quarter of 
Fiscal Year 2017 to the First Quarter of Fiscal Year 2018.
    Question. What metrics are being used to track progress for the 
JSTARS recapitalization, and what tools does the Air Force have to 
ensure the JSTARS recapitalization programs stay within compliance.
    Answer. While the JSTARS Recap program is in the Technology 
Maturation Risk Reduction (TMRR) phase the Air Force is tracking 
progress against a number of standards including contracted activities 
(i.e., System Requirements Reviews, System Functional Reviews, and 
System Preliminary Design reviews), schedule execution, risk 
management, and financial execution (i.e., obligations and expenditures 
against OSD goals). Additionally, we will implement earned value 
metrics as part of the Fiscal Year 2016-2017 radar risk reduction 
effort. Currently, we have met all of our program goals in pursuit of a 
fourth quarter, Fiscal Year 2017 Milestone B, including three 
successful Milestone Decision Authority decisions in less than one 
year. Our Engineering, Manufacturing and Development contract will 
implement a broader and more detailed suite of program metrics. The 
program manager is responsible for compliance, which is verified as 
part of the systematic and periodic acquisition review process.
    The Air Force tracks how programs progress using cost, schedule and 
performance against their approved baseline. Programs report on 
progress in these areas through many means such as Selected Acquisition 
Reports, Major Automated Information Systems Annual Reports, MAIS 
Quarterly Reports, and quarterly Defense Acquisition Executive Summary 
reporting at the Department of Defense level. Air Force programs also 
provide monthly acquisition reports, which include information on 
schedule, performance and funding progress, to the Service Acquisition 
Executive.
    The Air Force also conducts an assessment of the Performance of the 
Air Force Acquisition System across the enterprise on a quarterly and 
annual basis. The reports from these assessments provide the status of 
performance of the enterprise in the areas of cost, schedule, 
technical, funding execution, contracting, product support, and 
workforce. All of the data used to generate these reports comes from 
electronic reporting tools either at the DoD or Air Force level.
    In addition to cost, schedule and performance, the Air Force 
monitors program progress in implementing the DoD Better Buying Power 
principle of ``Should Cost'' to reduce or eliminate costs during 
program execution. Programs are tracked by the number of Should Cost 
initiatives they are pursuing, the projected savings from those 
initiatives, and savings achieved.
    Finally, the Air Force monitors program progress through annual 
Configuration Steering Boards (CSBs). At a CSB, all requirements 
changes and significant technical configuration changes for ACAT I and 
IA programs in development, production and sustainment that have the 
potential to result in cost and schedule impacts to the program are 
reviewed. CSBs provide the Air Force an opportunity to strategize how 
to mitigate cost and schedule impacts to programs that may have 
encountered challenges in the development, production or sustainment 
phases.

                           Officer Promotions

    Question. Retaining the best personnel requires a superior 
personnel management system; how your officers view the integrity of 
your Below Zone (BZ) selection process is critical to that system. The 
services are charged by Title 10, U.S. Code, to select the best 
qualified officers for promotion to the next grade. DODI 1320.14 states 
that board members must certify that they ``carefully considered the 
records of each officer whose name was submitted to the board.'' Any 
methodology for consideration of officers below the zone that does not 
afford board members the same amount of time for every BZ file, as is 
afforded to In and Above Zone files, or utilizes a practice to rapidly 
screen through BZ candidates, is not in keeping with the intent of the 
statute, or the DODI. A rapid screening of a Below Zone file would not 
constitute ``careful consideration'', and it would invite opportunities 
for you to overlook the best qualified officers. If it is not already 
your practice, integrating BZ candidates into the In and Above Zone 
populations for the purpose of careful and unbiased consideration would 
meet the intent of the law, and would only marginally increase the 
length of your promotion selection boards. After such proper 
consideration, statutory limitations on the number of BZ selectees 
could then be applied.
    Please describe for me your practice for considering officers for 
promotion from below-the-zone, and inform me how much additional cost 
you would incur if a modification to properly consider Below Zone 
candidates is needed, and if you are willing to make such a 
modification to increase the integrity of your promotion selection 
board system.
    Answer. The Air Force has a thorough, multi-phase process for 
considering officers for promotion below-the-zone (BZ). We are 
confident we are executing a fair and equitable process and selecting 
the best qualified officers available in our Air Force. The Air Force's 
current practice for evaluating below-the-zone records was approved by 
the Secretary of the Air Force and the Assistant Secretary of Defense 
for Force Management and Personnel in 1992. Our process implements an 
additional phase entitled the `Exceptionally Well Qualified (EWQ) 
Review' (what you refer to as `screening') and includes two phases over 
what is accomplished for in- and above-the-zone (I/APZ). This has 
resulted in an increased number of officers selected below-the-zone to 
both lieutenant colonel and colonel, as compared to selection rates 
pre-1992. The Air Force currently allows for selection of the maximum 
number of officers from the below-the-zone category which is set at 
10%.
    Our promotion recommendation process begins before the central 
selection board (CSB) convenes. The officer's senior rater (O-6 for 
majors and below; general officer for lieutenant colonel and above) 
communicates directly with the CSB via the Promotion Recommendation 
Form (PRF). This form summarizes the entire record and provides key 
performance factors from the officer's entire career. The form also 
provides the ability for the senior rater to identify officers with 
superior records through the designation of a numerically limited 
promotion recommendation given to the top 10% of those eligible. As the 
`cover document', this is the senior rater's opportunity to tell the 
CSB whether or not an officer is ready for increased responsibility. 
During the EWQ process, CSB members carefully consider eligible records 
to determine if the officer is exceptionally well qualified; there are 
no time limits to this phase, nor are there any limitations on number 
of records that can be forwarded to the next (scoring) phase.
    During Phase 2, those records forwarded from the EWQ portion are 
reviewed again and scored numerically. This process mirrors that 
performed for the I/APZ process and allows for thorough review of all 
records, rescoring when there are disparate scores between panel 
members, and multiple second and third reviews for records near the cut 
off line with similar scores. This thorough process also ensures all 
records are given careful consideration.
    Finally, our BPZ promotion quotas are at the expense of the I/APZ 
quotas. Thus during the final phase (referred to as displacement), the 
CSB must determine the least meritorious BPZ selected record is better 
than the best non-select I/APZ record. This comparison ensures the best 
records overall from all three zones (A/IBPZ) are selected while still 
allowing for the maximum number of BPZ records to be selected.
    The Air Force believes our current promotion selection process 
meets statutory and DoD policy requirements, therefore, we do not 
recommend modifications to our BPZ promotion practice.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

               Prioritization--Nuclear Modernization Plan

    Question. Secretary James and General Welsh, your prepared 
testimony states that the Air Force's FY 2017 budget request includes a 
$6.5 billion investment in Nuclear Deterrence Operations over the 
Future Years Defense Plan (FYDP). This is an increase of $4.3 billion 
compared to the FY 2016 budget request. Correspondingly, in your 
testimony, you point out that the Budget Control Act spending caps 
create significant uncertainty in the planned modernization of the 
nuclear mission in FY 2018 and beyond.
    Given that the cost increase coincides with such considerable 
budget unpredictability, are we at risk for laying the groundwork for 
nuclear modernization programs that will ultimately prove to be 
unaffordable for the Air Force?
    Answer. Maintaining a capable and credible nuclear deterrent 
remains the Air Force's number one priority. However, unless the 
Department receives relief from the Budget Control Act, difficult 
choices will have to be made in future years to ensure a proper balance 
of modernization, capability, capacity and readiness across the Air 
Force's critical mission areas.
    Question. If it is not an option to delay or cancel these nuclear 
modernization programs because they are valid requirements, then what 
conventional weapon systems, missions, or force structure is likely to 
be cut in order to pay for these programs?
    Answer. Maintaining a capable and credible nuclear deterrent 
remains the Air Force's number one mission priority; however, the Air 
Force must balance this with modernization, capability, capacity and 
readiness of our other critical mission areas. The Fiscal Year 2017 
President's Budget request addresses each of these areas. However, to 
afford these critical capabilities, we had to make difficult choices, 
including delaying F-35 procurement, delaying C-130H recapitalization, 
and reducing fourth generation modifications. We will endeavor to 
provide the best military advice regarding tradeoffs in future budget 
requests, but expect we will face similar difficult choices.
    Question. General Welsh, the need for a new air launched nuclear 
cruise missile has received a lot of attention in the press, with some 
arguing that it is unnecessary and possibly destabilizing. Setting 
aside those very valid concerns about the Long-Range Standoff Weapons 
mission, how does that modernization program rank in priority order 
when compared to the ICBM, B-61, and Long-Range Standoff Bomber?
    Answer. Each of these programs provides capabilities critical to 
the U.S. Nuclear Triad and to suggest one is more important than 
another is to presuppose a shift in U.S. policy. Legacy nuclear weapons 
and weapon systems are well beyond their intended design lives and face 
challenges in both sustainment and operational effectiveness. If the 
U.S. is to maintain a credible deterrent, full funding for Department 
of Defense and Department of Energy programs is critical to keep these 
vital recapitalization programs on schedule.

                    Modernization of the C-130 Fleet

    Question. The incorporation of the C-130H T56 Series 3.5 EEP's has 
been described as providing a 10% reduction in fuel use, and over 20% 
improvement in turbine reliability. This seems to further the efforts 
towards energy conservation goals and could save the USAF over $2 
billion over the lifetime of the C-130H fleet. In October 2015, the 
USAF contracted for the procurement of 50 EEP kits using 
congressionally authorized and appropriated FY14 ($15.7M) and FY15 
($22.6M) funds. Congress again appropriated $33.2M in FY16 to continue 
EEP upgrades. The FY17 USAF budget request did not include any funds 
for C-130H EEP upgrades.
    What is the USAF life-cycle strategy for C-130's including engine 
upgrades of the ``H'' model and C-130J modernization?
    Answer. The Fiscal Year 2017 President's Budget request is 
consistent with the Air Force's commitment to modernizing the C-130H 
fleet through a four-phased approach: (1) We will ensure the C-130H is 
safe to operate by keeping the aircraft structurally sound, (2) Meet 
airspace compliance mandates with C-130H Avionics Modernization Program 
(AMP) Increment 1, (3) Address avionics modernization with C-130H AMP 
Increment 2, and (4) Partially recapitalize the fleet with C-130Js.
    Congress has appropriated funds for additional modernization 
efforts, including Fiscal Year 2014 and Fiscal Year 2015 funds for the 
T-56 3.5 engine modification. The Air Force obligated these funds in 
September 2015 to procure 50 T-56 3.5 engine modification kits; these 
kits will modify the 10 LC-130Hs operating out of the 109th Airlift 
Wing in Schenectady, NY.
    Congress also appropriated Fiscal Year 2014 and Fiscal Year 2015 
funds for the Eight-Bladed Propeller Upgrade. The Fiscal Year 2014 
funds will obligate in July 2016 for non-recurring engineering and to 
purchase and install the eight-bladed propellers on the 10 LC-130Hs 
mentioned above. Lastly, Congress appropriated Fiscal Year 2016 funds 
for the Electronic Propeller Control System (EPCS) and In-Flight 
Propeller Balancing System.
    Since these C-130H propulsion upgrades have only been tested 
individually, the Air Force will conduct an operational utility 
evaluation (OUE) to test the T-56 3.5 engine modification in 
combination with the eight-bladed propellers and the EPCS from January 
to July 2017. The OUE's data and final test report will support a 
fielding recommendation based on the operational effectiveness, 
suitability, and affordability of these propulsion system upgrades. 
This evaluation is necessary prior to an Air Force decision on the 
significant investment these modifications would require to outfit the 
entire legacy C-130H fleet.

                  Microelectronics and Trusted Foundry

    Question. During Secretary Carter's testimony to the HAC-D, he 
highlighted a concern with microelectronics and Trusted Foundry. As the 
US Air Force prepares to embark on a major nuclear modernization 
effort, modernization of various aircraft platforms and ensuring our 
dominance in space and cyber, the availability of trusted 
microelectronics is a critical component of this modernization effort.
    Are there any issues with microelectronics and the defense 
industrial base? More specifically, does the US Air Force have a 
strategy to maintain availability of nuclear hardened microelectronics 
during this modernization? Are there other shortfalls with the Defense 
Industrial Base or manufacturing capability within the US that concerns 
with USAF?
    Answer. The Air Force, as well as other Department of Defense 
components, is concerned over the continued capability of the domestic 
industrial base in the area of microelectronics. Industry-wide 
globalization, segmentation separating integrated circuit designers 
from producers, and the rate of change in technology make it more 
difficult to acquire needed products.
    The Air Force continues to focus on maintaining the availability of 
nuclear hardened microelectronics for the Ground Based Strategic 
Deterrent (GBSD) program. During Fiscal Year Fiscal Year 2014, the 
Intercontinental Ballistic Missile (ICBM) Guidance Applications effort, 
under the ICBM Demonstration/Validation program element, invested 
funding to adapt the Navy's electronic parts library for future use. 
Through this effort, approximately 25 parts suppliers were identified. 
The library of parts that they supply will be available to bidders on 
the GBSD contract and GBSD will use the same or similar suppliers for 
radiation-hardened electronics as were used by the Navy during the 
Trident II D5 Life Extension program. Additionally, in Fiscal Year 2017 
ICBM Guidance Applications will be independently validating and 
verifying suppliers (especially for parts with a single supplier) for 
their ability to produce parts for strategic radiation and other 
missile environments that are historically challenging. Similar efforts 
are being accomplished for the ICBM Fuze Modernization program, which 
is utilizing Congressionally-approved life-of-program-buy authority to 
purchase and qualify common electronic parts with the Navy fuze 
program.
    The Air Force is confident in the capability and capacity of the 
domestic industrial base to support our currently fielded systems and 
those in production. We concerned about the domestic capability and 
capacity to design and produce future systems needed across the domains 
of air, space, and cyberspace. The skill base supporting the military-
unique demands of the Air Force needs to be continually refreshed and 
we must avoid gaps in demand on the industrial base to prevent 
corresponding gaps in the knowledge and skills.
    Question. As you may know, the DoD was directed to submit a report 
on the topic of Trusted Foundry within 90 days of the December 2015 
FY16 Omnibus Appropriations Act. What input did the USAF provide to OSD 
in regards to Trusted Foundry?
    Answer. The Air Force, in coordination with the Office of the 
Deputy Assistant Secretary for Systems Engineering, is pursuing 
multiple options to address the topic of Trusted Foundry. We provided 
input involving three basic categories:
    First, continued use of the existing Trusted Foundries. We plan to 
continue using trusted foundries in accordance with Public Law 110-417, 
Sec. 254, 14 Oct 2008; however, the unique parts manufactured on the 
foundries at Burlington, VT and East Fish Kill, NY are not available 
elsewhere without redesigning them. Redesign will take 5-7 years and 
more than $250 million in non-recurring engineering costs. Until a new 
part is designed, we plan to continue acquiring current parts from 
these foundries using Life of Type Buys and stockpiling parts for 
future acquisition programs beginning in Fiscal Year 2018. Given the 
time it will take to redesign the current parts for manufacturing on 
another foundry line, we will press forward with designing the next 
generation part to obtain more state-of-the-art capability for future 
use. In order to reduce risk, we will pursue options generated from 
activities in the paragraph below.
    Second, the Air Force, along with the rest of the Department of 
Defense (DoD), is exploring methods to perform ``trusted manufacturing 
on untrusted lines.'' This approach permits us a greater number of 
foundries to consider for manufacturing of future generations of state-
of-the-art parts. A DoD foundry was considered, but not adopted. 
Experience over the past 25 years indicates the two prior attempts 
floundered after 10 years and could not keep up with DoD's need for 
state-of-the-art parts. In addition, U.S. industry has migrated foundry 
manufacturing overseas to reduce costs for commercial devices for the 
wireless communications industries. DoD's share of this market is 3% 
and usually less annually; therefore, DoD has little to no influence 
over commercial foundries. Activities in this area are ongoing and 
results are expected in Calendar Year 2017 to inform future decisions. 
Initial, classified indications suggest these activities will be 
successful in providing DoD with options to trusted foundries.
    Third, the Air Force will leverage Joint Federated Assurance Center 
(JFAC) activities to ensure parts obtained from untrusted sources 
comply with JFAC objectives for trust and assurance.
    Question. What involvement does the US Air Force have with the 
Department's manufacturing institutes?
    Answer. The Air Force, via the Air Force Research Laboratory, 
currently executes three co-operative agreements supporting 
Manufacturing Institutes: America Makes, American Institute for 
Manufacturing Photonics (AIM-IP) and NextFlex.
    In 2012, the Air Force, on behalf of the Office of the Secretary of 
Defense, led an interagency effort to launch America Makes, a public-
private partnership in additive manufacturing with the mission to 
accelerate the adoption of additive manufacturing and 3D printing 
technologies in the U.S. manufacturing sector and to increase domestic 
competitiveness. AIM-IP was established in August 2015 and is focused 
on developing novel manufacturing processes for integrated photonic 
devices. NextFlex was established in September 2015 and is focused on 
developing highly tailorable devices on flexible and stretchable 
substrates.
    Scientists and engineers from the Air Force Research Laboratory 
support the Institutes by participating on technical advisory boards 
and government advisory boards and by providing subject matter 
expertise for source selection and project execution.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Ms. Kaptur and the answers 
thereto follow:]

                       State Partnership Program

    Question. What does this budget do to facilitate growing the State 
Partnership Program?
    Answer. The Fiscal Year 2017 State Partnership (SPP) budget does 
not support program growth. The geographic combatant commanders' SPP 
demand signal continues to increase, as evidenced by increases in 
approved partnerships and a list of proposed partnerships waiting for 
Office of the Secretary of Defense approval. Unfortunately, SPP is one 
of many valuable programs we have not been able to grow as a result of 
fiscal constraints.
    Question. What additional authorities would you need to expand the 
SPP mission to include humanitarian missions, counter-messaging 
efforts, and to work with civilian populations in partner countries?
    Answer. The National Guard has adequate legal authorities to engage 
in humanitarian assistance/disaster response missions (examples include 
Overseas Humanitarian, Disaster, and Civic Aid Appropriation (OHDACA); 
10 U.S.C. 2561--Transportation of relief supplies; 10 U.S.C. 402--
Denton Program, Space Available Transport; 10 U.S.C. 404--Foreign 
Disaster Assistance) and civilian engagement. A legislative change to 
increase SPP activities would be to adjust the Foreign Assistance Act 
of 1961 to authorize pay and allowances funds, as well as operation and 
maintenance funds, for Foreign Military Financing and OHDACA type 
appropriations. At this time, the Department has not proposed 
legislation to add these caveats.
    Question. What effort is there to capitalize on the immense 
personal ties to this region and capabilities in the U.S. to combat 
Russian subterfuge and propaganda, particularly in the area of social 
media and television?
    Answer. State Partnership Program (SPP) activities and priorities 
are coordinated to meet the geographic combatant commander's security 
cooperation objectives. SPP is not the appropriate security cooperation 
tool for overt intelligence collection or military information support 
operations. We recommend questions about U.S. capabilities and efforts 
to combat Russian subterfuge and propaganda in the region be addressed 
to U.S. European Command.

                   Title 10 U.S.C. 12304b Activations

    Question. Does this authorization entitle National Guard Airmen to 
all the same retirement, education and TriCare benefits as the 
authorization currently being used to deploy these Airmen to 
Afghanistan or Iraq? Specifically, what is the difference?
    Answer. The benefits afforded to an Airman depend upon the 
authority used to call the Airman to active duty. Activation under 
12304b is involuntary. The benefits associated with a 12304b 
activation, however, do not match the benefits of 12302 (a partial 
mobilization involuntary activation authority) or of 12301(d) (a 
voluntary activation authority), both of which are being used to deploy 
Airmen to Afghanistan and Iraq. Specific differences in benefits 
include:
          <bullet> Reduced age for Retirement (10 U.S.C. 12731)--12302 
        and 12301(d) provide this benefit; 12304b does not
          <bullet> Post 9/11 GI Bill (10 U.S.C. 3301)--12302 and 
        12301(d) provide this benefit; 12304b does not
          <bullet> Pre-Mobilization Health Care (10 U.S.C. 1174(d))--
        12302 and 12301(d) provide this benefit if the member serves in 
        support of a contingency operation. 12304b is to be utilized 
        for preplanned missions in support of combatant commands. This 
        typically does not include contingency operations. 10 U.S.C. 
        101(a)(13), which defines contingency operations, does not 
        expressly recognize 12304b activations. Accordingly, current 
        DOD policy recognizes 12304b as a support activation authority 
        that is not intended for contingency operations
          <bullet> Vocational Rehabilitation (10 U.S.C. 3103)--12302 
        and 12301(d) provide this benefit; 12304b does not
          <bullet> Voluntary Separation Pay Recoup Protection (10 
        U.S.C. 1175a)--12302 provides this benefit; 12304b does not
          <bullet> Federal Civilian Differential Pay (5 U.S.C. 5538)--
        12302 provides this benefit; 12301(d) provides this benefit if 
        a member serves in support of a contingency operation; 12304b 
        does not provide this benefit because it is not utilized as an 
        activation authority for contingency operations.

                            Maternity Leave

    Question. What is the Air Force doing to ensure cultural acceptance 
of females taking 12 weeks of maternity leave, particularly for senior 
NCOs and officers?
    Answer. When the Secretary of the Air Force announced the 
Department of Defense-wide change to maternity leave policy, she 
stressed that commanders will grant maternity leave in all cases where 
Airmen are eligible and that no Airman shall be disadvantaged in her 
career, including limitations to assignments, evaluations, or selection 
for professional military education because she has taken maternity 
leave. We trust that commanders will take this charge and make every 
effort to ensure that all eligible personnel are able to take maternity 
leave without disadvantage. Since the initiative is so new, we do not 
have any data that suggests a culture of acceptance does not exist. The 
Air Force will continue to evaluate policy execution as the initiative 
matures.
    Question. Is there any intention of publishing formal guidance or 
training materials on this topic to ensure females feel comfortable 
taking the full allotted time?
    Answer. The Secretary of Defense announced the changes to the 
maternity leave policy late January 2016 extending this non-chargeable 
leave benefit from six to twelve weeks to members who give birth and 
retain their child(ren). The following week, the Air Force announced 
those changes via a ``SecAF All'' email, CSAF email to senior 
leadership, a ``MyPers''' message to the major command Manpower and 
Personnel Directorates and base Military Personnel Sections and an 
article on the Air Force Portal. In the Secretary of the Air Force's 
email, she stressed that commanders will grant maternity leave in all 
cases where Airmen are eligible and that no Airmen shall be 
disadvantaged in her career, including limitations to assignments, 
evaluations or selection for professional military education because 
she has taken maternity leave. The guidance sent out to the field has 
highlighted the importance of supervisors at all levels to ensure 
eligible personnel are able to take maternity leave without 
disadvantage. Additionally, Public Affairs Guidance was distributed to 
all major command Public Affairs offices for sharing with the bases; 
this included a question and answer section.
    While the policy is in full effect right now, Air Force Instruction 
36-3003, Military Leave Program, is scheduled to be updated with the 
revised guidance and is projected to be published no later than May 31, 
2016.
    While we expect female Airmen to feel comfortable in taking the 
full amount of maternity leave without repercussion, we know new 
programs always need to be monitored. We will continue to evaluate any 
potential impacts as the initiative matures and implement additional 
policies as necessary to ensure our Airmen are not disadvantaged 
because they took maternity leave.
    Question. What do you anticipate as the impact on their career and 
evaluations as a result of taking 12 weeks off for maternity?
    Answer. All active duty personnel receive at least one performance 
report per year to evaluate their duty performance over the course of 
that reporting period. There are a multitude of situations where an 
individual is away for extended periods of time such as lengthy 
advanced training courses or other medical conditions. The Air Force 
has measures in place to ensure proper reporting and evaluation of 
Airmen. Further, in her guidance to all Airmen on this subject, the 
Secretary of the Air Force mandated that no Airman shall be 
disadvantaged in her career, including limitations to assignments, 
evaluations or selection for professional military education because 
she has taken maternity leave.
    From a development perspective, the Air Force will need to examine 
the policies in place throughout the portfolio of in-residence formal 
training and professional military education programs in regards to 
extended absences and program completion. Many of the programs have 
physical and team oriented curricula that require attendance and 
participation to meet standards. Policies will need to be put in place 
to ensure training and development opportunities are not missed due to 
a pregnancy.
    Since this is a new initiative, we will continue to evaluate any 
potential impacts as the initiative matures and implement additional 
policies as necessary to ensure our Airmen are not disadvantaged 
because they took maternity leave.

                              Total Force

    Question. What progress are you making with placing a National 
Guard officer in command of an active duty unit'? How many NG officers 
and Airmen are filling active duty billets? How many NG officers are in 
command of active component units?
    Answer. The Air Force continues to make progress integrating Air 
National Guard (ANG) and Air Force Reserve leaders with active duty 
units. For example, an Air National Guard colonel has been selected by 
the Air Force Colonels Management Office to take command of the 6th Air 
Mobility Wing at MacDill AFB, Florida in July 2016 for a period of two 
years. The ANG currently has ten general officers assigned to active 
duty billets, one lieutenant colonel serving as Commandant of the Air 
Force Officer Training School, and one chief master sergeant on a 
limited recall to active duty serving as the Commandant of the Air 
Force First Sergeant Academy. The ANG also has one officer in command 
with the First Air Force and another officer currently deployed as an 
operations group commander to Al Udeid Air Base, Qatar.

                                  F-35

    Question. When will the basing requirements for the F-35A be 
released?
    Answer. The basing enterprise and criteria for the Air National 
Guard F-35A operational locations (Ops 5-6) and the Air Force Reserve 
F-35A operational location (Ops 7) were released on April 12, 2016.
    Question. Does the reduced F-35 procurement effect fielding to the 
National Guard or to the active force?
    Answer. We have not yet determined how the delayed F-35 procurement 
will impact fielding. However, the Air Force's total F-35 procurement 
goal remains 1,763. The Fiscal Year 2017 President's Budget request 
does not change that total number. It only slows procurement in order 
to address near-term requirements, including costs to maintain current 
fighter capacity.

                                 Energy

    Question. What is your current progress in complying with Executive 
Order 13693? What in the budget addresses achieving these goals?
    Answer. EO 13693 identifies numerous sustainability and energy and 
greenhouse gas reduction goals. With the multiple competing demands on 
our budget--high operations tempo, coupled with weighty warfighter 
investment and operations requirements--we are currently falling short 
of meeting EO 13693 goals. Projects that seek to reduce gas emissions, 
water intensity, and energy intensity compete directly against critical 
modernization and readiness demands. To balance it all, we're funding 
infrastructure on a mission-critical, worst-first basis.
    Notwithstanding the difficult decisions we've had to make across 
our investment, operations, and infrastructure accounts, our commitment 
to EO 13693 goals remains steadfast. For example, the Air Force 
currently leads the DoD in energy intensity reduction, down by 24% 
since 2003. At Los Angeles Air Force Base, we put in place DoD's first 
fleet of all-electric, zero-emission general purpose vehicles and we're 
working toward Vehicle to Grid (V2G) capability. In March 2016, we 
established the Office of Energy Assurance (AF-OEA). The AF-OEA will 
bring best-practices and expertise to develop, implement and oversee an 
integrated facility energy portfolio, including privately-financed, 
large-scale renewable and alternative energy projects as well as direct 
Air Force investments. Additionally, we recently commenced our 
Resilient Energy Demonstration Initiative (REDI) to stand up smart, 
cyber-secure, clean powered microgrid demonstration projects on 
critical Air Force installations. Integrating available tools and 
authorities and a holistic approach to energy planning, REDI will 
produce reliable, clean and cost-effective solutions that can be 
replicated across the Air Force enterprise.
    There is no specific budget line item reserved for EO 13693 
associated activities. The Air Force uses all available authorities, 
including third-party financing and direct funding via various budget 
lines, such as the facilities, sustainment, restoration, and 
modernization (operation and maintenance appropriation) and military 
construction, to fund the projects that support EO 13693 goals.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]

                                           Thursday, March 3, 2016.

                 FISCAL YEAR 2017 ARMY BUDGET OVERVIEW

                               WITNESSES

HON. PATRICK MURPHY, ACTING SECRETARY, UNITED STATES ARMY
GENERAL MARK A. MILLEY, CHIEF OF STAFF, UNITED STATES ARMY

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The committee will come to order. We are 
going to proceed as quickly as we can, knowing that there is a 
series of votes.
    This morning, the committee continues a series of open 
defense posture and budget hearings. Today, the committee will 
receive testimony on the posture of the United States Army and 
its fiscal year 2017 budget. We welcome two Army leaders in new 
positions to the witness table: the Honorable Patrick Murphy, 
acting Secretary of the Army; and General Mark Milley, Chief of 
Staff of the Army. Secretary Murphy was recently sworn in as 
Under Secretary of the Army and serves as acting Secretary of 
the Army. He previously served with us here in Congress from 
2007 to 2011. He is also an Army veteran, including service in 
Bosnia, and then with the 82nd Airborne in Baghdad.
    Secretary Murphy, welcome, and thank you for your 
continuing service to our Nation. Great to have you here.
    Mr. Murphy. Thank you.
    Mr. Frelinghuysen. We also welcome for the first time 
General Mark A. Milley, the 39th Chief of Staff of the Army. 
General Milley has held multiple command and staff positions in 
eight divisions and the Special Forces throughout the last 35 
years, most recently as the 21st Commander of the U.S. Army 
Forces Command, Fort Bragg.
    General Milley, thank you for being with us.
    Gentlemen, as you know there was a time in the recent past 
when some experts saw a declining need for U.S. land power and 
actually planned for a smaller less capable Army. Such thinking 
was clearly wrong. While the United States remains the most 
formidable ground combat force on Earth, declining end strength 
and a frozen budget will challenge the Army's ability to answer 
the bell when asked by future Commanders in Chief. For now, the 
Army is very much engaged in Afghanistan, trying to secure the 
hard-fought gains we made over the last 15 years of conflict, 
even as plans for our departure have been postponed. We also 
have soldiers advising and assisting and still in harm's way in 
Iraq, Syria, Africa, and around the world; some in small 
operations, some in larger, all of those operations complex. 
The Army has a missile defense mission in the Persian Gulf, and 
a peacekeeping mission, an enduring one, in the Sinai. Over 
28,000 soldiers stand alert in South Korea against the 
unpredictable regime to the north.
    At the same time, the need for a strong capable Army is 
underscored by new threats. You stand against Russian 
belligerents in Europe and act to deter a newly aggressive 
China, which I may say has the largest Army in the world. In 
fact, as we meet here today, our Army has nearly well over 
200,000 soldiers deployed in 140 countries. For these reasons, 
the Army has presented a budget that emphasizes readiness to 
ensure our soldiers are prepared for whatever our unpredictable 
world brings.
    But, gentlemen, this appears to be a status quo budget. The 
funding level of 2017 request nearly mirrors the current 
levels. After the return of forces from Iraq and Afghanistan, 
the expectation had been that units would return to full 
spectrum training, yet the Army's operational tempo has not 
slowed down, and since then, additional units, equipment, and 
soldiers have deployed to Eastern Europe to deter and defeat 
Russian aggression. Meanwhile, critical maintenance has been 
delayed and infrastructure repairs postponed.
    Properly funding readiness, however, comes at a cost, 
primarily in the form of major reductions to large 
modernization programs. Most notably, it appears that Army 
aviation is the major billpayer for preserving readiness. This 
comes at a time when we are hearing Army leadership saying that 
additional aviation assets are their highest priority as they 
seek to deter Russia.
    I would add that the National Commission on the Future of 
the Army is strongly recommending that the Army actually expand 
aircraft procurement to meet demands for air power on the 
Korean Peninsula and in Europe, and to ensure that the National 
Guard remains a viable partner.
    Another challenge you face is the steady drawdown of your 
end strength numbers based on mission assumptions made several 
years ago. The world has dramatically changed in the last 2 
years, and so have our strategic challenges. Remembering the 
repeated combat rotations, the 18-month deployments of recent 
years, today, we will discuss whether you believe the Army is 
properly sized to meet its range of requirements. The committee 
certainly appreciates the complexity of these challenges that 
are before you. We know these are dangerous times and will do 
everything we can to provide you with the resources you need, 
even if they are not always in your budget request.
    In that regard, I want to call to your attention the study 
sponsored by the Office of the Secretary of Defense to explore 
Army lethality. We all agree that we never want to send our 
soldiers and marines into a fair fight; we must maintain the 
upper hand. The subcommittee directed this research out of 
concern that our historic lethality overmatch over our 
adversaries is eroding and, in some cases, has been lost 
entirely. Specifically, we were concerned about the lethality 
of individual soldiers in small units and about field artillery 
that has not kept pace with technological advances. We are 
concerned about the losses we are facing in range, response 
time, accuracy, and lethal effects to name a few. To illustrate 
a point, I would point the committee's attention as it has 
been--we have been giving our attention to eastern Ukraine 
where we have seen a relatively new Russian technology--
artillery, armor, small arms--used to great effect. This is one 
of reasons the subcommittee provided $314 million in new 
funding last year to begin up-gunning some of our Stryker 
Combat Vehicles. I would also add that China has made some 
impressive gains in these vital areas as well. This important 
study should be landing on your desk shortly, and I look 
forward for working with you to fill those gaps.
    I would like to hear from you and your staff on actual 
recommendations for fiscal year 2017.
    Secretary Murphy, General Milley, I want to close by asking 
you to convey to our soldiers and their families how much this 
committee appreciates their work and their sacrifice to each 
and every day. You represent the best of America. You look 
after the best of America. And it has been our pleasure and 
honor to work with you as well as with your predecessors.
    I am very pleased to yield to my ranking member, Mr. 
Visclosky.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Mr. Chairman.
    I appreciate your holding a hearing.
    And, gentlemen, appreciate your service and do look forward 
to your testimony today. Thank you very much.
    Mr. Frelinghuysen. Thank you.
    Secretary Murphy, welcome. Welcome back. It is different to 
have you on the other side of the dais, but we are glad you are 
here.

                 Summary Statement of Secretary Murphy

    Mr. Murphy. Thank you, Mr. Chairman.
    And, Ranking Member Visclosky and members of the committee, 
thank you so much for the opportunity to discuss our Army with 
you here this morning. This is my eighth week on the job as 
acting Secretary of the Army, and it is truly an honor to be 
back with my Army family. I have traveled this year to see our 
soldiers, civilians, and their families at Fort Hood, Fort Sam 
Houston, and most recently Iraq and Afghanistan. The selfless 
service and dedication of our team should inspire us all. We 
are tasked with the solemn responsibility to fight and win our 
Nation's wars and to keep our families safe here at home. Our 
Army must produce ready units today to defer and defeat our 
Nation's enemies, defend our homeland, project power, and to 
win decisively. By ``ready,'' we mean that units that are fully 
manned, trained for combat, fully equipped, according to their 
designed structure, and led by competent leaders. We must also 
be ready for our future fights by investing in modernization 
and research and development. We do not want our soldiers to 
have a fair fight. We want them to have the technical and 
tactical advantage over our enemies.

                               READINESS

    With our $125.1 billion budget request, our Army will focus 
its efforts on rebuilding readiness for large-scale, high-end 
ground combat. We do so because we believe ignoring readiness 
shortfalls puts our Nation at the greatest risk for the 
following reasons.
    First, readiness wins wars. Our Army has never been the 
largest in the war, and at times, we have not been the best 
equipped. But since World War II, we have recognized that ready 
soldiers, properly manned, trained, equipped, and led can beat 
larger or more determined forces. Whether confronting the 
barbaric acts of ISIS or the desperation of North Korea, our 
Army must be prepared to execute and to win. We train like we 
fight, and our Army must be ready to fight tonight.
    Next, readiness deters our most dangerous threats and 
assures our allies. We are reminded with alarming frequency 
that great power conflicts are not dead. Today they manifest on 
a regional basis. Both Russia and China are challenging 
America's willingness and ability to enforce international 
standards of conduct. A ready Army provides America the 
strength to deter such actions and reassure our partners 
throughout the world. Readiness also makes future training less 
costly. Continuous operations since 2001 have left our force 
proficient in stability and counterterrorism operation. But our 
future command sergeants major and brigade combat leaders have 
not had the critical combat training experience as junior 
leaders trained for high-end ground combat. Investing in 
readiness today builds a foundation necessary for long-term 
readiness.
    Finally, readiness prepares our force for potential future 
conflicts. We cannot fight the last fight. Our Army must be 
prepared to face the high-end and advanced combat power of an 
aggressive Russia or, more likely, Russian aggression employed 
by surrogate actors. This budget dedicates resources to develop 
solutions for this to allow our force the space to develop new 
concepts informed by the recommendations of the National 
Commission on the Future of the Army. Our formations must first 
be ready to execute against current and emerging threats. The 
choice, though, to invest in near-term readiness does come with 
risk. Smaller modernization investments risk our ability to 
fight and win in the future. We have no new major modernization 
programs this decade. Smaller investments in end strength risk 
our ability to conduct multiple operations for sustained 
periods of time.
    In short, we are mortgaging our future readiness because we 
have to ensure in today's battles against emerging threats. 
That is why initiatives like BRAC in 2019 are needed to be 
implemented now. Let us manage your investment, and it will 
result in $500 million a year in savings and a return on your 
investment within 5 years.

                             FUNDING LEVELS

    Lastly, while we thank the Congress for the Bipartisan 
Budget Act of 2015, which provides short-term relief and 2 
years of predictable funding, we request your support for the 
enactment of our budget, as proposed. We request your support 
for continued funding at levels calibrated to current threats 
and our national security interest. And we request your 
continued support for our soldiers, civilians, and their 
families so that our Army remains the most capable fighting 
force in the world and wins our Nation's wars and keeps our 
families safe here at home.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. And you will have that support. Thank 
you, Mr. Secretary.
    General Milley, thank you for being with us.

                  Summary Statement of General Milley

    General Milley. Thank you, Chairman Frelinghuysen.
    And thanks, Ranking Member Visclosky and everyone else that 
is here and all the distinguished members of the committee, for 
the opportunity to appear before you today to discuss your 
Army. And thank you for your consistent support and commitment 
to our Army soldiers and civilians and families. And thank you 
for supporting this budget.

                               READINESS

    Six months ago, when confirmed as the 39th chief of staff, 
I committed to you and the American people to ensure that this 
Nation has the Army it needs and is postured for an uncertain 
and increasingly complex future and that we must remain the 
world's most cable, versatile and lethal ground force valued by 
our friends and feared by our enemies. This mission has one 
common thread, and that thread is readiness.
    A ready Army is manned, trained, equipped, and well led as 
the foundation of America's joint force. In order to conduct 
missions, to deter, and, if deterrence fails, to defeat a wide 
range of state and nonstate actors today, tomorrow, and into 
the future. Fifteen years of continuous counterinsurgency 
operations combined with recent reduced and unpredictable 
budgets has created a gap in our proficiency to conduct 
combined arms operations against enemy conventional or hybrid 
forces, resulting in an Army today that is less than ready to 
fight and win against emerging threats.
    America is a global power, and our Army must be capable of 
meeting a wide variety of threats under varying conditions 
anywhere on Earth. Our challenge today is to sustain the 
counterterrorist and counterinsurgency capabilities that we 
have developed to a high degree of proficiency over the last 15 
years of war but simultaneously rebuild the capability to win 
in ground combat against higher end threats. We can wish away 
this latter case. But we would be foolish as a Nation to do so.
    This budget prioritizes readiness because the global 
security environment is increasingly uncertain and complex. 
Today, we see in the Middle East, South Asia, and Africa 
radical terrorism and the malign influence of Iran threatening 
that regional order. In Europe, we see a revanchist Russia who 
has modernized its military, invaded several foreign countries, 
and continues to act aggressively toward its neighbors using 
multiple means of national power.

                                THREATS

    In Asia, in the Pacific, there are complex systemic 
challenges with a rising China that is increasingly assertive 
militarily, and a very provocative North Korea. Both situations 
creating the conditions for potential conflict.
    While we cannot forecast precisely when and where the next 
contingency will arise, it is my professional military view 
that if any contingency happens, it will likely require a 
significant amount of United States Army ground forces. If one 
or more possible unforeseen contingencies happen, then we, the 
United States Army, risk not having ready forces available to 
provide flexible options to our national leadership, and if 
committed, we risk not being able to accomplish the strategic 
tasks at hand in an acceptable amount of time. And, most 
importantly, we risk incurring significantly increased U.S. 
casualties.
    In sum, we risk the ability to conduct ground operations of 
sufficient scale and ample duration to achieve strategic 
objectives or win decisively at an acceptable cost against a 
highly lethal hybrid threat or near-peer adversary in the 
unforgiving environment of ground combat.
    The Army is currently committed to winning our fight 
against radical terrorists and deterring conflict in other 
parts of the globe. The Army provides 46 percent of all global 
combatant commander demand on an annual basis. And we provide 
64 percent of all emerging or unforecasted combatant commander 
demand. And as the chairman noted, we have over 200,000 
soldiers currently deployed all around the globe.
    To sustain current operations and to mitigate the risk of 
deploying an unready force into future combat operations, the 
Army will continue--and we must--to prioritize and fully fund 
readiness over end strength modernization and infrastructure. 
We prefer investment in both current and future readiness. The 
security environment of today, however, and the near future 
drive our investment into current readiness for global 
operations and potential contingencies.
    So, specifically, we ask that you support and fully fund 
the manning and equipping of our combat formations and our 
ability to conduct realistic combined arms combat training at 
both home station and our combat training centers.

                             MODERNIZATION

    Additionally, we ask your support for our modernization in 
five key capability areas. We ask support for aviation, command 
and control of the network, integrated air and missile defense, 
combat vehicles, and emerging threat programs. And, finally, we 
ask your continued support for our soldiers and families to 
recruit and retain high quality soldiers of character and 
competence.
    And I also want to acknowledge in closing the great work of 
the National Commission for the Future of the Army. And we as a 
Total Army are embracing the report. We are reviewing all of 
their recommendations and will report back through the 
Secretary of Defense on the way forward and our thoughts about 
the 63 findings within the Commission's report. So, in order to 
best utilize the resources provided, we intend to continue to 
streamline our headquarters, ruthlessly cut activities that do 
not contribute to an effective fighting force, and we do ask 
for another round of BRAC. We request your support for the 
proposed budget as written, and we thank Congress for your 
Bipartisan Budget Act of 2015 which provided short-term relief 
and 2 years of predictable funding. With your support, we will 
be able to build readiness for contingencies, invest 
selectively in the readiness of our future force. And I thank 
you for the opportunity to testify, and I look forward to your 
questions.
    [The joint statement of Secretary Murphy and General Milley 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Frelinghuysen. Thank you, General Milley.
    Vice Chair Kay Granger.

             NATIONAL COMMISSION ON THE FUTURE OF THE ARMY

    Ms. Granger. Thank you both for being here and for what you 
are going to do as well as what you have done. The report, 
General Milley, the report on the National Commission on the 
Future of the Army was released after you finalized your budget 
request. So what changes do you see that way? How do you plan 
to implement the recommendations of the report? And what 
challenges do you see in implementing them.
    General Milley. Thank you, Congresswoman.
    We work closely with the Commission. They interviewed lots 
of commanders, et cetera. So we are very pleased, actually, 
with that Commission report. So one of the things we have 
done--we are reviewing it right now, the 63 recommendations. 
And we have got a very deliberate and rigorous process with a 
council of colonels and a set of general officer boards that 
are reviewing it all. And they will come on a weekly basis, 
each of those recommendations in piece parts, are coming to the 
Secretary and me. But also Frank Grass is on the decision group 
that we formed; Tim Kadavy, who is the head of the National 
Guard, Army National Guard; and also Jeff Talley, who is the 
head of U.S. Army Reserve, along with our Vice Chief of Staff 
of the Army. So collectively that group of people, the 
Secretary through the Vice, we will receive briefings and make 
decisions on our recommendations to go forward. Congress 
activated the Commission. All those recommendations will come 
back to Congress through the Secretary of Defense on what we 
think of those 63 that we can do.
    At this point, preliminary outputs from us, of the 63, it 
is, round figure, call it about 50ish or so, that we think are 
very easy to implement, at no cost to implement, or we have 
already begun implementation and have been doing it for a 
while. So there is about, call it 50ish, that we think are 
good. There is a couple that we think are not worthy of 
pursuing. And then there are about 10 or 15 of those that are 
significant, we think warrant detailed analysis, and they are 
expensive. And we will have to come back to you with our 
thoughts on what those are.
    Ms. Granger. Thank you very much. I will save my other 
questions for another round.
    Mr. Frelinghuysen. Mr. Israel.

                    PROFESSIONAL MILITARY EDUCATION

    Mr. Israel. Thank you, Mr. Chairman.
    General, thank you for being here.
    Mr. Secretary, great to see you again. Enjoyed our service 
together in this institution.
    Mr. Secretary, in your testimony you noted that a ready 
Army is a manned, trained, equipped, and well-led force. And I 
agree with you completely. It seems to me that another element 
of readiness, and I know that you agree with this, and I know 
General Milley agrees with this based on conversations, is an 
Army whose people are well educated, that they have certain 
skills and abilities based on professional military education, 
which is sensible, not only in an investment in the minds of 
our service men and women but also as a matter of just good 
smart retention and recruitment policy.
    General, I was at West Point several years ago, and they 
had assembled for me a panel of captains and majors who had 
been deployed to theater, came back, received their master's 
degrees in international relations at Columbia University, got 
deployed again, and every single one told me they were much 
more effective warriors having a master's degree on their 
second deployment versus their first deployment. And that was 
part of a deal that they agreed to continue their service for 
an additional--I am not sure how many years it was--but 
additional service to the Army in exchange for that education.
    So I would like both of you to comment on the value of 
professional military education, whether you believe that our 
current investments are covering what we need to be doing. Are 
there disincentives that are getting in the way of a track in 
professional military education? And, finally, I have not yet 
read the entirety of the National Commission on the Future of 
the Army, but did the Commission consider at all the issue of 
professional military education, how we ought to be addressing 
it in the future? And if you would both comment on those 
questions, I would be grateful.
    Mr. Murphy. Congressman, it is great to be back with you. 
And thank you so much. And you have been a champion for not 
only West Point but for Army. We appreciate everyone. I think 
you know my background. I joined the Army at 19 and was lucky 
enough to be one of those professors at West Point. And I was 
there when 9/11 happened and then deployed for two combat 
deployments right afterwards as an Army captain.
    The great thing about West Point, but overall what 
professional military education, it is that West Point truly is 
like the Athens and Sparta of our military in that we pursue 
the strongest warriors but also those who have intellectual 
rigor. And that vigor is what is needed to lead troops, because 
they need to lead them in the right way.
    The investment this past year in this budget, this 2017 
budget, is $708 million. And that's a lot of money for the 
American taxpayer. But when you have an Army right now at over 
one million soldiers that is spread as thin as possible with 
this OPTEMPO against ISIS, against an aggressive Russia, 
against North Korea and doing what we need to do, you know, we 
had to make some obviously hard choices in budgets. You can't 
do everything. And we have doubled down on readiness. And that 
is combat readiness for our troops and our units. But make no 
mistake. Those soldiers, whether it is at West Point or the 
Sergeants Major Academy or elsewhere, that are going through 
Army University and other things for both enlisted and 
officers, they are getting the critical skill sets needed to be 
leaders of character with that intellectual vigor that I 
mentioned earlier needed right now during these challenging 
times to lead soldiers, you know, in areas that are not exactly 
easy to operate in.
    Mr. Israel. Thank you.
    General.
    General Milley. Thanks, Congressman.
    A couple of things. One of the things that I think 
distinguishes the United States military from almost every 
other military in the world is the adaptability of our 
officers, noncommissioned officers, and soldiers. And we are a 
product of our society. We are a product of our culture. And 
one of the things that I think is really important to 
understand about American soldiers is that we emphasize how to 
think about a problem, not what to think. Many, many armies 
train people what to think. You know, if confronted with this 
situation, execute 1, 2, 3, steps 4, 5, 6. We don't do that. We 
train people and we emphasize how to think, critical thinking, 
because ultimately we want the leadership to be adaptive and 
agile in a very complex environment. So you have got to figure 
out how to solve problems. So to that end, the Army education 
program writ large for enlisted and officers is multitiered. It 
is ad echelon. It is wide and deep. And it is probably--I don't 
know the advanced education programs for all of the commercial 
world out there, but I would argue that the United States 
Army's education program would match anything in the world 
today in any commercial industry anywhere. We take soldiers, 
and I will use officers as an example, train them and educate 
them at the lieutenant level after they graduate from 
university or West Point. Then they go back a few years later, 
after they have had some operational time and they get another 
career course as a captain. They come back out of the 
operational force; they go back yet again to Leavenworth, and 
they go to the staff college. They come back out, and they go 
back yet again to the War College as a full colonel. And then 
as the general officer corps, we have a series of educational--
continuing educational--programs. And that is the norm.
    Now, what you are talking about is advanced civil education 
where we send people to graduate school. We send a considerable 
amount of our officers to graduate school. It is very valuable. 
I am personally a participant in some of that stuff. And what 
is really important is that we get officers that come out of 
there that are critical thinkers and able to adapt in a complex 
world. So that is the end state we want. We want that product, 
and to date, we are very happy with it.
    As we go into the years ahead, we want to expand those 
programs as part of our talent and management and not contract 
them. We want to expand them, because we find that they are 
very valuable, and the environments we are going into are 
increasingly complex. So they are very valuable. We fully 
support it.
    Mr. Israel. Well, I would appreciate an opportunity to get 
with you separately to talk about how we can expand that and 
how we can contract some of the disincentives that occur to 
professional military education.
    [Clerk's note.--The Army G-1 offers the Director, Talent 
Management Task Force (Office of Deputy Chief of Staff, G-1) to 
meet with Representative Israel and other Members of this 
Committee to discuss talent management and answer all 
questions.]
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Israel.
    Mr. Crenshaw.

                      IMPROVED GRAY EAGLE PROGRAM

    Mr. Crenshaw. Thank you, Mr. Chairman. And thank you both.
    Mr. Secretary, let me ask you about the Improved Gray Eagle 
program. I know that we had the Gray Eagle and then got the 
Improved Gray Eagle. And it is obviously new and improved. And 
this committee recognized that, and I guess, last year, we 
supported 17 of those new Improved Gray Eagles. And as I 
understand it, there is still a need for another 12. But it was 
kind of demonstrated, but it is not in the budget this year. 
And I just wondered why you decided not to include that in this 
year's budget. Is that kind of a budget restraint? Are we going 
to see that unfunded priority? Tell us a little bit about the 
decision that goes into that.
    Mr. Murphy. Sure, Congressman, and I am going to have the 
chief add some, as well, comments. But, Congressman, we had to 
make some tough decisions in this budget. When we have, as I 
mentioned, the threats that face the American family right now 
in our Nation, we had to make some tough--and aviation, 
obviously, had to take a hit. And we had to divest, as you 
know, pass with the Kiowa warrior and other platforms of our 
aviation platforms.
    Be that as it may, we have made significant investments in 
aviation. There are some--about $400 million of that divestment 
in the aviation program have come under the Gray Eagle and 
other similar programs. But we felt that it was filled up, 
meaning we got the assets that we needed right now to execute 
what was in passing year--in past budgets. But I would like the 
chief to comment as well on this program.
    Mr. Crenshaw. Well, I appreciate it. And I appreciate your 
kind of directness, because sometimes when you--you know, 
obviously, you got tough choices to make. And it is easy to 
say: Well, this is all about national security, and it is 
everything we need. It is nice to hear somebody say: Look. We 
can't quite do everything we need to do. That means additional 
risk, and I am sure the general can talk about that, and I 
appreciate that, because we want to help you in every way we 
can. And we always like to get kind of the straight scoop.
    So, General, can you just tell us a little bit about that 
maybe additional risk that we might incur, you know, by doing 
that. What are the--just very briefly because I better go vote. 
You better go vote, ma'am.
    Ms. Granger. Yes, sir.
    General Milley. Yeah, just briefly, we made a conscious 
decision to accept risk in the Gray Eagle program. We like the 
program. It is manned/unmanned teaming. It is an ISR asset. But 
we had to make some choices. So you will see it in the UFR list 
that we submitted to the Joint Staff and the Secretary of 
Defense for their review. And it will come over to Congress. 
But it is an important program. We think it is a valuable asset 
to our fielded forces. We want it. But we had to make some 
tough choices, as the Secretary said.
    Mr. Crenshaw. I appreciate that.
    Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Crenshaw.
    Mr. Visclosky.
    And let me apologize to both of our witnesses today for 
what is obvious that we have got some votes that are causing 
some turmoil and disruption of this hearing. But we are so 
proud you are here, and we want to obviously focus on your 
needs and deliver for you.
    Mr. Visclosky.

                             SEXUAL ASSAULT

    Mr. Visclosky. Thank you very much, Mr. Chairman.
    I would like to talk about the issue of sexual assault and 
sexual harassment, hostile environment. We have talked about 
this issue for some number of years. Every year, whether it is 
the Army, other services, people--and I believe the witnesses 
are adamant about addressing the issue. And, obviously, it is a 
societal issue as well. But in May of 2015, in an independent 
study, RAND found that 14.49 percent of Active Duty women 
soldiers had been sexually assaulted. Almost 23 percent of 
Active Duty women soldiers reported experiencing a sexually 
hostile environment, and 23 percent were sexually harassed in 
2014. And we have been talking about this issue for some number 
of years.
    Noticed, and money isn't everything, that there is a 
reduction in the amount of money committed by the Army to some 
of these programs. And, apparently, there is great fear--the 
rationale as to why there are so many reports now is people 
feel free to come forward. But that is some years ago. But, 
apparently, there is still great fear about professional and 
social retaliation within these units. And so, despite the idea 
that you can now come forward, my sense is the idea that there 
is still not this pressure in units has not significantly 
dissipated. I am just in--I know you committed, but what is the 
Army doing to let people know this just can't keep going on?
    Mr. Murphy. Congressman, we are doing a heck of a lot. And, 
I mean, let me be very clear on certain things. First, this is 
a cancer in our society and our Army. But our Army needs to be 
better because we have a special trust and confidence of the 
American people. And we have initiatives which have been very 
successful, like Not in My Squad--that is led by Sergeant Major 
Dailey--who are getting after it at the squad level throughout 
our Army. Now, those results--I know you are talking about a 
RAND study, but the other studies and reports that have shown 
the good news with our progress with your initiatives, 
Congressman, has been incidents are going down; reports are 
going up. Reports are going up because women and men feel 
confident they can go through the chain of command and report 
instances that are unacceptable, that go against the very ethic 
of our Army of selfless service, honor, integrity.
    I will say one other thing. The initiatives that we 
invested in over these last several years have led our Army 
actually to be some of the industry leaders in this regard, 
that college campuses, over 200, are now adopting our programs, 
things like special victims counsel, special victims 
investigators, special victims' advocates, so that they feel 
that not only do they have to report, but they are there 
throughout the process to make sure we root out these bad 
apples so that they will never serve again, and some of them 
will go to jail for a very long time.
    As a former prosecutor, I prosecuted sex crimes when I was 
in the military, Congressman. I will tell you that it is night 
and day when I was in the Army 14 years ago than it is now. It 
is 10 times better than how it was over a decade ago.
    Mr. Visclosky. I would continue to encourage you.
    General Milley. Can I make a comment, Congressman, if 
that's okay?
    Mr. Visclosky. Sure.
    General Milley. As a, you know, commander of multiple units 
over the years, the focus of effort has got to be the chain of 
command itself. That is where good order and discipline is 
established. That is who has personal responsibility, legal 
responsibility, ethical responsibility, moral responsibility, 
but personal responsibility for the welfare of those they 
command, regardless of level. Company, battalion, brigade, it 
doesn't matter; you are personally responsible for that outfit. 
And you are personally responsible for the good order and 
discipline. It is clear. It has been unambiguous since 1775 and 
the foundation of our Army. So the nexus of solving the problem 
is enhancing training, educating, and holding accountable unit 
chains of command. It is unforgivable, unforgivable in my mind, 
to have sexual assault in a unit. To me it is fratricide. To me 
it is blue on blue. It is assaulting a fellow soldier. It is 
unforgivable. It has to be absolutely pursued through unit 
chains of command. They are doing that, and we are seeing the 
results of that, as the Secretary already mentioned. So chains 
of command I think are the key to success to me.
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Visclosky. Yes.
    Mr. Frelinghuysen. Let me associate myself with Mr. 
Visclosky's remarks. This is obviously a commitment of every 
member of this committee. Many of us just got through quite a 
remarkable academy review process. And I have to say: You have 
the best of America in your ranks, whether they are on their 
way to West Point or whether they are at the recruiting 
station. And so I do want to associate myself with Mr. 
Visclosky's feeling. And may I say, of those that I appoint to 
West Point and to the Naval Academy, I have to say for the 
record most of those young women are far better, have their act 
together than a lot of the young men that I interview. And to 
think that they would ever be in a system where this type of 
situation would continue to exist, of course, is totally 
unacceptable. And we are very confident from what you are 
telling us here today that this is--you are bringing the hammer 
down after, obviously, giving people due process and their 
rights within the military justice system. Thank you for----
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Yes.
    Ms. Granger, any questions?
    Ms. Granger. No.

                              END STRENGTH

    Mr. Frelinghuysen. We are going to welcome the chairman of 
the whole committee here, Hal Rogers.
    As he gets to his seat, General, I would like you to 
address the 12 recommendations in the National Commission of--I 
want you to comment on the plan issue of end strength, the 
recommendations there, and why that is important, given what is 
happening around the world in terms of conventional military 
responsibility, as well as the unconventional forces that we 
support.
    General Milley. Thank you, chairman. This goes--I believe 
the question, Mr. Chairman, is about the size of the Army, 
Total Army. First, let me say that the United States Army is 
not a small army. Right today, we are almost a million soldiers 
strong, broken out--and this budget takes us to an Army of 
980,000 strong with 450,000 in the Active, 335 in the National 
Guard, and 195,000 in the United States Army Reserve. And with 
that size force, the question is, size force to do what? So the 
size of a force is only relative to the tasks that you are 
required to do based on the National Security Strategy, the 
National Military Strategy Defense Planning Guidance and other 
strategic documents. Our analysis says that, in my view anyway, 
my military analysis says that that size force, as it 
translates into specific capabilities, such as ground maneuver, 
Brigade Combat Teams, air defense, ISR, and so own and so 
forth, that size force is able to do the National Strategy but 
at a degree of risk. So the question isn't an absolute question 
of how many numbers; it is a question of how much risk the 
Nation is willing to take relative to the tasks that are 
charged to the military in the various strategic documents.
    In my view, that risk is, for the Army anyway, for us to 
accomplish the tasks that we have to accomplish in the 
strategies, to do those tasks in accordance with the timelines 
that are basically laid out, and in an acceptable level of cost 
in terms of U.S. casualties, I think we are putting the Nation 
at increased risk. In a classified version, I will be happy to 
discuss the exact details of that risk and what level I have 
apportioned that risk. And I think that is well-known. I think 
that is well-known. And the Secretary of Defense and others 
have also testified to that. So, as the force gets smaller, 
risk increases. Having said that, we have to compensate for it 
by a highly ready force. So the size of the force is one factor 
but also the readiness of the force. So we have to compensate 
and mitigate with very, very high levels of readiness, high 
levels of responsiveness, and high levels of technological 
capabilities. The Secretary of Defense's guidance to us was to 
buy us capability over capacity. In other words, skills over 
size. Having said that, quality is not just based on that. 
Quantity has a quality all its own, as the saying goes. So the 
size of the force, the end strength, and the capabilities 
associated with it, the number of brigades, number of enablers, 
et cetera, is a concern. And it is really reflective of how 
much risk we are willing to take. And I have advised on what I 
think my military judgment is on that risk to the appropriate 
authorities.
    Mr. Frelinghuysen. Thank you, General.
    Pleased to recognize the full chairman of the committee, 
the gentleman from Kentucky, Mr. Rogers.

                                THREATS

    Mr. Rogers. Thank you, Mr. Chairman.
    And, gentlemen, welcome to the subcommittee. Your first 
time testifying before this group. We welcome you. Wish you 
well.
    As you well know, the threats facing our homeland and our 
troops grow more complex and unpredictable with each passing 
day: China seeking to build itself into a maritime power, 
purchasing aircraft carriers, submarines, amphibious assault 
capabilities, making territorial claims in the South and East 
China Sea areas. Russia continues to aggressively pursue its 
own interests, threatening the sovereignty and security of 
several states in the region, including the Ukraine and others. 
Middle East devolving further and further into chaos; women, 
men, children forced to flee their home countries to escape 
relentless brutality of ISIS and the Assad regime as well as 
Russian fighter planes.

                        COMBAT AVIATION BRIGADES

    With so much uncertainty and turmoil in so many different 
parts of the world, I remain concerned about our ability to 
respond to complex challenges in multiple regions at the same 
time as our force structure continues all the while to decline. 
According to the current plan, Army is set to reach an Active 
Duty end strength of 460,000 by the end of fiscal year 2017 and 
will endure a reduction of another 10,000 troops by 2018. You 
are planning to cut yet another combat aviation brigade over 
the next 3 years, leaving us with just 10 CABs in the Active 
Force.
    The first CAB eliminated was in my home State of Kentucky. 
Just last year, the Army deactivated the 159th CAB at Fort 
Campbell, which resulted in the loss of 2,500 personnel at that 
base. Nevertheless, the soldiers at Fort Campbell have 
weathered this unwelcome loss, are as ready and equipped as 
ever, and are deploying in the fight against ISIS this spring. 
The headquarters of the 101st Airborne Division deployed to 
Iraq just last month. Soldiers from the 2nd BCT will be 
deploying in May to join them. They have our support. And we 
wish them a safe return home.
    Responding to threats from our enemies, each with their own 
unique set of capabilities, is made increasingly difficult in 
light of these constraints in personnel and resources. Your 
charge is to maintain our ability to defeat these threats to 
our homeland and our national interests in any circumstance. 
And we know this is no easy task. We acknowledge the hardships 
rendered by the increasing demands on our soldiers. I look 
forward to having a thoughtful conversation about how this 
committee can equip you to lead in this very uncertain 
environment. This committee has every confidence in your 
ability to guide our troops in the midst of unprecedented 
challenges and tight budget constraints. You have our support. 
And we know that you will do what it takes to ensure the safety 
of our soldiers and our homeland. And we look forward to 
hearing your testimony today.
    I yield.
    Mr. Frelinghuysen. Thank you very much, Mr. Chairman.
    Ms. Kaptur.

                  CAPACITY OF U.S. ARMY VERSUS RUSSIA

    Ms. Kaptur. Thank you very much, Mr. Chairman. Welcome, 
General. It is good to see you again. And, obviously, acting 
Secretary the Army, our dear colleague, Mr. Murphy, Patrick 
Murphy, great to see you here today.
    I am going to ask the general a question about the 
capability of our U.S. Army versus the Russian Army. In sum, 
how do you look at these two capacities?
    General Milley. Right now, the Russian military, not just 
their Army but military writ large, has embarked upon a program 
of modernization that began at the beginning of the century 
sometime; I will peg it at around 2003, 2004, 2005, something 
like that. What they did was they saw what happened to the army 
of Iraq as a result of our capabilities in 2003. They went to 
school on our capabilities, and then they began a very rapid 
modernization. So they are reorganizing. They are bringing on 
new equipment. And this is not just army, across their entire 
military, and they brought in new doctrine.
    Their military today is significantly better than it has 
been since at least the fall of the Berlin Wall. They are quite 
capable. And they have got significant capabilities, which 
are--I prefer not to go into specifics here--but just to say 
that they are significantly more capable than they have been at 
any time in the last 25 years.

                 RUSSIAN PROPAGANDA EFFORTS IN UKRAINE

    Ms. Kaptur. I am very interested in their propaganda 
campaign across Ukraine and adjoining nations. What is the Army 
doing to counter organized Russian propaganda efforts in 
Ukraine, Eastern Europe and the Baltics, as well as even this 
country? And what might we do to help you?
    General Milley. The Russians are definitely being very 
aggressive in information space and through all means of 
national power, but specifically one of them is information 
that they are using very aggressively throughout Eastern 
European but not just Eastern European; in other parts of the 
world.
    What are we doing about it? General Breedlove, as you know, 
is the Commander of United States EUCOM and the SACEUR, Supreme 
Allied Commander Europe. He has a comprehensive strategy--
theater strategy--that he has worked up. And we are part of 
that. And, again, I would ask to defer any specifics to a 
classified session. But we, the Army, are contributing to his 
overall campaign plan in the information space and, more 
broadly, in other domains as well.

                NATIONAL GUARD STATE PARTNERSHIP PROGRAM

    Ms. Kaptur. Thank you. And I would like to ask for--in 
relation to the National Guard State Partnership Program, what 
additional authorities would you need to expand the SPP mission 
to include assistance to Ukraine, countermessaging efforts, 
helping with internally displaced persons, humanitarian 
mission, and, obviously, joint exercises?
    General Milley. Yeah. So what we are doing broadly--and it 
is in this budget; it is in the Secretary of Defense's budget--
with the European Reassurance Initiative, which he has 
increased 400 and some-odd times from the previous submission. 
The whole purpose of that is to get after what you are talking 
about relative to Russian aggression in Eastern Europe. We are 
taking it seriously. We want to get after it. So we are 
rotating not just State Partnership Program, but it is broader 
than that. We are going to rotate heel to toe a conventional 
brigade over there from the Active Force. We have already got 
the 173rd, and we have got the cavalry regiment in place there. 
And we are cycling through other capabilities and enabler type 
capabilities. In addition to that, we want to put prepositioned 
stocks of equipment up to division, division minus size, and we 
will put that over there.And then what we are asking for is 
additional 12304 moneys in this budget in order to 
operationalize the Guard. The Guard is a very key component of 
the entire program, not only in Europe but elsewhere in the 
world. But specific to Europe, they are fundamental. These 
State Partnership Programs have proved to be hugely valuable 
because they have got linkages and connective tissues into all 
of these armies of Europe. So it is a very valuable program. We 
have asked for additional moneys so we can get more man years 
to deploy the National Guard. It is not a question so much of 
authorities. It is a question of being able to fund National 
Guard and Active Duty for these exercises and rotational 
deployments.
    And I guess the last thing I would said is we have got the 
4th Division out of Fort Carson, Colorado, and part of their 
division headquarters over there also as an additional command 
and control know how to do that. But the whole series of 
initiatives are important, and we will ask for your continued 
support of those.
    Ms. Kaptur. I want to thank the chairman for his support of 
the upgrades and procurement for the Abrams tank. We had to 
fight that battle in this committee. They said we would never 
have another land war; we would never need anything like this 
again. And I appreciate what you have included in your budget 
request, General and Secretary, in that regard.
    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    Mr. Womack.

             NATIONAL COMMISSION ON THE FUTURE OF THE ARMY

    Mr. Womack. Thank you, Mr. Chairman.
    Great to see my friend acting Secretary Murphy. Worked with 
him on some other matters. And great to see you here and 
appreciate your service.
    General Milley, always great to see you.
    And let me just begin by saying, as I have noted 
previously, the understanding of the jointness between our Army 
team, that being the Army, the Reserves, and the National 
Guard, I think you have got a great handle on that, and I also 
appreciate that line of thinking on the State Partnership 
Program. Obviously, I am a huge fan. And while it is important 
that they are helping us develop relationships in other 
countries, very important countries, let's not forget also that 
the skill sets that are being improved by having our National 
Guard and reservists on duty in a lot of different key skill 
sets is pretty important too. And so I am grateful for that.
    I think Ms. Granger, before I came in, had already started 
the discussion. But it has been recently reported you have 
included several recommendations from the Commission in your 
unfunded priorities list. Can you give us an idea which 
Commission recommendations are included in the unfunded 
priorities list?
    General Milley. We--I shouldn't say ``we.'' I have 
submitted the UFR list up through the Mr. Chairman and the 
Secretary of Defense, and they are having an opportunity to 
review that right now. But your higher dollar cost items that 
are referred to in the Commission, specifically the aviation 
initiative. The aviation initiatives that are being recommended 
we think are sound and solid and make good strategic sense and 
operational sense. But they are very expensive to execute. So 
we will be hard-pressed to execute those initiatives in full 
without additional moneys. And so we put that into the UFR. 
That is the biggest one.
    Mr. Womack. There were--I can't remember how many--
recommendations. You have already indicated that there are 
several that are really good recommendations that are being 
massaged. But I think you said the number 13 that are too 
costly that--or bad ideas. I don't know.
    General Milley. There is a couple that--Congressman, there 
is a couple that I think my recommendation to the Secretary of 
the Army is that there is a couple of them that are probably 
not worthy of further pursuit. One of them is the deactivation 
of an Infantry Brigade Combat Team that is in there as a means 
of paying for the aviation. I don't think that is a good 
tradeoff. I think that is a bad tradeoff. If you look at what 
capabilities are being demanded by combatant commanders today, 
and that is not including some contingency and career with 
Russia or some other country. Just today, an Infantry Brigade 
Combat Team is one of the last things I would want to get rid 
of. As a matter of principle, when it comes to force structure, 
to me, the very last thing you want to give up is your foxhole 
strength, given it is your tooth-to-tail ratio. So your 
infantry, your armor, your combat aviation, your combat 
engineers, Special Forces: these are the units that are out 
there closing with and destroying the enemy. They are doing the 
core, the c-o-r-e, tasks of an army. That is the last 
capability that I want to give up. If I have nothing else in 
the Army, that is what I want. If you don't have infantry, 
artillery, armor, attack helicopters, Special Forces, then you 
don't have an army. We can have all this other stuff, but if 
you don't have that, you don't have an army. So the very last 
thing is my strong recommendation to the Secretary of Army and 
Secretary of Defense, the last thing to give up are combat 
organizations. And we have got to look hard at scrubbing the 
books and making some really difficult tradeoffs. But that is 
one of them, which was that recommendation about deactivating 
an IBC. I don't think that is a worthy idea and shouldn't be 
pursued any further.
    Mr. Womack. And I just want to give the acting Secretary an 
opportunity to throw in on that subject if he would prefer.
    Mr. Murphy. Congressman, I would love to throw in on it, 
because I think you know where I stand on it. There is no doubt 
that we have to be a Total Army. This is an army that is 
comprised--the majority--if you look at the U.S. Army soldier--
and that is a profile of that--most likely he is in the Guard 
or Reserve, 53 percent of our soldiers in the Guard and 
Reserve. So we have to act like one team. And we haven't been 
able to do these 15 years of continuous operations in Iraq and 
Afghanistan and elsewhere without the Guard and Reserve. So the 
Milley-Murphy team is absolutely: Meet them from the front to 
make sure that we get that message out there.
    Mr. Frelinghuysen. You guys have got your stuff together. 
We like it.
    General Milley. My mother's name is Murphy. We are actually 
cousins.
    Mr. Womack. You are probably going to trademark that now.
    Mr. Murphy. But, Congressman, I mean, whether it is the SPP 
program in Arkansas or Guatemala, or, Ms. Kaptur, you know, in 
Hungry and Serbia, where the Ohio National Guard is, or in 
Pennsylvania, where it is Lithuania, these programs are force 
multipliers for our partners. We can't do these engagements 
alone. You know, it just can't be--this Russian aggression 
which you are seeing right now, it just can't be the United 
States standing there by itself and the America taxpayer. That 
is why these programs are vitally important. They give 
confidence and assurance to our allies that they will not stand 
alone, that we will be there shoulder to shoulder with them to 
face down that Russian aggression.
    Mr. Frelinghuysen. Well, thank you, Mr. Womack, and you 
obviously include Kentucky and Maryland in those numbers too.
    Chairman Rogers and then Mr. Ruppersberger.

                          AVIATION REDUCTIONS

    Mr. Rogers. Thank you, Mr. Chairman.
    The President's budget claims to prioritize the 
modernization, quote, of the Army's helicopter fleet. Yet opts 
to cut the aviation procurement account by 35 percent, 2.1 
billion cut. The Army's requesting only 52 Apaches, down from 
the 64 of the current year. Additionally, the Army is funding 
37 fewer Blackhawks, 17 fewer Chinooks.
    Mr. Secretary, we certainly understand the challenges Army 
is facing to fund readiness within the budget caps. But it is 
difficult to understand why aviation has been so heavily 
targeted. The Army consistently tells us how critical aviation 
is to its ability to fight and participate in joint missions.
    What is the rationale for these inordinate cuts to Army 
aviation?
    Mr. Murphy. Mr. Chairman, as I said earlier, these are 
very, very difficult decisions. And when we look at what is 
going on in Iraq right now and Syria against ISIS, you know, 
the intent to taking back Mosul, you know, and the need to have 
aviation assets to do that, you know, pending requests from 
Iraq, the Iraqi Government, shows you an example of how 
important aviation is. But, Mr. Chairman, you know, I left this 
committee and this Congress 5 years ago. And when I left 5 
years ago, the budget for the Army was $243 billion. We are 
asking right now for a base budget of $125.1 billion. Aviation 
is our most expensive asset and one of our most, if not the 
most, expensive asset. Now we have asked in this budget for 
$3.6 billion for modernization. Now, again, that is, as I 
mentioned, you know, earlier, the light utility helicopter and 
the Gray Eagle, both of those end of production; that is a cost 
savings of $400 million. So that is less, and it is a part of 
that. But these were tough decisions. We wish we could make 
more investments in aviation. But, sir, we have to be 
absolutely focused on winning tonight, on the threats that are 
going on right now. You know, I am not trying to compare other 
services, but we are asking for $25 billion in modernization. 
The Air Force and the Navy, both of them are double that, their 
requests. We have mortgaged--in my opening statement, I was 
very clear with all of you and the American public: we are 
mortgaging modernization, our future modernization readiness 
for future fights, to focus on readiness today, because that is 
the mission that you as a Nation are giving us to do.
    Mr. Rogers. Well, the National Commission recommends adding 
up to 120 Apaches more. How does that play into your plans?
    Mr. Murphy. Mr. Chairman, we are working through this. We 
have a tri-commission with the National Guard, Reserve and 
Active Duty into one room. We are working through this line by 
line to make sure that we could look at those Commission 
recommendations; there are 63 of those recommendations. As 
Chief of Staff of the Army General Milley has mentioned, there 
are approximately 50ish that we have seen that we think we can 
implement, that are good ideas, that we have either already 
done or are about to do, that are low cost. There are two ideas 
that we feel pretty strongly that are not good ideas. But there 
are about a dozen or so that are good ideas, Mr. Chairman, but 
cost a lot of money that are--you know, the Commission came 
after the budget was proposed to the Congress. So it came 
after, and we are working hard, and we should get back to you, 
Mr. Chairman, and this Congress within the next several weeks, 
talk about 5 or 6 weeks, with our recommendations as an Army on 
how we could potentially execute on those expensive items and 
how we could do that.
    Mr. Rogers. You do not really think that we are going to go 
along with you and cut Army aviation by 35 percent? Do really 
believe that?
    General Milley. Let me make a comment, Chairman Rogers, and 
I appreciate--one of the things we are doing with aviation, we 
are having to stretch it out over time. It all comes down to 
money. It all comes down to where you want to cut and what the 
tradeoffs are. So would we like what the Commission wants to 
do? Roger that. We would love it, and we think it is a good 
idea, but they don't come with a checkbook. So that is why we 
put it in the UFR list. So if we don't cut--aviation is the 
most expensive subcomponent of the budget, if you will, for the 
Army.
    If we don't stretch that out, then we are going to end up 
sacrificing armor, infantry, which are in high demand. They are 
in equally as high demand as aviation. I am very familiar with 
the 101st, the 101st Aviation and cutting out the 159. And I 
was the deputy commanding general for the Screaming Eagles. I 
love Fort Campbell. I love Kentucky. And I love helicopters. I 
have been in a lot of firefights over the years, and my first 
call is to get an attack helicopter on the ground. Our G-1, 
right now, Jim McConville is an Apache helicopter pilot and 
flew a close air support mission directly for me. He saved my 
life, in fact. In fact, he probably regrets it today that he is 
a G-1 and not Chief of Staff of the Army. But there is nobody 
who loves aviation. I love Air Force aviation. I love fixed 
wing. I love that stuff. That is all good.
    Now, I am an infantryman by trade, and a special operator, 
and there is nothing more valuable to us on the ground than 
something that flies in the air, and there is nothing more 
lethal for the enemy, but at the same time, wars are won on the 
ground. So we have to maintain our infantry and armor and 
combat aviation and we think we are striking a balance in this 
particular budget.
    Mr. Rogers. Who will respond to the National Commission's 
recommendations? Who will decide what to accept and not accept?
    General Milley. I think you do, Congressman. I think the 
Congress does. Congress--or I believe, anyway--that Congress 
mandated the Commission. The Commission reported out to 
Congress. They gave us the recommendations. We are going 
through those recommendations with the staff, et cetera, and we 
will report out to the Secretary of Defense, and we will give 
the Congress the benefit of our recommendations of their 
recommendations and how we can actually execute them.
    Mr. Rogers. When will you do that?
    General Milley. We put a timeline; it is probably about 4 
or 5 more weeks. Last week was 6 weeks, so this week, it will 
be 4 or 5 more weeks. What the Secretary and I are doing is 
taking a brief every week on, you know, four or five 
recommendations, four or five. We are eating the elephant at a 
bite at a time sort of thing.
    Mr. Rogers. Well, we certainly need that----
    General Milley. Right, we recognize that.
    Mr. Rogers. But you would be prepared to change your 
request based on that conversation we are having, as far as 
aviation goes?
    General Milley. The budget request?
    Mr. Rogers. Yes.
    General Milley. I mean, you know, I have to be honest with 
you, Mr. Chairman, I think, given the top line that we have, 
given what was given to us as a top line, I think this budget, 
as written, is the most balanced budget to balance the 
modernization, the readiness, and the end strength of the Army. 
And we are taking risk. And I have expressed that risk as high 
risk, relative to the National Strategy and the ability to 
conduct operations, et cetera.
    There is no question about it. So that is the result of a 
top line. And, you know, I am openminded, and I am sure the 
Secretary is as well. And I am willing to talk about it. But we 
put a lot of work in the crafting of that budget, and we think 
it strikes about the right balance.
    Mr. Rogers. So you are not going to listen to the 
recommendations as far as----
    General Milley. We are listening, Mr. Chairman.
    Mr. Rogers. You are not agreeing to any of them apparently.
    General Milley. No, we are listening to the recommendations 
very closely. And we want to execute some of them, but they 
came with no money. I mean, there is no money associated with 
those. If there is extra money associated--if someone says, 
``If you do these recommendations, here is the money to execute 
them,'' then that is great. I think those recommendations are 
good recommendations.
    Mr. Rogers. Well, I doubt that there is any other element 
of our force that is being cut by 35 percent, is there? Who 
else is being cut by that amount?
    General Milley. Aviation took the biggest cut because it is 
35 percent of the money, because they are the most expensive 
part of the force. Everything from flying--plus, we are 
divesting capabilities. We are divesting ourselves with the 
Kiowas, and so on. So it is a cut, not so much in the numbers 
of aircraft or the capabilities that are on the ground; it is a 
cut in the money, and we are stretching it out over time. And I 
think it is a risk that we are going to go have to take.
    Mr. Murphy. Mr. Chairman, if I could just add something 
real quick, please. When I left 5 years ago, we had 45 Brigade 
Combat Teams. We now have 31 Brigade Combat Teams on Active 
Duty. So that is almost about--I don't have the math in front 
of me, but that is about a third of the cut as well. And that 
is over the last 5 years, sir.
    So the Army has made a lot of choices. We have cut 
headquarter staff over 25 percent for over $300 million in 
savings. I mean, we are getting after it, Mr. Chairman. There 
is a lot more work to do, but we have taken that Commission 
report, and we are adopting a lot of those things that we can 
adopt right now. And the other ones that cost money, we are 
working through it to see how we could get after it. And we 
look forward to working with you on that as well because we 
need your help.
    General Milley. And, Mr. Chairman, on the 11th Brigade that 
you mentioned, we don't want to cut that 11th Brigade. We want 
to keep that 11th Brigade, but there is no money to do it. That 
is the problem. There is a top line to it. And we think, given 
that top line, we are given X amount of dollars, and I want 
that Ferrari, but I can only afford a Volkswagen, so I am 
giving you the best-balanced Volkswagen that can minimally 
achieve--they use the words ``minimally sufficient.'' That is 
what is in that Commission. This budget, this PB provides, 
according to that Commission, a minimally sufficient Army. I 
agree with that. That is what we are buying. We are buying a 
minimally sufficient Army that has a whole bunch of risk 
associated with it in the international arena, with Russia, 
China, North Korea, Iran, counterterrorism, and defending the 
homeland. And it is all coming down to how much risk we as a 
Nation are willing to take, and that is the bottom line. But 
given the amount of money we were given, we think it strikes 
the best balance possible.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. We don't want to endorse Volkswagen too 
quickly these days, so maybe we will choose another----
    General Milley. Bad choice.
    Mr. Frelinghuysen. Yeah. Mr. Ruppersberger and then Mr. 
Cole.

                        CIVILIAN FORCE DRAWDOWN

    Mr. Ruppersberger. Yeah, okay. Well, General, thank you for 
being here.
    Acting Secretary Murphy, we served on the Intelligence 
Committee together. And I should have disclosed this: I was his 
mentor when he first came in. So don't mess up, because it 
reflects on me too.
    Mr. Ryan. And he got appointed anyway.
    Mr. Ruppersberger. Yeah, that is a good point. There is a 
lot of talk, and I won't be repetitive about the drawdown, and 
the chairman has dealt with it. And I will say this: I think, 
you know, what we have been going through with sequestration 
and the cuts, and I believe very strongly like bringing down 
450,000 is a historically low number for the military, and I 
believe Congress has made some serious flawed assumptions about 
future levels of security, and we are seeing other countries, 
Putin, whatever, taking advantage of that right now. I think 
that most of the people who are specialized in national 
security will say these are some of the most dangerous times 
that we have. And I do want to say this, that my friends on the 
other side of the aisle in this committee have done a heck of a 
lot to maintain where we are now as far as our national 
security, because most people don't understand how serious this 
is. And the testimony over and over about Russia and China, and 
if we don't start dealing with some of these issues, we will be 
weaker than they are, and that is not where we want to be with 
this country. And if the people in this country knew that, they 
wouldn't want that either.
    I want to get into the issue, again, of the drawdown. But 
there is another area. I have Fort Meade, Aberdeen, NSA, and 
all in my district. So I have a lot of Army in my district. And 
one of the things that hasn't been talked about--but I think is 
really relevant--is the civilian force, who really do a lot. 
There is a lot of brain power there, people that assist our 
military. And it is very important and very relevant.
    And I just wonder what actions the Army is taking to ensure 
that this institutional knowledge is being passed on to the 
remaining workforce, number one. And what is the Army doing to 
attract highly skilled young professionals to fill this 
institutional gap in the Army workforce? Again, I am talking 
civilian now. But any base that we have, we have a lot of 
civilian workforce, and we need them, but we need the younger 
generation coming in. So are we working on that? Are we 
focusing? Are we training? What are we doing in that regard?
    Mr. Murphy. Well, Congressman----
    Mr. Ruppersberger. Now don't mess up there.
    Mr. Murphy. You know, part of this is that we have had to 
make tough decisions. We have let go 37,000 civilians over the 
last several years. And mostly that was through attrition. And, 
you know, again, the Army team isn't just folks who wear a 
uniform like I used to do. Now I am part of the Army team now, 
and there is a quarter million civilians in our Army that 
believe in the same values, that live those same values that 
our soldiers live by, of selfless service, of honor and 
integrity. And they work their tails off to keep our Nation 
safe. They are in those places like Aberdeen and NSA that are 
developing the next technology so our soldiers do not have that 
fair fight that we mentioned.
    But, again, with these budgets come tough decisions. And as 
the acting Secretary of the Army, we are making them. Now, 
luckily, we have been able to make them mostly through 
attrition in the civilian workforce. But the message is very 
clear that we need them as part of the Army team, as part of 
our family, because they are out there every day--sometimes 7 
days a week, you know, in those labs and doing what is 
necessary to get the next weapon system or the next night 
vision goggles and get them invented to give us the technical 
and the tactical advantage over our enemy.
    So it is something that I am very concerned with, but we 
are taking the appropriate measures to balance that workforce 
to make sure that we have the best Army team that we need.
    Mr. Ruppersberger. General, do we have a plan for the new 
generation coming in, retraining, replanning, taking advantage 
of some of the brain power that is being either cut or retiring 
from attrition?
    General Milley. Talking civilian?
    Mr. Ruppersberger. I am talking about civilians.
    General Milley. I will have to check into the details of 
the civilian advanced education programs, et cetera, that we 
talked about earlier with the uniforms. I do know that we pay 
close attention to training and working the education and 
trying to bring in the right talent at the right time. As the 
Secretary said, we have had to cut significantly, not only 
uniform forces over the last 4, 5, 6 years, but also the 
civilian force. But I will get back to you on the education and 
the talent management of the civilians.
    [The information follows:]

    As the Secretary said, we have had to cut significantly, not only 
uniform forces over the last 4, 5, 6 years, but also the civilian 
force. As the Army evolves, we are undertaking significant changes in 
the way we recruit, manage, and develop our civilian work force. We are 
focusing on preserving the most important capabilities of this critical 
element of our Total Force. We have improved training, educational, and 
experiential opportunities for the Civilian workforce. We have aligned 
the Civilian workforce into 31 Career Programs, which provides a 
defined path for career development and progression that is based on 
required competencies. The Civilian Education System (CES) is the 
Army's core leader education program for Civilians. Through CES, the 
Army offers progressive and sequential leader development courses for 
all Army Civilians to take throughout their careers. The Army Civilian 
Training and Education Development System (ACTEDS) Intern Program 
provides for a strategic succession plan to replenish the Civilian 
workforce while maintaining the requisite skills required for 
functional proficiency. Program re-engineering efforts have resulted in 
improved hiring execution, with program goals to hire 1,000 Interns 
annually. About fifty percent of our Intern hires are within Science, 
Technology, Engineering and Mathematic fields, and about half of our 
Intern hires are Veterans. We also conduct functional training to 
provide Army Civilians the opportunity to take planned and coordinated 
courses of study in scientific, technical, mechanical, fiscal, 
professional and other career fields. The results improve individual 
and organizational performance that enhance achievement of Army 
missions. Additionally, our focus on leader development, improvements 
to the Civilian Education System, and continued maturity of the Senior 
Enterprise Talent Management (SETM) Program and Enterprise Talent 
Management (ETM) Program are designed to build a more professional and 
competency-based civilian workforce. Together, our programs will 
develop and maintain a cadre of senior Civilian with enterprise-wide 
perspective who are capable of being adaptive and agile Army leaders.

    Mr. Ruppersberger. Thank you. Okay.
    Mr. Frelinghuysen. Great. Thank you.
    The gentleman from Oklahoma.

                      PALADIN IMPROVEMENT PROGRAM

    Mr. Cole. Thank you very much, Mr. Chairman.
    First, I wish our friend from Maryland had been in our 
conference today. I wish some of our budget hawks would have 
heard what you had to say. And it would have been helpful.
    And Mr. Secretary, it is always good to see you back. You 
and Secretary McHugh have now established a home for retiring 
Members there at the Secretary's job, and done it in a 
bipartisan fashion.
    Mr. Murphy. Thanks. I am only 42, so I don't think I will 
retire for a couple of decades.
    Mr. Cole. Well, it is nice to have somebody in your spot, 
honestly, that understands our world here too. It really was 
very helpful with Secretary McHugh, and I know will be with you 
as well. I have two just specific questions that I wanted to 
pose to you, and both of them, again, are parochial, quite 
frankly. I have Fort Sill in my district so I am interested, 
number one, in the progress in the Paladin Modernization 
Program, the PIM program. Where are we at? Is it on track? Are 
you satisfied with the results that are coming out?
    And, second, you know, obviously, one of the high-use 
assets that the Army has are Patriot batteries. We have got 
those deployed in a lot of places. So, one, I want your 
assessment of what we have, and the use. And, two, where are we 
at? We are going to have more and more threats in this area, as 
we know, going forward, so as you are anticipating, what do you 
see coming down the road?
    General Milley. Yeah, well, two things. Paladin and 
Patriot. We are satisfied with the Paladin. You know, the 
entire--we think it is on track, and we think it is value 
added. And the entire Army modernization program writ large, 
whether it is aviation, whether it is artillery, whether it is 
ground vehicles, et cetera, as a broad statement to 
characterize the whole modernization effort, we are taking 
existing systems and existing technologies and incrementally 
improving them. And that is what I think is going to be the 
Army modernization program over about the next 5 to 10 years. I 
do not see, and I have looked at this thoroughly, breakthrough 
technologies that are going to change the character or the 
nature of ground warfare in the next 5 to 10 years.
    When you get to 10 years and beyond, though, I think there 
are fundamental technologies out there that will radically 
modernize ground forces in the conduct of war. That is beyond 
10 years. But from now to 10 years, this budget, and the FYDPs 
coming up, our modernization program writ large is essentially 
a series of spinoffs to incrementally improve lethality and 
survivability and mobility, et cetera. That is what we are 
going to see, I think, for the U.S. Army and ground forces. 
Specific to Paladin, I am very comfortable with where it is at. 
Where it is on track and the improvements that are being done. 
And your note on Patriot is well appreciated. The Patriot force 
is one of our highest stress forces. As you know, there is 
seven battalions of Patriot deployed globally right now in some 
high-threat areas. They provide a critical function to not only 
defend U.S. assets and U.S. infrastructure, U.S. troops, but 
also those of our friends and allies. So Patriot is critical. 
We have got 15 of those battalions on the books, and we have 
got 5 THAAD companies. We are trying to expand and improve 
Patriot, and a lot of that has to do with the missile itself. 
And we are trying to add additional THAAD batteries, but those 
are critical for the integrated air defense system in both 
Europe, Asia, and Central Command AORs.
    Mr. Murphy. Congressman, if I can just add to, I echo and 
agree with the chief's comments. I do want to say, when you 
talk about the Patriot system, this is one of the most globally 
engaged teams that we have. Over seven of them are deployed. 
Half of them are deployed, so it is one-to-one dwell time. I 
mean, the OPTEMPO of those units and those teams are 
unbelievable and really breakneck. And as the chief mentioned, 
two are assigned in station in Korea, one in Japan, one in 
Germany. Three battalions are allocated throughout the CENTCOM 
area in the Middle East. But when you talk about, when I said 
to Chairman Rogers about modernization, you know, the Patriot 
modernization program was status quo. I mean, this year I am 
asking, we are asking in this budget for $154 million. That is 
a decrease of $2 million. Last year, it was $156. So, again, we 
are mortgaging modernization to meet readiness right now, 
Congressman. And we can't risk anything else when it comes to 
readiness. We have to win tonight.
    Mr. Cole. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Mr. Ryan and then Mr. Diaz-Balart.

                             SUICIDE RATES

    Mr. Ryan. Thank you, Mr. Chairman.
    Secretary, great to see you.
    General, great to see you.
    One of the issues that I know this committee is very 
concerned about is the continued challenge with suicides. And I 
saw in the testimony that the Army only has 1,789 of the 2,090 
behavioral health providers required to deliver clinical care 
and have folks embedded in the brigades. What kind of impact is 
that having on the issue of suicides?
    Mr. Murphy. Congressman, you know, you have been a leader 
with mindfulness and some other issues to get after it, and 
when you look at our warriors, part of that resiliency that we 
talked about is to make sure they have the mental resiliency. 
And we have redoubled our efforts in that.
    Now, I will say, you know, 10 percent of the Department of 
Defense budget, we look at 10 percent of their budget is in, 
you know, medical resource or medical readiness. That has 
remained flat. Our expenses, our outputs have been flat for the 
last 4 years because of the efficiencies that we created within 
the services underneath the Department of Defense. I will also 
say that overall, I mean, we are the fifth largest healthcare 
system in the country, the fifth largest. But when you look at 
right now, 10 percent of our forces are nondeployable. That is 
over 100,000 soldiers; 80 percent of those 10 percent are 
because of medical reasons. So when you look at things like 
mental, you know, embedded behavioral health teams, we have 
doubled down on these teams. When I was at Fort Hood just a few 
weeks ago, these teams are trying to break the stigma of mental 
resiliency. They can go into those mental health providers. 
They can go in, and it is okay to go in there ahead of time and 
be proactive.
    Having them in those units at our elements at the brigade 
level are critically important, and that is because the 
Congress provides the funding and everything after it, but 
those 59 embedded behavioral health teams at the brigade level, 
we need to do more. We are trying to do more, and with your 
help, we will be able to do more.

                APACHE BATTALIONS FOR THE NATIONAL GUARD

    Mr. Ryan. I appreciate that.
    General, so evidently, the four battalions for the National 
Guard with 18 Apaches, it is my understanding that there is 
some concern within the Guard that the Guard may opt to split 
up those four battalions among numerous States, and do you 
think this will hamper their ability to offer a viable 
capability, given the strain this will place on their efforts 
to train together?
    General Milley. Yeah, I haven't heard the guard 
recommendation yet, Congressman, to be candid. So I don't know 
what their course of action is for the distribution of the 
bases of issue to do that.
    Splitting them up, though, on the surface of it, not 
knowing what their recommendation is, the whole idea of Apache 
is to keep them consolidated so they can train as a unit, fight 
as a unit, and have combat effects on a battlefield as a unit. 
If they were to be split up into penny packets around a wide 
variety of States, that could be problematic for the actual 
operational employment and the training value. Now, there may 
be workarounds for that. I don't know. I would have to wait and 
see until I hear the course of action.
    Mr. Ryan. I appreciate that.
    Mr. Chairman, I just want to say that hearing things like 
phrases like ``high risk,'' ``minimally sufficient Army,'' 
``mortgaging modernization,'' ``Volkswagen,'' I mean, these 
are----
    General Milley. They get to hear it twice now----
    Mr. Ryan. That has been memorialized, General. Sorry. Each 
of those issues and the behavioral health issue, these are very 
concerning issues, and there is an 800-pound, you know, 
elephant in the middle of the room: we need money.
    We need money to do this. And I just say very respectfully, 
as we sit on a committee that is very bipartisan, we need 
money. And the American people are going to look to us either 
in the next year or the next 10 years because a lot of this 
stuff is projected out. And in 10 years, the emperor has no 
clothes, and we don't have the equipment, the capabilities that 
we need. And not to get too political, but we have a very high 
concentration of wealth in this country. There should be no 
reason why we can't ask the 0.01 percent of the people in the 
country to help us address the national security issues in the 
United States. That should not be beyond the capabilities of 
this committee to ask and put forward to the American people 
exactly what these challenges are, exactly what they cost, and 
say: Hey, we need a little bit of help from people who are 
doing really well. And if you want the stock market to keep 
going up and if you want the lanes for shipping and commerce to 
continue to be protected, we need the money to be able to do 
that. And we are going to go back and forth for how many years 
until we recognize that we need a little more dough to make 
this happen.
    So I don't mean to get on the stump, but this is very 
concerning to me to hear the general, the Chief of Staff of the 
Army, talk about very high risk and a minimally sufficient 
Army. That is not the United States of America. I yield back.
    Mr. Frelinghuysen. Well, respectfully, we also need to know 
what we are doing around the world, and that is why Congress in 
a bipartisan way has looked for what the Defense Department's 
plans and strategies are all about and how they are going to be 
implemented. And we are here today, obviously, to support the 
Army's important role.
    And there is the issue of accountability. We have some 
systems that we work on here with all of our services where it 
is incredible. We talked about acquisition and procurement, and 
our committee worked very closely with Chairman Thornberry. You 
know, the taxpayers also have a right to know that--you know, I 
was involved with the Future Combat Systems, you know. I mean, 
I defended it, but my God, we have had some enormous expensive 
failures. We have been able to draw from some of those 
technologies, but in reality, a lot of money was wasted. So I 
share your feeling. I am not sure about the tax issue, but 
certainly, I feel your feeling that we do need more money 
rather than less.
    Mr. Diaz-Balart.

                 ARMY'S ROLE IN THE SOUTHERN HEMISPHERE

    Mr. Diaz-Balart. Thank you, Mr. Chairman, General, 
Secretary.
    You know, in this time of the tight budgets, it coincides 
with, frankly, the enemies of freedom of United States, 
frankly, being emboldened around the planet, whether it is 
Asia, whether it is Europe. One of the areas that doesn't 
usually get a lot of public attention is our own hemisphere. 
And without the U.S. military, the Army Special Forces, et 
cetera, there is no doubt that we would have not seen the 
success, you know, whether it is Colombia, for example, or you 
name it.
    So let me talk a little about where you see--whether it is 
footprint or goals for this hemisphere, because again, in this 
hemisphere, we are now seeing an emboldened Cuban regime. Now 
we know that Hezbollah--confirmed Hezbollah, we have known it 
has been in Cuba. But now that is public. We, for the first 
time in, what, a generation, have seen potentially Cubans even 
helping now in Syria. We see the strengthening ties with Iran, 
with Russia, with China.
    So, despite what many would like the perception to be, the 
reality is a lot different. So I just want to throw out kind of 
an open-ended question. How do you see our involvement in the 
hemisphere? How do you see our relationships, and how do you 
see the Army's role in those relationships and that potential 
involvement?
    General Milley. Thanks, Congressman. The Army is very 
heavily involved in the Western Hemisphere writ large: Canada 
to the north, Mexico to the south, the Caribbean, Central 
America, South America.
    I had an opportunity travel not too long ago to travel to 
Colombia and participate in the Combined Chiefs of Staff of all 
of the Armies of the Western Hemisphere. It got great reports. 
U.S. SOUTHCOM, in particular, U.S. Army South is leading the 
way, and those Armies are very thankful for our efforts.
    The threat in the Western Hemisphere is there. It is not as 
intense as it is elsewhere. But we are mindful of what is 
occurring in Mexico with the counternarcotics campaign and the 
fight in northern Mexico. I do point out to almost everyone I 
talk to about terrorism and counterinsurgency. The success that 
has occurred in Colombia, that is an incredible success story. 
It is probably the best counterinsurgency campaign that I am 
aware of. And I have studied most of them. And it is an 
incredible effort by the Colombian people, the Colombian 
military, and supported actively and consistently over time by 
the United States with a relatively small number of forces. And 
they have successfully, you know, dealt with that insurgency 
and they are pretty much, at least my estimate, is nearing the 
end game in bringing that to an end. It is an incredible story, 
and it is something worth studying in that detail. But we are 
heavily engaged throughout the Western Hemisphere.
    Mr. Diaz-Balart. And you don't see that changing any time 
soon. I mean, I know that, in SOUTHCOM, General Kelly has 
mentioned many, many times to I think most of us, or all of us, 
that focusing on narcotrafficking for example, or human 
trafficking, that he can see a lot of activity taking place, 
but he can only, in essence, try to go after about 20 percent. 
And it is literally lack of resources of having, potentially--
--
    General Milley. Right.
    Mr. Diaz-Balart [continuing]. You know, helicopters or a 
ship they can land the helicopters on, et cetera. So, you know, 
how do you see our future plans there?
    General Milley. Right. For the Army, the Army's commitment, 
we have got capabilities committed into South American, in 
Central America, et cetera. I do not see, unless something 
radically changes, given the size of the Army, and where we are 
at, and what our global commitments are, I do not see a radical 
increase over beyond what we have right now coming up into the 
future.
    Mr. Diaz-Balart. And, General, how about a decrease?
    General Milley. No, I don't necessarily see a decrease 
either. I think it is, for SOUTHCOM, Army support of SOUTHCOM, 
I see pretty much a steady state.
    Mr. Diaz-Balart. All right, thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Judge Carter, the center of military might, right, in 
Texas.

                 ARMORED BRIGADE COMBAT TEAM READINESS

    Mr. Carter. Yeah, of course, a great place.
    Mr. Secretary, General, thank you for being here. I 
apologize for being late. I am the chair of the subcommittee on 
the defense of this Nation at our borders, and I had a hearing 
with the Coast Guard that I had to at least get kicked off so I 
could come see you. And, of course, everything centers around 
Fort Hood as far as I am concerned.
    General Milley.
    General Milley. As the former commander of Fort Hood, yes, 
sir.
    Mr. Carter. You have been there. With the announcement of a 
rotational ABCT deployment to Europe, we will now have three 
out of the nine Active Armored Brigade Combat Teams deployed 
around the world at any given time. If we engage with three, 
reset three, and build readiness in three as the next 
rotational set, what options are available to the Nation for 
future contingencies? What challenges and risks should the Army 
have suddenly if they are asked to do something? I mean, 
everybody is either going to be training, resetting, or 
deployed. When we have got places like Eastern Europe and the 
Korean Peninsula, which are bubbling all the time, what is the 
concept that keeps that working?
    General Milley. Thank you, Congressman. You know, we have 
got nine Armored Brigade Combat Teams in the regular Army. And 
there is five more in the National Guard. So one of my 
initiatives that we are working on is, again, operationalizing 
the National Guard. That is a very important initiative. We 
have got to get that going. We have got to bring the Guard into 
resourcing of these various rotations. And, of course, the 
Guard wants to do that. So it is a function of money, and so on 
and so forth.
    So we are going to do that, so the Guard is one of the 
options to do that. Secondly, you know, if a contingency were 
to kick off, you know, one of these other contingencies that 
were significant, I mean, the President, SecDef would have to 
be making some significant decisions as to the strategic 
tradeoffs. So and I am very confident we would do that as a 
Nation. We would say: Okay, you are not going to do that 
mission; you are going to do this mission. So you are going to 
have to make those choices. And another thing we are taking a 
look at, Congressman, is I have got a study ongoing through 
TRADOC to determine whether or not we need to add, convert one 
of our existing brigades to an armored brigade or perhaps 
hybrid brigade as we go into the future. That study is not in 
yet. I don't expect it in for a few months.
    But there may be a need for additional armored forces, 
given the nature of the world and the direction the world seems 
to be going right now. So we are taking a look at that. No 
decision has been made. That probably wouldn't--that definitely 
wouldn't be a PB17. That would be something in the POM 2018 or 
2019 that we would have to take a look at it. But I am 
concerned about the OPTEMPO of the armored forces. They are in 
high demand.
    Mr. Carter. And in this last round of cuts that came out, 
we had, because we are the home of the armor, we were told that 
we are not reducing the number of BCTs you have got, but they 
did come in and take one infantry company out of each BCT.
    General Milley. Right.
    Mr. Carter. Now, and that is in the regular Army. I assume 
the same adjustment is made in the Guard or not?
    General Milley. No, we did--correct, not the Guard. We did 
that in order to rebalance all of the brigades throughout the 
Army. That wasn't targeted at one installation or another. That 
is to take those companies out in order to maintain Brigade 
Combat Team and battalion force structure.
    Mr. Carter. Well, the reduction of that infantry company, 
is that in light of our just prior conversation of only nine 
armored----
    General Milley. Yeah.
    Mr. Carter [continuing]. Does that also put any kind of 
limitation on us to be able to respond to an incident somewhere 
in one of the hotspots as you just described? It looks like to 
me there are less soldiers there.
    General Milley. So, on a given--I mean, we had to cut to 
get the numbers down. And that is where we decided to cut, was 
to take out those companies out of those battalions and out of 
those brigades. So what it does is, it is reducing the size and 
capability, the capability of a given unit, battalion or 
brigade by a single company out of the 12 that they have in the 
brigade.
    Mr. Carter. It is also reducing the lethality also. They 
are less lethal. Right?
    General Milley. It reduces lethality. It reduces 
survivability.
    Mr. Carter. And I bring all of this up not in any form of 
criticism.
    General Milley. Sure.
    Mr. Carter. But as an example of pointing out what you are 
having to deal with----
    General Milley. Right.
    Mr. Carter [continuing]. In looking at our ability to fight 
the enemies of our Nation--
    General Milley. Right.
    Mr. Carter. [continuing]. Within the constraints of what we 
are having to deal with in this committee.
    General Milley. Right.
    Mr. Carter. And I can say without reservation on both sides 
of the aisle: we are concerned very much about what is 
happening to the Army because, in reality, you don't have any 
big toys to put in the mix. You have got people.
    General Milley. Right.
    Mr. Carter. And the less people, the less lethal you are. I 
am hoping we are going to figure out a way to grow the Army. 
Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Judge Carter.
    Mr. Visclosky, and if there are others that have some 
questions, if you could just let me know, so we can round the 
bases and look toward the end or adjournment.

                         INSUFFICIENT RESOURCES

    Mr. Visclosky. Mr. Chairman, I will be very brief, and I 
think Judge Carter led me into my editorial comment, which I 
try to avoid in these settings. There are very serious people 
on this committee trying to solve very serious problems. There 
is a lack of resources. Until one political party in this 
country comes to grips with the theory and the fact that we 
have to slow entitlements, we are going to have a deteriorating 
conversation with next year with you because you don't have 
enough resources.
    Until another political party in this country comes to 
grips that we can't starve this Nation of investment dollars to 
invest in our future through additional revenue, we are going 
to continue to have this conversation with you and others 
because of a lack of resources. And I would hope that both 
those parties come to grips with both those issues, so we can 
make sure you have the resources for not only the helicopters 
that the chairman alluded to but the training for those who fly 
them so that they are as safe and as effective as possible. And 
I hope that day comes much sooner than later, because the Judge 
is also right: we need more resources.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, any other member comments?
    General Milley, you made reference earlier that the 
Russians--and I presume you put the Chinese in the same 
category--have been looking at what we have been doing in the 
Middle East for quite some time. I think you know one of our 
commitments in this committee is not only to military 
readiness--and certainly to yours--but the whole issue of ISR. 
We haven't talked much about it, and you made reference to the 
fact we can't often talk about some of those things, but we 
certainly are keeping an eye, as I am sure you are, on what is 
happening in Ukraine and Russian capabilities. A lot of those 
capabilities are in open sources. We trust and hope on this 
committee that as we look to see what the Russians an Chinese 
are doing--and I am not suggesting, you know, going to war 
here--that we always keep an eye on the development of those 
capabilities, and--this is just my personal perspective--if you 
look at the construct of the budget we received here, it tends 
to be Russian- and Chinese-centric, but we also have the 
ongoing fight, which the Secretary mentioned. I mean, there are 
a lot of things happening in Mosul. And if you look at what we 
did in Ramadi, it was certainly done with our advanced 
technology and air support, and in reality, there is not much 
left of Ramadi, and Mosul is even a more difficult target.
    But the committee is bound and determined to give you the 
ways and means, as best we can within the construct, to address 
Russian and Chinese aggression, but we have, of course, this 
cancer spreading around the world: ISIL, or the Islamic State. 
And you need the resources there, conventional resources, and 
what we call resources for unconventional purposes. And we are 
bound and determined to deliver that for you.
    So I want to thank you on behalf of the committee--I know 
Mr. Visclosky and all members--for the incredible work you do, 
and the men and women you represent, all of whom are 
volunteers.
    We stand adjourned. Thank you.
    [Clerk's note.--Questions submitted by Mr. Rogers and the 
answers thereto follow:]

                           Aviation Accidents

    Question. General Milley, last December the Army grounded all 
aircraft in active duty units for several days in response to several 
fatal helicopter crash incidents. 8 soldiers were lost in these 
accidents, 2 of whom were stationed in Fort Campbell, Kentucky. I 
understand the Army reviewed the situation to determine the cause of 
the incidents and prevent further tragedies like these from occurring.
    Is this trend due to faulty equipment or insufficient training?
    Answer. The FY 2016 Army Aviation accidents resulting in fatalities 
are still under investigation, to include those that occurred at Fort 
Campbell, Kentucky; Fort Hood, Texas; and in Korea. Since March 2014, 
materiel failure was the primary cause in 3 (11 percent) of 27 Class A 
Army Aviation flight accidents and human error was the primary cause of 
22 (81.5 percent). Historically, 80 percent of aviation accidents are 
caused by human error. The Chief of Staff of the Army directed a 
holistic review of Army Aviationo in December 2015. This team is 
examining aviation training strategy, funding, execution, and 
assessment. They are expected to submit their initial findings to the 
Chief of Staff of the Army by March 31, 2016. The timeline for release 
of the final report is pending.
    Question. What was achieved by the recent training review and will 
it have an enduring impact?
    Answer. In December 2015, the Chief of Staff of the Army directed a 
holistic review of Army Aviation. This team is examining aviation 
training strategy, funding, execution and assessment. The review team, 
comprised of Army Aviation experts, is led by LTG Kevin Mangum. 
Although the timeline for release of the final report is pending, they 
are expected to submit their initial findings to the Chief of Staff of 
the Army by March 31, 2016. Their work will undoubtedly have an 
enduring impact on Army Aviation.

                              Flying Hours

    Question. General Milley, the National Commission on the Future of 
the Army noted that the Army has scaled back the amount of flying hours 
for active and reserve components and recommended increasing them.
    Will this make a meaningful difference in the safe operation of 
Army helicopters?
    Answer. Due to budget constraints, the Army reduced the number of 
flying hours for aircrews. In December 2015, the Chief of Staff of the 
Army directed a holistic review of Army Aviation. This team is 
examining aviation training strategy, funding, execution and 
assessment, to include flight hours and their relationship to readiness 
and safety. Although the timeline for release of the final report is 
pending, the review team is expected to submit their initial findings 
to the Chief of Staff of the Army by March 31, 2016. Their 
recommendations, which may include additional flying hours, will inform 
the Army's broader approach to aviation readiness and safety.

    [Clerk's note.--End of questions submitted by Mr. Rogers. 
Questions submited by Mr. Cole and the answers thereto follow:]

                               ISR Assets

    Question. General Milley, I understand the Army owns 29 large 
aerostats (formerly PTDS) and 29 medium aerostats (formerly PGSS). 
However, only a few (four) large aerostats have been deployed in the 
CENTCOM area of operations.
    What are the barriers preventing the full use of ISR assets?
    Answer. At the height of the war the Army had 124 aerostats [65 
Persistent Threat Detection Systems (PTDS); and 59 Persistent Ground 
Surveillance Systems, (PGSS)] deployed to Afghanistan. Currently the 
Army has 18 active aerostats and one spare deployed to the U.S. Central 
Command area of operations (13 active PTDS, one spare PTDS, and one 
active PGSS in Afghanistan; four active PTDS in Iraq). We have one PTDS 
in storage in Kuwait and another one in storage in CONUS, both awaiting 
the Combatant Command's decision on where to deploy them in Iraq. We 
also have 47 aerostats (20 PTDS and 27 PGSS) remaining in CONUS storage 
that are available for Contingency Operations. The Army made a decision 
in 2013 to retain the aerostats in order to support future deployment 
requirements. Upon a validated requirement and associated funding, the 
Army will deploy as many of them as required. The aerostat program is a 
government-owned, contractor-operated operation.
    Question. Why hasn't the Army deployed more aerostats in the 
CENTCOM area of operations?
    Answer. The Army is fielding all of U.S. Central Command's current 
aerostat requirements. If more are requested and validated, the Army 
will deploy them.
    Question. Why aren't CENTCOM deployed aerostat assets equipped with 
wide area motion sensors?
    Answer. U.S. Central Command (CENTCOM) has prioritized Full Motion 
Video (FMV) capabilities in their aerostats over wide area surveillance 
(WAS) sensors. Currently, all CENTCOM aerostats in Afghanistan and Iraq 
are fitted with FMV; three of the aerostats in Afghanistan are also 
fitted with WAS. Two aerostats in Iraq will also be fitted with WAS 
once the authorization to operate (ATO) is finalized. Both WAS sensors 
for Iraq are ready for shipment, but awaiting the ATO. CENTCOM 
determines the sensor array in the aerostats based on mission 
requirements and priorities.
    There are weight limitations in the aerostats and an operational 
tradeoff must be made when adding WAS. When WAS is added, one of the 
FMV cameras must be removed. CENTCOM is reluctant to add WAS at the 
expense of their higher-priority FMV requirement. If CENTCOM requests 
additional WAS for deployed aerostats, we have enough systems in our 
CONUS storage facility that we can immediately make them available for 
deployment and would make their delivery a priority.
    Question. Who makes the decision to allocate or deploy ISR assets 
and the sensors on the aerostats?
    Answer. U.S. Central Command makes the request. The Joint Staff 
validates it, and the Army sources it.

    [Clerk's note.--End of questions submitted by Mr. Cole. 
Questions submited by Mr. Aderholt and the answers thereto 
follow:]

                                 ABCTs

    Question. The Army has only nine active duty ABCTs, which deploy on 
a rotational basis to Europe, Kuwait, and Korea, with every brigade 
either recovering from a deployment, training for an upcoming 
deployment, or currently on deployment. How does the department 
reconcile this alarmingly high use of the ABCTs, and how will the 
department provide for an increased demand for ABCTs, should a wartime 
need arise?
    Answer. The Army has already taken steps to address increased 
demand by transitioning the Network Integration Evaluation (NIE) 
Brigade Combat Team (BCT) to an Armored BCT available to support 
ongoing or emerging requirements. The Army is also looking at a range 
of other options to include converting an Infantry BCT to an Armored 
BCT and increasing utilization of the reserve component. All options 
incur varying levels of risk in terms of time to build readiness and 
employ the capability, different fiscal considerations, and personnel 
tempo. Increased demands on Army forces is not limited to Armored BCTs 
and includes Combat Aviation Brigades, PATRIOT units, and Infantry 
BCTs, to name a few.
    Question. While the National Guard's five ABCTs are an option for 
use, the time it takes for any of them to be mobilized and deployed is 
lengthy, which will cause great disruptions in the rotation of ABCTs to 
Europe, Kuwait, and Korea. You will have to accelerate training, 
lengthen deployments, or leave certain COCOM commanders without an 
ABCT; all undesirable strategic tradeoffs. Additionally, what is the 
signal for the Army to increase the quantity of active duty ABCTs?
    Answer. Current operational and contingency war plan demands 
exceeding the number of existing Armored BCTs is a strong signal to 
increase the number The requirement to conduct two near-simultaneous 
conventional combat operations under a defeat/deny scenario may exceed 
our ability to satisfy combatant command requirements and leave us with 
little flexibility to address any other demands for armored (or other) 
forces.

                            Troop Reductions

    Question. How concerned are you about the continuing trend of troop 
reductions, and please articulate for me what risks we are taking if we 
continue to reduce the size of our Army in the coming years?
    Answer. We have grave concerns about the Army's readiness to 
respond to a major contingency concurrent with our existing 
requirements in a timely manner at current end-strength. In the event 
of a major contingency, the United States Army risks not having 
sufficient ready forces available, and if committed we risk not being 
able to accomplish the tasks at hand in an acceptable amount of time, 
incurring increased U.S. casualties, and not achieving our strategic 
objectives. Continued reductions increase these risks.
    Question. What risks do we take if we reduce the Active/Guard/and 
Reserve end strength beyond what you have planned in FY17?
    Answer. We risk the ability to conduct ground operations of 
sufficient scale and ample duration to achieve strategic objectives or 
win decisively at an acceptable cost against a highly-lethal hybrid 
threat or near-peer adversary. If one or more possible contingencies 
happen then the United States Army risks not having sufficient ready 
forces available, and if committed we risk not being able accomplishing 
the tasks at hand in an acceptable amount of time, incurring increased 
U.S. casualties, and not achieving our strategic objectives. Additional 
reductions beyond those planned and programmed in the President's 
Budget request for fiscal year 2017 would increase these risks.

                 European Reassurance Initiative (ERI)

    Question. We learned in Iraq and Afghanistan that the rotation of 
Brigade Combat Teams in and out of theater generates a steep learning 
curve within new units, as they attempt to reach the effectiveness of 
the unit they replaced. Armored brigades rotating to Europe as part of 
the European Reassurance Initiative will no doubt face that same 
learning curve; everything from the laws that govern international 
border crossings, to the nuances of working with partner nations. These 
rotations will necessarily invite friction and risk. What is your 
assessment of these risks, which Russia is certainly aware of, and 
would permanently stationing one or more Armored Brigade Combat Teams 
in Europe help to mitigate those risks, and better assure our NATO 
allies?
    Answer. While it is true that Armor Brigade Combat Teams (ABCTs) 
rotating from the United States to Europe will face challenges and must 
address the cultural nuances of operating with Allied and Partner 
Nations, these challenges can be mitigated through the use of our 
standing Headquarters elements permanently in the European Theater, 
which include U.S. Army Europe and U.S. European Command. Our presence, 
forward stationed and rotational, sends a very strong message to our 
Allies and Partners: the U.S. commitment to NATO and our Partners is 
ironclad and unbreakable--regardless of the home station locations of 
U.S. ABCTs. The U.S. remains committed to deterring and defending 
against Russian aggression and assuring our NATO Allies and Partners. 
Rotating ABCTs provides the best trained, most ready capability to 
EUCOM while also exercising the Army's ability to quickly mobilize, 
deploy, and get an ABCT into the fight. Moreover, rotating forces to 
Europe will build needed expertise in global deployment, a skill vital 
to rapid response that has atrophied over the past decade. Rotation 
will build a bench of CONUS based forces familiar with the mission, 
terrain, and people of Europe and the capabilities of our NATO Allies. 
These units will rotate overseas at higher readiness levels as they 
will complete a combat training center rotation as a part of their 
train up.
    Question. What is your recommendation for the number of ABCTs that 
should be permanently stationed in Europe, and exactly where should 
they be stationed?
    Answer. The Army is working with EUCOM and the Joint Staff to 
refine the operational requirement for armored forces in Europe. 
Beginning in 2017 the Army will have an Armored BCT continuously 
present in Europe, and will build additional ABCT and other armored 
division capabilities through forward stationing of equipment sets in 
subsequent years. Rotating ABCTs provides the needed capability quicker 
than could be achieved by permanent stationing, and exercises the 
Army's ability to quickly mobilize, deploy, and get the force into the 
fight.

                             Cyber Security

    Question. What progress has been made in the realm of protecting 
against supply chain cyber threats?
    Answer. U.S. Army Cyber Command maintains a liaison office and 
works directly with Army Materiel Command, to support cyber 
vulnerability mitigation efforts. Specific details of mitigation 
efforts are classified and can be provided under separate 
correspondence.
    Question. How has the Army mitigated the risk of different research 
departments becoming ``stove-piped?' What progress has been made in the 
development of Trusted Systems and Networks?
    Answer. The Army mitigates possible ``stove-piping'' by different 
research departments by engaging with various fellow researchers 
through mechanisms such as the DoD Communities of Interest (Col) which 
were established to assess DoD-wide capability gaps in cross-cutting 
technical areas of interest and align science and technology (S&T) 
investments across the Services and DoD Agencies (Defense Advanced 
Research Projects Agency, Missile Defense Agency, Defense Threat 
Reduction Agency, etc.) to address these gaps. In the area of cyber, 
the Cyber Col includes the National Security Agency and Federally 
Funded Research and Development Center research efforts. In addition, 
the Army has established cyber governance and oversight bodies that 
bring together key stakeholders to work cyber acquisition, resourcing 
and requirements collaboratively across the Army.
    In the area of trusted systems and networks, the DoD continues to 
make progress. As part of the Col strategy, the Army S&T conducts 
research in the following areas: trusted architectures, cross domain 
security, identity and access management, software and hardware 
assurance, and data integrity and confidentiality. Some of the specific 
technologies being worked include encryption to secure the tactical 
cloud, tactical public key enablement, tactical cross-domain solutions, 
and software-based encryption. A recent accomplishment is the 
transition of lightweight data in transit/data at rest encryption 
software and a Linux integrity module and trusted boot function 
software to Program Executive Officer Soldier/Nett Warrior acquisition 
program in Fiscal Year (FY) 2014. We have a number of planned 
transitions in this area of research, to include cyber risk assessment 
tools for mobile applications to PEO Soldier/Nett Warrior in FY 2017, a 
software vulnerability assessment tool to PEO Command, Control and 
Communication-Tactical (C3T)/Product Director Network Enablers in FY 
2018, and enabling technologies for Tactical Public Key Infrastructure 
to both PEO C3T/VVarfighter Information Network-Tactical (WIN-T) in FY 
2016 and PM Tactical Radios in FY 2018. Other transitions include a 
software based encryptor to PEO C3T/WIN-T in FY 2017 and unmanned air 
system support for this software encryptor to PEO Aviation's Small 
Unmanned Aerial Systems, a wireless personal area network encryption 
capability to PEO Soldier/Nett Warrior in FY 2017 and a field 
programmable gate array-based 29 hardware encryptor/next generation key 
loader for encryption keys to PEO C3T/PD Network Enablers in FY 2018.
    Question. What progress has been made in protecting space and 
missile defense assets against cyber threats?
    Answer. Significant progress is being made by the space and missile 
defense community in protecting space and missile defense assets. 
Mission assurance activities include: identification of space and 
missile defense cyber key terrain; periodic execution of Red Team and 
Blue Team vulnerability assessments; initiation of targeted studies 
such as the cyber defense of satellite communications; initiation of 
computer network defense on mission systems; implementation of rigorous 
supply chain security policies to address counterfeit components and 
malicious tampering; ensuring cybersecurity early in the system 
development lifecycle; auditing the protection of Department of Defense 
intellectual property, and continuous evaluations of cutting edge cyber 
technologies that could enhance existing protection methods and tools.
    Question. Additionally, how has Line 6, PE 0602120A, funding been 
used to research methods for protecting data against corruption or 
interception, and for the support of cyber vulnerability assessment 
programs?
    Answer. In Fiscal Year 2015, Congress provided an additional $7.75 
million in line 6, PE 0602120A for cyber security research. The Fiscal 
Year 2015 congressional funds support research at the U.S. Army Space 
and Missile Defense Command/Army Forces Strategic Command Technical 
Center that identified space system (i.e., satellites and 
communications links) vulnerabilities to cyber threats, approaches to 
build resiliency into the space platform industrial base supply chain, 
approaches to customize and secure mission operations software, and 
approaches to implement secure space-based wireless wide area networks.
    The Army's main defensive cyber security science and technology 
efforts are funded in PEs 0602782A, Command, Control, Communications 
Technology, 0602783A, Computer and Software Technology, and 0603794A, 
C3 Advanced Technology.

                              Contracting

    Question. There are numerous reports out of Redstone Test Center 
(RTC) that the speed in which contracts are being awarded is slowing, 
and that the change is due to organizational and systemic causes, 
instead of manpower shortages. Please explain how the Army monitors the 
efficiency and effectiveness of its contracting, and what the 
tolerances for acceptable performance are.
    Answer. The Army uses a variety of tools to monitor the 
effectiveness of its contracting, such as our Virtual Contracting 
Enterprise (VCE) suite of information technology tools that track 
procurements and other key metrics in real-time. Additionally, we 
leverage several of our contracting enterprise reviews to the Deputy 
Assistant Secretary of the Army for Procurement and the Army 
Acquisition Executive that report various metrics along with 
highlighting any challenges from the contracting center Directors/
Commanders. The Army also manages a robust Procurement Management 
Review Program that looks across the entire business operations of the 
contracting commands and does not focus solely on compliance of 
individual contract actions. Any trends would be reviewed and shared 
with the affected activity and potential corrective actions addressed 
at both the execution and management levels. Over the past several 
years the Army has pushed diligently to fully implement the tenants of 
the DoD Better Buying Power (BBP) initiatives. These initiatives have a 
solid focus on improving tradecraft and ensuring the Government 
receives exactly what it is paying for at the lowest possible cost. 
While we have achieved enormous cost and performance savings through 
BBP, this level of review and oversight has added additional steps, 
checks and balances to the procurement process.
    Question. What changes or events within RTC over the past three 
years would have resulted in a delay in awarding contracts?
    Answer. During Fiscal Year 2013-2016, Army Contracting Command 
(ACC)-Redstone Arsenal (RSA) awarded two competitive actions for RTC. 
Although support on other actions were discussed and planned for 
execution at ACC-RSA simultaneously, the following requirements were 
moved to ACC-Aberdeen Proving Ground (APG) due to resource constraints. 
A follow-on to the Information Management Support contract was 
transferred to APG in June 2015. New competitive contracts for the RTC 
Wide Engineering Services and the RTC Wide Support Services were sent 
directly to APG for award by the customer. Because RTC is a 
reimbursable customer, there was insufficient funding of contracting 
personnel during periods which competitive procurements were conducted. 
There was insufficient RTC manpower to support source selection boards, 
including personnel changes in the middle of source selection boards 
and inexperienced ACC-RSA workforce contributed to speed of source 
selections. On these two actions, a Pre-Award protest and a Post-Award 
Protest were also contributing factors. Over the last two years ACC-RSA 
has implemented streamlining initiatives to improve Procurement Action 
Lead Time, to include (but not limited to) updating local processes and 
standardized templates, delegating Chief of Contracting Office 
authority to Buying Directors and developing standardized metrics and 
quarterly performance management reviews.
    There are numerous reasons why a contract award may be perceived as 
slowing or delayed. The procurement process has many players outside of 
contracting. Some examples of issues that affect the procurement 
process outside of contracting include incomplete, unclear or late 
submission of requirements to the contracting office, changes to the 
solicitation based on questions from industry that increase the 
proposal submission time, increased time for evaluations due the 
complexity of the requirement, and lack of complete and/or quality 
proposals from our contractor base.
    As resources continue to decline, Army Test and Evaluation Command 
(ATEC) and RTC are pursuing multiple avenues to improve acquisition 
efficiency. ATEC has worked with our servicing contract organizations 
to establish a Test and Evaluation Center of Excellence (COE) to 
consolidate our major range support contracts into a single location, 
thus allowing one office of contracting personnel to focus on our 
unique test and evaluation support needs. In establishing the ATEC COE, 
RTC's contract support was recently realigned from the Army Contracting 
Command at Redstone (ACC-R) to APG at the ACC-APG in order to improve 
the timeliness of contract awards. In this process, we have identified 
potential efficiencies via future contract consolidation across the 
ATEC enterprise, to include consolidation of contracts at RTC. 
Specifically within RTC, the commander is pursuing consolidation of 
multiple RTC service contracts, where feasible, in order to increase 
efficiencies and eliminate redundancy. In order to accomplish this 
consolidation of support and to prevent an impact on mission, where 
required, RTC in conjunction with the contracting command, initiated 
bridges and extensions while efforts were ongoing to award contracts. 
Since the transition, RTC has experienced an improvement in overall 
service.
    Question. To what extent is the Army considering proposing that 
contracting decisions be returned to the Command carrying out programs, 
as opposed to a central Contracting Command?
    Answer. The Army is not considering any proposals to retum 
contracting decisions to the Command carrying out programs as opposed 
to a central Contracting Command.
    There was a recent Mission Command Alignment order published by 
Army Materiel Command (AMC) to strengthen the Life Cycle Management 
Command Commanders' ability to set and manage work efforts within their 
respective portfolios, but the technical and functional decisions 
related to contracting within the aligned contracting centers remain 
unchanged.
    The order also strengthens Army Sustainment Command as AMC's 
``single face to the field'' and provides supported Army Service 
Component Command, Corps, Division, and Brigade Commanders a single 
point of entry into AMC capabilities, including contracting, but the 
technical and functional decisions related to contracting remain 
unchanged.

                Conventional Prompt Global Strike (CPGS)

    Question. Have future Army variants of a CPGS system been modeled 
in wargaming? If so, what were the outcomes of these wargames, and how 
are they affecting DOD's CPGS program?
    Answer. Short and medium range variants of a land based CPGS system 
were recently modeled in a wargame for the Office of Net Assessment. 
The results of this wargame have not yet been released. When received, 
the results of this wargame will be provided to the Office of the 
Secretary of Defense for Conventional Prompt Global Strike (CPGS) for 
consideration in the planning for the Department of Defense CPGS 
program.
    Question. While still in the technology maturation phase, is it 
possible for the Army to provide DOD with input into the future 
acquisition of CPGS systems?
    Answer. The current Conventional Prompt Global Strike (CPGS) effort 
is a research and development (R&D) technical maturation program and, 
as such, is basing and lead-Service agnostic. To date, the Department 
of Defense (DoD) has not made a decision whether to transition CPGS 
into an acquisition phase. Based on the successful Advanced Hypersonic 
Weapon project, the U.S. Army Space and Missile Defense Command 
(USASMDC) continues to be an integral partner of the national CPGS 
activity. Currently the USASMDC is supporting the DoD CPGS R&D program 
as the flight test director and flight test execution agency for the 
Intermediate Range Conventional Prompt Strike Flight Experiment 1, and 
continues to provide input on possible future acquisition programs to 
the CPGS office.
    Question. If the Army and COCOMs, were asked to field a version of 
a smaller Navy variant for a land-launched version (either from CONUS 
or from a forward base such as Guam), what capabilities are lost by 
that decision, especially with regards to loss of range, and loss of 
power applied to the target?
    Answer. While the U.S. Army Space and Missile Defense Command, in 
support of Conventional Prompt Global Strike (CPGS), has undertaken 
some simplified analysis of alternative Hypersonic Glide Body designs, 
the Office of the Secretary of Defense CPGS program office has the 
necessary information and tools to best answer this question.
    Question. It seems to me that vulnerability of a land-based variant 
has not been fully-weighed against vulnerability of other systems (and 
higher costs of other systems, inclusive of the necessary modifications 
to submarines). How is the Army working with other services, i.e., the 
Navy, to develop hypersonic missile technologies and capabilities given 
current and future threat scenarios?
    Answer. U.S. Army Space and Missile Defense Command (USASMDC) 
continues to work closely with the Office of the Secretary of Defense 
(OSD) and the other service Conventional Prompt Global Strike (CPGS) 
stakeholders to develop hypersonic missile technologies. USASMDC is 
currently engaged with OSD for the CPGS program in a number of 
technical areas including basing and limited operational capability 
studies. USASMDC is a key member of a national CPGS team that also 
includes the Navy and Air Force as well as a number of Federally Funded 
Research & Development Centers and industry. USASMDC supports the 
development of hypersonic missile technologies through participation in 
both the flight test program and the technically oriented Integrated 
Product Teams.
    Question. I would like an update on that matter, and I would like 
the consideration to be applied to the concept of systems which are 
moveable (as contrasted with mobile, on a truck), and systems not 
limited to a fixed silo approach. I request as much information on this 
program as possible to be supplied at the TS or lower level.
    Answer. Conventional Prompt Global Strike (CPGS) basing studies to 
date have included land, air, and sea options (including moveable 
missiles). We recommend that the Committee work with the Deputy 
Assistant Secretary of Defense for Space, Strategic, and Intelligence 
Systems CPGS office on the current status of the national CPGS program.

                           Officer Promotions

    Question. Retaining the best personnel requires a superior 
personnel management system; how your officers view the integrity of 
your Below Zone (BZ) selection process is critical to that system. The 
services are charged by Title 10, U.S. Code, to select the best 
qualified officers for promotion to the next grade. DODI 1320.14 states 
that board members must certify that they ``carefully considered the 
records of each officer whose name was submitted to the board.'' Any 
methodology for consideration of officers below the zone that does not 
afford board members the same amount of time for every BZ file, as is 
afforded to In and Above Zone files, or utilizes a practice to rapidly 
screen through BZ candidates, is not in keeping with the intent of the 
statute, or the DODI. A rapid screening of a BZ file would not 
constitute ``careful consideration'', and it would invite opportunities 
for you to overlook the best qualified officers Integrating BZ 
candidates into the In and Above Zone populations for the purpose of 
careful and unbiased consideration, and voting, would meet the intent 
of the law, and would only marginally increase the length of your 
promotion selection boards. After such proper consideration, statutory 
limitations on the number of BZ selectees could then be applied. Please 
describe for me your practice for considering officers for promotion 
from below the zone, and inform me how much additional cost you would 
incur if a modification to properly consider Below Zone candidates is 
needed, and if you are willing to make such a modification to increase 
the integrity of your promotion selection board system.
    Answer. Every below the zone officer is considered without 
prejudice or partiality in accordance with DODI 1320.14 and the 
Secretary of the Army's written instructions to the board. The Army's 
process for selection of officers from below the primary zone of 
consideration is well established, trusted, and has proven over the 
years to offer opportunity for exceptionally well qualified officers to 
advance in accordance with their demonstrated potential for increased 
responsibilities ahead of their peers. Our process provides a careful 
consideration of all below-the-zone candidates to determine those with 
the highest likelihood of competing for selection with officers in the 
primary zone of consideration. Once the highest potential below-the-
zone officers are identified, their files are compared to officers 
within the primary zone and the board selects those who will displace 
officers for selection for promotion. The Army's process properly 
considers officers for selection from below the zone. Board members 
certify to the Secretary of the Army that their deliberations and 
evaluation of officers' files were thorough and careful, and that the 
board process was conducted in accordance with the Secretary's 
guidance. We are in compliance with the spirit and letter of both law 
and policy.

                          U.S. Munitions List

    The Administration's proposed rule change to the United States 
Munition List (USML) Category XII, which would remove International 
Traffic in Arms Regulations (ITAR) protections for the export of night 
vision component technologies, would allow U.S. companies to sell night 
vision component technologies to foreign companies. It is my 
understanding that those companies, in turn, could use those components 
to create and sell night vision systems that exceed the capabilities of 
many of the systems available to U.S. forces. For instance, the 
integration of 2000 FOM image intensification tubes with commercially 
available PVS-14 Night Vision Monoculars would create a night vision 
system with better performance than the systems available to 90% of 
U.S. forces, according to my understanding. Similarly, 1920 x 1200 HD 
Focal Plane Arrays combined with COTS thermal imaging sights could 
create high definition thermal weapon sights 600% more capable than 
those used by the U.S. military. In light of the ease with which these 
systems can be converted, changing the ITAR restrictions could amount 
to selling our nation's night vision advantage, thereby placing our 
Soldiers at greater risk. Given the technological threat posed by the 
change in ITAR classification of night vision components, please answer 
the following:
    Question. Is it appropriate to use rulemaking to bypass the ITAR to 
allow the commercial sales of night vision technology and, potentially, 
other technologies used in combat?
    Answer. Yes, it is appropriate to use the rulemaking process to 
modify the International Traffic in Arms (ITAR) as required by Section 
38 of the Arms Export Control Act. To date, 15 Categories of the ITAR 
have been revised using this process. The proposed modifications to the 
ITAR are part of the ongoing Export Control Reform (ECR) that has been 
briefed to Congress and has been in progress since 2010. The re-write 
of CAT XII is consistent with the tenants of ECR. ECR implements the 
administration policy of higher fences around fewer things. The federal 
rulemaking process provides for the broadest engagement with the 
public, the administration, and the Congress to understand the proposed 
changes to the ITAR.
    Question. Should documented performance thresholds be established 
so that the most sensitive technology will remain with the U.S. 
Military?
    Answer. No, the most sensitive performance thresholds should not be 
published in the public domain, as this could reveal capabilities, 
vulnerabilities, or classified information. The control of technology 
requires descriptive parameters that allow the exporter to understand 
what is on the International Traffic in Arms Regulations or the 
Commerce Control List, without compromising capabilities.
    Question. What office within the U.S. Army and the Office of the 
Secretary of Defense has responsibility for ensuring technology sales 
do not erode U.S. military superiority and advantage?
    Answer. The protection and safeguarding of our soldiers and 
maintaining our overmatch across all warfighting domains are the 
responsibility of everyone within the Department of Defense.
    Within the Headquarters, Department of the Army, the Secretary of 
the Army has delegated the responsibility to Assistant Secretary of the 
Army for Acquisition, Logistics, and Technology (ASA(ALT)) for 
developing, coordinating, and promulgating Army export policy. The 
Deputy Assistant Secretary of the Army for Defense Exports and 
Cooperation, under the guidance and control of the ASA(ALT), drafts and 
coordinates proposed export policies with Headquarters, Department of 
the Army staff agencies to include Operations, Intelligence, Force 
Development, Cyber, and relevant field activities.
    Within the Office of the Secretary of Defense, the responsibility 
is delegated to the Defense Technology Security Administration (DTSA), 
under the guidance and direction of the Under Secretary of Defense for 
Policy.
    Using the interagency integrated software application, USXPORTS, 
DTSA staffs and coordinates commercial export requests with relevant 
agencies and military departments and responds to Department of State 
or Commerce with a Department of Defense position.
    Question. Should the DOD and State Department retain an oversight 
role to ensure sensitive night vision technologies are protected?
    Answer. The administration has integrated the interagency review of 
proposed exports, such that all agencies can review and comment on 
exports, including night vision devices, through a single integrated 
information technology system. The Department of Defense provides 
comments on proposed exports through this system to the process owner 
and can monitor exports and trends.
    Question. Has the Army, or the Office of the Secretary of Defense, 
solicited written feedback from U.S. Combatant Commanders regarding 
whether the sale of these items poses a danger to our deployed troops? 
If not, I ask that you do so.
    Answer. Yes, the Office of the Secretary of Defense and the Joint 
Staff solicited written comments from the Combatant Commanders.

                             Shore Defenses

    Question. I wish to follow up my questions from last year with a 
further inquiry, and update, on how Army current and emerging 
capabilities can contribute to shore defense. In addition to 
projectiles from, for example, the Paladin, to hit targets on land, and 
perhaps landing craft, what kinds of technology investments are being 
made by AMRDEC to help shore defenses defeat high-end, moving, heavily 
defended, and offensively capable warships?
    Answer. The U.S. Army's Aviation and Missile Research, Development 
and Engineering Center is investing in adapting existing Army and 
Marine Corps High Mobility Artillery Rocket System and Multiple Launch 
Rocket System systems to provide a land-based offensive surface warfare 
capability. In addition, we are developing technologies such as sensor, 
datalink, and payload components to engage and defeat mobile surface 
vessels. A prototype system will be demonstrated in Fiscal Year 2021, 
which will provide a basis for cost-capability trades for an objective 
system. This effort will enable Army forces to support joint force 
freedom of movement and action through the projection of power from 
land into the maritime domain.

                         Army Operating Concept

    Question. How is the Army rebalancing personnel allocations, 
maintenance, modernization and S&T programs to accommodate the new Army 
Operating Concept?
    Answer. The Army Operating Concept (AOC) guides future force 
development through the identification of capabilities that the Army 
must possess to accomplish missions in support of policy goals and 
objectives. In addition to shaping the types and quantity of forces we 
will need, it is also informing our modernization and S&T efforts as we 
pursue capabilities in key areas of aviation, command and control 
network, integrated air missile defense, combat vehicles, and emerging 
threats programs.

                         Technology Development

    Question. What are the Army's specific strategies associated with 
the development of space, cyber, electronic warfare, position, 
navigation and timing (PNT) and missile defense technologies and 
capabilities to address near term and sustained threats?
    Answer. The Army's strategy to enhance near term space, PNT, and 
missile defense capabilities includes multiple lines of effort. In the 
space arena, the Army is pursuing several modest small satellite 
technology development and demonstration programs for the tactical 
warfighter to include: beyond-line-of-sight communications; collection 
of imagery data to support battlespace awareness, battle damage 
assessment, and precision targeting; enhanced command and control; 
space laboratory capabilities to evaluate and test potential 
technologies; and several space superiority efforts. In the cyber 
domain, technology development initiatives include: achieving mission 
assurance in a cyber-contested environment; ensuring cybersecurity is 
addressed as a design consideration early and throughout the system 
development lifecycle; integration of emerging vulnerability 
assessments; implementation of rigorous supply chain security policies 
and capabilities that address counterfeit components and malicious 
tampering; integration of cyber into operational exercises and 
workforce training; and continuous evaluations of cutting edge cyber 
technologies which enhance existing protection methods and tools. 
Strategies to support missile defense include the development and 
demonstration of technology to both identify and defeat missile threats 
with conventional strike and directed energy applications. The Army 
continues to enhance its EW position through a range of programs and 
initiatives. The Integrated Electronic Warfare System (IEWS) will 
provide EW officers the ability to accurately discriminate friendly and 
enemy transmissions--in effect, to manage the EW spectrum. The Multi-
Function Electronic Warfare (MFEW) system will provide electronic 
attack and electronic warfare support capabilities, with initial 
operational capability (IOC) expected in FY23. In August 2016, the Army 
will, for the first time, incorporate a contested EW environment into 
4th Infantry Division's National Training Center rotation 16-08, with 
the ultimate goal of incorporating EW into all future CTC rotations.

                           Missile Technology

    Question. Please provide your short and long term development plans 
for the Modular Missile Technology Program, which offers the potential 
to engage targets for which the Hellfire Missile is used, at greatly 
reduced costs per missile.
    Answer. The Modular Missile Technologies (MMT) Program is 
developing a Modular Open Systems Architecture suitable for guided 
munitions. The MMT concept allows for the assembly of multiple 
configurations from a common set of subsystems in order to reduce life-
cycle costs in all phases and evolve the system rapidly to address an 
ever-changing threat. To demonstrate the feasibility of the concept and 
simultaneously address several Army Aviation lethality gaps, MMT's 
first configurations are a 25-pound guided forward-firing missile and a 
10-pound drop/glide munition suited for the air-tosurface mission 
against personnel and lightly armored targets. A planned mid-term 
effort will add additional seeker capability to provide a 25-pound 
multi-role forward firing variant (air-to-air and surface-to-surface). 
Additionally, a 20-pound unguided forward-firing variant is planned to 
address area targets. Longer term, the Army has plans to apply the MMT 
concept to larger missiles as well. Each of these missile development 
efforts is being coordinated with current and future Army Aviation 
rotary wing and Unmanned Aerial System platform development efforts to 
ensure maximum commonality across the fleet over time.
    Question. What is the status of the Hellfire inventory, 
procurement, and stockpile for the next five years?
    Answer. The following reflect the inventory and status for the next 
five years:
    Longbow*: Fiscal Year (FY) 2016: 10,702; FY 2017: 10,940; FY 2018: 
9,693; FY 2019: 8,697; and FY 2020: 6,899.
    Joint Air to Ground Missile (JAGM)**: FY 2016: 0; FY 2017: 0; FY 
2018: 180; FY 2019: 624; and FY 2020: 1,125.
    Laser**: FY 2016: 10,222; FY 2017: 10,382; FY 2018: 11,138; FY 
2019: 10,668; and FY 2020: 10,443.
    For a total of: FY 2016: 22,940; FY 2017: 23,339; FY 2018: 23,029; 
FY 2019: 22,008; and FY 2020: 20,487.
    The Army is currently procuring 114R laser Hellfires and 
transitioning to JAGM starting in FY 2018. The production for this is 
as follows:
    JAGM: FY 2016: 0; FY 2017: 0; FY 2018: 180; FY 2019: 624; and FY 
2020: 1,125. Laser: FY 2016: 816; FY 2017: 2,025: FY 2018: 22,236; FY 
2019: 1,421; and FY 2020: 530.
    * Fire and forget variant fired off AH-64D platforms
    ** Fired off all air platforms

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Carter and the answers thereto 
follow:]

                           Size of the Force

    Question. Given Army rotation policies, existing commitments, and 
the need to be prepared to handle numerous near simultaneous events, 
what concerns do you have that a total force of 980,000, with an active 
Army of 450,000, could be strained beyond capacity?
    Answer. We have grave concerns a 980,000 total force will not have 
the capacity to meet overall demand. In 2014, Army leadership stated a 
total force of 980,000 mitigated current and future threats at 
significant but manageable risk as long as the assumptions of the 2014 
Quadrennial Defense Review proved valid. Those assumptions have proven 
wrong as evidenced by the rise of ISIL, aggressive actions by 
revanchist Russia, the continuation of Army operations in Iraq and 
Afghanistan, and the growing possibility of interstate war in multiple 
theaters. Based on current and anticipated future conditions, the cost 
in time and casualties would be high. As a result, we rate our current 
military risk as high and strategic risk to be significant and trending 
high.
    Question. What are the operational implications and strategic 
limitations associated with a force this size should a major 
conventional combat operation ensue on the Korean Peninsula in light of 
our current requirements in Iraq, Afghanistan, and Europe?
    Answer. If a force of this size is called to conduct major 
conventional combat operations on the Korean peninsula in addition to 
sustaining current requirements in Iraq, Afghanistan, Europe, and 
elsewhere, Strategic implications of a major conventional combat 
operation would include the need for full mobilization of the reserve 
component, the potential need to rapidly grow the force, reduced 
capacity to address emerging demands, and high risk to strategic 
objectives. All of this will increase the time it takes to meet 
combatant command timelines, possibly jeopardizing meeting those 
timelines, in support of operational plans and will translate into 
higher casualty rates and difficulties in providing replacement forces 
within current deploy: dwell policy guidance.

                                  ERI

    Question. Secretary Murphy, have you decided where the 
Prepositioned Stock identified for the European Reassurance Initiative 
is coming from? Is it primarily from depots within the United States, 
or is it going to come from one of the nine ABCTs stateside?
    Answer. Based on current projections, the Army will procure new 
equipment for approximately one-third of the requirements to support 
Army Prepositioned Stocks (APS) APS-2 growth. The remaining equipment 
requirements will be sourced from internal Army redistribution and unit 
inactivations or conversions. Detailed sources of equipment for the new 
European-based APS are: 42 percent--depot stock; 33 percent--
procurement of new equipment; 11 percent--81st Armored Brigade Combat 
Team (BCT) conversion to a Stryker BCT; and 14 percent--other Army 
excess redistribution.

                Warfighter Information Network-Tactical

    Question. Can you outline the reasoning behind the reduction in 
funding request for the WIN-T system?
    Answer. This is all about prioritization during a fiscally 
constrained period. The Army's Fiscal Year (FY) 2017 funding request 
for Warfighter Information Network-Tactical (WIN-T) is $427 million, 
$268 million less than the FY 2016 request of $695 million. The Army is 
committed to the WIN-T network modernization capability, but had to 
slow WIN-T, Increment 2 procurement. The difference in WIN-T funds from 
the FY 2016 request to FY 2017 is largely a result of balance within 
the Army portfolio. There is also a need to address other emerging 
priorities such as Cyber Defense Funding, and Cryptographic 
Modernization of Legacy Radio Systems Improvements.
    Question. Is this system still an Army priority?
    Answer. The Warfighter Information Network-Tactical remains an Army 
priority and is the backbone of the Army Tactical Network. Our strategy 
is to continue to procure and field this critical system while we 
continue to make improvements: reducing weight, increasing performance, 
and Soldier usability.
    Question. What is the outlook for this system over the next five 
years?
    Answer. Warfighter Information Network-Tactical (WIN-T), Increment 
1, (first phase of program) is fully fielded to 199 Army units 
including Divisions, Corps, Brigade Combat Teams, multi-functional 
support brigades, and Expeditionary Signal Battalions. WIN-T Increment 
2 (current phase) has been fielded to 14 Brigade Combat Teams and 6 
Divisions. Over the next five years, the Army will continue to field 
WIN-T, Increment 2. WIN-T Increment 2 end state will field to 18 
Divisions, 56 Maneuver Brigades, and 37 multi-functional support 
brigades.

                      Regional Training Institute

    Question. General Milley, can you please provide an update on 
progress to establish a Regional Training Institute on Fort Hood?
    Answer. The Army National Guard is currently meeting all training 
requirements without a Regional Training Institute (RTI) at Fort Hood, 
and the Texas Army National Guard does not currently have an approved 
stationing plan for an RTI at Fort Hood. The Texas Army National Guard 
has indicated an interest in moving its RTI from Camp Mabry in Austin 
to Fort Hood, but has not yet provided a formal request to the National 
Guard Bureau or the Army to consider.
    The National Commission on the Future of the Army provided three 
recommendations in its final report related to institutional training 
capacity, which the Army is currently considering. Specifically, 
Recommendation 43 calls for the Army to ``establish true 
regionalization of the Army's school system and continue to consolidate 
the infrastructure where efficiencies can be gained.'' Any requests to 
grow additional training capacity must be viewed holistically with 
other Army regional capacity if we are to realize any savings from the 
One Army School System.

    [Clerk's note.--End of questions submitted by Mr. Carter. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                Personnel Radiation Detection Capability

    Question. General Milley, there is a genuine concern with 
terrorists trying to procure nuclear material for bomb making purposes. 
Clearly this scenario puts America's service members at potential 
increased risk of radiation exposure. The threat at home via dirty bomb 
or incident at nuclear facilities is no less dangerous.
    Is it correct that the majority of the Army's personal dosimeters 
and radiac sets, developed in the 1970s, have outdated technology, are 
obsolete and not able to function in tandem with more modern systems 
fielded in limited numbers over the last several years?
    Answer. Yes. Lessons learned from DoD's response to assist Japan 
after the Fukashima nuclear reactor incident indicated the need for 
Joint interoperability and common units of measure, whereby the Army 
began working with the Navy to select the Joint Personnel Dosimeter-
Individual (JPD-I) as its future personal dosimeter. The JPD-I will 
have enhanced capabilities over legacy tactical radiological dosimetry 
systems. These include a real-time display of dosage using common units 
of measure, interoperability with Nett Warrior to periodically transmit 
the Soldiers' exposure data up the chain of command to facilitate 
decision making on troop safety based on soldiers' radiation exposure 
status, the ability to electronically transmit post exposure data to 
the Army's Dosimetry Center, and interoperability with the Department 
of the Navy during future operations. The Army will begin fielding the 
JPD-I in Fiscal Year 2020.
    Question. Are these older dosimeter systems able to measure and 
record the range of radiation dose presented by nuclear threats faced 
by service members today?
    Answer. Yes. However, the legacy DT-236 or DT-236A wrist watch 
individual dosimeter does not provide a real time display of the 
soldiers radiological exposure. The DT-236A must be read at the company 
level by the AN/PDR-75 or AN/PDR-75A dosimeter reader, which is a 
standalone device that is not interoperable with Nett Warrior or any 
other modernized Army systems. The legacy system requires the soldier 
to report to the company headquarters away from his or her battle 
position so that the dosimeter can be read by the dosimeter reader, 
which may not occur for days or weeks on the modern distributed 
battlefield based future concepts of operations. Additionally, the DT-
236/236A must be mailed back to the Army Dosimetery Center at Redstone 
Arsenal after the soldiers deployment so that it can be evaluated and a 
dose of record determined and entered into the soldiers medical record, 
which is both time consuming and costly. The older DT-236 lacks 
adequate sensitivity for it to be used to determine the actual dose of 
record.
    Question. If there are potential shortfalls in the Army's current 
radiation detection capabilities, what is the acquisition plan to field 
more modern dosimeters capable of providing all service members a legal 
dose of record of radiological exposure over the entire length of their 
careers? Is that a Total Force acquisition plan?
    Answer. Yes, our approach is a Total Force acquisition plan. The 
Army currently has sufficient stocks of legacy AN/PDR-75 and AN/PDR-75A 
systems to provide tactical radiological dosimeter capability to the 
Active, Guard, and Reserve components. However, the Army will begin 
fielding the Joint Personnel Dosimeter-Individual to the Active, Guard, 
and Reserve components in Fiscal Year 2020.

                        Armored BCT/Infantry BCT

    Question. General Milley, during your testimony you stated there is 
a study with the U.S. Army Training and Doctrine Command to determine 
whether the U.S. Army should convert one IBCT to an ABCT. In the Army's 
presentation of the FY17 Budget Roll-Out, the brief highlights 
Operations and Maintenance (Regular Army) funding to convert one 
Stryker BCT to an Infantry BCT. Considering the planned build-up of 
Army forces in eastern Europe as part of the European Reassurance 
Initiative, what type of BCT footprint do you see more applicable to 
the challenges in that theater?
    Answer. European Reassurance Initiative funding will enable the 
Army to maintain persistence presence of an Armored Brigade Combat Team 
in Europe year-round in addition to the permanently stationed Airborne 
Infantry Brigade Combat Team and Stryker Brigade Combat Team which are 
already in Europe. Having three different Brigade Combat Teams in 
Europe will give U.S. European Command (EUCOM) the maximum flexibility 
to respond to a variety of challenges in theater. European Reassurance 
Initiative funds will also be used to build an Armored Division static 
unit set of Army prepositioned equipment that will include one 
additional Armored Brigade Combat Team, a Fires Brigade, and Division 
Headquarters in 2017, followed by other division level enablers such as 
a Sustainment Brigade, Air Defense Brigade, and ammunition over the 
next several years. This static unit equipment set will enable a rapid 
build-up of additional forces in theater if required. This footprint 
will improve EUCOM's ability to deter Russia and assure our allies and 
partners. The Army is committed to working with the EUCOM Commander to 
meet any emergent requirements he may have.
    Question. Is that included in the FY17 budget, or do you expect to 
refine ERI budget initiatives in future budget submissions?
    Answer. Yes, the Army's Fiscal Year 2017 European Reassurance 
Initiative budget request enables the Army to provide the Armored BCT 
with enablers and to begin buildup of the static set, which will take 
multiple years to build. We are continuing to refine our equipping plan 
to ensure we can provide the set in a way that avoids degrading unit 
readiness by taking equipment from units that need it for training, but 
is still reasonably economical. As we refine the plan we will ask for 
your help in making minor adjustments to realign the resources we have 
requested among multiple appropriations.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Ms. McCollum and answers 
thereto follow:]

                  Base Realignment and Closure (BRAC)

    Question. Secretary Murphy and General Milley, the Department of 
Defense has proposed a new round of BRAC in 2019 stating the need to 
cut excess infrastructure in order to reduce costs.
    In fact, just yesterday this committee heard from the Secretary of 
the Air Force that up to 30 percent of their infrastructure is 
estimated to be in excess. 30 percent!
    Now, I'd like to quote from your written testimony submitted to the 
committee for today's hearing.
    ``The Army maintains 154 permanent Army installations, and over 
1100 community-based Army National Guard and Army Reserve Centers 
worldwide. Regrettably, we estimate an annual burden of spending at 
least $500 million per year on excess or underutilized facilities.''
    Half a billion dollars is an incredible amount of money to spend on 
maintaining facilities that the Army does not want or need.
    Question. Gentlemen, can you expand on the extent of excess 
facilities in the Army?
    Answer. At a Total Army of 980,000, we estimate the excess building 
footprint at about 170 million square feet, or 21 percent excess 
capacity. The vast majority of excess capacity is not in empty 
buildings, but in underutilized buildings that are partially full.
    It costs about $0.30 per square foot per year to provide very basic 
maintenance at an empty building (i.e., pest control, perimeter fence, 
boarding up windows). It costs about $3.00 per square foot per year to 
sustain and maintain a partially occupied building. A modest renovation 
project can cost roughly $30 per square foot. Demolishing and replacing 
a dilapidated building can often cost $300 per square foot.
    The Army cannot carry excess capacity costing over half a billion 
dollars per year indefinitely. Good buildings, which can be better 
utilized at our highest military value installations, are deteriorating 
faster than they should be because we lack the resources to keep them 
all maintained properly. We need BRAC authority to analyze what types 
of excess exist at each installation, and to develop recommendations to 
best consolidate into our highest military value installations. By 
closing some lower military value installations, we will realize 
significant reoccurring savings in the intermediate and long term.
    Question. How does this continued waste of resources affect your 
long-term readiness, and how much would another round of BRAC save for 
future budgets?
    Answer. Facilities needed to support readiness, training exercises, 
airfields, and other priorities are deteriorating, while resources are 
diverted supporting installations that could be closed. The Army cannot 
carry excess infrastructure costing over half a billion dollars per 
year indefinitely. Good buildings are deteriorating faster than they 
should because we lack the resources to keep them all maintained 
properly.
    Half a billion dollars in savings represents the annual personnel 
costs of about 5,000 Soldiers, about the number assigned to a Stryker 
Brigade Combat Team. It represents five annual rotations at the Army's 
Combat Training Centers (CTC), which are the foundation of Army combat 
readiness.
    Until we get the BRAC authority to analyze what types of excess 
exist at individual installations, and develop recommendations on how 
to best consolidate into the highest military value installations we 
have, we do not know which lower military value installations should be 
closed and/or realigned. However, we do know BRAC is a proven process 
producing significant reoccurring savings of roughly $2 billion per 
year for the Army, as validated by the Government Accountability 
Office. A future BRAC round will save the Army hundreds of millions of 
dollars per year. Once the up-front costs are paid, the intermediate 
and long-term savings from BRAC can fund any number of important Army 
warfighter initiatives, including force structure, additional CTC 
rotations, and modernization.

                  Armored Multipurpose Vehicle (AMPV)

    Question. Mr. Secretary, in full disclosure, I was a proponent of a 
wheeled AMPV ambulance--using the Stryker--as viable and cost effective 
alternative to a tracked ``armored multipurpose vehicle.'' The Army 
decided to move forward with the Bradley fighting vehicle derivative 
and in FY2014 the President's budget stated the AMPV total cost at 
$10.8 billion. The FY17 budget now has the program's cost at $12.9 
billion--a $2.1 billion increase. What's the cause of the cost 
increase?
    Answer. The Armored Multipurpose Vehicle (AMPV) program has not 
experienced a cost increase from its approved baseline, established in 
May 2015. The Fiscal Year (FY) 2014 President's Budget was based upon 
an early program estimate. Much of the uncertainty regarding program 
assumptions were clarified by the FY 2015 President's Budget. The Cost 
Assessment and Program Evaluation's Independent Cost Estimate at 
Milestone B, on December 22, 2014, established the program's cost caps 
and funding levels and were reflected within the AMPV Acquisition 
Program Baseline. The program is on schedule and operating within the 
cost baseline established at Milestone B and as reported in the latest 
Selected Acquisition Report submitted to Congress in August 2015.
    Question. Do you expect future cost increases?
    Answer. The Army does not expect future cost increases on the 
Armored Multipurpose Vehicle (AMPV) program. AMPV is a low technical 
risk program that continues to execute within the cost baseline 
established at Milestone B and as reported in the latest Selected 
Acquisition Report submitted to Congress in August 2015.
    Question. Finally, is there a plan ``B'' should this program become 
non-viable from a cost, schedule or performance perspective?
    Answer. The Army is committed to the Armored Multipurpose Vehicle 
program to replace the M113 vehicles in the Armored Brigade Combat 
Teams in accordance with our Combat Vehicle Modernization Strategy. The 
program remains within its cost, schedule, and performance baseline and 
maintains low technical risk. If warranted, the Army will execute 
tradeoffs consistent with the acquisition strategy to ensure the 
program remains viable.

    [Clerk's note.--End of questions submitted by Ms. McCollum. 
Questions submitted by Mr. Ruppersberger and the answers 
thereto follow:]

                                 JLENS

    Question. Secretary Murphy, JLENS has been a major concern of mine 
and for my constituents in Maryland's Second Congressional District. 
According to a recent Army report, this incident was caused human 
error, procedural issues, and design flaws. Because of the incident in 
which JLENS broke free of its mooring, that my constituents now fear 
not only for their own personal safety, but for the value of their 
homes and property. In this setting, I will say that I understand the 
purpose of having this capability. What I do not understand is why this 
program has remained a funding priority for the Army despite a recent 
report by Operational Test and Evaluation Command finding ``system-
level reliability . . . not meeting the program's goals'' and 
``problems related to the timely passing of'' radar targets from JLENS 
to NORAD, and despite JLENS being a NORTHCOM program, who if I'm not 
mistaken, should be funded through the Air Force's budget.
    In this budgetary environment, can you explain why the Army still 
deems this program worthy of a $45M budget request for FY17, over three 
times higher than the FY16 appropriated amount?
    Answer. The Army's Fiscal Year (FY) 2016 budget request was $40.565 
million and received a $30.000 million congressional mark due to the 
accident resulting in a delay to the exercise schedule. The FY 2017 
request of $45.482 million supports implementation of corrective 
actions and re-initiation of participation in the operational exercise 
(OPEX). The Army is currently executing an orderly shutdown of 
operations and assessing multiple courses of action pending operational 
decisions regarding the future of the capability and disposition of the 
OPEX. The Army is also evaluating whether the FY 2017 request will be 
sufficient to fund corrective actions and re-initiation of the 
exercise.
    Question. Can you confirm, on-the-record, that regardless of where 
this program winds up, the Army and its partners have taken the 
necessary precautions to ensure that a similar aerostat mishap will not 
occur again over American soil?
    Answer. Yes. Safety continues to be emphasized and enforced for 
Joint Land Attack Cruise Missile Elevated Netted Sensor System (JLENS). 
The Army conducted a thorough investigation of the 20 October 2015 
JLENS incident to determine the likely root cause and any contributing 
factors. Once the investigation results are approved, the necessary 
precautions, based on the findings and recommendations, will be taken 
to minimize the likelihood of a similar incident. Aerostats are subject 
to the same risks as all aviation platforms.
    Question. Has the Army, or as far as you know NORTHCOM, considered 
alternative locations for the placement of JLENS away from a 
significant population center? I would recommend that the Department of 
Defense consider conducting such a study.
    Answer. Yes. The Army, in consultation with NORAD/NORTHCOM (N/NC), 
conducted detailed analysis to determine the best solution to emplace 
the JLENS capability for the defense of the National Capitol Region 
(NCR). The location that was ultimately selected by the Army, Joint 
Staff and N/NC was based on criteria that included operational 
suitability and available locations for defense of the NCR. Available 
airspace to operate in was the deciding factor, along with facilities 
(land available), physical security and support structure (power, 
soldier support, communications, etc.).
    Upon completion of the now-suspended OPEX, it was presumed that N/
NC would assess the performance of the persistent overhead surveillance 
and fire control radars, determine if a capability like this was needed 
as an enduring capability for NCR defense, and potential siting 
locations that would optimize radar coverage and employment in the 
future.

                      Facilities Reduction Program

    Question. General Milley, the Army's Unfinanced Requirements List 
was recently leaked by a news source known as Breaking Defense. The 
Army has requested $1.362 billion in installation support funding. This 
is undoubtedly a result of years of deferred maintenance, leading to a 
large backlog of property that needs to be either demolished or 
recapitalized. The Facilities Reduction Program account has been hit 
particularly hard, resulting in abandoned and derelict buildings at 
installations across the nation. I'm certain some of them are within 
the districts of Members of this subcommittee. For instance, I have 
blocks of vacant buildings at the Edgewood Chemical Biological Center 
at Aberdeen Proving Grounds. Not only are they a safety and 
environmental concem, but they cost the Army approximately $600,000 per 
year to maintain and secure.
    How does the FRP account stand to benefit if this unfinanced 
requirement were funded?
    Answer. The unfinanced request includes additional funding for the 
Army's Facility Reduction Program. If Congress provides additional 
funding, the funds could be used to dispose of many excess and obsolete 
real property assets, reducing annual operating and maintenance costs 
while supporting the Army's Facility Investment Strategy.
    Question. My staff was recently briefed on the metrics that the 
Army uses to prioritize these sites under FRP. I would like to request 
a copy of the priority list be provided to my staff to gain a better 
understanding of how this funding is being obligated.
    Answer. The Army's Unfunded Requirements (UFR) list contains an 
additional $15.7 million for the Facilities Reduction Program (FRP). 
This amount would fund roughly an additional 150,000 square feet in 
facilities demolition. The Army's strategy is to assume risk throughout 
its installations portfolio, including the FRP. This strategy is a 
direct result of the budget constraints contained in the Balanced 
Budget Act. It is also the cause of the facilities reduction backlog, 
which is approaching 20 years at current funding levels. The Army's 
current FRP contains an estimated 47 million square feet across more 
than 7,700 facilities, at a cost of $517 million. Aberdeen Proving 
Ground's FRP requirements are approximately 1.2 million square feet 
with an estimated cost of over $600 million. The Army is currently 
working on an FRP priority list for FY 2017. This list will be 
forwarded to your staff upon completion.

    [Clerk's note.--End of questions submitted by Mr. 
Ruppersberger. Questions submitted by Ms. Kaptur and the 
answers thereto follow:]

              Countering Propaganda/Information Operations

    Question. What is the Army doing to counter the organized Russian 
propaganda effort in the Ukraine, Eastern Europe, the Baltics and the 
U.S.?
    Answer. The Army supports the Office of the Secretary of Defense 
(OSD), the Joint Staff (JS), and U.S. European Command (EUCOM) with 
trained and ready forces and in countering propaganda with U.S. Army 
Europe (USAREUR). USAREUR supports EUCOM's Operational Influence 
Platform (OIP), which utilizes advanced and emerging online 
technologies to influence specific target audiences through the 
internet, smartphones, and traditional media.
    OIP leverages popular social media platforms to identify and engage 
key audiences using cutting edge commercial marketing techniques. 
Relationships, tactics and procedures developed through OIP 
additionally provide USAREUR the agility to quickly engage critical 
audiences during contingency operations.
    USAREUR leaders in coordination with OSD and JS also support 
EUCOM's Senior Military Engagement Program (SMEP); highlighting key 
false comments in order to support public diplomacy, diplomatic 
conversations, and key leader engagements with allies and partners 
during military exercises, media events, and face-to-face meetings 
throughout the eastern EUCOM flank.
    USAREUR coordinates and works through EUCOM with independent media 
to highlight lies or false Russian statements published in their media 
by means of two on-line and hard copy publications, ``per Concordiam'' 
and ``Connections'' that promote security cooperation and increase 
allied and partner collaboration and interoperability.
    The Army provided forces are the foundation of USAREUR's expansive 
bi-lateral and multinational exercises aimed to train formations, 
enhance Alliance interoperability, and reassure Partners and Allies. 
USAREUR communicates and demonstrates both the military and political 
will needed to assure and deter through persistent engagement with all 
Allied and Partner nations, a tiered and multi-faceted communications 
plans, and utmost transparency on all theater activities.
    Increased touchpoints at all levels with Allies and Partners allows 
for dynamic engagement and communication of our commitment to their 
security, for the development of situational awareness of the ground 
level information environment, and transparency of operations. In 
Fiscal Year 2016, USAREUR will conduct 105 exercises of various sizes; 
62 exercises remain to be executed from April to September 2016. 
Exercises permit senior leader engagements, which demonstrate a 
holistic view of USAREUR operations and highlight key Russian 
misinformation tactics.
    Question. The U.S./West's effort appears fragmented and 
underfunded, what do you recommend we can do better?
    Answer. The Army supports the Office of the Secretary of Defense 
(OSD), the Joint Staff (JS), and U.S. European Command (EUCOM) with 
trained and ready forces and in countering propaganda with U.S. Army 
Europe (USAREUR). In the Fiscal Year (FY) 2017 President's Budget 
Request, the Army requests $2.8 billion to support the European 
Reassurance Initiative (ERI), a quadruple increase of $500 million from 
FY 2016.
    If fully funded, the FY 2017 ER1 sets European theater conditions 
to provide measures for a quick joint response against any threats in 
the region that could impact U.S. vital interests and allow the Army to 
demonstrate resolve through: increased theater presence and permit 
``heel to toe'' 12 month rotations; building partner capacity through 
additional Theater Security Cooperation (TSC) exercises; providing 
additional Army Pre-positioned Equipment; and enhancing the composition 
of European Activity Sets, resulting in additional enabler personnel 
and activities participation in support of TSC exercises.
    In FY 2016 EUCOM will spend $2.1 million on EUCOM's Operational 
Influence Platform (OIP) and $1.5 million on EUCOM's Senior Military 
Engagement Program; with a $1.7 million unfunded requirement request 
for Operational Influence Platform (OIP).
    In FY 2017-2021 EUCOM submitted a request for about $29 million in 
Base in the Chairman's Program Assessment letter outlining EUCOM 
requirements with OIP the leading program. The Army Program Objective 
Memorandum (POM) 2017-2021 funded EUCOM's Operation Assured VOICE 
program requirements at $3.1 million.
    Operation Assured VOICE harnesses and orients a range of theater 
information and influences activities to reinforce regional security 
and establish an environment unfavorable to extremist ideas, 
recruiting, and support. Operations consist of programs to provide a 
powerful means to counter Russian aggression, challenge extremist 
ideology, and prepare for contingency operations.
    The Army, as executive agent supported, and the Office of the 
Secretary of Defense Capability Cost Assessment and Program Evaluation 
(OSD-CAPE) recommended EUCOM receive $5 million in FY 2017 ERI Overseas 
Contingency Operations funds to run a pilot program for EUCOM's OIP. In 
POM 2018-2022 EUCOM also submitted OIP for inclusion in the CPA letter.
    EUCOM received a $5 million ERI ``plus-up'' in Program Budget 
Review 2017, as recommended by the OSD-CAPE Irregular Warfare Issue 
Team.
    Question. What percentage of our EU effort is dedicated to counter-
messaging Russian propaganda?
    Answer. This question is best answered by the Joint Staff and the 
Office of the Secretary of Defense as they have greater visibility over 
the activities of the U.S. European Command and the Department of 
State's counter-messaging efforts.
    Question. How does the Army work with other U.S. government 
agencies in this effort?
    Answer. This issue falls under the purview of the Joint Staff and 
the Office of the Secretary of Defense (OSD) as the Army and other 
Services work closely with OSD and the Joint Staff, who in turn work 
with other government agencies.
    Question. What help do you need from Congress to evaluate Russian 
propaganda capabilities and design a counter strategy?
    Answer. The Department of State (DOS) is the lead for messaging and 
counter messaging and is therefore better positioned to inform Congress 
about any additional help they may need. Within the Department of 
Defense, this issue falls under the purview of the Joint Staff and the 
Office of the Secretary of Defense (OSD), not the Army. Therefore, OSD 
is better suited to determine how the Department of Defense can assist 
the DOS.
    Question. Who leads the effort to counter Russian messaging in the 
U.S. government? If no one currently, who should?
    Answer. Within the U.S. government, the Department of State leads 
the effort to counter Russian messaging.
    Question. What additional authorizations and funding do you need to 
successfully counter their messaging effort?
    Answer. The Department of State is lead for counter-messaging 
efforts. The Joint Staff and the Office of the Secretary of Defense 
would determine if the Department of Defense needs additional 
authorization and funding to assist the Department of State in their 
efforts.

                       State Partnership Program

    Question. What does this budget do to facilitate growing the State 
Partnership Program?
    Answer. The Fiscal Year 2017 State Partnership Program (SPP) budget 
does not address SPP growth. The geographic combatant commanders' 
demand for new partnerships is constant and the new Office of the 
Secretary of Defense-approved partnerships requested averages two new 
partnerships per year.
    Question. What additional authorities would you need to expand the 
SPP mission to include humanitarian missions, counter-messaging 
efforts, and to work with civilian populations in partner countries?
    Answer. The National Guard has the adequate legal authorities to 
engage in humanitarian assistance/disaster response missions (examples 
include Overseas Humanitarian, Disaster, and Civic Aid Appropriation 
(OHDACA); 10 U.S.C. 2561--Transportation of relief supplies; 10 U.S.C. 
402--Denton Program, Space Available Transport; 10 U.S.C. 404--Foreign 
Disaster Assistance) and civilian engagement. If we determine we need 
additional authorities, we will pursue legislation through the 
Department of Defense.
    Question. What effort is there to capitalize on the immense 
personal ties to this region and capabilities in the U.S. to combat 
Russian subterfuge and propaganda, particularly in the area of social 
media and television?
    Answer. Questions about U.S. capabilities and efforts to combat 
Russian subterfuge and propaganda in the region should be addressed to 
the Department of State. State Partnership Program (SPP) activities and 
priorities are coordinated to meet the geographic combatant commander's 
security cooperation objectives. SPP is not the appropriate security 
cooperation tool for overt intelligence collection or military 
information support operations.

                       Title 10, 12304B Rotations

    Question. Does this authorization (the 12304b mobilization 
authorization) entitle National Guard Soldiers to all the same 
retirement, education and TriCare benefits as the authorization 
currently being used to deploy these Soldiers to Afghanistan or Iraq? 
Specifically what is different?
    Answer. No, the benefits under 12304b are different than the other 
mobilization authorities. The Department of Defense is pursuing 
multiple legislative changes to bring the 12304b mobilization authority 
benefits more closely in line with other benefits provided under the 
12302 and 12301(d) authorities, the two most commonly used authorities 
for deployment purposes.

 Survivor Benefit Program (SBP) and Dependency & Indemnity Compensation

    Question. Under current law, a required offset in payment between 
her Dependency and Indemnity Compensation and her Survivor Benefit Plan 
annuities, prohibits widows and widowers of active duty service members 
from receiving the full amount of both.
    Should this issue be considered as we look to reform military 
compensation?
    Answer. The Department has carefully reviewed this matter and has 
consistently opposed proposals to eliminate the offset between Survivor 
Benefit plan (SBP) annuities and Dependency and Indemnity Compensation 
(DIC) at government expense for the following reasons:
          <bullet> Duplication of benefits: Both entitlements are paid 
        by separate departments for the purpose of providing a 
        continuing annuity to survivors of military members or former 
        members. Both benefits are subsidized by the federal 
        government.
          <bullet> Complementary programs: DIC is a flat $1,254 per 
        month, plus $311 for each dependent child (2016). SBP is 55 
        percent of an elected base amount not to exceed retired pay. 
        The existing entitlement, with offset, ensures that survivors 
        receive the higher value. This sets DIC as a floor for more 
        junior members while allowing more senior members the potential 
        for a larger SBP amount with all the benefits from the tax free 
        aspect of DIC.
          <bullet> Equity: Allowing concurrent receipt of SBP and DIC 
        without offset would create a group of survivors receiving two 
        government-subsidized survivor annuities. Survivors of most 
        military retirees and survivors of veterans who did not serve 
        to retirement would receive only one.
          <bullet> High cost: Eliminating the SBP offset for all 
        survivors entitled to DIC would cost the Military Retirement 
        Fund more than $7 billion over 10 years.
    Question. What can DoD do to address this offset?
    Answer. The Department has carefully reviewed this matter and has 
consistently opposed proposals to eliminate the offset between Survivor 
Benefit plan (SBP) annuities and Dependency and Indemnity Compensation 
(DIC) at government expense for the following reasons:
          <bullet> Duplication of benefits: Both entitlements are paid 
        by separate departments for the purpose of providing a 
        continuing annuity to survivors of military members or former 
        members. Both benefits are subsidized by the federal 
        government.
          <bullet> Complementary programs: DIC is a flat $1,254 per 
        month, plus $311 for each dependent child (2016). SBP is 55 
        percent of an elected base amount not to exceed retired pay. 
        The existing entitlement, with offset, ensures that survivors 
        receive the higher value. This sets DIC as a floor for more 
        junior members while allowing more senior members the potential 
        for a larger SBP amount with all the benefits from the tax free 
        aspect of DIC.
          <bullet> Equity: Allowing concurrent receipt of SBP and DIC 
        without offset would create a group of survivors receiving two 
        government-subsidized survivor annuities. Survivors of most 
        military retirees and survivors of veterans who did not serve 
        to retirement would receive only one.
          <bullet> High cost: Eliminating the SBP offset for all 
        survivors entitled to DIC would cost the Military Retirement 
        Fund more than $7 billion over 10 years.

                            Maternity Leave

    Question. What is the Army doing to ensure cultural acceptance of 
females taking 12 weeks of maternity leave, particularly for senior 
NCOs and officers?
    Answer. On March 1, 2016, the Acting Secretary of the Army 
published an Army Maternity Policy. This action, coupled with 
Commanders' enforcement of the policy, will ensure the cultural 
acceptance of female Soldiers taking 12 weeks maternity leave.
    Question. Is there any intention of publishing formal guidance or 
training materials on this topic to ensure females feel comfortable 
taking the full allotted time?
    Answer. Yes. On March 1, 2016, the Acting Secretary of the Army 
published the Army's Maternity Policy which states ``Commanders may not 
disapprove maternity leave'' and ``No Soldier will be disadvantaged in 
her career, including limitations in her assignments (unless she 
voluntarily agrees to accept an assignment limitation), performance 
appraisals, or selection for professional military education or 
training, solely because she has taken maternity leave.''
    Question. What do you anticipate as the impact on their career and 
evaluations as a result of taking 12 weeks off for maternity leave?
    Answer. We do not anticipate any negative impact on our female 
Soldiers' careers and evaluations as a result of taking 12 weeks off 
for maternity leave.

                                 Energy

    Question. How does the ES2 strategy address not only installation 
energy consumption but also operational energy consumption?
    Answer. The ES2 vision features a strong, mobile, and flexible 
force that is housed, trained, and maintained on resilient 
installations capable of projecting power, unimpeded by disruptions to 
domestic utilities or land-use constraints. When deployed, these forces 
accomplish their missions by making optimal use of available resources 
with the lowest possible logistics footprint and by creating beneficial 
relationships with local communities. The ES2 Strategy is focused on 
five goals: inform decisions; optimize use; assure access; build 
resiliency; and drive innovation. These goals are equally applicable on 
our installations and in the operational environment.
    The Army Operational Energy (OE) Program is a strategy to improve 
the capabilities of our combat units and increase commanders' freedom 
of action through better management of energy, water, and waste during 
operations. Focusing on optimizing use, assuring access, and driving 
innovation for OE builds capability through extending range and 
endurance. OE activities that optimize use and assure access include 
the diversification and expansion of energy and water supply at both 
CONUS bases and overseas contingencies locations. We are driving 
innovation by incorporating battery storage into microgrids, whether in 
CONUS or at contingency locations. This enables us to reduce dependence 
on logistically delivered energy supplies, and to maximize the impact 
of incorporating renewable energy. Highly automated microgrids enable 
us to approach 100% efficiency of the resources we generate. OE-related 
efforts to increase generation and manage supply chains reduce 
logistics structure, both on the battlefield and in reliance on 
resupply convoys--lowering risks to units and Soldiers.
    Question. Where are you currently with the goals set by Executive 
Order 13693?
    Answer. The Army is striving to improve the resilience of our 
installations and operations, to enhance our mission effectiveness. We 
are actively working to increase energy and water efficiency, deploy 
renewable energy systems, implement sustainable practices, and increase 
our climate change preparedness. These actions are consistent with 
Executive Order (EO) 13693, Planning for Federal Sustainability in the 
Next Decade, which complements the Department of Defense (DoD) and the 
Army's commitment to energy security and sustainability.
    While EO 13693 takes effect in FY 2016, many of the requirements 
are a continuation of EO 13514, Federal Leadership in Environment, 
Energy, and Economic Performance. Given that many new targets are 
continuations of previous requirements, the Army shows interim 
progress. In FY 2015, the Army further reduced its total delivered 
energy by 6.9 percent, for a total reduction of 22.6 percent since FY 
2003. The current consumption of 67.1 trillion British Thermal Units 
(BTUs) is nearly 19.6 trillion BTUs less than FY 2003 levels. The Army 
decreased goal energy use intensity (EUI) by 2.8 percent to 79.7 
thousand BTUs per square foot in FY15. We accomplished this in spite of 
the removal of over 34.5 million square feet (MSF) of building space 
from the real property inventory. This is one of the lowest EUIs among 
all Federal agencies. The Army has installed 158.9 megawatts of 
renewable energy capacity to date and currently produces renewable 
energy equal to 12 percent of total consumption. In FY 2015, the Army 
decreased potable water use by 1.2 billion gallons from FY 2014, for a 
total consumption of 32.7 billion gallons. The Army reduced industrial 
activities, landscaping, and agriculture (ILA) water use by 1.2 billion 
gallons (21.3 percent) since the FY 2013 baseline. The Army exceeded 
the FY 2015 fossil fuel reduction goal of 20 percent with a total 
reduction of 41 percent, which is again one of the highest reductions 
in the Federal Government.
    All of our energy and sustainability efforts continue to focus on 
increasing resiliency and enabling the Army mission. The Office of 
Energy Initiatives (OE1) will continue its mission of accelerating the 
development of 1 gigawatt in large-scale renewable energy projects. The 
Net Zero Initiative has been expanded to all permanent installations to 
appropriately steward energy, water, and solid waste for a sustainable 
future, with continued deliberate use of appropriated and third-party 
authorities (including Energy Savings Performance Contracting projects 
through the President's Performance Contracting Challenge). 
Additionally, the Army is including new efforts to expand energy 
security considerations across the Army enterprise in support of ES2 
and new Federal goals. At the end of FY 2016, the Army, through the 
Department of Defense, will begin reporting on new EO 13693 
requirements as key measures of our progress.

                              Total Force

    Question. Is the development and deployment of IPPS-A on schedule 
and on budget?
    Answer. Yes. The IPPS-A program is on schedule and on budget in 
accordance with the program high-level schedule and Service Cost 
Position provided to the Milestone Decision Authority at the Milestone 
B Decision in December 2014.
    Subsequent to the Milestone B Decision, the Army awarded the 
Increment 2 System Integration Services Contract after successfully 
navigating a five-month contract protest. The IPPS-A program, in 
coordination with the System Integrator, Army, and the Office of the 
Secretary of Defense stakeholders, completed an Increment 2 System 
Requirements Review in October 2015 and a System Functional Review in 
February 2016 where the business processes and associated functionality 
of IPPS-A Systems Requirements were validated. The program is now 
planning for the Integrated Baseline Review in April 2016, at which 
time the cost, schedule and requirements for Increment 2 system 
development will be baselined. Following the Integrated Baseline 
Review, the Army will begin preliminary design activities for Increment 
2.
    Question. What is being done to ensure it is not a costly failure 
like DIMHRS?
    Answer. The Army is committed to fielding the IPPS-A program in 
order to solve total force, talent management, and audit requirements. 
To ensure the Army will succeed, the program is making certain that 
requirements are stabilized from the beginning and using governance 
boards (up to 3-Star level) to guarantee the requirements remain 
stable. Technology delivered today is better than it was seven to eight 
years ago, thus reducing the number of customizations required.

                                Lebanon

    Question. How do you assess the stability of Lebanon?
    Answer. This issue falls under the purview of the Joint Staff and 
the Office of the Secretary of Defense, and the national intelligence 
community.
    Question. How will the Gulf Cooperation Council declaration that 
Hezbollah is a terrorist group impact Lebanon's internal stability?
    Answer. This issue falls under the purview of the Joint Staff and 
the Office of the Secretary of Defense, and the national intelligence 
community.
    Question. How does the cancelation of the Saudi Arabian aid package 
impact the Lebanese Army?
    Answer. This issue falls under the purview of the Joint Staff and 
the Office of the Secretary of Defense, and the national intelligence 
community.
    Question. What military equipment are we currently selling or 
providing to Lebanon?
    Answer. Army-managed military equipment sold/provided to Lebanon 
over the last 40 months via Foreign Military Sales (FMS) programs 
include six Huey II Helicopters, 250 Hellfire missiles, 239 Tube-
Launched, Optically-Tracked, Wireless-Guided (TOW) 2A anti-armor, and 
bunker buster missiles, miscellaneous small arms, ammunition, and 
communications equipment, as well as 72 M198 155mm Howitzers as a Grant 
via the Excess Defense Articles (EDA) program. Future planned 
deliveries include: three additional Huey II Helicopters by end of 
March 2016; equipment as Grant via the EDA program include 24 M109A5 
Howitzers and 10 M992A2 Field Artillery Ammunition Support Vehicles 
(FAASV). Finally, Army is analyzing proposals to transfer 32 M2A2 ODS 
Bradley Fighting Vehicles (BFV) and 12 OH-58D Kiowa Helicopters to 
Lebanon via the Counter-terrorism Partnership Fund (CTPF) by Fiscal 
Year 2017.
    Question. Aside from equipment, how are we contributing to 
Lebanon's fight against ISIL?
    Answer. This issue falls under the purview of the Joint Staff and 
the Office of the Secretary of Defense. However, we note that one 
Lebanese Officer is enrolled as an International Fellow at the U.S. 
Army War College.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]

                                           Tuesday, March 22, 2016.

                   FY 2017 NATIONAL GUARD AND RESERVE

                               WITNESSES

GENERAL FRANK J. GRASS, CHIEF, NATIONAL GUARD BUREAU
MAJOR GENERAL TIMOTHY KADAVY, DIRECTOR, ARMY NATIONAL GUARD
MAJOR GENERAL BRIAN NEAL, ACTING DIRECTOR, AIR NATIONAL GUARD
LIEUTENANT GENERAL JEFFREY W. TALLEY, CHIEF, ARMY RESERVE

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The committee will come to order.
    This afternoon, the committee conducts an open oversight 
hearing on the posture of the National Guard and Army Reserves. 
We are pleased to welcome four distinguished general officers 
as witnesses.
    General Frank J. Grass is the Chief of the National Guard 
Bureau, a permanent member of the Joint Chiefs of Staff, 
representing more than 467,000 citizen soldiers and airmen in 
the Army and Air National Guard. General Grass has appeared 
before this committee in this capacity on a number of 
occasions, and it has always been a pleasure to have him here. 
However, this will be his last appearance before the committee. 
General Grass is retiring this fall.
    General Grass, you have led the Guard through some 
challenging times. We wish you well in your retirement, and 
thank you for all the good work you have done on behalf of the 
men and women of our Armed Forces.
    Lieutenant General Timothy Kadavy is the Director of the 
Army National Guard, consisting of 28 fully capable brigade 
combat teams. This is General Kadavy's first year to testify 
before the committee.
    Welcome, General.
    Major General Brian Neal is the Acting Director of the Air 
National Guard. This is General Neal's first year to testify 
before this subcommittee.
    General, we appreciate the experience and expertise that 
you bring to this hearing.
    And, finally, we are pleased to welcome the Chief of the 
U.S. Army Reserve, Lieutenant General Jeff Talley. His units 
total over 200,000 soldiers. General Talley has testified 
before this committee many times. Unfortunately, this will also 
be his final appearance as he, too, is preparing to retire.
    Welcome, General Talley, and thank you for your service to 
our Nation.
    And we have discussed repeatedly in this room, the country 
is facing more serious threats from more sources than at any 
time since World War II. The ISIS franchise, Al Qaeda, and 
other terrorist groups are active in the Middle East, North 
Africa, and, really, literally around the world. Russia 
continues to menace Ukraine, its neighbors, and our NATO 
partners. China is rapidly expanding its military and naval and 
air and space capabilities. In short, no one knows for sure 
where the next conflict will develop forcing us to respond 
militarily.
    Generals, this country relies now, perhaps more than ever, 
upon the service of your citizen soldiers and airmen to ensure 
mission success. Our Guard and Reserve units performed 
magnificently in Afghanistan and Iraq and continue to do so 
throughout the world, and the committee would like to commend 
them for their dedication and time away from home and family.
    All these factors make the dedication of our Reserve forces 
even more laudable. That said, the committee is deeply 
concerned about their readiness following 15 years of war. We 
are eager to hear your testimony, which will assist the 
committee to better determine the needs of the men and women 
who make up the Guard and the Reserve.
    It has been this committee's long tradition to work to 
ensure that the Reserve component is properly equipped and 
trained. Even with the recent budget constraints, this 
committee will continue to do everything possible to ensure 
adequate funding to enhance readiness for both your homeland 
and overseas missions.
    Generals, we look forward to your testimony, but, first, I 
would like to call upon my ranking member, Mr. Visclosky, for 
any comments he may wish to make.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Chairman, thank you. I appreciate you 
holding the hearing.
    Gentlemen, I appreciate your service to our country and 
look forward to your testimony. Thank you very much.
    Mr. Frelinghuysen. General Grass, the floor is yours. Thank 
you for being here.

                   Summary Statement of General Grass

    General Grass. Thank you, Chairman.
    Chairman Frelinghuysen, Ranking Member Visclosky, and 
distinguished members of this subcommittee, it is a pleasure to 
be here today with my fellow Guard and Reserve leaders. I am 
honored to represent the men and women of the National Guard, 
both Army and Air, their families, communities, and employers 
who support them.
    I would first like to send my condolences to the people 
affected by the deadly bombings today in Brussels. This act of 
terrorism on the lives of innocent individuals is a tragic 
reminder of the security challenges we face both at home and 
abroad.
    The Guard is tremendously appreciative of this committee's 
support. Your investment has resulted in the finest, most 
diverse National Guard that I have seen throughout my career.
    In countries such as Afghanistan, Djibouti, Iraq, Kosovo, 
Qatar, the Sinai, and many other locations, our Guardsmen work 
seamlessly with their Active component counterparts to ensure 
security around the world. Since 9/11, the Guard has mobilized 
nearly 780,000 citizen soldiers and airmen, conducting complex 
operations around the globe.
    The experience and capabilities gained from our Federal 
mission, along with the equipment and leadership skills 
utilized overseas, yields a highly responsive National Guard 
here in the homeland, with roughly 3,000 to 4,000 citizen 
soldiers and airmen on duty every day here in the homeland.
    Of course, the success of our warfight and our homeland 
mission is directly related to the incredible and enduring 
partnerships with international, Federal, State, and local 
partners. Our Nation is currently facing unprecedented security 
challenges both at home and abroad. These challenges come 
during a turbulent fiscal environment.
    Your passage of the Bipartisan Budget Act brought some 
much-needed relief. However, sequester levels of funding could 
result in the smallest National Guard since the end of the 
Korean war. Since that time, our U.S. population has doubled. 
Your continued investment in training, manning, equipping is 
needed to maintain the readiness of your National Guard as a 
combat reserve of the Army and Air Force, the same force that 
is called upon by the Governors in times of need here in the 
homeland.
    Generals Kadavy and Neal will further elaborate on specific 
Army and Air Guard issues, so I won't go into too much detail. 
However, I would like to briefly emphasize a few key points and 
programs that need your continued support.
    First, our Full-Time Manning Program is absolutely critical 
to delivering the very foundational levels of readiness needed 
during global and homeland crisis.
    Second, our successful State Partnership Program has 
established enduring partnerships with 76 nations. Many have 
and continue to participate in coalition operations worldwide 
and have improved their interoperability with U.S. forces.
    Third, our counter-drug program is a crucial tool in the 
whole-of-government approach to combating transnational 
organized crime.
    Fourth, our National Guard's cyber program provides the 
Nation with cutting-edge capabilities to protect our Nation's 
critical infrastructure and systems and utilizes the skills our 
citizen soldiers and airmen gain through their civilian 
careers.
    Fifth, with roughly 140,000 graduates, the National Guard 
Youth ChalleNGe Program provides at-risk youth with an 
opportunity to learn skills, get an education, and have an 
opportunity in life.
    Lastly, I want to thank you for your support of the 
National Guard and Reserve Equipment Account. Your valuable 
investment in NGREA enables us to fulfill our domestic and 
overseas missions.
    Your support for these programs as well as other programs 
that allow us to accomplish our mission and take care of our 
service members and their families in our communities is 
greatly appreciated.
    Recently, the National Commission on the Future of the Army 
came out with its recommendations. I thank the Commission for 
their hard work. Similar to the collaborative effort that 
followed the Air Force Commission report in 2014, we are 
working diligently as a total Army to build the strongest 
ground force possible for this Nation. I would like to offer my 
sincere appreciation to Acting Secretary Murphy and General 
Milley for their incredible leadership in this transformative 
process.
    Again, I am honored to be here today representing the men 
and women of the National Guard and their families who support 
them. I thank you for your continued support, and I look 
forward to your questions.
    [The written statement of General Grass follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
       
    Mr. Frelinghuysen. Thank you, General Grass.
    General Kadavy, thank you for being with us.

                  Summary Statement of General Kadavy

    General Kadavy. Thank you, Chairman.
    Chairman Frelinghuysen, Ranking Member Visclosky, 
distinguished members of the committee, thank you for allowing 
me the opportunity to represent the nearly 348,000 soldiers of 
the Army National Guard. And thank you for your continued 
support that this committee has given our soldiers and Army 
National Guard families. I look forward to working with you to 
ensure we sustain that support so vital to our total Army.
    I am happy to report to you today that the Army National 
Guard's relationship with the Army is strong and enduring. We 
are a valued and integrated part of the United States Army. I 
am working closely with Acting Secretary of the Army Murphy, 
General Milley, General Grass, Lieutenant General Talley, and 
the adjutant generals to strengthen our total Army.
    The Army National Guard is regularly employed and, when 
deployed, goes with the Army's most modern equipment. Soldiers 
from all three components are continuing to work side-by-side 
in exercises and operations across the globe, including 
reassuring allies in Europe and the Pacific.
    As we move forward, readiness remains our top concern. 
Increased training, equipment modernization, continued 
commitment to our Full-Time Support requirements, and regular 
rotational utilization will ensure our force's continued 
readiness.
    And when it comes to the Army National Guard, readiness for 
combat also translates into readiness for missions at home, as 
we saw last week in Louisiana, Texas, and Mississippi. The Army 
National Guard soldiers are doing extraordinarily outstanding 
work supporting civil authorities in the aftermath of the 
recent floods.
    I would like to thank the committee for providing us with 
the programming and resources we need in order to serve the 
Nation. And, particularly, your generous support for the 
National Guard and Reserve Equipment Account has enabled us to 
remain a modern and interoperable force. Modernization is 
always an ongoing effort, and your support has been critical to 
allowing us to meet that responsibility.
    I would also like to thank the members of the National 
Commission on the Future Army for their hard work. I want to 
assure this committee that we are working with the Army 
leadership to assess the Commission's recommendations. We take 
special interest in recommendations such as multicomponent unit 
solutions, additional Combat Training Center rotations, and 
increased flying hours for training, all of which would 
certainly enhance our readiness.
    We are also looking closely at the Commission's 
recommendation on enhanced support to the Pacific and European 
combatant commands. The Army National Guard looks forward to 
being part of the Army's strategy to support these commands.
    Additionally, we know there is great interest on certain 
issues such as the Aviation Restructure Initiative. I assure 
you that we are looking at all of the Commission's 
recommendations, and, as part of the Army team, we will present 
our findings in the near future.
    Lastly, with regard to the Commission's determination that 
a force of 980,000 is minimally sufficient to meet the Nation's 
challenges, I agree with General Milley that this places us at 
the edge of being able to meet our current strategy.
    I would like to close by saying thank you. Thank you for 
allowing me to speak here today and for all that you do for our 
soldiers, civilians, and families of the Army National Guard. I 
look forward to your questions.
    [The written statement of General Kadavy follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
                   Summary Statement of General Neal

    Mr. Frelinghuysen. Thank you, General Kadavy.
    General Neal, thank you.
    General Neal. Thank you, Chairman.
    Chairman Frelinghuysen, Ranking Member Visclosky, and 
members of the committee, thank you for inviting me here today.
    I want to start by publicly thanking the over 105,000 
dedicated professional men and women of the Air National Guard 
for the tremendous job they do every day both at home and 
overseas. I also want to thank you for your support of the Air 
National Guard.
    When the Air National Guard was created, its primary 
mission was to train for the next major conflict. The concept 
of training one weekend a month, 2 weeks a year was based on 
the original strategic reserve model. Today, the Air Guard is 
on operational reserve, a force that contributes every day to 
both the warfight and also provides search capacity for crises.
    The men and the women of the Air National Guard have 
stepped up gallantly to meet the demands of an operational 
reserve force. As the Acting Director, it is my job to ensure 
our Guard airmen have the resources and training to do the jobs 
we ask of them. My priorities are: one, support for the 21st-
century Guard airmen; two, readiness; and, three, modernization 
and recapitalization.
    Overall, we must ensure the men and women of the Air 
National Guard have the support they need as they balance 
civilian careers, family responsibilities, domestic response 
needs, and their growing responsibilities to national security. 
We must make sure our Guard airmen and their families have 
access to the spiritual, psychological, and medical support 
they may need. Our Guard airmen need equipment that is capable 
of integrating seamlessly into the combat environment, and we 
must ensure they are trained for the full-spectrum operations 
we expect them to perform.
    In closing, I want to thank you for your support of the 
National Guard and Reserve Equipment Account. NGREA is 
essential for the Air National Guard to the accomplishment of 
both its Federal and domestic missions. NGREA keeps our combat 
equipment safe, reliable, and compatible within the combat 
environment and is the Air Guard's primary source for dual-use 
equipment needed to respond to domestic emergencies. If it were 
not for NGREA-funded programs, the Air National Guard would 
simply not be the force we are today.
    Again, thank you for inviting me here today. I look forward 
to your questions.
    [The written statement of General Neal follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
                  Summary Statement of General Talley

    Mr. Frelinghuysen. Thank you, General Neal.
    General Talley, thank you for being with us.
    General Talley. Chairman Frelinghuysen, Vice Chairman 
Visclosky, distinguished members of the committee, for now 
almost 4 years, I have been the Chief of the Army Reserve, 
Commanding General of the United States Army Reserve Command, 
and this is my final appearance before your committee, as I 
will soon return to the civilian sector and retire from 
America's Army.
    I want to personally thank each of you for your steadfast 
support of our soldiers, civilians, and families. As you know, 
citizen soldiers are critical enablers, providing enduring 
operational capability and strategic depth to your Army and to 
the joint force. Because the Army Reserve comprises the 
majority of the Army's combat support and sustainment 
capabilities, the Nation can afford nothing less than a ready, 
equipped, and operational Army Reserve.
    Maintaining the adequate level of readiness to meet 
existing demands is my primary concern and current challenge. 
At any given time, between 16,000 and 24,000 Army Reserve 
soldiers are serving in support of the continental United 
States and overseas, but we must maintain an additional pool of 
trained and equipped soldiers annually to support forecasted 
requirements.
    I strongly believe that Full-Time Support is essential for 
the readiness in the Army Reserve. Full-Time Support provides 
administrative, medical, training, maintenance, and 
mobilization support for Army Reserve units and is absolutely 
necessary for generating and sustaining individual readiness, 
which is a prerequisite for leader and unit readiness.
    Yet the Army Reserve's Full-Time Support Program is 
currently resourced to only 76 percent of its identified 
requirements. We must maintain and, if possible, increase Army 
Reserve Full-Time Support.
    One way to increase Full-Time Support is by placing regular 
Army soldiers back in Reserve units to augment the Active, 
Guard, and Reserve program in our military technicians. This 
Title 11 program was tested and implemented back in the 
nineties and, in my opinion, should be reinstated. Such an 
effort would promote readiness and help reinforce our Army 
total force policy across all three components of our great 
Army.
    Another readiness concern is equipment modernization. I am 
very grateful for the support of this committee and what you 
have provided through NGREA appropriations, which has accounted 
for more than 35 percent of Army Reserve equipment procurements 
between fiscal year 2013 and fiscal year 2015.
    Yet equipment modernization rates for the Army Reserve 
continue to lag behind the other Army components. For fiscal 
year 2016, we are scheduled to receive 3.1 percent of the 
Army's procurement budget, which is significantly less than our 
pre-9/11 allocations of 6 percent. Continuing to neglect 
equipment modernization requirements will only exacerbate 
existing capability gaps between your Army Reserve and the 
other Army components.
    This committee has already heard from Army Chief of Staff 
General Mark Milleyabout the importance of Army total force 
policy. I want to reinforce his testimony by emphasizing the 
positive impact that full implementation of Army total force 
policy will have on our readiness. Integrating the Active and 
Reserve components through cross-component assignments and the 
use of a one-Army school system ensures consistent standards 
across all of our components.
    Finally, the importance of funding the accounts that 
provide training days for the Army Reserve soldiers cannot be 
overstated. While the current level of training is sufficient 
to provide ready forces to meet our identified requirements, 
the resources are not sufficient to build a force capable of 
responding to unforeseen contingencies.
    Mr. Chairman, the Army Reserve supports the most capable 
Army the world has ever known. This committee's support is 
crucial to ensuring that we remain ready to provide support to 
the total force as we meet current global requirements, respond 
to national emergencies, and mobilize for contingency 
operations when our Nation needs us most.
    In closing, it has been my distinct honor and pleasure to 
serve the men and women of the United States Army Reserve. I 
thank you and the committee for your continued support, and I 
look forward to your questions. Twice the citizen, and stay 
Army strong.
    [The written statement of General Talley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Frelinghuysen. Great. Thank you. Good finish. Good 
finish. Thank you, General Talley.
    Member questions. Mr. Calvert, in order of arrival, and 
then Ms. McCollum.

                      GUARD AND RESERVE FACILITIES

    Mr. Calvert. Thank you, Mr. Chairman.
    Something that I think may be going on across the country, 
certainly in my part of the world in southern California, we 
have had--and I think I have brought this up before to a couple 
of you in the past. A lot of the facilities that were built for 
the Guard were built between World War II and Vietnam, a lot in 
the small communities, you know, the Cold War reaction. And 
many of these buildings aren't energy-efficient; they are old. 
Obviously, we have budgetary issues.
    How much thought has been going into consolidating these 
Guard facilities into larger facilities? For instance, I will 
use an example, March Reserve Base in my part of southern 
California, where we built large Guard facilities, which you 
may have visited, one of you or two of you, and Naval Guard 
facilities and Reserve facilities, where you can consolidate 
equipment, mechanics, bring on some efficiencies to bear.
    How much thought is there about consolidating some of these 
small facilities into larger facilities to get some economy of 
scale?
    General.
    General Grass. Congressman, if I could start.
    First of all, BRAC-05 made some huge changes for the Guard, 
and we have consolidated many facilities over the last probably 
5 years. I have been to a lot of Active Duty posts where we now 
have our regional training institutes located, which is helping 
us come together, Active, Guard, and Reserve, using those 
facilities.
    Our joint force headquarters. Recently, I was in Delaware, 
where they dedicated a new building, and the Chief of the Navy 
Reserve was there with us as we did a ribbon-cutting. So on one 
side of the building is the Delaware State headquarters. On the 
other side, it is shared with the Navy Reserve.
    We see more and more of those. Of course, they were 100-
percent financed if we built them on--they were joint and built 
on an active installation, so that was very helpful.
    States are in a bit of crisis right now to find money, many 
States are. But, sir, you hit on it. There are a lot of old 
facilities. Tim and Brian can give you more, but the last 
number I saw, we were well over 45 years, average age of some 
of our small facilities.
    General Kadavy. Congressman, I will just add from the Army 
National Guard standpoint, 47 percent of our readiness centers 
have an average age of 50 years or older.
    Now, we have invested, as General Grass said, through BRAC 
and Grow the Army to build some new facilities, but most of our 
armories are still either degraded, misaligned, or out of date. 
Many of them were built in the 1950s and 1960s for a different 
type Army that doesn't quite have the kit of past years that we 
have today, larger vehicles and et cetera. So your comments are 
right in line.
    Unfortunately, the Army's strategy over the last few years 
has been less MILCON and more FSRM and BOS to sustain the 
current facilities. So we are fighting through that right now 
as we try to maintain our status of our facilities at what is 
currently, this year, at a fair rate. We project, without 
adequate funding--or, at current funding levels, by 2018 we 
will be at a poor level, and by 2027 we could potentially be at 
a failing level for the Reserve centers in the Army National 
Guard.
    Thank you.
    General Neal. Well, Congressman, you know, the Chief and 
General Kadavy have already talked about the age. And, as you 
point out, your earlier question is how do we combine and how 
do we basically get the best synergies.
    Most of our Air Guard bases, frankly, are standalone and 
pretty small. But at the big places likes March, we are looking 
at not only combining facilities but combining operations.
    And so I don't know if you have heard the Chief of Staff of 
the Air Force and the Secretary of the Air Force talk about 
total force integration. So we are looking to combine 
functions, which, by definition, will combine people doing the 
same job into the same building, and that is how we will get 
synergies. We are still in the infancy, but we are all for 
that, so we support that idea.
    General Talley. Sir, I just want to add to that. The Army 
Reserve has 58 facilities in your great State, 16,000 soldiers, 
and our economic impact to the State of California is about 
$962,000 a year.
    We are already doing this, to echo on what General Grass is 
saying, where we find ways to not only combine and share 
facilities across all the Reserve components, to include our 
great Guard, but Hunter Liggett is a great place to look in 
California, where we not only have integrated facilities but 
integrated operations in terms of training.
    And I would argue Hunter Liggett in California is a great 
model, particularly when we use camp parks and partner very 
strongly with the California Guard. That is a great business 
model for us to use for the rest of the United States as we try 
to improve our efficiencies and share facilities and in 
training and operations.
    Mr. Calvert. Well, I just bring that up because, you know, 
in Corona, California, my hometown, and Riverside next door, 
both of the communities wishing to take over those old 
facilities that were built 50, 60 years ago and consolidate 
that at March, which everybody seems to be in favor of doing. 
So the sooner we can do these type of things--and I think it is 
going on all over the country--the better. So thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Calvert.
    Ms. McCollum and then Ms. Granger.

                        LODGING-IN-KIND PROGRAM

    Ms. McCollum. Thank you, Mr. Chair.
    I have a quick question for the Reserve and one for the 
Guard.
    One issue I have been hearing a lot about, my staff has 
been hearing a lot about, is the lack of adequate funding for a 
lodging-in-kind program. It is a program that Reservists from 
rural districts depend upon to give them a space to sleep over 
drill weekends. And because the program has not been adequately 
funded over the last 2 years, we are hearing that many 
Reservists have been forced to pay out of pocket for their 
lodging costs and their transportation. And these are costs 
that many of them cannot afford to pay, but I just, quite 
frankly, don't think they should be paying.
    So, General Talley, can you tell me why we are not 
adequately funding the lodging-in-kind program? And that has to 
have an effect on retention in the Reserves if you start paying 
out of pocket. What can we do to help you with that?
    General Talley. Congresswoman, thank you very much for the 
question, because it is something that I tried hard to initiate 
my first year in the job.
    So the Army doesn't have--the Army does not--I am ashamed 
to say the Army does not resource in-kind lodging the way that 
our other services do. It is not a policy issue; it is just a 
resource issue.
    So, within the Army Reserve, as the Chief of the Army 
Reserve, I have self-funded the in-kind lodging program that we 
have in the Army Reserve. So I am looking across the Army 
Reserve budget and saying where can I assume risk elsewhere to 
bring some money into an Army Reserve in-kind lodging, focused 
on company-level command teams and below, especially those that 
are more than 50 miles out. And I have funded it every year out 
of the Army Reserve account.
    But it is only a very, very small amount of money, and I 
would love to grow that program and, particularly, provide more 
capability and resourcing. Because since we don't have State 
boundaries and it is very common in the Army Reserve culture to 
go from this State to that State as you are drilling and 
training, it does become very problematic.

                          NATIONAL CYBER GUARD

    Ms. McCollum. Well, if you would please get the committee 
staff the amount that you are spending currently and then 
whatever the shortfall would be, I would appreciate that.
    I have a question about the cyber protection teams in the 
National Guard, and either one of you gentlemen can answer it.
    In 2015, the National Guard announced plans to activate 10 
National Guard/Army cyber protection teams, covering 24 States, 
and they are based on FEMA regions. And one of the States, of 
course, you know, full disclosure, FEMA Region 5 is Minnesota. 
And it is my understanding that three teams were activated last 
year, but there are seven teams left to be activated yet.
    And you have all kinds of information, I was just out on 
your Web site, about the National Cyber Guard and announcing, 
you know, the States that are going to be participating in it, 
yet these teams were not funded in the fiscal year 2017 budget. 
And as the cyber domain continues to expand, I agree with you, 
I believe these teams are going to be essential to meet our 
national security demands. Citizen soldiers of the National 
Guard bring private-sector experience and expertise that makes 
them uniquely qualified for the critical task of defending our 
national security in the cyber domain.
    So could you please tell me about these vital roles these 
teams are going to be playing? What is your rollout for 
structure?
    And how do you make your decision on which FEMA team gets 
resourced first? Is it teams that you can stand up quick? I 
would think Team 5, which includes Chicago, Milwaukee, Madison, 
and the Twin Cities, would be ripe with people that you could 
train to train the trainer in the future.
    And what is it going to take to adequately fund these 
teams? And can you tell me the three teams that are currently 
funded? That I couldn't find on the Web site.
    General Kadavy. So, Congresswoman, yeah, you are correct, 
we did name all 10 CPTs, cyber protection teams, late last 
year. While they are beginning to stand up, they actually don't 
activate until fiscal year 2017 for the first three teams. The 
next four are in fiscal year 2018, and then three teams in 
fiscal year 2019. They can begin to grow, but the full 
resources don't show up until those years.
    So POM funding for our cyber protection teams begin in the 
POM year, fiscal year 2018 through 2022. So all that is being 
taken out of current-year operational tempo and paying 
allowances to begin to train the servicemembers. And we project 
that to be a 12- to 24-month period to train them at a cost of 
about $10 million, a million dollars per team, as we begin to 
stand those capabilities up.
    As is related to Cyber Guard, we did provide earlier cyber 
network defense teams to all 54 States, territories, and the 
District of Columbia, and many of them are what participate. 
Those have been ongoing with different various levels of 
training. And they go there, compete, and share lessons learned 
on how to protect their State networks, their Guard network.
    Ms. McCollum. Well, I asked the question, what three are 
standing up?
    General Kadavy. The three that stand up in fiscal year 2017 
are Georgia and California and then a combined CPT of Ohio, 
Michigan, and Indiana. Those are the ones that were announced 
about a year ago this time.
    Ms. McCollum. And, Mr. Chair, sir, what is going to be the 
next round, and how do you determine that? Based on what? What 
is your criteria?
    General Grass. Congresswoman, when we looked at the Army 
and Air combined, one of the things we took into consideration 
is where is the expertise in academia, where is the expertise 
in business and industry.
    And so we took the Army and Air, the two Directors came to 
me, and we are actually on a path right now that, if we field 
everything and get everything trained up in units in the 
States, we will have at least 30 States with a cyber capability 
by 2019, both Army Guard and Air Guard.
    So we take all those criteria, we do an analysis. We work 
with the States, we look at their strength, their ability to 
have structure. And then we start standing it up.

                                 CYBER

    Ms. McCollum. Well, that was my question. So you have a 
formula that you can send to the committee so we can figure 
out--because cybersecurity is something that we are talking a 
lot about and figuring out how this works and how we can be 
helpful with that.
    You didn't have funding in the budget last time. The 
committee supplied it, and you stood up three. If you were to 
somehow or another receive more funding, do you have a process 
in place to stand up some more?
    General Grass. Congresswoman, one of the issues we are 
dealing with right now, all services and all components are 
pushing for cyber as fast as we can. And there are three levels 
of training they go through. Their initial skill training, 
which is when they enter the military; then there are 
certifications they have to receive; and then there is joint 
training.
    What we are looking at right now across the board is what 
can we bring a soldier or an airman into from civilian skills 
and give them credit for that so we don't have to replicate 
that. Because there is just not enough infrastructure and 
enough instructors yet to get that up and running. But we are 
pushing as fast as we can.
    Ms. McCollum. Mr. Chair, my last question.
    Well, then I am confused, because I just asked you if you 
had a protocol in place. You have three States, three FEMA 
regions, right----
    General Grass. Yes, ma'am.
    Ms. McCollum [continuing]. Stood up. So, obviously, you 
have criteria on what you need to move forward, correct?
    General Grass. Right. The services own that criteria.
    Ms. McCollum. Okay. And so my question was--and what you 
said you did is you looked at regions to see what kind of 
assets--academia and the rest--that they have. So I am assuming 
you have done that with all the FEMA areas. I mean, there 
aren't that many of them to take a look. So you could have some 
cybersecurity teams ready to go.
    And, now, if I just heard you right, the three that we 
talked about, they are in the early stages where you are trying 
to figure out even what they have to offer?
    General Grass. No, no. What we are trying to do, ma'am, is, 
as new teams stand up, we are finding that a lot of the 
individuals, the soldiers and airmen we are recruiting have 
some skill set already. And what we want to be able to do is, 
you know, we can extend our capacity to train if we can give 
them credit for certain courses. And we are working on that 
right now with CYBERCOM.
    Mr. Frelinghuysen. Well, let's provide the Congresswoman 
some additional information so that we can satisfy her 
questions.
    Ms. Granger and then Mr. Ryan.

                           FULL TIME SUPPORT

    Ms. Granger. Thank you all for being here today, and thank 
you for your service. I hope you know that we appreciate it and 
we depend on it.
    I have a question for General Grass.
    We often discuss end strength and our concerns about 
reductions. However, the topic of Full-Time Support is often 
left out of that discussion. You brought it up and mentioned it 
in your opening remarks, and I appreciate that.
    But the numbers are really startling. A total of 2,350 
Full-Time Support cuts in fiscal year 2015 and fiscal year 
2016. Fiscal year 2017, the budget proposes an additional 
reduction of 1,207.
    Can you give us more of an insight of what the impact will 
be on that and the importance of Full-Time Support?
    General Grass. Congresswoman, first of all, it is a 
foundational principle that the full-time manning is what makes 
us click at home. Last week, you know, in Texas--you can pick 
any State--the first individuals in that armory, to open that 
armory for responding in the homeland are going to be the full-
time staff. They have the keys, they have the logbooks.
    If you look to the future and as we reduce these numbers, 
there will be less people at those armories to open those doors 
in the homeland mission. The same folks are the folks every day 
that are working to get units ready to go overseas for our 
10,000 Army and Air Guardsmen that are deployed overseas. They 
are taking care of those families of those deployed when issues 
arrive. They are working with the recruiters to put people in. 
They are working pay issues. So they are a foundational 
readiness producer for us.
    What we have seen is it is the largest pot of money. So, as 
we take reductions, it is the one account that we have to take 
money out of to be able to, you know, across the board, be able 
to pay our bills. We are very concerned right now of dropping 
below the 2016 levels. As you mentioned, ma'am, 1,207 more 
positions in 2017 we would lose out of those armories.
    We started the ramp that we are on today, we started that 
in about the 2000-2001 timeframe. And that was built by a study 
that was done by the Army, and it was looking at transforming, 
you know, our old traditional style of Guard weekend to a more 
modern operational force. So that was done even before the war 
started.
    And all we are asking is to kind of get to about a 70-
percent level. We are just under that today. And if we could 
maintain a 70-percent level, we feel that it is adequate 
spending. I mean, it is money well spent for the Guard. But, 
also, if we are going to remain operational, as we are today, 
we have got to have those individuals in those armories.
    Ms. Granger. Thank you.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Mr. Ryan, then Judge Carter.

                  NATIONAL GUARD COUNTER-DRUG PROGRAMS

    Mr. Ryan. Thank you, Mr. Chairman.
    I have a couple questions here, one regarding the National 
Guard counter-drug programs.
    General Grass, as you know, this committee has put 
additional resources into this program that gives some support 
to local law enforcement, both State, local law enforcement. 
And we know that from 2011 till 2014 the National Guard has 
allowed a total of more than $130 million to expire from this 
account instead of transferring the funding back to the larger 
Defense counter-drug account.
    So I would like to ask, given everything that is happening 
in the country with opiates and heroin and everything else that 
is going on, is this an important program for the Guard, and do 
you value this program? And why has the funding not been 
executed?
    General Grass. Congressman, the funding is vital. The 
problem we are having is the episodic budget that we are 
dealing with, being able to keep men and women. You know, we 
make a commitment to them, and then we don't have the money to 
start the year. It has caused problems.
    For 2017, the amount in the budget is about $87.7 million. 
This year, thanks to this committee and the great work that you 
have done and others, we are $212 million total. It is probably 
about the best we have ever had. It fully funds our five 
counter-drug schoolhouses, and every State receives an 
allocation of counter-drug funding. And we received it early 
enough in the year that this year we will probably be pretty 
successful with executing that amount for 2016.
    We really feel that for 2017 we need to get that number 
definitely back up to about $212 million to $220 million based 
on the demands the States have given us.
    I met yesterday with the new SOUTHCOM commander, and we are 
looking at how we build our strategy within the States that we 
have. Each State has their program, but how is that reflected 
then with the combatant commander to the south of us, Southern 
Command, and Northern Command? And how do we build that 
strategy, working with the Threat Integration Committee?
    So it is a vital program today, and not just on our 
borders. It is in our hometowns. It is heroin. You know, it is 
abuse of prescription drugs.
    Mr. Ryan. So there is no funding in the budget request for 
these training centers now?
    General Grass. There will be some in there. We will 
probably--with the current budget, if we went to $87 million, 
we would be lucky to keep one open, which I talked to the 
Deputy Secretary that owns that account. We could probably keep 
one open if we come all the way back to $87 million. But the 
amount of money in each State would significantly drop.
    Mr. Ryan. And so if we got back up to the 220, 215 area, 
you would be able to utilize all five----
    General Grass. Yes, sir.
    Mr. Ryan [continuing]. Centers?
    And the problem before was what was happening here in 
Congress--no budget, continuing resolutions. Is that what you 
were saying?
    General Grass. Yes, sir. And getting the money halfway 
through the year, not being able to bring on the full staff and 
get them out there working with law enforcement till half the 
year was gone.
    Mr. Ryan. So the times that you were able to train up a 
little bit and get people out and coordinated with the other 
law enforcement agencies, did you see some level of success in 
those programs?
    General Grass. Yes, sir, we have. In fact, I have been at a 
session with the Office of National Drug Control Policy where a 
representative from the White House came over and presented 
four of our young counter-drug warriors with awards for their 
great work in counterthreat finance, where their information 
that they were able to obtain, working for law enforcement, 
resulted in millions of dollars captured and take those 
individuals to court and prosecute them.
    Mr. Ryan. This is primarily coming in from Mexico?
    General Grass. Sir, it is from everywhere.
    Mr. Ryan. I mean, I know it is everywhere in the United 
States, but, from our understanding, working on this in other 
committees that I am on and other caucuses, there is a 
concentration somewhere in Mexico where a lot of this heroin is 
coming out of.
    General Grass. There is.
    Mr. Ryan. Is that where you have seen some of the success?
    General Grass. Yes, sir. And not that long ago, I went and 
met with the Governor of the Virgin Islands and I met with the 
Adjutant General of Puerto Rico, and they are seeing an 
increase coming up in through the eastern Caribbean now, as 
well.
    Mr. Ryan. Okay.
    Are we going to have another round, Mr. Chairman?
    Mr. Frelinghuysen. We will, certainly.
    Mr. Ryan. I yield back.
    Mr. Frelinghuysen. Let me turn to the co-chair of the Army 
Caucus, who raised the flag for the Army this morning with Mr. 
Ruppersberger, his other co-chair, Judge Carter. And then Mr. 
Graves.

                      REGIONAL TRAINING INSTITUTES

    Mr. Carter. Thank you, Mr. Chairman.
    General Kadavy, as you know, the established regional 
training institutes, those are critical to the Army's total 
force policy and overall readiness for the Guard and Reserve. A 
major shortcoming in this initiative is the inadequate 
sustainment, restoration, and modernization funding.
    Can you please describe the importance of the regional 
training institutes, what the RTIs do specifically to increase 
National Guard readiness? And will you be supporting those 
States that are establishing these important institutions with 
additional SRM and operations and maintenance funding to ensure 
their success?
    General Kadavy. Congressman, thank you for the question.
    Regional training institutes, sir, are key institutional 
schoolhouses for us. So they do professional military 
education, primarily for noncommissioned officers, but they 
also do officer candidate school and warrant officer candidate 
school, as well as reclassification. So when a soldier moves 
from one community to another and can no longer be an 
infantryman but now is going to be an armor soldier, they do 
reclassification there as well.
    FSRM is key to us. We prioritize it to the best of our 
ability to achieve those, but it is a critical funding issue 
for us. We will have to continue to work on it. The priorities 
always go to the readiness centers. But we do put quite a bit 
of resources--and we will get you that full number--into our 
RTIs, Congressman.
    Mr. Carter. I know the Guard in Texas is trying to set one 
of them on Fort Hood, on North Fort Hood. Got some space 
disputes going on right now, but we are working on it.
    General Kadavy. Yes, Congressman. So that would be an 
extension to their RTI, the regional training institute, down 
around Austin at Camp Mabry.
    Mr. Carter. Mabry, yes.
    General Kadavy. And what they are looking at is some 
facilities to do some additional combat arms training at Hood 
for the infantrymen, field artillerymen, and scout advanced 
training.
    I am aware that we are working an issue, along with the 
Texas Army National Guard, to get some license so we can have 
some predictability in facilities there at North Fort Hood so 
that we could train on them. We don't have it yet. That is an 
impact from the predictability, as it is related to the course 
instructors and the planners that want to know when they can 
hold courses and et cetera.
    But, almost always, our longest, most limiting factor in 
accomplishing that mission is the pay and allowances related to 
our school dollars on a yearly basis.
    Mr. Carter. Well, we are certainly working to try to get 
that issue resolved, and we are hopeful.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Judge, you might could define your 
acronyms that we are putting out here as well, too. I am 
familiar with most of them.
    The gentleman from Georgia, Mr. Graves, and then Mr. 
Womack.

                  ARMY ASSOCIATED-UNITS PILOT PROGRAMS

    Mr. Graves. Thank you, Mr. Chairman.
    And just as Texas, Georgia is proud and Army strong. And I 
wanted to just first thank both General Grass and Kadavy for 
this morning's announcement as it relates to the associated-
units pilot program. And I just had a question or two about 
that. And I know Georgia will make you proud. I am grateful 
that Georgia National Guard was chosen as one of the pilot 
programs, located in Macon.
    Can you help us with an understanding of how you expect or 
anticipate this will create additional readiness for our 
National Guards and what your anticipations or goals are?
    General Grass. Congressman, if I could start.
    When I first looked at this, and General Milley was working 
on it with us, my first thought was, this is what happens every 
day overseas right now. So if we can work together overseas 
like we have for 15 years, well, we ought to easily be able to 
make this work at home.
    General Kadavy. Congressman, just as General Grass said, we 
want to train the way we fight. And it is important that we 
work on a day-to-day basis together as the three components of 
the Army.
    The 48th--great history and have deployed multiple times, 
tremendous leadership and tremendous soldiers. They are the 
right unit. So they are going to be unique. Not only are they 
going to be associated with the Third Infantry Division, the 
battalion out of Fort Benning is going to be associated with 
that particular brigade, as well.
    So we are going to learn a lot. It is a pilot project. 
There will be additional training days and additional 
exercises, but they will be focused on training specifically 
with the Third Infantry Division.
    Mr. Graves. What type of indicators or benchmarks you will 
use maybe to judge its success or make adjustments? Any 
thoughts on that you can share?
    General Kadavy. Well, the unit status report is always a 
good starting point. We will see what the impact is of the 
additional resources and the association to the training 
rating, in particular. And then we will see what value we are 
getting out of the integration, both from the Active and Army 
National Guard standpoint.
    Mr. Graves. Great. Thank you. Thank you, sir.
    Thank you, Chairman.
    Mr. Frelinghuysen. Thank you.
    Mr. Womack and then Mr. Coal, the gentleman from Oklahoma.

                      REGIONAL TRAINING INSTITUTES

    Mr. Womack. Thank you, Mr. Chairman.
    And for the record, let me just say that the question about 
the RTI came from the distinguished gentleman to my right, Mr. 
Carter, and not from me, a former RTI commander.
    And I would just--you know, if you will indulge me just a 
minute, General Kadavy made a great response, but RTIs add a 
lot of value, because we are able to take a very important 
component of the unit status report he was just talking about, 
MOS qualification, and be able to dramatically change those 
percentages, which is a fundamental component of whether a unit 
is ready to mobilize in support of our country.
    And in the case of the 233rd down in Arkansas, we had 
reclassification programs for the field artillery, for the 
infantry. And, General Grass, you will remember, we stood up a 
signal component, 25 series, for Fort Gordon to answer the 
needs of a lot of our Active component in the signal arena.
    So the RTIs are very, very nimble and extremely qualified 
in producing the warfighter specialty qualifications that go 
into their overall readiness, in addition to the officers that 
are coming out of the OCS program. So I am a big fan of it, not 
just because I had a relationship with it but because they do a 
terrific job.

                       STATE PARTNERSHIP PROGRAMS

    On another subject--and I am going to talk about State 
partnership for just a minute. This whole committee understands 
the importance, I think, of being able to put National Guard 
and Reserve component soldiers in key places around the globe 
to build goodwill, to enhance training opportunities, and to, 
in a reciprocal basis, be able to introduce our forces and 
their forces for joint activities.
    And you were telling me a story, General Grass, the other 
day, about Moldova, and I want you to just go over that real 
quickly to illustrate how much value we get and the logistical 
efficiency that takes place when we do one of these 
reciprocating-type events. So could you explain that one real 
quickly?
    General Grass. Yes, Congressman.
    We worked very closely--in the case of Moldova, that has a 
partnership with North Carolina. General Ben Hodges, you know, 
the commander, Army commander in Europe, wants to engage more. 
And you can think about where Moldova is and the people and 
their attitude to what is happening to their east.
    And so, with the partnership, we took soldiers, took a unit 
out of North Carolina for their annual training period, put 
them on a C-17. They flew to Moldova; they are training there 
for 2 weeks. The same C-17 that took them over picked up a 
mortar platoon from the Moldovan force, brought them back to 
North Carolina. In fact, they are just finishing up right now. 
And then they trained with the U.S. forces in primarily North 
Carolina. At the end, we just did the same rotation back and 
forth.
    You know, the interoperability that we are building with 
that mortar platoon, especially in that critical part of the 
world, and the experiences our men and women from North 
Carolina are getting there and the theater, campaign, the 
theater security cooperation that is going on right there for 
General Hodges, as well as General Breedlove, it is a small 
event, but it is big in today's world.
    Mr. Womack. So, General Grass, if you were given an 
opportunity to expand the SPP program, where would you take it? 
And what can this committee do to help the National Guard 
expand it?
    General Grass. Congressman, you know, this year's budget 
right now is sitting at about $9.8 million overhead. Because, 
as I just explained, that training event, we used some 
combatant commander dollars, we used some of our training 
dollars once we build the association, but there is an overhead 
of having a bilateral affairs officer in that country from the 
U.S. to work that. There is an overhead for an adjutant general 
to do his visits or her visits and to link up with their 
partner.
    So, in order to go beyond the 76 countries we have right 
now, we really need about $16 million to $20 million a year to 
support our overall program. Again, we are sitting at about 
$9.8 million for 2017.
    Again, this committee was very helpful in getting us money 
for 2016, which will allow us to expand at least one more 
partnership this year in the Pacific. And, again, I met with 
the SOUTHCOM commander, and I know there is a lot of interest 
right now in adding another country in South America, as well.
    But without the additional overhead, at some point we will 
have to either stop adding partnerships or reduce the overall 
engagement. And the combatant commanders have told me they 
don't want to reduce the overall engagement today.
    Mr. Visclosky. Would the gentleman----
    Mr. Womack. Suffice it to say, Mr. Chairman, our State 
Partnership Programs are a subject matter that is covered by 
every single member up here that has these associations 
everywhere we travel, including recently to South America.
    I yield to the gentleman from Indiana. Yes, sir.
    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. I appreciate the gentleman raising the 
issue.
    General, I thought that account had about $19 million in it 
for the partnership total?
    General Grass. Sir----
    Mr. Visclosky. Or am I incorrect on that? Because you had 
mentioned $9.8 million.
    General Grass. 9.8 is in the budget right now for 2017. For 
2017.
    Mr. Visclosky. Okay. So you are asking for 9.8 for 2017.
    General Grass. No, sir. It is 9.8 is what came forward in 
the budget that was requested from Congress. We are asking for 
a plus-up----
    Mr. Visclosky. 2017.
    General Grass [continuing]. Of about $7 million to get us--
--
    Mr. Visclosky. And that was 2017.
    General Grass. For 2017.
    Mr. Visclosky. Okay. And you used the example with Moldova 
and North Carolina. Essentially, those moneys for all that 
transport--and that is an example, it is illustrative--is not 
coming out of that.
    General Grass. And, sir, that was a training point----
    Mr. Visclosky. That is to the training point, yeah, right.
    General Grass [continuing]. For the C-17 pilots.
    Mr. Visclosky. So the general question, following up, if 
the gentleman will yield again, is there is a legitimate need 
for some additional resources here to make sure that is a 
robust program.
    General Grass. Yes, sir. Absolutely. Thank you.
    Mr. Visclosky. I appreciate the gentleman yielding.
    Mr. Womack. I will have other questions, but I will yield 
back for right now.
    Mr. Frelinghuysen. Okay.
    Mr. Cole and then Mr. Diaz-Balart.

                            EQUIPMENT NEEDS

    Mr. Cole. Thank you very much, Mr. Chairman.
    Gentlemen, I am sorry I missed your testimony. We are all 
juggling a lot of hearings these days, so I apologize for that 
very much.
    I will start with you, General Talley, if I may, and then, 
General Grass, you may want to hand this off a little bit. But 
I am interested in where we are equipment-wise right now. If 
you had to pick four or five areas of equipment that you feel 
like we are short or not up to what you need, could you shed 
some light on that?
    And then I would like to ask the same question with respect 
to the Guard.
    General Talley. Congressman, thank you for the question.
    Well, here is where we are in terms of both our equipment 
on hand and the modernization. The Army Reserve right now is 
about 92 percent of our equipment on hand is there, and about 
72 percent of that is modernized.
    But the real challenge I have on equipment modernization is 
the Army Reserve's equipping/modernization budget is 
approximately 2.6, 2.7 percent. Our pre-9/11 levels, which I 
know you missed because you came in after my opening testimony, 
were 6 percent.
    So pre-9/11, the Army Reserve--which was part of the 
operational force, but I think it is fair to say we were 
considered more strategic collectively as a Reserve prior to 9/
11--I am 6 percent of the equipping modernization budget. Fast 
forward to today, I am 2.6 percent, 2.7 percent, depending on 
how you view the numbers, of the equipping/modernization 
budget. Thirty-five percent of all my procurements from really 
2013 to 2015 were from NGREA. So this is problematic.
    So we are lagging behind the other two components. And what 
concerns me is, since most of the enablers are in the Army 
Reserve and we have the early entry set, the theater forces for 
the total Army--you know, we focus on BCTs, but I got to make 
sure the enablers are ready, and the Army relies on me to get 
those enablers out there early and set the theater and stay in 
the theater. And this is a concern.
    Now, the Army has recently come up and provided, in the 
current budget, some help on mission command, equipment, and 
modernization. But, collectively, overall, I have some strong 
concerns.
    Mr. Cole. So you didn't answer in terms of specifics, but 
you do just have a big overall problem, period, that would 
affect almost everything you have, then, right?
    General Talley. Absolutely. Sir, for the record, I can give 
you the specific details, probably the top five or six, if you 
would like.
    Mr. Cole. That would be great. I would appreciate it if you 
do that.
    General Talley. Yes, sir.
    Mr. Cole. Could I ask essentially the same question to you, 
General Grass?
    General Grass. Congressman, if I could, we are probably 
sitting very close to what Jeff mentioned, at 92 percent on the 
Army. The Air is a different issue. It is modernization of very 
expensive items. What NGREA, National Guard and Reserve 
Equipment Account, really helps us with is those critical dual-
use, that we can tie them to the homeland as well as going 
overseas.
    Looking at the current Army Guard shortfalls, engineer 
equipment, communications equipment, detection equipment in our 
chem-bio-nuclear-type units are things that we are looking at 
expanding and spending more money on. In some cases, upgrading 
some of our wheeled systems is also important.
    On the Air side, in the homeland--and you have probably 
seen some of this in the press--putting the AESA radar, which 
is the radar that can help us distinguish small items, getting 
those on as many of our F-16s and our F-15s as we can to 
support NORAD.
    And then there are some upgrades, as you know, on the C-130 
fleet that we need to be able to continue to fly them in 
international airspace in 2020. Right now, we are on a path to 
get there, but if over the next 4 years the funding gets cut in 
any way, it is a problem General Welch and I have both talked 
about. Ultimately, General Welch would like to get us in a 
situation where we recapitalize our old H-model C-130s and get 
into the J's.
    General Talley. Sir, I am going to sneak back in real quick 
for the record.
    So bridge erection boats, $73 million; common bridge 
transport, so engineer stuff, $157 million; heavy cranes, $73 
million; scrapers, which are big heavy junk, $48 million; and 
then palletized load systems, $286 million. Those are the type 
five, sir.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Okay. Thank you.
    Would you yield to Mr. Visclosky?
    Mr. Diaz-Balart. Absolutely, Mr. Chairman.
    Mr. Frelinghuysen. Is that right? Did you want to go now?
    Mr. Visclosky. No, the gentleman can go ahead.
    Mr. Frelinghuysen. The gentleman from Florida, I apologize, 
and then Mr. Visclosky.

                             CYBERSECURITY

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    And I apologize for being late, as well, gentlemen.
    I want to talk a little bit about cybersecurity. And, you 
know, it is something that continues to grow, and it is a vital 
part of our national defense. But how is the Reserve--I know 
you are involved in it. I know you have, frankly, some avenues 
that are a little unique because you have access, right, to the 
folks in the private sector.
    So how are you, and can you increase that contribution, 
your efforts? And is there anything that we can do to help in 
any way? I don't know who wants to handle that.
    General Grass. Congressman, I will take it first.
    Of course, we are committed. And with the Council of 
Governors, which are 10 Governors that we meet with the 
Secretary of Defense or the Deputy Secretary three to four 
times a year, this is one of their critical areas that they 
wanted us to focus on.
    The first thing we had to get hammered out from the 
National Guard perspective is the authorities to use the 
National Guard in the homeland. And you can imagine, you know, 
attribution and responsibility, proprietary equipment. So we 
have worked through all that, and I think we have a pretty good 
way forward right now.
    The second part is we set out, as we mentioned earlier, to 
get as many States that could support it with the types of 
skills in industry, in business, also looking at what we can 
support from academia. We positioned those units across the 
States and then start using them.
    What we found, and I can ask General Neal to talk about, as 
soon as we can stand up an Air Guard unit, it is being used 
today. We are actually bringing our Air Guard units online, and 
we are going to mobilize for 4-month periods our cyber 
protection teams, and they will serve in support of CYBERCOM.
    In the case of the Army Guard, again, we are trying to 
stand them up as quick as we can.
    Mr. Diaz-Balart. Okay.
    General Neal. Congressman, that is correct. So we are part 
of the national cyber support in support of U.S. Cyber Command. 
So, starting in April, we will have a constant presence, 24/7, 
of a cyber contribution to the Cyber Command's defensive 
forces.
    And I think you asked about leveraging the----
    Mr. Diaz-Balart. Uh-huh.
    General Neal [continuing]. Civilian communities. We are 
doing that. Really, probably no place serves better as an 
example than Washington, the State of Washington. As you know, 
there are a lot of tech companies out there, and we have quite 
a few of those, including executives that are 
multimillionaires, who are traditional Guardsmen and, you know, 
love contributing to the cyber defense of the Nation.
    So it is pretty interesting. We are able to do that around 
the country. And as the cyber demands grows or the requirement 
from U.S. Cyber Command continues, we would hope to stand up 
more cyber ops squadrons.
    General Talley. Sir, let me get in on that for just a 
minute. So, in the Army Reserve, I am going to zip through 
pretty quick offense, defense, protective platform.
    Offense: The military intelligence command of the Army 
Reserve provides direct support to the NSA cyber warriors.
    Defense: Two-star, 335th Signal Command has all of my cyber 
brigades. They do the defense, and they protect the platform. I 
have 3,500 cyber warriors and another 3,500 that are cyber-
related, and most of those work in the private sector.
    This committee, which I want to thank, helped bring $6 
million to my private-public partnership program, where we have 
had six universities and a number of very prominent private 
companies, Microsoft being one of them, as a joint Army Reserve 
private-public cyber initiative. And we are integrating those 
private skills directly into our soldiers and supporting Army 
Cyber and Cyber Command, and this committee has helped.
    Mr. Diaz-Balart. Mr. Chairman, again, thank you. It is 
amazing what our Reservists and what our Reserve Force, 
frankly, can and do. And so, again, thank you for this 
opportunity.
    Mr. Frelinghuysen. We have some reservists on your home 
turf of Cuba, I believe. Right? Don't we have a unit there from 
Pennsylvania? Didn't want to get you too excited.
    Mr. Visclosky.

                        DUAL-STATUS TECHNICIANS

    Mr. Visclosky. Thank you, Mr. Chairman.
    General Grass, under the fiscal year 2016 Defense 
Authorization Act, some Guard dual-status technicians lose 
their Title 31 status and become Federal civilian employees 
under Title 5. Forty-one governors have written to Congress 
asking the repeal of this provision. Could you tell the 
committee more about the program and how the conversion 
directive by the 2016 authorization affects the readiness of 
your units?
    General Grass. Congressman, in the National Defense 
Authorization Act 2016, as you mentioned, the guidance in there 
is to convert our technicians, both our dual-status and non-
dual-status. Dual-status being someone that is required to wear 
a uniform to work and they are also required to serve in the 
unit, but during the work they serve as a technician or a 
general--a GS type employee.
    Mr. Visclosky. And as I understand it, just because we had 
a conversation, and I didn't grasp this until this past week 
when we met, that is the majority of your civilian employees.
    General Grass. The majority are civilian employees during 
the week, but they are required to be in uniform, those dual-
status. So with a 20 percent conversion, which is what is in 
the NDAA right now, we are very concerned about the readiness 
effects as well as the effects on our people. We want to make 
sure we get it right.
    The Technician Act was passed in 1968. So we feel it is a 
good time to review the legislation and put into place that 
program. The governors and the adjutants general have told me 
they are very concerned about losing command and control of 
those forces and they being available to them in times of 
disaster in the homeland. So we are working very closely within 
the Department of Defense to try to find a solution here.
    What we really need, sir, is we need a delay. Right now we 
have to implement on 1 January of 2017, and we feel we are just 
not ready without having a huge impact on people and readiness. 
So we need a delay at least until probably fiscal year 2017, 
which is 1 October of 2018, but a delay of some time to do some 
more analysis of this Defense Authorization Act, which is law 
right now.

                    EUROPEAN REASSURANCE INITIATIVE

    Mr. Visclosky. Okay. If I could follow up on your earlier 
conversation we had about the Partnership Program. In this 
year's budget, the request for the European initiative is 
increased from $789 million to $3.4 billion. My understanding 
is we have 22 different partnership programs under the Europe 
Command. Do you have any sense that some of those funds will be 
made available to help facilitate what I think everybody 
acknowledges is a good program?
    General Grass. Congressman, they will be. And I will let 
General Kadavy let you know the things he is working for this 
summer using the European Re Initiative fund to help pay for 
some of the training associations that we have with our State 
partners. And the Air National Guard is doing a lot of the 
similar-type activity.
    General Kadavy. Congressman, in fiscal year 2016 we 
received $20 million of European Reassurance Initiative 
funding. That will support 7,776 Army National Guard soldiers 
doing about 160,000 man days.
    So what will this buy? First, there is an exercise, 
Resolute Castle----
    Mr. Visclosky. And that is for 2016, General?
    General Kadavy. This is for 2016. This summer, Congressman.
    So Resolute Castle, which is an engineer exercise, the 
Tennessee and Alabama Army National Guard, 1,200 personnel 
doing engineer projects in training areas in Romania and 
Bulgaria, their State partners. And then in Anaconda 2016, 
which is the major exercise this summer, the Army National 
Guard will provide 2,700 enabling capabilities from air defense 
to engineers to logistics to transportation.
    And then later this summer Saber Guardian 2016 in Romania, 
one of our combined arms battalion task forces from the 116th 
ABCT that went to the National Training Center last year will 
provide a battalion that will go train with the Romanians and 
other Eastern European allies in Romania later this summer.
    And we are going to use ERI in conjunction with annual 
training and other overseas deployment dollars for most of 
these exercises to be a 29-day training period for our 
soldiers.
    Mr. Visclosky. And looking ahead to 2017, should we be 
having a conversation, given the anticipated increase in tempo, 
as to what the right size figure out of that European 
initiative should be?
    General Kadavy. Right now, Congressman, we believe that we 
are targeted for $20 million again in fiscal year 2017.
    Mr. Visclosky. You should be spending more money in 
Slovakia, you know that.
    General Kadavy. General Carr loves Slovakia. He just 
returned back from last week.
    Mr. Visclosky. Thank you.

                         ARMY ASSOCIATED UNITS

    Mr. Frelinghuysen. Before I yield to Ms. Kaptur, I want to 
get a little more information on the associated units. Of 
course, our Army chief of staff did a pretty remarkable job 
this morning of sort of rolling out his billboard. Is this a 
result of the Commission on the Future of the Army? In other 
words, is this a step to recognize that that is one of their 
main recommendations? And is that why it is being set up?
    I know obviously we take pride in the integration that we 
have seen over the last 15 years of the whole Army. What, 
actually, what legal basis does it have?
    General Kadavy. This was one of General Milley's initial 
initiatives. We have been working through this with the Active 
Component and with the United States Army Reserve for a number 
of months prior to the National Commission----
    Mr. Frelinghuysen. I am all for it. I mean, quite honestly, 
a year ago everybody was at loggerheads here and all hell was 
breaking loose in terms of who did what and who is getting what 
equipment. And I think we have made some progress, and I am 
highly supportive of it.
    But of course when I hear the term pilot, maybe that is the 
camel's nose under the tent. So we are starting to take a look 
at this full integration. And just satisfy my curiosity. Does 
that mean that the Guard and Reserve bring their--I won't say 
their worn out equipment--to the battle space or does everybody 
train on what the regular Army, what the regular military is 
doing?
    General Grass. Chairman, if we get it right--and that is 
why it is a pilot, we want to make sure we get it right. And 
you think about an Active unit coming to a Guard unit or a 
Guard unit going to Active, there are authorities we have got 
to work through, and we can get through there. But think about 
our young men and women now on a weekend drill where they have 
access to the most modern equipment.
    Mr. Frelinghuysen. Yeah, I am supportive of it.
    Now, as we look at, let's say, our footprint in 
Afghanistan, 9,800, and I know the reasons, no one ever wants 
to mention the term 10,000, but there is a view that to put 
together that force the military has had to draw from a variety 
of different units, decouple different, should we say, aspects 
of existing units, I assume regular Army units as well as Guard 
and Reserve. Is there some degree of that in what we are 
initiating here?
    General Grass. One of the proposals that was rolled out 
today----
    Mr. Frelinghuysen. I am not articulating it well, but I 
think you know what I am talking about.
    General Grass. Yes, sir. There would be an exchange of our 
Active, Guard, and Reserve officers with some of the Active 
into our units.
    Also, when the commissioners briefed us, the first thing 
they said upfront was there was one Army, a total Army. And 
this is the first step in the----
    Mr. Frelinghuysen. I am all for it. I understand the notion 
of one Army school system. I think I do. But just in terms of 
the equipment, I think we have been--this committee 
historically has been very favorable through the NGREA account 
and I think we will continue to be.
    What is the dynamic of, let's say, Humvees and light 
tactical vehicles and trucks and things that----
    General Kadavy. Mr. Chairman, I think I asked General 
Milley the exact same question. And the intent is there will 
have to be programming decisions made in fiscal year 2018 and 
beyond, which is his first program to build. His intent is 
like-type equipment, like-type capability, and ensuring 
interoperability.
    So I think, yes, those things will happen. One June is 
initial operating capability, which is starting to coordinate, 
discuss, build relationships. And then not until 1 October of 
2017 full operation capabilities, which is when all those 
programming decisions we are talking through right now, which 
will be in the fiscal year 2018 program. But the intent is for 
them to have the exact same signal equipment, exact same 
wheeled vehicles. They will be part of that team.

                      TRAINING PARTNERSHIP PROGRAM

    Mr. Frelinghuysen. So you are optimistic. I come from the 
school of having defended the Future Combat System. And I just 
want to make sure whatever we are embracing here--I am all for 
it--that this is actually going to work. I mean, good thing 
about General Milley's presentation today, he was so emphatic 
that there would be one Army, that it was sort of let known 
that if some people didn't like where he was going, they could 
exit the stage. I like that.
    Major General Neal. Mr. Chairman----
    Mr. Frelinghuysen. Yes, please jump in, General.
    General Neal. So we had this. It was done by Forces 
Command, starting with Dan Allyn, who was a great commander, 
and then after him General Milley, and then now General Abrams. 
And it was called the Training Partnership Program.
    And so this isn't anything new. But what is new is that is 
where they aligned all the various RC units with AC. And it was 
basically PowerPoint deep, maybe a little bit more than that. 
Maybe I am not being as generous as I should.
    So when we had new FORSCOM commanders came in, and General 
Milley was trying to work on this when he was the commander, 
and now he floated up to be the CSA and General Abrams has got 
this clearly by the handle, the thought process is we have got 
to make this not a slogan, not a PowerPoint, it has got to be 
reality. Let's take a step back, let's engage a pilot, and 
let's get to all the specifics that you are talking about in 
terms of using the same platform.
    So for my case, I got the 100th, go for broke, in Hawaii 
that is partnering with the 25th Infantry Division. I have got 
the Quartermaster Airborne Company at Fort Bragg that will plug 
and play with the 82nd. We will start there. So now what we are 
doing is rather than starting big and just aligning with 
everybody, we are really putting meat and potatoes on it, and 
it is getting strong emphasis from the top. And be reassured, 
it will work.
    Mr. Frelinghuysen. I am all for it. But we had a session 
this morning with the surgeon generals, and we talked about the 
aspects of health readiness and the inadequacy of the 
Department of--it is better than it used to be, electronic 
medical health records. I mean, there will have to be a meshing 
of a lot of different things in order for this to work and we 
are obviously encouraged by this step forward. I guess that is 
the best way to put it.
    Do you want to get any last word in, General Grass? Then we 
are going to go to Ms. Kaptur.
    General Grass. Chairman, just one. I think it makes the 
National Guard and Reserve Equipment Account even more 
important for those units especially that are aligned, that we 
are going to continue to need that help, because there just 
won't be enough dollars to modernize and recapitalize.
    Mr. Frelinghuysen. We are with you.
    Ms. Kaptur, and then Judge Carter, I think, has some 
additional questions.

                           STATE PARTNERSHIP

    Ms. Kaptur. Thank you, Mr. Chairman.
    I want to associate myself with the chairman's support and 
Congressman Womack and others of the State Partnership Program. 
Ohio is partnered with Hungary and with Serbia. And my only 
observation is, in view of what is happening in Ukraine, I 
would just urge those in command to think hard about, for 
example, if States like Ohio that are partnered with Hungary 
could use that opportunity to help Ukraine, even by shipping 
humanitarian goods, to look at integration of some of those 
activities on the ground. Same is true with Serbia. Just some 
thoughts where we have a will but perhaps the structure that 
currently exists doesn't think that way. It is too cordoned off 
just based on the geography of each of those partnerships.
    So that is just a statement. And I really love that 
program.
    I have one request for the record, and then two questions, 
if I might. On the 12304b rotations, the European Reassurance 
Initiative calls for a large increase in the use of National 
Guard and Reserve soldiers and airmen to fulfill rotational 
requirements. But I am concerned that the code used to activate 
them does not provide the full range of benefits, health care, 
education, retirement as for other enlisted levels.
    General Grass and General Talley, can you please outline 
and answer to the record for us the difference in benefits our 
soldiers and airmen receive under this code versus a combat 
deployment? And what is the cost difference to restore these 
benefits to our troops? So that will be for the record.
    [The information follows:]

    Rep. Kaptur. I have one request for the record, and then two 
questions, if I might. On the 12304b rotations, the European 
Reassurance Initiative calls for a large increase in the use of the 
National Guard and Reserve soldiers and airmen to fulfill rotational 
requirement. But I am concerned that the code used to activate them 
does not provide the full range of benefits, health care, education, 
retirement as for other enlisted levels.
    General Grass and General Talley, can you please outline and answer 
to the record for us, the difference in benefits our soldiers and 
airmen receive under this code vs combat deployment? And what is the 
cost difference to restore these benefits to our troops? So that will 
be for the record.
    General Grass. Service Members (SM) mobilized under 10 USC 12304b 
do not receive the following six benefits that a member mobilized under 
10 USC 12302 would receive. Benefit numbers 3 through 6 are currently 
in the legislative proposal process.
    1. Benefit: Medical Care (delayed-effective-date active duty order) 
a.k.a Pre-Tricare (eligible 180 days prior to active duty order start 
date)
    Description: 10 USC 1074
    (a) Under joint regulations to be prescribed by the administering 
Secretaries, a member of a uniformed service described in paragraph (2) 
is entitled to medical and dental care in any facility of any uniformed 
service.
    (d)(1) For the purposes of this chapter, a member of a reserve 
component of the armed forces who is issued a delayed-effective-date 
active-duty order, or is covered by such an order, shall be treated as 
being on active duty for a period of more than 30 days beginning on the 
later of the date that is--(A) the date of the issuance of such order; 
or (B) 180 days before the date on which the period of active duty is 
to commence under such order for that member.
    (2) In this subsection, the term ``delayed-effective-date active-
duty order'' means an order to active duty for a period of more than 30 
days in support of a contingency operation under a provision of law 
referred to in section 101(a)(13)(B) of this title that provides for 
active-duty service to begin under such order on a date after the date 
of the issuance of the order.
    Reason: SM are only eligible if supporting contingency operations 
as defined in 10 USC 101(a)(13)(B) for greater than 30 days. In this 
definition of contingency operations, 10 USC 12304b is not specifically 
listed.
    Budget Implications: The number of personnel affected is a 
projection based on Fiscal Year (FY) 2016 Active Duty for Operational 
Support (ADOS) activations in support of contingency operations and FY 
2016 12304b programming. In FY 2016, a total of 6711 RC Service members 
are expected to be activated for ADOS. This budget methodology makes 
the following assumptions:
    1. The Declaration of National Emergency will continue through FY 
2024 due to the emerging ISIS threat and increasing global instability. 
The 10 U.S.C. 12302 authority will be available to activate the RC 
through FY 2021 and probably through FY 2024.
    2. The Services provided 12304b projections for FY 2017-2021 and 
expect to maintain a total steady state of nearly 3000 12304b 
activations to sustain the preprogramed operations tempo from FY2017-
2021.
    This proposal used the 12304b activation data from FY 2014 through 
FY 2024 in the following table:

                                                         12304b ACTIVATION PROJECTIONS FY14-FY24
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       FY 2014  FY 2015  FY 2016  FY 2017  FY 2018  FY 2019  FY 2020  FY 2021  FY 2022  FY 2023  FY 2024
--------------------------------------------------------------------------------------------------------------------------------------------------------
Air Force............................................        0     1182     1076     1130     1130     1130     1130     1130     1130     1130     1130
Army.................................................      962     1007     1008     1010     1010     1010     1010     1010     1010     1010     1010
                                                      --------------------------------------------------------------------------------------------------
    Total............................................      962     2189     2084     2140     2140     2140     2140     2140     2140     2140     2140
--------------------------------------------------------------------------------------------------------------------------------------------------------

    According to the Defense Health Agency testimony to the House 
Appropriations Committee, Defense (HAC-D), regarding the military 
health system (http://www.health.mil/ReferenceCenter/Congressional-
Testimonies/2016/03/22/Bono-DHP-Budget) the document states that for 
FY17, DoD requested $33.5 billion for the Defense Health Program, 
which serves 9.4 million uniformed and other military beneficiaries 
worldwide ($33.5 billion / 9.4 million beneficiaries = $3,564/
beneficiary per year).
    According to Defense Enrollment Eligibility Reporting System 
(DEERS), for the Air National Guard there is an average of two 
dependents per Service Member.
    For FY17, the cost per Service Member (and family members) for Pre-
Tricare Health Care would be $5,346 for the 180 days of eligible 
coverage prior to mobilization. The total FY17 cost for the Air Reserve 
Component (Air National Guard and Air Force Reserve) for the projected 
12304b activations (1130) would be $6.04M.
    2. Benefit: Transitional Health Care (up to 180 days after release 
from active duty)
    Description: 10 USC 1145
    (a) Transitional Health Care.--
    (1) For the time period described in paragraph (4), a member of the 
armed forces who is separated from active duty as described in 
paragraph (2) (and the dependents of the member) shall be entitled to 
receive--
          (A) except as provided in paragraph (3), medical and dental 
        care under section 1076 of this title in the same manner as a 
        dependent described in subsection (a)(2) of such section; and
          (B) health benefits contracted under the authority of section 
        1079(a) of this title and subject to the same rates and 
        conditions as apply to persons covered under that section.
    (2) This subsection applies to the following members of the armed 
forces:
          (A) A member who is involuntarily separated from active duty.
          (B) A member of a reserve component who is separated from 
        active duty to which called or ordered in support of a 
        contingency operation if the active duty is active duty for a 
        period of more than 30 days.
    (4) Except as provided in paragraph (7), transitional health care 
for a member under subsection (a) shall be available for 180 days 
beginning on the date on which the member is separated from active 
duty. For purposes of the preceding sentence, in the case of a member 
on active duty as described in subparagraph (B), (C), or (D) of 
paragraph (2) who, without a break in service, is extended on active 
duty for any reason, the 180-day period shall begin on the date on 
which the member is separated from such extended active duty.
    Reason: SM are only eligible if supporting contingency operations 
as defined in 10 USC 101(a)(13)(B) for greater than 30 days. In this 
definition of contingency operations, 10 USC 12304b is not specifically 
listed.
    Budget Implications: The number of personnel affected is a 
projection based on Fiscal Year (FY) 2016 Active Duty for Operational 
Support (ADOS) activations in support of contingency operations and FY 
2016 12304b programming. In FY 2016, a total of 6711 RC Service members 
are expected to be activated for ADOS. This budget methodology makes 
the following assumptions:
    1. The Declaration of National Emergency will continue through FY 
2024 due to the emerging ISIS threat and increasing global instability. 
The 10 U.S.C. 12302 authority will be available to activate the RC 
through FY 2021 and probably through FY 2024.
    2. The Services provided 12304b projections for FY 2017-2021 and 
expect to maintain a total steady state of nearly 3000 12304b 
activations to sustain the preprogramed operations tempo from FY2017-
2021.
    This proposal used the 12304b activation data from FY 2014 through 
FY 2024 in the following table:

                                     12304b ACTIVATION PROJECTIONS FY14-FY24
----------------------------------------------------------------------------------------------------------------
                                       FY     FY     FY     FY     FY     FY     FY     FY     FY     FY     FY
                                      2014   2015   2016   2017   2018   2019   2020   2021   2022   2023   2024
----------------------------------------------------------------------------------------------------------------
Air Force..........................      0   1182   1076   1130   1130   1130   1130   1130   1130   1130   1130
Army...............................    962   1007   1008   1010   1010   1010   1010   1010   1010   1010   1010
                                    ----------------------------------------------------------------------------
    Total..........................    962   2189   2084   2140   2140   2140   2140   2140   2140   2140   2140
----------------------------------------------------------------------------------------------------------------

    According to the Defense Health Agency testimony to the House 
Appropriations Committee, Defense (HAC-D), regarding the military 
health system (http://www.health.mil/Reference-Center/Congressional-
Testimonies/2016/03/22/Bono-DHP-Budget) the document states that for 
FY17, DoD requested $33.5 billion for the Defense Health Program, 
which serves 9.4 million uniformed and other military beneficiaries 
worldwide ($33.5 billion/9.4 million beneficiaries = $3,564/beneficiary 
per year).
    According to Defense Enrollment Eligibility Reporting System 
(DEERS), for the Air National Guard there is an average of two 
dependents per Service Member.
    For FY17, the cost per Service Member (and family members) for 
Transitional Health Care would be $5,346 for the 180 days of eligible 
coverage after returning from mobilization. The total FY17 cost for the 
Air Reserve Component (Air National Guard and Air Force Reserve) for 
the projected 12304b activations (1130) would be $6.04M.
    3. Benefit: Qualifying Service Toward Reduced Retirement Age
    Description: 10 USC 12731(f)
    (a) Except as provided in subsection (c), a person is entitled, 
upon application, to retired pay computed under section 12739 of this 
title, if the person--
          (1) has attained the eligibility age applicable under 
        subsection (f) to that person;
          (2) has performed at least 20 years of service computed under 
        section 12732 of this title;
          (3) in the case of a person who completed the service 
        requirements of paragraph (2) before April 25, 2005, performed 
        the last six years of qualifying service while a member of any 
        category named in section 12732(a)(1) of this title, but not 
        while a member of a regular component, the Fleet Reserve, or 
        the Fleet Marine Corps Reserve, except that in the case of a 
        person who completed the service requirements of paragraph (2) 
        before October 5, 1994, the number of years of such qualifying 
        service under this paragraph shall be eight; and
          (4) is not entitled, under any other provision of law, to 
        retired pay from an armed force or retainer pay as a member of 
        the Fleet Reserve or the Fleet Marine Corps Reserve.
    (f)
    (1) Subject to paragraph (2), the eligibility age for purposes of 
subsection (a)(1) is 60 years of age.
    (2)
          (A) In the case of a person who as a member of the Ready 
        Reserve serves on active duty or performs active service 
        described in subparagraph (B) after January 28, 2008, the 
        eligibility age for purposes of subsection (a)(1) shall be 
        reduced, subject to subparagraph (C), below 60 years of age by 
        three months for each aggregate of 90 days on which such person 
        serves on such active duty or performs such active service in 
        any fiscal year after January 28, 2008, or in any two 
        consecutive fiscal years after September 30, 2014. A day of 
        duty may be included in only one aggregate of 90 days for 
        purposes of this subparagraph.
          (B) (i) Service on active duty described in this subparagraph 
        is service on active duty pursuant to a call or order to active 
        duty under a provision of law referred to in section 
        101(a)(13)(B) or under section 12301(d) of this title. Such 
        service does not include service on active duty pursuant to a 
        call or order to active duty under section 12310 of this title.
    Reason: SM are only eligible if supporting contingency operations 
as defined in 10 USC 101 (a)(13)(B) for greater than 30 days. In this 
definition of contingency operations, 10 USC 12304b is not specifically 
listed.
    Budget Implications (per ULB submission): The number of personnel 
affected is a projection based on Fiscal Year (FY) 2016 Active Duty for 
Operational Support (ADOS) activations in support of contingency 
operations and FY 2016 12304b) programming. In FY 2016, a total of 6711 
RC Service members are expected to be activated for ADOS. This budget 
methodology makes the following assumptions:
    1. The Declaration of National Emergency will continue through FY 
2024 due to the emerging ISIS threat and increasing global instability. 
The 10 U.S.C. 12302 authority will be available to activate the RC 
through FY 2021 and probably through FY 2024.
    2. The Services provided 12304b projections for FY 2017-2021 and 
expect to maintain a total steady state of nearly 3000 12304b 
activations to sustain the preprogramed operations tempo from FY2017-
2021.
    This proposal used the 12304b activation data from FY 2014 through 
FY 2024 in the following table:

                                                         12304b ACTIVATION PROJECTIONS FY14-FY24
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       FY 2014  FY 2015  FY 2016  FY 2017  FY 2018  FY 2019  FY 2020  FY 2021  FY 2022  FY 2023  FY 2024
--------------------------------------------------------------------------------------------------------------------------------------------------------
Air Force............................................        0     1182     1076     1130     1130     1130     1130     1130     1130     1130     1130
Army.................................................      962     1007     1008     1010     1010     1010     1010     1010     1010     1010     1010
    Total............................................      962     2189     2084     2140     2140     2140     2140     2140     2140     2140     2140
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The DoD Office of the Actuary used a 10-year look from FY 2014 to 
FY 2024 to compute an estimated cost. The cost for the Services is the 
Retired Pay Accrual contribution paid to the Military Retirement Trust 
Fund. The actuaries are unsure if this proposal will have a cost, but 
felt that the estimated costs in the table below should be included in 
good faith. For example, for budgeting purposes, the early retirement 
eligibility authorization effectively reduces the budgeted RC 
retirement age from 60 to 58. Extending early retirement eligibility to 
12304b active duty may not move the needle enough to effectively reduce 
the estimated early retirement age from 58 years to 57 years and 11 
months.
    The DoD Office of the Actuary states ``if [the ULB is] enacted, 
actual results/costs implemented by the DoD Board of Actuaries may 
differ from those shown in this estimate. They may decide to not 
reflect costs until actual experience emerges, or decide the impact is 
below the valuation's rounding thresholds.'' For example, the actuaries 
estimate the Retired Pay Accrual contribution of $5.5 million for the 
Army in FY 2021 for the range of 1,000-10,000 man-years worth of 12304b 
activations.
    The 5 years of cost estimated required for the ULB submission (FY 
2017-FY 2021) are included in the table below.
    The attached actuary excel spreadsheet displays the assumptions and 
the costs through FY24. Actuary costs assume 14 percent of new entrants 
to the part-time drilling reserves become eligible for a reserve non-
disability retirement. The resources reflected in the table below are 
funded within the FY 2017 President's Budget.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            RESOURCE REQUIREMENTS ($MILLIONS)
---------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                      Dash-1
                                                                    FY      FY      FY      FY      FY     Appropriation    Budget     Line     Program
                                                                   2017    2018    2019    2020    2021        From        Activity    Item     Element
--------------------------------------------------------------------------------------------------------------------------------------------------------
Air Force                                                          1.15    1.15    1.20    1.25    1.25       Military          01       010
                                                                                                          Personnel, Air
                                                                                                                 Force
--------------------------------------------------------------------------------------------------------------------------------------------------------
Army                                                               5.00    5.10    5.20    5.40    5.50       Military       01/02     05/06
                                                                                                            Personnel,
                                                                                                                  Army
--------------------------------------------------------------------------------------------------------------------------------------------------------
Navy does not intend to use this authority, which would have been funded in the following account: Military Personnel, Navy.
Marine Corps does not intend to use this authority, which would have been funded in the following account: Military Personnel, Marine Corps.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total                                                              6.15    6.25    6.40    6.65    6.75
--------------------------------------------------------------------------------------------------------------------------------------------------------



----------------------------------------------------------------------------------------------------------------
                                          NUMBER OF PERSONNEL AFFECTED
-----------------------------------------------------------------------------------------------------------------
                                                                     FY 2017  FY 2018  FY 2019  FY 2020  FY 2021
 
----------------------------------------------------------------------------------------------------------------
Air Force                                                               565      565      565      565      565
----------------------------------------------------------------------------------------------------------------
Army                                                                   1010     1010     1010     1010     1010
----------------------------------------------------------------------------------------------------------------
  Total                                                                1575     1575     1575     1575     1575
----------------------------------------------------------------------------------------------------------------

    4. Benefit: Post-9/11 GI Bill.
    Description: 38 USC, Ch 33 (sections 3301, 3312 amended).
    Section 3301:
    In this chapter:
    (1) The term ``active duty'' has the meanings as follows (subject 
to the limitations specified in sections 3002(6) and 3311(b)):
          (A) In the case of members of the regular components of the 
        Armed Forces, the meaning given such term in section 
        101(21)(A).
          (B) In the case of members of the reserve components of the 
        Armed Forces, service on active duty under a call or order to 
        active duty under section 688, 12301(a), 12301(d), 12301(g), 
        12302, or 12304 of title 10 or section 712 of title 14.
          (C) In the case of a member of the Army National Guard of the 
        United States or Air National Guard of the United States, in 
        addition to service described in subparagraph (B), full-time 
        service--
                  (i) in the National Guard of a State for the purpose 
                of organizing, administering, recruiting, instructing, 
                or training the National Guard; or
                  (ii) in the National Guard under section 502(f) of 
                title 32 when authorized by the President or the 
                Secretary of Defense for the purpose of responding to a 
                national emergency declared by the President and 
                supported by Federal funds.
    Section 3312:
    (a) In General.--
    Subject to section 3695 and except as provided in subsections (b) 
and (c), an individual entitled to educational assistance under this 
chapter is entitled to a number of months of educational assistance 
under section 3313 equal to 36 months.
    (b) Continuing Receipt.--The receipt of educational assistance 
under section 3313 by an individual entitled to educational assistance 
under this chapter is subject to the provisions of section 3321(b)(2).
    (c) Discontinuation of Education for Active Duty.--
          (1) In general.--Any payment of educational assistance 
        described in paragraph (2) shall not--
                  (A) be charged against any entitlement to educational 
                assistance of the individual concerned under this 
                chapter; or
                  (B) be counted against the aggregate period for which 
                section 3695 limits the individual's receipt of 
                educational assistance under this chapter.
          (2) Description of payment of educational assistance.--
        Subject to paragraph (3), the payment of educational assistance 
        described in this paragraph is the payment of such assistance 
        to an individual for pursuit of a course or courses under this 
        chapter if the Secretary finds that the individual--
                  (A)
                          (i) in the case of an individual not serving 
                        on active duty, had to discontinue such course 
                        pursuit as a result of being called or ordered 
                        to serve on active duty under section 688, 
                        12301(a), 12301(d), 12301(g), 12302, or 12304 
                        of title 10; or
                          (ii) in the case of an individual serving on 
                        active duty, had to discontinue such course 
                        pursuit as a result of being ordered to a new 
                        duty location or assignment or to perform an 
                        increased amount of work; and
                  (B) failed to receive credit or lost training time 
                toward completion of the individual's approved 
                education, professional, or vocational objective as a 
                result of having to discontinue, as described in 
                subparagraph (A), the individual's course pursuit.
    (3) Period for which payment not charged.--The period for which, by 
reason of this subsection, educational assistance is not charged 
against entitlement or counted toward the applicable aggregate period 
under section 3695 of this title shall not exceed the portion of the 
period of enrollment in the course or courses from which the individual 
failed to receive credit or with respect to which the individual lost 
training time, as determined under paragraph (2)(B).
    Reason: 38 USC 3301 does not list 10 USC 12304b as an authorized 
order to service in the definition of ``active duty''. Also 38 USC 
3312(c)(2)(A)(ii) does not list 10 USC 12304b as an authorized order to 
service that would cause the member to have to discontinue education in 
which the service member is using educational assistance.
    Budget Implications (per ULB submission): The Department of Defense 
(DoD) has no responsibility for funding of the basic benefits of the 
Post-9/11 GI Bill. Costs for the Post-9/11 GI Bill are borne by the 
Department of Veterans Affairs, under the provisions of section 3324(b) 
of title 38, which states, ``Payments for entitlement to educational 
assistance earned under this chapter shall be made from funds 
appropriated to, or otherwise made available to, the Department for the 
payment of readjustment benefits.'' While DoD has estimates regarding 
the number of personnel affected and cost to carry out this proposal, 
there is no budget implication to DoD.
    5. Benefit: Extension of Eligibility for Vocational Rehabilitation 
Benefits.
    Description: 38 USC 3103(f).
    (f) In any case in which the Secretary has determined that a 
veteran was prevented from participating in a vocational rehabilitation 
program under this chapter within the period of eligibility otherwise 
prescribed in this section as a result of being ordered to serve on 
active duty under section 688, 12301(a), 12301(d), 12301(g), 12302, or 
12304, of title 10, such period of eligibility shall not run for the 
period of such active duty service plus four months.
    Reason: 38 USC 3103(f) does not list 10 USC 12304b as an authorized 
order to service for the purpose of extending the eligibility for 
Vocational Rehabilitation benefits.
    Budget Implications (per ULB submission): The VA finds the 
Vocational Rehabilitation benefit at no cost to DoD. This benefit is 
elective. Veterans who have elected to use this benefit should be 
expected to use the benefit whether their period of eligibility is 
extended or not.
    6. Benefit: Voluntary Separation Pay.
    Description: 10 USC 1175a.
    (j) Repayment for Members Who Return to Active Duty.--
    (1) Except as provided in paragraphs (2) and (3), a member of the 
armed forces who, after having received all or part of voluntary 
separation pay under this section, returns to active duty shall have 
deducted from each payment of basic pay, in such schedule of monthly 
installments as the Secretary concerned shall specify, until the total 
amount deducted from such basic pay equals the total amount of 
voluntary separation pay received.
    (2) Members who are involuntarily recalled to active duty or full-
time National Guard duty in accordance with section 12301(a), 12301(b), 
12301(g), 12302, 12303, or 12304 of this title or section 502)(f)(1) of 
title 32 shall not be subject to this subsection.
    (3) Members who are recalled or perform active duty or full-time 
National Guard duty in accordance with section 101(d)(1), 101(d)(2), 
101(d)(5), 12301(d) (insofar as the period served is less than 180 
consecutive days with the consent of the member), 12319, or 12503 of 
this title, or section 114, 115, or 502(f)(2) of title 32 (insofar as 
the period served is less than 180 consecutive days with consent of the 
member), shall not be subject to this subsection.
    (4) The Secretary of Defense may waive, in whole or in part, 
repayment required under paragraph (1) if the Secretary determines that 
recovery would be against equity and good conscience or would be 
contrary to the best interests of the United States. The authority in 
this paragraph may be delegated only to the Undersecretary of Defense 
for Personnel and Readiness and the Principal Deputy Undersecretary of 
Defense for Personnel and Readiness.
    Reason: The involuntary mobilization authorities under section 
12304a and 12304b were added to title 10 by sections 515 and 516 of the 
National Defense Authorization Act for Fiscal Year 2012 (NDAA for 
FY12). The NDAA for FY12 did not make a conforming amendment to the 
list of involuntary mobilization authorities in section 1175a to 
include 12304a and 12304b.
    Budget Implications (per ULB submission): The Services will not 
budget for the addition of 10 U.S.C. 12304a or 10 U.S.C. 12304b to 10 
U.S.C. 1175a. If 12304a and 12304b are added to the list of involuntary 
authorities, a potential future recoupment may not be realized. 
However, such a recoupment is not part of budget planning and 
therefore, this proposal does not have budget implications. Since most 
of the personnel who received VSP are in the IRR, the actual number 
involuntarily mobilized under this authority, and therefore who will be 
affected by this proposal, is a much smaller subset that DOD cannot 
currently identify.
    General Talley. The 12304(b) authority involuntarily mobilizes 
Reserve Component (RC) Soldiers to active duty to augment Active 
Component forces in the execution of preplanned missions in support of 
Combatant Commands. Section 12304(b) excludes many of the benefits 
afforded to Soldiers under other mobilization authorities, such as 
12301a, 12302, and 12304. The following list highlights some of the 
disparities:
    (1) Early Eligibility for Health Care. Title 10 USC 1074 (d)--
Unlike RC Soldiers mobilized under 12301(a), 12302, and 12304, those 
mobilized under 12304(b) are not authorized to receive early 
eligibility for health care if the order does not specify support to a 
contingency operation.
    (2) Post 9/11 GI Bill. Title 38 USC 3301--Unlike RC Soldiers 
mobilized under 12301a, 12302, and 12304, those mobilized under 12304b 
are ineligible for the Post 9/11 GI Bill.
    (3) Federal Civilian Differential Pay. Title 5 USC 5538--Unlike RC 
federal civilians mobilized under 12301(a), 12302, and 12304, those 
mobilized under 12304(b) are not authorized to receive Federal Civilian 
Differential pay.
    (4) TRICARE Assistance Management Program (TAMP) Transitional 
Health Care. Title 10 USC 1145--Unlike RC Soldiers mobilized under 
12301(a), 12302, and 12304, those mobilized under 12304(b) are not 
authorized to receive 180 days of transitional health care.
    (5) Voluntary Separation Recoupment Protection. Title 10 USC 
1175a--Unlike RC Soldiers mobilized for at least six months under 
12301(a), (b), (g); 12302; 12303; 12304, or 32 U.S.C. 502(f)(1), those 
mobilized under 12304(b) are subject to recoupment of a pro-rated 
portion of their Voluntary Separation Pay.

                        TOTAL FORCE INTEGRATION

    Ms. Kaptur. Then, in terms of total force integration, I 
wanted to ask, outside the district I represent is the 180th 
Fighter Wing, and for the first time in its history has an 
Active-Duty command officer. By all accounts it is going very 
well. But I want to ensure that our National Guardsmen are 
getting the opportunities they deserve. And so I am wondering 
if you could tell us how many Active-Duty commands are filled 
by National Guard officers and what is the timetable for 
integrating more of these positions across both the Army and 
the Air Force.

                     INNOVATIVE READINESS TRAINING

    And then my second question deals with innovative readiness 
training. Both the National Guard and Reserves have many assets 
that could be put to use in our local communities on local 
projects and at the same time provide valuable training. Youth 
Challenge comes to mind in particular. But it seems to take an 
awful long time to get any kind of approval from the Secretary 
of Defense.
    What can be done to delegate the approval for these 
projects to the State level or to speed up the timeline at the 
national level to ensure that the communities most in need and 
the missions most beneficial to unit training are approved in a 
timely manner?
    So, first, on the total force integration, the integration 
of the Guard in the Active Duty, and then, secondly, innovative 
readiness training.
    General Grass. Congresswoman, if I could, in January I was 
visiting Guam for a ribbon-cutting ceremony on a new facility. 
And while I was there, I ran into the 180th Wing. The squadron 
was there supporting PACOM and Air Forces Pacific, an 
outstanding unit commanded by an Active-Duty colonel who will 
be coming out of command here shortly.
    General Neal can give you a little more detail of our plan 
way ahead because General Welsh wants to go ahead and offer an 
Active command to a Guard officer now.
    General Neal. Congresswoman, currently there are no Air 
Guard commanders of an Active-Duty wing. There will be an 
announcement imminently by General Welsh of an Air National 
Guard colonel who was selected to command an Active-Duty wing. 
But I don't want to get ahead of the chief of staff of the Air 
Force. So it is imminent.
    Mr. Frelinghuysen. You are on television. So go right 
ahead.
    General Neal. You probably heard they already announced--
well, I think General Welsh said the same thing earlier in the 
month. Just that the Air Force Reserve is going to command an 
Active-Duty wing also.
    As far as your IRT, innovation readiness training, what we 
are doing is two things. One, inadvertently, when we did the 
DODI, we reported on it, we left out a line that should have 
said basically that it applies to the Title 32--to the National 
Guard. We are going back to correct that. We anticipate in the 
next 4 to 6 weeks we will have that corrected. Therefore, 
unfunded, when you don't need funds--and I know General Bartman 
and I have talked about that extensively--when you don't need 
funding for those projects, it will be a very quick 
coordination process.
    The IRT training that takes right now, what, could take 2 
years, because of a lot of the environmental stuff, we are 
working on a process that will cut that down to 90 days. So, 
hopefully, with any amount of luck, within the next 60 days, 
you will have a process on both funded and unfunded projects 
that will be very quick and you no longer have to wait a year 
or 2 for all this. So that is what we are trying to do.
    Ms. Kaptur. That would be a big help.
    General Talley. So, ma'am, there was a lot packed in your 
questions. And so thank you for that.
    But, Congresswoman, the first thing I would say, there are 
lots of different mobilization authorities. And so the bottom 
line upfront is, hey, when a soldier, a citizen soldier gets 
mobilized, shouldn't they have the same benefits? You shouldn't 
find out after the fact that you didn't quite get the same 
deal. So I am going to hand this to you, but I will come back 
for the record. This is a very good summary of everything you 
just asked on one slide for you. And we have to fix this.
    Ms. Kaptur. Thank you.
    General Talley. You are welcome, ma'am.
    And switching over, break to the second question, the Army 
Reserve does innovative training all the time. We don't have a 
problem getting it approved and getting the authorities. We do 
MedRed missions all over the world since we own most of the 
doctors and nurses. We just did a big medical support in 
southern Missouri. I think I got asked at the Senate last week 
about what we were doing. We just did something with the Indian 
reservation, Native American reservation in Montana.
    I can give you for the record, we will send you a list of 
all the examples we are doing. We have no problem getting 
authority and approval for that. It is just good old title 
training.
    [The information follows:]

    Congresswoman Kaptur. Thank you for your interest in Innovative 
Readiness Training missions. Below is a list of projects scheduled for 
the USAR for FY15-FY17.
    FY15 IRT Projects Overview
    (AC, AR) West Black Belt Medical--ARMEDCOM provided medical care 
for an underserved population of 30,000 in the Selma, Camden, and 
Demopolis, Alabama areas.
    (AC, AR) Medical--The project provided METL training for an 
ARMEDCOM unit while delivering medical care for an underserved 
population of 40,000 in the Sikeston, Kennett, Dexter, and Malden areas 
of Missouri. The United States Navy Reserve participated as a 
supporting service.
    (AR) Fort Belknap--ARMEDCOM provided medical care to a Native 
American population of 5,200 in the Fort Belknap, Montana area.
    (AC, AR) Fort Thompson--ARMEDCOM provided medical care to a Native 
American population of 6,500 in the Fort Thompson, South Dakota area.
    (AC, AR) Meigs County Medical--ARMEDCOM provided medical care to an 
underserved population of 25,000 in the Athens area of Pomeroy and 
Meigs County in Ohio. The United States Marine Corps Reserve 
participated as a supporting service.
    (AR) Northern Cheyenne--807th Medical Command served a Native 
American population of 5,000 in the Lame Deer, Montana area.
    (AR) Chenango County--3rd Medical Command provided medical care to 
an underserved population of 280,000 in the Binghamton area of New 
York. The United States Navy Reserve participated as a supporting 
service.
    (AR) Turtle Mountain--807th Medical Command provided medical care 
for a population of 8,600 in the Belcourt and Dunseith, North Dakota 
area.
    (AC, AR) Fort Washakie--807th Medical Command provided medical care 
to a Native American population of 3,500 in the Lander and Riverton 
area of Wyoming.
    (AR) Old Harbor Engineer--The project provided horizontal METL 
training opportunity for the 9th MSC to improve environmental 
conditions by extending a road for a distance of 5,720 feet which is a 
little more than one mile. This prepared the area for a fish plant by 
bringing it up to FAA safety standards.
    FY16 IRT Projects Overview
    (AC) Arctic Care Medical IRT--I Corps will provide veterinary 
services for an underserved population of 790 in Kodiak Island Borough, 
Alaska. Kodiak Island Borough, Alaska is designated as a Health 
Services Professional Shortage Area (HPSA).
    (AR) Chenango County Medical IRT--3rd Medical Command Deployment 
Support (MCDS) will provide medical care for an underserved population 
of 102,000 in Chenango County, New York.
    (AR) Fort Belknap Medical IRT--ARMEDCOM will provide medical 
services to a Native American population of 5,200 in the Fort Belknap, 
Montana area.
    (AR, AC) Fort Peck Medical IRT--ARMEDCOM will provide medical 
services to a Native American population of 4,200 in the Billings, MT 
area.
    (AR) Fort Thompson Medical IRT--ARMEDCOM will provide medical 
services to a Native American population of 6,500 in the Fort Thompson, 
South Dakota area.
    (AR, AC) Greyhound Medical IRT--3rd Medical Command Deployment 
Support (MCDS) will support an underserved population of 26,000 in the 
West Memphis, Arkansas area.
    (AR) Lone Star Medical IRT--3rd Medical Command Deployment Support 
(MCDS) is leading a medical project for a population of 1.6 million in 
the Brownsville, Hebbronville, Laredo, Mission, Pharr, Raymondville and 
Rio Grande City, TX area.
    (AR) Old Harbor Engineer IRT--9th Mission Support Command (MSC) is 
supporting a horizontal METL training opportunity to improve 
environmental conditions by extending a road for a distance of 5,720 
feet which is a little more than one mile. This will prepare the area 
for a fish plant and bring it up to FAA safety standards.
    (AR) Sequoia Riverlands Engineer IRT--416th TEC is leading a 
vertical METL training opportunity to construct an outdoor, stand-alone 
sanitary restroom building for public use in the Kaweah Oaks Preserve, 
Exeter, and Ca area.
    (AR) South Mississippi Medical IRT--3rd Medical Command Deployment 
Support (MCDS) will provide medical care for an underserved population 
of 29,000 in the McComb and Natchez, Mississippi area.
    (AR, AC) Tropic Care Big Island Medical IRT Project--9th Mission 
Support Command (MSC) will provide medical care for an underserved 
population of 32,000 in the Kau and Puna District of Hawaii.
    FYI7 IRT Projects Overview (The projects listed below are 
tentative)
    (AR) Tropic Care-Kauai Medical IRT--3rd Medical Command Deployment 
Support (MCDS) is planning to lead a medical project in Lihue, Hawaii. 
The following expertise/services are being requested by the community: 
General Dentistry, Oral Surgery, Hygienist, Family Practice, 
Internists, Physician Assistant's, Nurse Practitioner, Physical 
Therapist, Nutritionists, Behavior health, Optometry, Eye glasses, 
Veterinary, and CPR certification.
    (AR) Round Valley Indian Health Center Medical IRT--ARMEDCOM is 
planning to lead a medical project in Covelo, California. The following 
expertise/services are being requested by the community: Dentist, Oral 
Surgery, Family Practice, Ob-Gyn.
    (AR) Fort Belknap Medical IRT--ARMEDCOM is planning to lead a 
medical project in Harlem, Montana. The following expertise's/services 
are being requested by the community: Dentist, Hygienist, Family 
Practice, Internists, Rheumatology, Physical Therapist, Nutritionists, 
Behavior Health, Optometry, Eye glasses, Veterinary.
    (AR) Fort Peck Medical IRT--ARMEDCOM is planning to lead a medical 
project in Poplar, MT. The following expertise/services are being 
requested by the community: Dental Hygienist, Ob-Gyn (Well-woman 
exams), Screenings (Physicals).
    (AR) Rosebud EMS Medical IRT--ARMEDCOM is planning to lead a 
medical project in Rosebud, South Dakota. The following expertise/
services are being requested by the community: Dentist, Hygienist, 
Endocrine, Family Practice, Pediatrician, Nurse Practitioner's, 
Internists, Rheumatology, Physical Therapist, Nutritionists, Behavior 
Health, Optometry, Eye glasses, Veterinary, Dermatology.
    (AR) Fort Thompson Medical IRT--ARMEDCOM is planning to lead a 
medical project in Ft. Thompson, South Dakota. The following expertise/
services are being requested by the community: Dentistry, Hygienist, 
Family practice, Pediatrician, Internists, RN, Pharmacy, Rheumatology, 
Ob-Gyn, Physician Assistant's, Nurse Practitioner's, Physical 
Therapists, Nutritionists, Behavior health, Optometry, Eye glasses, 
Veterinary, CPR certification, Drug demand reduction, Medics.
    (AR) Swain County Health Medical IRT--3rd Medical Command 
Deployment Support (MCDS) is planning to lead a medical Project in 
Bryson City, North Carolina. The following expertise/services are being 
requested by the community: General dentistry, Family Practice, 
Behavior health, Optometry, Eye glasses, Veterinary.
    (AR) Saint Mary's Health Wagon Medical IRT--3rd Medical Command 
Deployment Support (MCDS) is planning to lead a medical Project in 
Wise, Virginia. The following expertise/services are being requested by 
the community: Dentistry, Oral surgery, Periodontist, Hygienist, Family 
Practice, Colonoscopy, Colposcopy, Rheumatology, Ob-Gyn, Physical 
Therapist, Nutritionists, Behavior Health, Optometry, Eye glasses, 
Veterinary.
    (AR) Lonestar Medical IRT--3rd Medical Command Deployment Support 
(MCDS) is planning to lead a medical Project in Harlington, Texas. The 
following expertise/services are being requested by the community: 
Dentistry, Hygienist, Family practice, Physician Assistants, Nurse 
Practitioners, Nutritionists, Behavior health, Optometry and CPR 
certification.
    (AR) Ozark Highlands Medical IRT--3rd Medical Command Deployment 
Support (MCDS) is planning to lead a medical Project in the following 
communities: Mountain Home, Marshall, Norfork, and Yellville, Arkansas. 
The following expertise/services are being requested by the community: 
Dentistry, Medical, Optometry, Veterinary, and Behavioral Health.
    (AR) Blackfeet Nation Park Engineer IRT--416th Theater Engineer 
Command (TEC) is planning to lead an engineer project that will consist 
of vertical/horizontal Construction, grading, and improving road access 
in Browning, Montana. The following expertise/services are being 
requested by the community: Project Management, Truck drivers, and 
Heavy Equipment Operators.
    (AR) YMCA of the Rockies Engineer IRT--416th Theater Engineer 
Command (TEC) is planning to lead an engineer project that will consist 
of Camp Expansion; culvert, utilities, trail, cabin deck replacements, 
shade shelters, surveying, bathhouse remodel, parking lot lighting, 
road improvements and construction storage facilities in Granby, 
Colorado. The following expertise/services are being requested by the 
community: Electricians, Plumbers, Carpenters, Heavy Equipment 
operators, Project mgmt., Truck drivers and Maintenance facility.
    (AR) City of Montrose Engineer IRT--416th Theater Engineer Command 
(TEC) is planning to lead an engineer project that will consist of Mass 
grading of a regional park that is 40k cubic yards in Montrose, 
Montana. The following expertise/services are being requested by the 
community: Project management, Truck drivers and Heavy Equipment 
operators.
    (AR) Texas A&M-Construction Engineer IRT--416th Theater Engineer 
Command (TEC) is planning to lead an engineer project that will consist 
of restoring infrastructures to economically distressed communities; 
roads, drainage, sewage electricity/internet connectivity in San 
Antonio, Texas. The following expertise/services are being requested by 
the community: Civil Engineers, Project management, Water purification 
and Electricians.

    Ms. Kaptur. All right.
    You know, Mr. Chairman, I just wanted to say something. I 
am glad this is being broadcast. This is an example, this 
committee, of Congress working well, but it doesn't get enough 
publicity. The publicity that goes out there is so negative and 
very destructive to our country, in my opinion. I want to thank 
you and I want to thank the ranking member for bringing us 
together as a committee and conducting the business of the 
country. I am proud to serve on this committee, and I am proud 
of each of you gentlemen and the forces you lead.
    Mr. Frelinghuysen. Well, we have some excellent substantive 
witnesses. So we appreciate their input and contribution.
    Judge Carter.

                       ADEQUATE TRAINING FUNDING

    Mr. Carter. This may be just me speculating, but on this 
multicomponent pilot program, getting back to that one more 
time, it takes--it has been told me, at least--it takes 90 to 
100 days to stand up a unit, training days to stand up a unit 
to be deployed, something like that. This would probably 
increase more training days on top of those training days that 
in many instances you are being called upon to do.
    Do we have the funds to do the additional training that 
this might call upon us to do? And what does it do to the 
citizen soldier concept of the guy back home or gal back home 
that has got a job? As we shift them to that, is that going to 
put more of a burden upon their employment situation back home 
or is it worked out and not a problem? I just don't know the 
answer.
    General Grass. Congressman, if I could start. As I do my 
townhalls, I ask the question: Are we using the Guard too much? 
Just got a report out from a survey that was done by our 
company grades Army and Air. Ninety-two percent said it is 
either about right or they would like to deploy more. The 
younger ones that haven't deployed are looking for a 
deployment.
    So from that perspective there are men and women in the 
Guard, and I am sure Jeff would tell you in the Reserve as 
well, that want to deploy. The associations will probably give 
us more opportunities. But we cannot break our model of 39 days 
a year as far as the baseline. And I hear that from the 
townhalls. The men and women that serve are concerned if we say 
the number is greater than what it has been in the past, a 
weekend a month, 2 weeks in the summer, that their employers 
and their families would get concerned if we made that 
statement.
    But what we find is there is probably well over 80 percent 
of the Guard that is doing more than that time right now. But 
they know that they are working for a National Training Center 
rotation or they are going down to an external combat training 
center rotation for the following. They know they have to hit 
concern gates in training. And they are willing to do that all 
day long.
    We have a unit that just is getting ready to deploy with 
the 101st Airborne through a training association. They know 
they had to put in extra days to get ready to go. So as long as 
they know their mission, they know that this is going to make 
them more ready, and the family and employers seem to be very 
comfortable with that.

                            BORDER SECURITY

    Mr. Carter. Because we don't want to lose these good 
people. We want to keep them.
    And this is a completely off-the-wall question, but this 
morning in Belgium when this disaster hit, they announced that 
the Army immediately sealed the borders. I guess the Guard's 
job would be to seal the borders if we had to do that. Just the 
question: Is that right? And is there some plan if our 
government said major terrorist attack, either seal the State 
borders or seal national borders, the Guard would go do that?
    General Grass. Congressman, we could. Again, that would be 
up to each State individually. But there was an operation 
called Winter Freeze right after 9/11, shortly after 9/11, and 
we put Guardsmen in a Federal status in support of Customs and 
Border Protection at the time, and they were in a Federal 
status, though, when they went to the border. But in most 
cases, as we went into the airports after 9/11, those were 
Federal dollars paying for men and women who worked for the 
governor and the adjutant general.
    Mr. Carter. Okay. That is what I assumed.
    Mr. Frelinghuysen. Thank you, Judge Carter.
    The other bookend of the Army Caucus, the gentleman from 
Maryland.
    Mr. Ruppersberger. Bookends? I have never been called a 
bookend before. Is that a good one or a bad one?
    Mr. Frelinghuysen. You are a giant.

                              CYBER FORCE

    Mr. Ruppersberger. A giant. Okay.
    Hey, brother. How are you doing? Good. Okay.
    All right. Thank you all for being here, what you do, and 
we really appreciate all that your troops do for us both in the 
wars that we are dealing with and also at home. And we have a 
lot of respect.
    Since 1993, I am going to get a little parochial here, but 
the Maryland National Guard and the Republic of Estonia have 
experienced a close and fruitful relationship through the 
National Guard State Partnership Program. And as a result of 
this program, the Maryland National Guard has provided many 
years of support to assist in the development of Estonia's 
cyber defense program, and Estonia is now recognized as a 
leader of cyber defense within NATO.
    I had to go to Russia in November, and I stopped at Estonia 
and Latvia. And so I was able to see and hear really what 
Estonia would tell us about how satisfied they were about the 
National Guard and the cyber programs.
    My question would be--and I am not sure who, General Grass 
or Neal or whatever, Talley--is how can the National Guard 
capitalize on the experience contained within the Maryland 
National Guard and the Air National Guard as a whole to assist 
in the development and training pipeline for tomorrow's cyber 
warriors?
    General Grass. Congressman, let me first say that Maryland, 
that partnership has led the way to a point now where I believe 
they actually have two universities in Estonia, one in 
Maryland, that have partnered on a cyber master's program. It 
started from the partnership, but it is handled separately 
within the two governments.
    I will ask General Neal to talk about the great work of the 
175th, what they are doing there in cyber, because it is one of 
our leading Air Guard units.
    Mr. Ruppersberger. Where are you from, General Neal?
    General Neal. Congressman, you know I am a proud Maryland 
Guardsman. So thank you.
    Mr. Ruppersberger. Okay.
    General Neal. And of course it is good to see you again, 
sir.
    So we do have a pretty robust cyber force, cyber squadrons, 
cyber groups in Maryland, and they have hooked up with Estonia. 
And what they are doing now is they are doing joint cyber 
training and joint cyber exercises. So it is very robust right 
now, because, as you know, over there in Estonia they have the 
NATO Cyber Center of Excellence. And they are actually talking 
about maybe setting up a cyber center of excellence over here 
in Maryland.
    So that is how they are capturing it. And we hope to export 
that to other States, obviously under the auspices of General 
Grass and the entire SPP program. But it is a great program to 
show what can be done.

                         MARYLAND GUARD--CYBER

    Mr. Ruppersberger. Why do you think that the Maryland 
National Guard has done so well in developing this 
relationship, number one? And secondly, in the expertise?
    General Neal. Well, sir, I don't think it is just cyber. 
You know, when I was up at the 135th, we would take doctors 
over there, we would take civil engineers over there and do 
projects. So it is a pretty robust SPP, State Partnership 
Program. And we have done a lot of countries and a lot of 
States. And I think the growing trust, and everybody recognized 
suddenly that they looked up one day and said: Wow, you have 
got a log of cyber stuff in Estonia, we have a lot of cyber 
stuff in Maryland, it just makes natural sense. And the trust 
was already built.
    Mr. Ruppersberger. Okay. That is it. Thank you.
    Mr. Frelinghuysen. Mr. Womack.
    Thank you, Mr. Ruppersberger.

                     ISR AND THE RESERVE COMPONENT

    Mr. Womack. Thank you again, Mr. Chairman.
    In the brief time that I have remaining, I just want to 
offer my sincere congratulations and admiration to General 
Grass for his longstanding service to the National Guard of 
this country, and certainly as the Chief of the National Guard 
Bureau and a member of the Joint Chiefs.
    And, General Grass, and to your wife Pat, thank you so much 
for your service to our country. It has been a real honor to be 
around you here during these hearings. And I want to thank you.
    And I would be remiss if I didn't acknowledge Jeff Talley 
too. What a tremendous representative of the Army Reserve you 
have been. And I wish you very well in your future. And it has 
been a great honor serving with you here as well too. So thank 
you so much.
    For these other two guys, they are probably going to hang 
around a little longer, and they will get our wrath a little 
bit more.
    Couple of real quick questions, Mr. Chairman, if you don't 
mind.
    First of all, ISR and the Reserve Component, our committee 
has heard so much from our Army and Air Force guys about the 
need for more ISR. Just can't get enough ISR. So I throw that 
out on the table for you--and, General Neal, you may want to 
take the lead on this--about the capacity for our Reserve 
Component forces. And I have some in my district, as a matter 
of disclosure, that are training toward that mission set. So 
explain to me where we are and what more we can do.
    General Neal. Well, for ISR, of course, that is a broad 
spectrum, Congressman. But when we will talk about remotely 
piloted aircraft, I think everybody kind of understands that is 
basic ISR. But right now the Air Force has agreed to do 60 
lines, 60 combat lines of flying around the world in support of 
the combatant commanders. And out of those 60 lines, the Air 
National Guard is doing 14. As you know, we are doing one out 
of Fort Smith. And that is a surge. And to do anything in surge 
or do anything of that magnitude it takes people, it takes 
equipment, and it takes training. And it doesn't just take 
training day-to-day, it takes the initial pipeline training.
    We have the ability to expand beyond that. In other words, 
we have the main documents built. We have in theory the ability 
to go beyond that at our soon-to-be 12 RPA fully qualified or 
fully established RPA units. But to do that we need a bigger 
pipeline for the Active Duty. So Active Duty has to grow and 
get their formal training schools or initial training schools 
better. We have to grow in manpower to fill out all the 
organizations. And then, quite frankly, we need the money to be 
able to pay everybody.

                        PILOT AND AIRLINE NEEDS

    Mr. Womack. The last question I have, also kind of relative 
to the Air Force, very relative to the Air Force, is my 
understanding is the airlines have an enormous need for new 
pilots. That has to have an impact on big Air Force. And so 
help me understand the cascading effect of what the airlines 
are doing and how it affects our men in blue suits.
    General Neal. Congressman, that is a concern for the Air 
Force and a concern for us. I think the concerns are slightly 
different. The Air Force either has a pilot or doesn't have a 
pilot. So it does not have an airline pilot, it has a military 
pilot. We have military pilots and we have airline pilots.
    So for them, their concern is retaining them. And if you 
follow the papers or you look at the pay scales, they are 
pretty high right now in the airlines. I mean, airlines are 
making billions of dollars right now. So their concern is 
retaining pilots.
    We still get some people coming out of the Air Force. Our 
biggest concern is, at least mine, and I may be optimistic, is 
not retaining pilots, it is retaining the full-time pilots. We 
just don't pay enough to retain. Like technicians. We talked 
about technicians earlier, Congressman, and they don't make 
enough compared to the airlines. So my problem is full-time 
pilots.
    We are working with the airlines, the Air Force is working 
with the airlines to see if we can have some kind of program 
that allows them to maybe do a short term of full-time stuff 
and the rest of the year maybe in the airlines. So the airlines 
are very open to working with us in the military, but I am 
optimistic that we will always be able to recruit and retain 
traditional drill status Guardsman pilots in the Air Guard. But 
the full time is a challenge.
    Mr. Womack. One more 30-second question, if you don't mind, 
Mr. Chairman.
    On that Title 5 swap we were talking about a minute ago 
with my friend from Indiana, in the workup to the NDAA, General 
Grass, were you guys consulted on the 20 percent moving over 
to--the flip that took place? Because it seems to me, and 
memory is little bit fuzzy here, that that kind of happened. It 
was written into the bill, became the law, and without a lot of 
input. So help me understand how that unfolded.
    General Grass. Congressman, over the years there have been 
a number of questions brought up about this force. But I was 
not consulted before the NDAA was published.
    Mr. Womack. That is regretful.
    I yield back.
    Mr. Frelinghuysen. Indeed it is.
    Ms. McCollum.

                            EMPLOYER FATIGUE

    Ms. McCollum. Thank you, Mr. Chair.
    I think I am going to add to what my colleague Mr. Womack 
said, and then ask a question, and I think it all goes 
together.
    U.S. Park Service is having a hard time with pilots and 
mechanics. U.S. Forest Service has as well. I was up in 
International Falls. They are recruiting our pilots up there. 
It is a real problem with our pay scale, both for mechanics and 
pilots.
    So something that no one really wants to talk about on the 
record is employer fatigue. Employers don't want to talk about 
it. My Guardsmen and Reserve men and women don't want to talk 
about it. Nobody wants to go on the record saying it is a 
problem or that they are starting to hear from their employers. 
But that is going to affect retention and recruitment.
    Employer fatigue. How are we addressing that? Because I 
actually spoke to one employer. Just loves the fact that for 
years and years he has stood up and stood with the--I won't say 
which branch even. I don't want to identify this individual at 
all. It is starting to affect their bottom line. And the 
employees are starting to see, as pay goes up, it affects their 
bottom line in their household income.
    So employer fatigue and what is going on with private 
sector pay. What are we doing to address that? Are you having 
conversations with folks about it?
    General Neal. Well, ma'am, from the Air Guard, since you 
brought up with pilots, that is an easier one. We have started 
to have those, as I mentioned before, with the airlines. There 
is some fatigue. It more becomes about having an understanding 
of what to expect. So I can't speak for other parts of the 
private sector we haven't really talked to. But if they have an 
expectation of when they can have these men and women that are 
pilots, it goes a long way to kind of keeping employer fatigue 
down.
    There is no doubt about it, we have been pretty busy for 15 
years, and we have asked a lot of our traditionals, traditional 
Guardsmen, we are 70 percent traditional, and we have asked 
them over and over again to leave their wives and their jobs. 
And then we ask them to come back, and then maybe we have a 
Sandy and we ask them to leave again when it is unplanned. But 
we find that giving them expectations and sticking to it goes a 
long way. So that is what we are working on now.
    We have not had a lot of outcry from the employers, at 
least at my level. I think you will find that most wing 
commanders, because we are wing based, they go out and try to 
talk to these employers when there is a problem, to help 
mitigate that. And like you say, most employers are very 
supportive, but the bottom line is the bottom line.
    So far we seem to be doing okay, but it is a concern of 
mine, that down the road as we go farther and farther down this 
road, and we have cyber, we have RPA, and we have pilots, all 
who pay very well on the civilian sector, and that is a real 
concern, ma'am.
    General Talley. So, ma'am, if it is okay, I would like to 
answer. Thank you for that question.
    So it is a problem. And I have been saying it is a 
challenge for the whole 4 years I have been in this position. 
And back when I was a major, troop program unit, juggling 
between what all of our reservists do, which is between family 
and professional civilian career and military career.
    The first thing we have to do is we have to have 
predictability--so that is one in five--and we have to stick to 
it. But then if we are trying to generate such high levels of 
readiness to the left of the mobilization date, that extra time 
is significant.
    And so one of the reasons I have--I would like to believe 
that two of the most important things I have done in 4 years, 
one is plan, prepare, provide, and how to generate readiness in 
the Army Reserve through that business model.
    The other is the Army Reserve Private Public Partnership. 
So what we have done is we have partnered with those private 
companies and we have given them predictability and we have 
shown them how we can help their bottom line through leverage 
and sharing of capability and resourcing in a way that they 
feel good. But one is we have got to give them the 
predictability, we have got to keep it at one in five, and we 
have to recognize, at least in the case of the Army Reserve, 
the only reason they are such a good surgeon or an engineer is 
because that is what they do in the private sector. If I lose 
that private sector support, your Army Reserve will not be able 
to be the technical experts that the Army and the joint forces 
expect.
    So I have put my eggs in the basket of Private Public 
Partnership. I had a meeting with Acting Secretary of the Army 
Murphy this morning and all we talked about was Private Public 
Partnership and what a great model that could be for the Army.
    So we need to do more. But we need one in five, keep it one 
in five. Remember we are a Reserve that is called on to be part 
of the operation force, not the reverse.
    Mr. Frelinghuysen. Do you want to further comment, clarity, 
and then Mr. Visclosky has some questions.
    General Grass. Congresswoman, if I could add, it is a 
concern, as Jeff said, and I think he laid it out very well. 
What we have seen, though, is that predictability is so 
important when we meet with employers. And I would tell you 
just personal experience that the Chairman of the Joint Chiefs 
is very concerned about it. And when he locks a unit in at 180 
days that they are going on a deployment, for anybody to mess 
with that, they have to come back to him and let him know why 
they are changing that rotation schedule, whether it is off 
ramping them because of a mission change. So we have got great 
commitment from within the Department of Defense.
    The other thing that we work very closely with is within 
the Department of Defense we have the Employer Support to Guard 
and Reserve Program. We recognize every year 15, and the 
Secretary of Defense recognizes 15 top employers.
    I think the stress comes more in the small business and 
private business owners. And I think in looking to the future, 
if there is a way we could help them in some way when we do hit 
a small town fairly heavy, because that is where it occurs.
    For the Army Guard and the Air Guard right now, our 
numbers, of course, on the Army Guard probably the lowest it 
has been in 15 years for deployments. So if we have the 
predictability and we have a soldier who has an issue with 
employment, we can work around that now to help them in some 
cases.
    General Kadavy. If I could just add a couple things, 
Congresswoman. Part of the reason why the associated unit is a 
pilot project is because these are one of the things that we 
need to understand when enough training and readiness starts to 
impact families and employers. So that is one of the things we 
will study.
    We are sending almost 6,000 soldiers to Europe to support 
ERI, and we are going to ask their employers and our soldiers 
and their families these exact same questions. Is a 29-day 
annual training to do an overseas deployment, what is the 
impact? So we are interested in that.
    We continue to communicate with our soldiers and with our 
leaders in the States. Adjutant generals have a very big play 
in it. So far they have told us that while there is strain, it 
isn't at a breaking point.
    And the last indicator I would say that I keep an eye on is 
our retention numbers. And thus far it isn't our retention that 
is our issue if we will make end strength or not. We are 
retaining well beyond our expected rates.
    Ms. McCollum. Thank you.
    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. That is why he is chairman.
    Mr. Frelinghuysen. I should have been aware of my 
surroundings. I apologize.

                       OPEN COMBAT JOBS TO WOMEN

    Mr. Visclosky. One question, if I could--thank you, Mr. 
Chairman--is I think because the Secretary of Defense in 
December ordered the military to open up all combat jobs to 
women, that we tend to forget 161 women have lost their lives 
in Afghanistan and Iraq and over 1,000 have been wounded. But 
given the directive in December for the Guard, what actions and 
efforts will you have to undertake to comply with the December 
directive as far as women being able to apply for all units?
    General Kadavy. Congressman, we will follow the Army's 
program and policy. One of the things that are unique to us is 
we have always said we take units to soldiers. And so there may 
be States that don't have combat arms organizations. And if you 
have a female that wants to serve in a combat arms 
organization, how do we get around that?
    So those are some of the challenges that we will be working 
through. We don't have the exact answers yet because of the way 
the Guard is organized is 54 different entities by the States, 
district, and the territories. But we are working through that. 
That will be one of the issues, I think, that in particular may 
impact the Army National Guard.
    General Grass. Congressman, if I could add, as a member of 
the Joint Chiefs, we discussed this topic quite frequently 
leading up to the decision. And one of the things we felt, that 
to make this successful we have to get women in some of the top 
jobs quickly so that they can see that there is a progression 
within the organization.
    I know that General Milley in our last discussions is 
already looking at finding women that are willing to transfer 
into these skill sets so that we can get them in the training 
pipeline, but not just at the entry level. If they are willing 
to transfer over as a field grade officer, as a company 
commander, that is what is going to make us successful. And of 
course on the general officer side as well.
    Mr. Visclosky. I thought about that.
    General Neal. And, Congressman, for the Air National Guard, 
we just echo the Air Force. We are recruiting now 100 percent, 
everything we do is open to women. And we will recruit them. If 
they want to apply, they go to school, and when they finish 
training they are fully qualified. So it will be a non-issue 
for us.
    General Talley. Not an issue for the Army Reserve. We are 
all enablers. So we already had women in all of our positions 
already. But we did get the third female ranger graduate was an 
engineer from the United States Army Reserve.
    Mr. Visclosky. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. On that very positive note, I would like 
to thank General Grass, wish you God speed, General Talley, for 
both of your years of incredible dedicated service to our 
Nation. And to General Neal and Kadavy, thank you very much for 
being here. We appreciate all you do. And please thank the men 
and women who stand behind you who do the work of freedom at 
home and abroad.
    We stand adjourned. Thank you.
    [Clerk's note.--Questions submitted by Mr. Calvert and the 
answers thereto follow:]

                             Compatibility

    Question. Given the current fiscally constrained environment, my 
concern is that the priority for newer and more capable equipment, such 
as communication equipment, is being fielded to the active duty Army 
while less capable equipment may be given to the Reserve forces. In 
addition to having certain units with equipment that is potentially 
less capable, it creates a compatibility issue between different units. 
This could ultimately lead to degradation in the active and reserve 
component's ability to fight as a unified team in a conflict or combat 
environment.
    What is being done to minimize or eliminate disparities in 
equipment between the active duty and reserve force?
    Answer. Thank you for this question Congressman. Due to fiscal 
constraints and budget uncertainty, equipment disparities will not be 
eliminated between active Army and Army Reserve forces. The unintended 
consequences of these fiscal realities significantly challenge efforts 
to minimize growing equipment disparities and the ability to sustain 
the Army Reserve in an operational role. The Chief of Army Reserve is 
not the appropriation sponsor for the equipment procurement budget. 
Resourcing Army Reserve equipment procurement is centrally managed by 
the Department of the Army. Efforts to close equipment modernization 
gaps include investment in modernization programs and cascading 
equipment.
    The primary method for minimizing disparities involves the Army 
Reserve partnering with the active Army in developing the President's 
Budget (P-1R) submission for procurement funding. In FY16, less than 3% 
of the Army's base budget for procurement and modernization was 
prioritized for investment in Army Reserve programs focused on 
logistics and enablers. Army Reserve equipment modernization should not 
be dependent on NGREA funding to compensate for resourcing disparities 
in the base budget.
    An economically viable method for filling modernization shortfalls 
is cascading active Army equipment as a substitute to compensate for 
restructured, delayed, and cancelled procurement programs. This method 
provides an interim solution at the risk of full compatibility.
    Because of resource constraints, today's Army is forced to 
prioritize combat system readiness ahead of modernization. 
Consequently, the Army Reserve will remain the least equipped and least 
modern Army component because we do not have Brigade Combat Teams. 
Establishing dedicated and sustained funding for logistical and enabler 
programs resident in the Army Reserve is crucial to improving readiness 
and restoring equipment compatibility between active Army and Army 
Reserve forces.

    [Clerk's note.--End of questions submitted by Mr. Calvert. 
Questions submitted by Mr. Cole and the answers thereto 
follow:]

    Question. I understand that for the National Guard the most cost 
effective way to train is at the Armory, (Homestation training.) But I 
understand that one issue with Armory-based training is that it is 
primarily limited to training individuals, not as a crew or to train 
collectively. With the critical equipping and modernization shortages 
being one of the Guard and Reserves greatest challenges:
    Can you explain how the use of Virtual Simulations Training can 
help impact that readiness at the individual, crew and collective 
level? Does your current training strategy include the use of simulated 
training for gunnery and maneuver training at the armory level?
    Answer. The ARNG uses Training Aids, Devices, Simulators and 
Simulations (TADSS) to augment the live-fire training strategy to build 
on and enhance the subsequent live-fire training event. TADSS focus on 
the fundamental engagement techniques for each weapon, system, or 
element for individual through company level training. TADSS can 
improve and/or sustain readiness by providing state-of-the-art training 
capabilities to enhance training realism. TADSS increase training 
realism by simulating or emulating red and blue forces, equipment, 
environments, and conditions. TADSS can stimulate digital command and 
control systems, increase the frequency of training, make training more 
available and enable multiple repetitions of tasks, events, and 
situations. They enable training that is otherwise too costly, too 
dangerous, or not possible due to safety implications or environmental 
restrictions. TADSS are used to improve training efficiency by reducing 
institutional (leader development) or unit (collective) training time, 
controlling costs by reducing the amount of time required on live 
training sites; reduce or offset training ammunition requirements and/
or operating tempo costs; eliminate or reduce the need for additional 
training land and other training support infrastructure; improve safety 
and reduce property and equipment wear and tear.
    The current Training Circular 3-20.0 Integrated Weapons Training 
Strategy, Specifies TADSS must be used for live-fire training during 
each of the four gates from Individual through Company/Troop/Team. 
Within each gate prerequisite Table II is designated specifically for 
simulations. Although not all simulators can be house/utilized at the 
armory most of ARNG TADSS are portable or mobile to allow the training 
to be brought the Soldier and not the Soldier to the training.
    Question. Can you tell explain the cost savings of doing 
Homestation training? Savings of travel and time for instance?
    Answer. AR 525-29 describes Home Station (HS) Training as the 
foundation and critical component in training on fundamental individual 
and collective skills. This foundation is built at home station through 
exercises such as field training exercises (FTX), staff exercises 
(STAFFEX) and command post exercises (CPX). In order to maximize the 
Combat Training Center (CTC) experience, commanders use home station 
training to ensure the highest possible capability levels prior to a 
CTC rotation. Home Station training reduces operational tempo (OPTEMPO) 
and travel costs to ARNG/FORSCOM training facilities, especially 
considering that not all states have ARNG/FORSCOM training facilities 
within its boundaries or within a reasonable travel distance. 
Considering the finite amount of training time scheduled for ARNG 
units, an increase in travel equates to less training time available or 
the use of additional Multiple Unit Training Assembly (MUTA). The 
efficiencies gained through training at home station maximizes 
resources across all COMPOs and informs future investment priorities 
for infrastructure growth while maintaining the core requirements of 
``State'' home station range live-fire requirements.
    Question. Is it possible to use current NGREA funds for crew 
training equipment that is based on a fee-for-service basis (or a 
lease) for a training period or is there an option that is available 
currently for TAGs to use crew training equipment without owning it? If 
not, would it be something you would look into as an option to save on 
training costs and to maintain readiness
    Answer. It is our understanding that NGREA funds cannot be used on 
a ``fee for service'' basis for a training period because these types 
of services are budgeted within the Army and the Air National Guard's 
Operation and Maintenance accounts. Based on our review, the Purpose 
Statute (31 U.S.C. 1301) would not allow our agency to use NGREA funds 
in this manner since the annual NDAA explains that NGREA is available 
for ``procurement of aircraft, missiles, tracked vehicles, ammunition, 
other weapons and other procurement for the reserve components.'' 
Leasing of equipment within DoD generally take two separate forms: (1) 
operating leases, and (2) capital leases. The DoD Financial Management 
Regulation prohibits the use of operating leases with procurement 
funding sources such as NGREA. A capital lease, which allows for 
incremental payments towards owning the equipment, may be a technical 
possibility, however, it in light of DoD's full funding policy and OMB 
A-11's ``scoring'' methodology for capital leases, all of the costs of 
the lease would need to be included in one FY of NGREA funding.
    Additionally, we note that a large portion of NGREA funds are 
placed on contracts that are awarded and administered by various 
external program offices. There is a shared responsibility between NOB 
and these program offices in terms of acquisition planning and finding 
the best value contracting method for NGREA requirements, to include 
examining the potential advantage of a capital lease. We are not 
opposed to looking into a capital leasing option in conjunction with 
the cognizant program office as appropriate.

    [Clerk's note.--End of questions submitted by Mr. Cole. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

                           Personnel Reforms

    Question. I would like a progress update on the integration of 
personnel systems to facilitate the continuum of service efforts. Are 
they resourced adequately? Are the Reserve and National Guard 
components adequately manned on a full-time basis to execute the tasks 
associated with implementation of those reforms? If not, where should 
funding be allocated to facilitate total army recommendations
    Answer. To date, the Integrated Personnel and Pay--Army (IPPS-A) 
Program Manager (PM) has been working to support all personnel and pay 
requirements of the Army National Guard (ARNG). The Director, Army 
National Guard (DARNG) is the lead partner for ensuring the successful 
development and fielding of IPPS-A. Our support spreads across the 54 
States and Territories, to include Washington, D.C. and we are 
integrated at the IPPS-A Functional Management Division (FMD)/PM 
levels. The ARNG has assigned full-time liaison officers (LNO) to the 
IPPS-A team to ensure functional needs for the ARNG are adequately 
included in IPPS-A. We have additional requirements for temporary 
manpower support through Active Duty Operational Support (ADOS) and 
Contractors who provide critical technical and legacy systems 
sustainment in an effort to provide the very best data for transition 
to IPPS-A. The temporary support must be funded through POM 18-22.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Kaptur and the answers thereto 
follow:]

                            12304b Rotations

    Question. During the Hearing, LTG Talley provided an excellent 
depiction (attached) of the benefits associated with mobilization under 
12304b compared to other titles.
    How much would it cost provide each of these benefits to our 
reservists? Who is the approval authority for authorizing these 
benefits?
    Answer. Reserve Servicemembers are not entitled to receive these 
benefits under existing law. As such, no one in the DoD has authority 
to approve these benefits.
    Question. Why were these benefits not included in the original 
creation of the 12304b mobilization?
    Answer. Congresswoman Kaptur, thank you for your question. The Army 
Reserve does not have knowledge of the benefits that were considered 
when 12304b was originally drafted. The Assistant Secretary of Defense 
for Reserve Affairs under the authority, direction, and control of the 
USD(P&R) develops and enforces implementing policy, programs, and 
guidance for the activation, mobilization, and demobilization of the 
Reserve Component personnel in accordance with Department of Defense 
Directive 5125.01.

                        Total Force Integration

    Question. During the hearing MG Neal said the announcement of a NG 
officer taking command of an Active Wing was imminent.
    Please provide date of the release, which command it will be, and 
name/location of the selected officer.
    Answer. An Air National Guard Colonel has been selected by the Air 
Force Colonels Management Office to take command of the 6th Air 
Mobility Wing at MacDill AFB, Florida in July 2016 for a period of two 
years. We anticipate the official announcement to occur shortly.
    Question. Please provide a full list of all NG and Reserve units 
commanded by an active component officer.
    Answer. 120 AW, Great Falls, MT; 180FW Toledo, OH; 190SOW 
Harrisburg, PA
    Question. Please provide the proposed integration plan and 
schedule.
    Answer. Air Force Reserve and Air National Guard members are 
currently present on Headquarters Air Force staffs, but their positions 
often are not fully integrated. The Air Force is currently working to 
develop a more fully integrated staff model, in which the workload 
distributed to Total Force positions will execute Total Force work. To 
ensure this outcome, statutory authorities and monetary funding codes 
must be analyzed for adequacy.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   
</pre></body></html>
